<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                  NORMAN D. DICKS, Washington, Chairman
 JAMES P. MORAN, Virginia           MICHAEL K. SIMPSON, Idaho
 ALAN B. MOLLOHAN, West Virginia    KEN CALVERT, California
 BEN CHANDLER, Kentucky             STEVEN C. LaTOURETTE, Ohio
 MAURICE D. HINCHEY, New York       TOM COLE, Oklahoma        
 JOHN W. OLVER, Massachusetts       
 ED PASTOR, Arizona                 
 DAVID E. PRICE, North Carolina     

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Delia Scott, Christopher Topik, Greg Knadle,
                     Julie Falkner, and Beth Houser
                            Staff Assistants

                                ________

                                 PART 7
                                                                   Page
 Witnesses--Native American Issues................................    1
 Witnesses--Other Issues..........................................  389

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                 Part 7

                                 Public

                               Witnesses

  INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2010

                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                  NORMAN D. DICKS, Washington, Chairman
 JAMES P. MORAN, Virginia           MICHAEL K. SIMPSON, Idaho
 ALAN B. MOLLOHAN, West Virginia    KEN CALVERT, California
 BEN CHANDLER, Kentucky             STEVEN C. LaTOURETTE, Ohio
 MAURICE D. HINCHEY, New York       TOM COLE, Oklahoma        
 JOHN W. OLVER, Massachusetts       
 ED PASTOR, Arizona                 
 DAVID E. PRICE, North Carolina     

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Delia Scott, Christopher Topik, Greg Knadle,
                     Julie Falkner, and Beth Houser
                            Staff Assistants

                                ________

                                 PART 7
                                                                   Page
 Witnesses--Native American Issues................................    1
 Witnesses--Other Issues..........................................  389

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 50-064                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New   
 JOSE E. SERRANO, New York          Jersey
 ROSA L. DeLAURO, Connecticut       TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia           ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts       TOM LATHAM, Iowa
 ED PASTOR, Arizona                 ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina     JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island   MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York       JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California  MARK STEVEN KIRK, Illinois
 SAM FARR, California               ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois    DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan    JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania         KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey      JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia    STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas             TOM COLE, Oklahoma             
 BARBARA LEE, California            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
                                    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2010


         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                         Wednesday, March 25, 2009.

                   PUBLIC WITNESSES--NATIVE AMERICANS

                       Mr. Dicks Opening Remarks

    Mr. Dicks. The committee will come to order.
    I want to welcome all of our witnesses this morning to the 
first of three days of public witness testimony. Today we will 
hear from citizens about issues affecting Native Americans in 
Indian Country. Tomorrow we will hear additional testimony from 
Native Americans, and in April we will hear from citizens 
testifying about other issues under the jurisdiction of the 
Interior and Environment Subcommittee. As members know, the 
right of the public to petition the committee is provided by 
the First Amendment of our Constitution, and I am glad to host 
the third year of public witness hearings as chairman of this 
subcommittee.
    I am especially proud to be able to sit in front of you 
today and say that our committee supported more than $1.3 
billion in increases for the Bureau of Indian Affairs and the 
Indian Health Service in the 2009 Omnibus appropriations bill 
and the American Recovery and Reinvestment Act. Many of these 
positive funding decisions were made after last year's Tribal 
Witness Day. We rejected the previous Administration's budget 
proposal to eliminate the Johnson-O'Malley program, the urban 
Indian health clinics and various housing programs. The fiscal 
year 2009 bill funded a new $33 million initiative to address 
domestic violence, substance abuse and law enforcement needs in 
Indian Country. Including the Recovery Act in 2009, we more 
than doubled the funding for construction of health facilities, 
schools and detention centers. These BIA and IHS programs 
provide a broad range of critical services to improve the 
health and safety of Native American people across the country, 
and while we do not yet have the details of President Obama's 
fiscal year 2010 budget, we are hoping it contains healthy and 
much-needed increases to improve and expand these services. I 
am anxious to see his plan and I look forward to hearing from 
all of you today and tomorrow on the successes and challenges 
in Indian County.
    I would like to remind our witnesses that we have many 
speakers scheduled to appear today. To ensure that we are able 
to accommodate everyone, I ask that our witnesses respect the 
five-minute rule. A yellow light will flash with one minute 
remaining of your time in order to give you the opportunity to 
wrap up your statement. When the red light comes on, then your 
time has expired. Your prepared statement will of course be 
published for the record along with a transcript of your actual 
testimony.
    Mr. Dicks. I want to now call on our ranking member, Mr. 
Simpson, for any opening remarks.
    Mr. Simpson. Mr. Chairman, I just want to say thank you for 
holding these days of public testimony. I think they are 
important and I look forward to the testimony of the witnesses.
    Mr. Dicks. And I also want to point out that all of the 
changes that we made last year in this budget to deal with 
these programs like the Johnson-O'Malley and the urban health 
clinics, this was all on a bipartisan basis. Mr. Tiahrt at the 
time was the ranking member. He felt as strongly as I did that 
these problems needed to be corrected, so again I look forward 
today to the witnesses.
    Our first witness is Robert Bear, chairman of the Shoshone-
Paiute Tribes of the Duck Valley Reservation. Mr. Bear, 
Chairman.
                                       Wednesday, March 25, 2009.  

         SHOSHONE-PAIUTE TRIBES OF THE DUCK VALLEY RESERVATION


                                WITNESS

ROBERT BEAR
    Mr. Bear. Good morning. Hello, Chairman Dicks and members 
of the committee. My name is Robert Bear. I am the chairman of 
the Shoshone-Paiute Tribes of the Duck Valley Reservation. I am 
pleased to present testimony before this subcommittee 
concerning the fiscal year 2010 budget of the Bureau of Indian 
Affairs and Indian Health Service. I am joined by our attorney, 
Matt Jaffe, of the Sonosky, Chambers law firm.
    Mr. Chairman, I have traveled from Owyhee, Nevada, to be 
here today to let you know that the Shoshone-Paiute Tribes 
strive to meet our members' needs in difficult circumstances. I 
want to speak to you about two major concerns we have. First, 
the BIA has failed us. They have not staffed and opened a 28-
bed youth detention center that we critically need on the Duck 
Valley Reservation. We will need $1.2 million to make repairs 
and improvements that BIA has identified to the facility that 
they helped us and the Justice Department designed before they 
will consider staffing and operating it.
    Second, I want to let you know the harm that is caused to 
our members each day by failure of the BIA and IHS to remedy 
the contract support costs shortfall of our self-governance 
agreement with the BIA and IHS. The figures are well known and 
documented. Since fiscal year 2007, the BIA and IHS have 
shortchanged the Shoshone-Paiute Tribes over $2 million in 
contract support costs. We would like to see our shortfalls 
paid to us and receive 100 percent of our contract support cost 
funds next year. Our tribe alone would need over $360,000 in 
IHS contract support costs and over $169,000 in BIA contract 
support costs next year. The Duck Valley Reservation is a 
remote, rural reservation located in Idaho and Nevada. We are 
ranchers and farmers. If a need cannot be provided to our 
members on the reservation, more often than not the need is not 
provided at all.
    The youth detention facility: More than 10 years ago we 
thought that we were marking progress to address the problem of 
youth offenders on the Duck Valley Reservation. That year we 
received our first two Justice Department grants to build a 28-
bed detention facility for about $4 million. We provided over 
half a million of travel funds as a matching amount. BIA set 
aside $1.5 million for staffing the facility. When the facility 
was built with the BIA input on the design, we thought we could 
transfer the facility over to the BIA and have our young 
offenders housed on the reservation where they would be close 
to family and friends. They in turn could ensure that detained 
youth would not lose hope and could return home to the 
community. We were wrong. The facility is not open and sits 
idle. We have so few buildings on the reservation, it is a 
crime to let this facility sit unused when our members need it. 
So many behavioral problems among our members are the result of 
drug and alcohol abuse. Our members need treatment, not only 
detention. That was our tribes' vision when we pushed for 
construction of the detention center. In 2008 we learned that 
the BIA had decided that youth detention facilities should meet 
design standards for a highly secure lock-down facility for 
violent criminals. As a result, the BIA has told us that they 
will not staff and open our detention facility until we make 
$1.2 million required upgrades. They refuse to fund these 
changes. We do not believe the Bureau should be permitted to 
use such a policy shift as an excuse to abandon a tribally 
driven project, especially in light of the significant need for 
detention facilities in Indian County.
    We therefore request a one-time grant of $1.2 million to 
cover the upgrades identified by the BIA as necessary to make 
the facility operational and we are asking this committee to 
insert report language to direct the BIA to work with us and 
the Justice Department to see that the facility opens to serve 
our members' needs. Sirs, please consider our request.
    Contract support shortfalls: I will take just one more 
moment to address the harm BIA and IHS visit upon our tribes 
every day by failing to ask Congress for 100 percent of our 
contract support cost needs. Here is the simple truth. If the 
BIA and IHS do not fund our negotiated contract support cost 
needs, we take direct program funds meant for health care, law 
enforcement and social services to meet the recurring contract 
support cost needs. The estimated fiscal year 2010 contract 
support cost shortfall for IHS contracted programs is $200 
million and $55 million for the BIA. The staff vacancies in our 
638 programs hurt our members, make us less efficient. If we 
are to bring change to our reservation, meet their health care 
and economic needs, we need the resources to do it. The 
contract support cost shortfall amount may be just another 
number to BIA and IHS officials who have ignored the 
contractual and moral obligation for tribes for years. I hope, 
however, that it means more to you and to this Congress.
    Let me tell you what these numbers mean to me. It is a 
youth lost in the criminal justice system we cannot reach, a 
diabetic tribal elder in need of counseling or prescriptions 
whom we must turn away, or an entire program we must defer 
assuming responsibility for under the Indian Self-Determination 
Act. That happened just last fall when we declined to contract 
the BIA road maintenance program. You, sir, and this committee 
have the power to rectify this injustice.
    Thank you for granting me the honor of presenting testimony 
on behalf of the Shoshone-Paiute Tribes.
    [The statement of Robert Bear follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.001
    
    [GRAPHIC] [TIFF OMITTED] T0064A.002
    
    [GRAPHIC] [TIFF OMITTED] T0064A.003
    
    [GRAPHIC] [TIFF OMITTED] T0064A.004
    
    Mr. Dicks. Thank you.
    Any questions?
    Mr. LaTourette. Can I just----
    Mr. Dicks. Yes.
    Mr. LaTourette. On the 28-bed facility, what is entailed 
with the $1.2 million? What are they saying you need to do to 
fix it up so that it is ready to go?
    Mr. Bear. At this time I am going to have our attorney, 
Matt Jaffe, from the Sonosky law firm address that.
    Mr. LaTourette. Always the attorney.
    Mr. Jaffe. Good morning, Congressman, Chairman. The BIA has 
changed their policy. They are asking for the facility to be 
more designed for more-violent criminals and the changes are 
made to make certain improvements to meet those standards and 
also because of the deterioration of the facility since it was 
built in 2003. So they have estimated that it would cost $1.2 
million to make those changes before they would staff and 
operate the facility.
    Mr. LaTourette. Is there a work order that you could submit 
to the committee that says here is how the $1.2 million has to 
be spent according to the BIA?
    Mr. Jaffe. Certainly we can provide that.
    Mr. LaTourette. Thank you.
    Thank you, Mr. Chair.
    Mr. Dicks. Have you approached the new Administration about 
the money that we put in, the $500 million for construction? 
Could that money be used for this purpose?
    Mr. LaTourette. In the Recovery Act?
    Mr. Dicks. Yes.
    Mr. LaTourette. It could be.
    Mr. Dicks. Yes, we think that money could be used, the $500 
million, so you might want to go in and talk to them, and we 
will be glad to help on that in terms of an appointment or 
whatever.
    Mr. Bear. We certainly will, sir.
    Mr. Dicks. Thank you.
    Next we have Fawn Sharp from the Quinault from the state of 
Washington. We started with Idaho. I wanted you to know that.
    Mr. Simpson. That was Nevada.
    Mr. Dicks. Okay.
    Fawn, we are glad to have you here and we will put your 
entire statement in the record and you have five minutes to 
summarize.

                                       Wednesday, March 25, 2009.  

                         QUINAULT INDIAN NATION


                                WITNESS

FAWN SHARP
    Ms. Sharp. Thank you, Mr. Chairman, members of the 
committee. I really appreciate the opportunity to present this 
testimony on behalf of the people of the Quinault Indian 
Nation. I took a red-eye flight. I said now I know why Joe 
Delikers had bags under his eyes. He took many red-eye flights. 
I thought, I am too young to feel this old, so I think I will 
stick with the direct flight next time.
    I would like to draw your attention to the first page of 
our testimony before I get into the specific tribal requests. 
There you will find where the Quinault Nation is joining the 
affiliated tribes of the Northwest Indians, the Northwest 
Portland Area Indian Health board, the Northwest Indian Fish 
Commission and the National Indian Health Board on a number of 
local, regional and national requests.
    Turning specifically to the Quinault issues, one of the 
centerpieces of our strategy over the last two years, our 
national priority and national agenda at the Quinault Indian 
Nation is the restoration of the Quinault blueback sockeye 
salmon. It is a treasure to the Quinault people. It is 
something that we have historic runs of 1 million fish 
annually. In the 1950s we began to witness a sharp decline to 
the point where two years ago we only had 4,000 sockeye return 
to the Quinault River. We undertook an aggressive approach to 
restore the Quinault blueback by, one, elevating it as a 
national priority, which gave our staff clear policy direction 
to develop a strategy to restore this national treasure. The 
staff did develop a strategy two years ago. We then took that 
and shopped it with federal agencies, with the U.S. Forest 
Service, with the Park Service. The Upper Quinault is located 
off the reservation but it feeds the Quinault River and the 
tribe has a comprehensive management approach to the sockeye 
runs. We also engaged the local community. The local community 
has witnessed as a result of the degradation of the Upper 
Quinault entire homes falling into the river. A lot of the 
damage and degradation can be traced back to the turn of the 
century when there was widespread logging of that watershed. 
The approaches to deal with the problem have been short term, 
shortsighted, in large part due to funding sources through the 
Federal Highways Administration. The Federal Highways will only 
fund damage to the extent of the harm to the infrastructure and 
so it put the agency in a position where they had to fund rip-
raff along the banks which the Bureau of Reclamation report 
established has accelerated the flow to the point it wiped out 
three miles of spawning habitat.
    In addition to those sources of impacts and harm, there are 
also macro-environmental issues. The Anderson glacier, which 
feeds the Quinault River, has receded 1,700 feet in 30 years. 
That is the major glacier that feeds that watershed. So last 
year the Quinault Nation led an effort with the federal 
agencies, with the local communities to undertake a pilot 
project. That pilot project from a year ago when the Nation 
appeared before this committee to October, we were able to 
secure every federal and state permit necessary, raise $1.2 
million and construct 12 engineered logjams. These engineered 
logjams are viewed as best practices and a long-term solution, 
so we have enlisted the assistance of the federal agencies to 
support that effort. It also complements our comprehensive 
climate change initiative. Once we have 452 logjams installed, 
we will create effectively one large carbon sink that will be 
able to sequester carbon dioxide and greenhouse gas emissions. 
So we are very excited about that project. We would like to 
continue over the next 20 years. This is a pilot project. We 
have demonstrated that we can successfully undertake an effort 
to both restore the natural habitat and the ecosystem as well 
as work with federal agencies and the local community to 
protect the infrastructure, and this will be a long-term 
solution to restore it to historic levels.
    The second issue that I would like to address with this 
committee is a request for $1.2 million to continue to fund our 
methamphetamine strategy. The Quinault business community will 
be revisiting that strategy during 2010 and actually enhancing 
it. We now find that heroin and prescription pills are becoming 
problematic on the Quinault reservation. So with $1.2 million, 
we will be seeking to increase prevention efforts, increase 
treatment and then also provide enhanced enforcement to our law 
enforcement personnel.
    The third and final request that I would like to mention--I 
have got 10 seconds here--is the Nation is seeking additional 
funding for planning for climate change and adaptation, 
mitigation and adaptation strategies. We seek your support for 
that funding. Thank you, Mr. Chairman.
    [The statement of Fawn Sharp follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.005
    
    [GRAPHIC] [TIFF OMITTED] T0064A.006
    
    [GRAPHIC] [TIFF OMITTED] T0064A.007
    
    [GRAPHIC] [TIFF OMITTED] T0064A.008
    
    Mr. Dicks. Well, thank you, Fawn, and we appreciate your 
leadership and your recent trip to the international conference 
where you had a chance, I think, to present your point of view, 
and we appreciate it.
    Ms. Sharp. Thank you.
    Mr. Dicks. Any other questions?
    All right. Henry Cagey from the Lummis. Henry, how are you?
    Mr. Cagey. Good. How are you?
    Mr. Dicks. Well, a lot going on back there.

                                         Wednesday, March 25, 2009.

                          LUMMI INDIAN NATION


                                WITNESS

HENRY CAGEY
    Mr. Cagey. Mr. Chairman, my name is Henry Cagey, chairman 
of the Lummi Nation, and the Lummi Nation is up in Washington 
State and we are 100 miles north of Seattle.
    I will summarize my testimony here, I guess, and get you 
right to what the Lummis are asking for from the committee. You 
know, the tribe is a fishing tribe, and again, we are really 
dependent on this resource to make a living, I guess for our 
families and our community. The Lummis have over 500 fishermen 
registered within the tribe. We harvest salmon. We used to 
harvest salmon year round. We are dependent on the fish and the 
shellfish. One of the things that we are here to remind the 
committee is that last year there was a report issued by the 
Department of Commerce on declaring the Fraser River sockeye a 
disaster, and we are here to look at some solutions to get us 
off this disaster relief for the Nation.
    One of the things we have seen these last two years is the 
2009 Omnibus bill did not support hatcheries. The stimulus bill 
did not support hatcheries and we are hoping----
    Mr. Dicks. I think it was our impression in talking with 
the BIA that the $500 million for construction could be used--
--
    Mr. Cagey. No, sir.
    Mr. Dicks [continuing]. For hatcheries.
    Mr. Cagey. We are told no.
    Mr. Dicks. Who told you that?
    Mr. Cagey. That came right from the top of the chain there 
with Jerry--what is his name? It is coming from the top, Norm. 
We are getting no support for hatcheries and it is coming right 
down to the line.
    Mr. Dicks. Get us the name of whoever you talked to and we 
will talk to him.
    Mr. Cagey. Well, again, we are told no, there is no money 
for hatcheries in the stimulus, there is no money for 
hatcheries in the Omnibus.
    So anyway, what we are doing here today is reminding----
    Mr. Dicks. That is not what we understand.
    Mr. Cagey. Well, Norm, I mean----
    Mr. Dicks. We are told by the comptroller of the Department 
of Interior that that money will be available for hatcheries, 
and you cannot give me the name of who you talked to. I can 
tell you who I am talking to and that is Pam Haze.
    Mr. Cagey. Pam Haze. Okay. I will do that, sir.
    Mr. Dicks. Get me the name of who you are talking to and we 
will try to straighten this out.
    Mr. Cagey. Good. Well, I hope you can because again, we are 
not getting anywhere with this Administration on the support 
for the Lummis on hatchery needs, so if you can help, we would 
appreciate it.
    So that is one of the main things we came by to talk about 
is the hatcheries, that our solution is to get off the sockeye 
disaster, that we want to invest the money in hatcheries.
    Mr. Dicks. What has happened? What has been the reason for 
the big decline?
    Mr. Cagey. The decline in the sockeye?
    Mr. Dicks. The sockeye.
    Mr. Cagey. Well, you know, part of it is the United States-
Canada treaty. Some of it is the habitat up in Fraser Valley. 
You know, the sockeye was once the salmon that we depended on 
to make a living, so the last 10 years has declined, you know, 
to almost nothing. So the last two years we have not fished 
sockeye for quite some time, which added up to the problems 
that you heard, you know, from the Quinaults and from the other 
tribes, that we are dealing with drugs, we are dealing with a 
lot of social problems. Violence has increased and our people 
are turning to different ways to make a living such as 
prescription drugs, such as other things that they are doing 
just to survive. So a lot of these things tend to built up in 
the last few years and with the Lummis, fishing has been our 
way of life, and so we are really in need of some type of 
support to rebuild out hatcheries, at least to get them back on 
the water and they can actually make their own living. So that 
is the thought in our testimony to do that. The CRS report 
backs that up. I would be happy to get a copy to the committee 
if they would like one. I think, Norm, your office has had one.
    Mr. Dicks. Yes.
    Mr. Cagey. The last thing I want to leave you with is, I 
was back in the Library of Congress yesterday, and we had a 
letter from our farmer in charge, Mr. C.C. Vicbonner, you know, 
talking about some of the things that we were asking for 144 
years ago, and some of these things still apply. We are still 
looking for housing, we are still looking for education, we are 
still looking for jobs for our community, and this report I 
would like to leave with the committee as well if you can take 
a look at. Some of these things have not changed and so we 
would like to remind the United States that there is an 
obligation through the Point Elliott Treaty that we feel needs 
to be upheld. I hope this committee can help us do that.
    So again, on behalf of the Lummi Nation, thank you.
    [The statement of Henry Cagey follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.009
    
    [GRAPHIC] [TIFF OMITTED] T0064A.010
    
    [GRAPHIC] [TIFF OMITTED] T0064A.011
    
    [GRAPHIC] [TIFF OMITTED] T0064A.012
    
    Mr. Dicks. We appreciate your testimony and your concerns 
and we will take a very serious look at it. Thank you.
    Samuel N. Penney.
                              ----------                              --
--------

                                         Wednesday, March 25, 2009.

                  NEZ PERCE TRIBAL EXECUTIVE COMMITTEE


                                WITNESS

SAMUEL N. PENNEY
    Mr. Penney. Good morning, Mr. Chairman, members of the 
subcommittee and I would especially like to thank Chairman 
Dicks and Congressman Simpson from the State of Idaho for this 
opportunity to testify this morning.
    I have submitted my testimony. I would like to focus on a 
couple of things on the Indian Health Service and first I would 
like to thank Beth Houser for visiting our clinic out in 
Lapwai, Idaho, last summer. We really appreciate that. The Nez 
Perce Tribe operates two clinics, one in Lapwai, Idaho, and a 
branch facility in Kamiah, Idaho, which serves approximately 
3,500 patients with a contract health service appropriations of 
about $3.1 million, and this averages out to a mere $880 per 
patient per annum. The Nimiipuu Health currently has 543 
patients that are on the deferred services list. That 
represents almost 16 percent of the patients served at our 
clinics. The estimated cost of health care for these 
individuals is estimated to be about $1.2 million.
    Mr. Chairman, I called back to our clinic yesterday because 
we all share that tribes are always on Priority 1 so I called 
back to see exactly what is in Priority 1, 2 and 3. under 
Priority 1, it is cardiac, cancer, fractures, lacerations, 
pulmonary, accidents, injuries to eye, and most of the time the 
tribes are on Priority 1. Under Priority 2 would be things such 
as mammograms, eye exams, colonoscopies, pain management, X-
rays, and under Priority 3 there would be service considered on 
a case-by-case basis if funds are available. And when I talked 
to our clinic they said that we are hardly ever on Priority 2 
or 3, we are always on Priority 1. So things such as glasses, 
orthopedic, other minor surgeries, dermatology, dental are all 
put on the back burner.
    What happens at our clinic is, we have medical providers 
and others will meet to discuss what the priorities will be for 
the limited funding that we have, and they also sent me a paper 
which has several questions regarding health care which 
personally I felt were very disturbing when they look at health 
care for Indian people not only in our tribe but across this 
country, but they have some questions that they ask. When 
patients are referred for elective procedures, consultation, 
outpatient care or inpatient care, payment for eligible 
patients should be authorized only when the care required is 
medically necessary and falls within established medical 
priorities. All referrals will be reviewed and approved in a 
prescribed manner. In order to determine whether needed care or 
within the medical priorities that fall in question should be 
considered, one, what is the rate of deterioration of the 
patient's condition. Is the needed service deferrable or non-
deferrable. Two, what will the potential morbidity of the 
patient if the desired care is not rendered. Are there any 
potentially grave outcomes. Three, what is the expected benefit 
from the evaluation of treatment. Will the case likely result 
in a cure or improvement. And four, is the procedure 
experimental or purely cosmetic. Is the requested service on 
the exclude list. And as I mentioned, every Wednesday at our 
clinic the medical providers, the contract health, the finance 
and dental meet to determine which patients are going to be 
served first. Usually what happens is----
    Mr. Dicks. Well, last year there was a big cut in this 
area, Indian Health Service, by the previous Administration, 
and we had to put the money back in or there would have been 
thousands of people across the country who would not have 
gotten any service. So we are very sympathetic to this, so we 
need you to explain to us what has to be done to help deal with 
this problem.
    Mr. Penney. Well, I think there have been great strides in 
improving Indian health but if you look at the medical costs 
and inflation, you talked about the Recovery Act earlier, from 
what I see, the Recovery Act, the construction, the majority of 
that money will be taken by two projects so other tribes across 
the Nation will be fighting for the remainder. What I 
potentially see is that we will have pretty nice facilities but 
we will not have enough money to fund them for proper care, so 
we will have a nice building, nice equipment, providers, but 
they are not going to be able to serve them because you always 
be on Priority 1.
    Mr. Dicks. You do not get to these priority 2 and 3 cases? 
That is your point?
    Mr. Penney. Hardly ever.
    Mr. Dicks. There is just not enough money to do that?
    Mr. Penney. And what we have done, as I explained to 
Congressman Simpson yesterday, we have had to utilize gaming 
revenues over the last two years to address the deferred 
services list. Last year we put in about $250,000, this year 
$200,000 to meet those deferred services needs. So I guess what 
I am saying, Congressman, is that there have been great strides 
but the need is still there to meet the needs of these 
patients, and I think----
    Mr. Dicks. And yet we have not seen the first of Obama 
Administration budget yet so we are not certain what the 
request is going to be, so----
    Mr. Penney. An example I use, Congressman, is, my mother 
died about three and a half years ago and she had a lot of 
tests and things. Finally they sent her to Spokane to get a 
scan, tell her she needs an operation. Then they open her up 
and she has cancer everywhere. They could not tell where it 
began or ended, and probably about three days later she passed 
away. So that is not an uncommon story, you know, across this 
country for Indian people.
    The final thing I would like to talk about, and my time is 
almost up, is EPA. The Nez Perce tribe operates federal air 
regulations for reservations under a Direct Implementation 
Tribal Cooperative Agreement, called DITCA, and EPA region 10 
has used our program as a model for other tribes. In fact, I 
just met with the Idaho Department of Environmental Quality. 
They also utilized the tribe's air rules for reservations as a 
model for the State of Idaho, but it impacts the health and 
welfare of the residents of the reservation, and even though 
there are increases in funding for EPA region 10, it is still 
not sufficient to meet the needs of not only our program but 
programs across the country.
    I would like to conclude my remarks. Mr. Chairman, I thank 
you for this opportunity and would be happy to answer any 
questions. Thank you.
    [The statement of Samuel N. Penney follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.013
    
    [GRAPHIC] [TIFF OMITTED] T0064A.014
    
    [GRAPHIC] [TIFF OMITTED] T0064A.015
    
    [GRAPHIC] [TIFF OMITTED] T0064A.016
    
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. Thanks, Sam. I appreciate it. Thanks for 
coming in and talking to us today.
    Mr. Dicks. Thank you. We appreciate your statement.
    Mr. LaTourette. Mr. Chairman?
    Mr. Dicks. Yes, Mr. LaTourette.
    Mr. LaTourette. I just have one question. You mentioned the 
$500 million that is in the recovery package you think is going 
to be consumed by two projects. Do you know what those are?
    Mr. Penney. From my understanding from attending the 
National Congress of American Indian briefings, I was told that 
there will be one project on the Navajo Reservation, one 
project in Alaska, and I do not want to be misunderstood. Those 
facilities are truly needed, and I think what I am saying is 
that there is a greater need across Indian County for 
facilities plus adequate funding so we are not always on 
Priority 1.
    Mr. LaTourette. It is your understanding that----
    Mr. Dicks. These are the top of the priority list. I was 
very concerned about this myself, that two projects would 
consume so much of this budget, but they are at the top of the 
priority list.
    Mr. LaTourette. Well, I guess what I am getting at is, a 
couple times they have referred to this $500 million. Is this--
--
    Mr. Dicks. This is separate now. Indian Health Service is 
what you are talking about. He was talking about BIA 
construction, two different projects.
    Mr. LaTourette. And you are not talking about BIA 
construction?
    Mr. Dicks. You are talking about the Indian Health Service?
    Mr. Penney. Yes.
    Mr. Dicks. Which is HHS.
    Mr. Penney. Right. Mr. Chairman, I think there is some 
funding under HHS and then also the Recovery Act so they are 
separate.
    Mr. Dicks. So there is $500 million in Indian Health 
Service, $500 million in BIA construction.
    Mr. LaTourette. Thank you.
    Mr. Dicks. So they are both insufficient to take care of 
the problem.
    Mr. LaTourette. Thank you. Very helpful.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. Just a quick question. Would it make any 
difference if we had gotten last year the Indian Health care 
reauthorization through the Congress? I mean, we have been 
struggling with this under both parties for many years and not 
gotten the legislation through. Would that help address your 
problem if that were done?
    Mr. Penney. I think the tribes through the National 
Congress of American Indians and other forums, National Indian 
Health Board, have made the reauthorization top priority, and 
we think that would be very beneficial, a step in the right 
direction. I think what I am saying is that we would appreciate 
that but it is almost like we are not going to have the 
adequate funding for necessary health care. When you look up 
the word ``deferred'' on some of these health care, all you are 
doing, they have a true need, they are just going to 
deteriorate until they become either a catastrophic case or, 
you know, take more out of the local budget.
    Mr. Cole. I agree. I understand the funding need as well, 
but I just want to point out for the record, Mr. Chairman, the 
Senate actually got that passed last year and we were very 
close in the House, and certainly a lot of the committee has 
worked on it. Hopefully we can kind of push that along because 
it provides a framework that really facilitates----
    Mr. Dicks. There was an abortion issue that got in the 
middle.
    Mr. Cole. That is exactly right, Mr. Chairman. That is 
exactly right. I was hopeful we could get it done in November 
or December after the elections but hopefully we can push that 
along this year.
    Mr. Dicks. Thank you very much.
    Julie Doney, president of the Fort Belknap Indian 
Reservation. Welcome, Julie. We are glad to have you here.
                              ----------                              

                                         Wednesday, March 25, 2009.

                    FORT BELKNAP INDIAN RESERVATION


                                WITNESS

JULIE DONEY
    Ms. Doney. Good morning. Thank you for your previous 
support and the expertise that you lend to care for the Gros 
Ventre and Assiniboine Tribes of Fort Belknap. I am pleased, 
Mr. Chairman, and members of the committee, I am pleased to be 
here today to testify on behalf of the 6,000-plus members of 
the Gros Ventre and Assiniboine tribal members of Fort Belknap 
Indian Reservation, which is located in north central Montana.
    My testimony today is directed towards the fiscal year 2010 
appropriations for BIA, IHS and education programs. You know, 
the tribal council is looked at by the people as the entity 
that they bring a need to us and they expect us to have the 
answers or find the answers and find the monies necessary to 
fulfill their needs and the real basic needs actually. You 
know, we are the ones that have to look at the health care, and 
I could say ditto to previous testimony in health care and also 
the BIA. Many of our programs are under P.L. 93-638 BIA 
Contracts. Our detention, law enforcement, tribal courts, our 
irrigation project, our road maintenance, tribal land 
department. So in a total of all of the 638 programs, we are 
requesting approximately $8 million to not only fund them to 
capacity but also to possibly get us on the road to self-
sustaining.
    Mr. Dicks. Is that $8 million for contract support?
    Ms. Doney. No, it is just for a total request of all of the 
different needs that we have.
    Our detention center, we have a detention center that is 
almost built but right now we need 18 staff members to fulfill 
the rotating shifts and right now for detention our current 
detention budget is $79,618. That only funds one person so then 
we are robbing from Peter to pay Paul, you know, and we are 
just kind of getting tired of doing that so we are asking that 
you would increase our funding for our detention. But totally 
in our law enforcement, we have outdated equipment for our 
police officers and I want to also mention our volunteer fire 
department, which I did not mention in my written testimony 
because our volunteer fire department, they have very outdated 
and antiquated equipment, and there was a house fire and a 15-
year-old girl burned to death because the firemen were not 
able--they did not have the equipment that would protect not 
only them but could save a life, so I wanted to mention that.
    In our law enforcement, our reservation is 35 miles by 23 
miles so it encompasses about 723,000 acres, which our law 
enforcement have to drive. You get a call on the agency level 
and then there is a call 35 miles and you zip out there, you 
know. I really invite you to come to Fort Belknap any time that 
you are in the area because being able to tell you about it is 
just not enough. You really have to come on call with the 
police officers. I have been out in the field working with them 
and I was there when two of our elderly people were brutally 
murdered by a young man who was on drugs and alcohol, and I 
would not wish that for anybody to be involved in that but I 
just happened to do a ride-along that night and that is what 
happened.
    Our employment and our training program, we desperately 
need increased funding because our Temporary Assistance for 
Needy Families program is not enough to not only fulfill the 
basic needs of our members but we do not have enough money to 
try to train our young people to find a career and to begin a 
work career. We want them to be able to have a reason to get up 
in the morning, to go somewhere, you know. Then they will go to 
bed earlier and then you will not have to fulfill the detention 
need. That is the way I look at it. A person has to have a need 
to go somewhere in order to fulfill their needs.
    Our tribal land department, our acreage, the majority of 
it, I would say 99 percent is trust status and you cannot say 
that about every reservation, but I know in Montana, so in our 
tribal land department we would like increased funding not only 
to upgrade our land department but so that we would have money 
to buy land if a person wants to sell land because we have a 
high unemployment rate. It is like 73 percent. We depend on 
fire fighting in the summer. So we have a high unemployment 
rate so people who own land want to sell it. They come to the 
tribe to sell their land. If we do not have the money to buy 
it--if we bought it, it would remain in trust status and in our 
constitution we are not allowed to sell land once we have it. 
So if we are able to buy the land, which would fulfill their 
need to help provide for their families' needs, it will remain 
in trust, but if we are not able to buy the land, then it goes 
to non-Indians and it is turning into fee status and then you 
have a checkerboard reservation. So we would really wish to 
have our lands remain in trust.
    Mr. Dicks. Thank you. Your time is up.
    Ms. Doney. Oh, I am sorry.
    [The statement of Julie Doney follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.017
    
    [GRAPHIC] [TIFF OMITTED] T0064A.018
    
    [GRAPHIC] [TIFF OMITTED] T0064A.019
    
    [GRAPHIC] [TIFF OMITTED] T0064A.020
    
    Mr. Dicks. Any questions? Yes, Congressman LaTourette.
    Mr. LaTourette. I am sorry, but being new to the 
subcommittee, I ask a lot of stupid questions. You mentioned 
the fire service. I think all of us have fire services that are 
underfunded and they have long been neglected. Are the tribes 
eligible to make application under the Fire Act for grants? Do 
you know?
    Mr. Dicks. I would think so.
    Mr. LaTourette. I would just say that one way that we have 
beefed up our local fire departments has been through this 
wonderful Fire Grant program, and if you have not applied 
through the Fire Act and you want to get ahold of somebody on 
the staff, it is a great way to--for instance, if somebody 
needs a new hook-and-ladder truck, we do not have money to buy 
a new hook and ladder truck. They are pretty pricey. But on a 
competitive basis the Fire Act gives equipment, gives training 
and gives really lifesaving equipment, for instance, breathing 
packs when somebody has to go into a bad fire. So if you could 
look into that and maybe get back to us. If you are not 
eligible, I think you should be eligible.
    Mr. Dicks. Mr. Calvert, do you have something you wanted to 
say?
    Mr. Calvert. Just real quick. You mentioned there was a 
problem with the drugs on the reservation. Is the primary drug 
used on the reservation methamphetamine?
    Ms. Doney. Yes.
    Mr. Calvert. Is the methamphetamine being manufactured on 
the reservation in these drug facilities that pop up all over 
the place or is it primarily now being imported onto the 
reservation?
    Ms. Doney. Imported.
    Mr. Calvert. So it is probably from Mexico. Thank you.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. First quick observation to Mr. LaTourette's 
question. When I was on Rules, we used to routinely--you could 
get it done in a manager's amendment, literally amend this 
stuff as it comes through when it says local governments and 
add tribal governments and we expanded a lot of things that 
way. I do not know if we got that one or not. But if you could 
get somebody on the Rules Committee to just propose it, boom, 
it happens, and then they can go compete for the grants the 
same way any other local government can. Without that, they 
usually cannot.
    Mr. Dicks. I would think they can compete, but we will find 
out.
    Mr. Cole. It is a problem sometimes, Mr. Chairman.
    Mr. Dicks. That is a good idea, by the way.
    Mr. Cole. One quick question. I noticed you are requesting 
money for gas and oil, mineral development. I am very curious 
about what kind of prospects you would have from a tribal 
standpoint for revenue in minerals. Do you have proven 
reserves?
    Ms. Doney. You know, we have just recently begun 
exploration and there is a gas line that has just been put in 
on the reservation and so there is now production, so some of 
our tribal members as well as there is some tribal land there 
that is receiving some income off of it.
    Mr. Cole. Does that revenue flow to the tribe or does it 
flow to individual mineral owners? How does that work?
    Ms. Doney. It flows to individual mineral owners. If the 
tribe has land that they have crossed or they are drilling on, 
then it will come to the tribe.
    Mr. Cole. Thank you very much.
    Ms. Doney. And I just wanted to say thank you because, you 
know, in finalizing, I wanted to say thank you for doing what 
you do. You know, I came a long distance to stand before you, 
spending money that we do not really have and really could not 
afford but I wanted to come so that when I pray for not only 
the tribal council but I will also pray for each one of you 
because I want to see your faces and remember you when I pray 
because it is difficult, if not impossible, for both of us that 
we share in caring and providing for the Gros Ventre and 
Assiniboine Tribes of Fort Belknap. So on behalf of the 
Assiniboine and Gros Ventre, I want to say thank you.
    Mr. Dicks. I will just make one comment. We are not able to 
take care of every one of these individual projects. I want to 
make sure everybody understands that. But last year we 
corrected all the major issues that were brought to us like 
Johnson-O'Malley and the housing and the urban health care 
clinics. The major things in the bill came to light in these 
hearings. Contract support is one we still have to work on as a 
national issue, but that is why you have to work with your 
local Congressman from your area on your specific projects.
    Ms. Doney. We do.
    Mr. Dicks. Which you do, but I want you to know, on the 
major issues, we were able to correct most of those things. 
Now, we think that we are going to get a better budget under 
the new Administration, and therefore there may not be as many 
of the big issues standing out there like there were last year 
where we had major gaps in funding for the Indian Health 
Service and the BIA. But this is important to us to get a 
picture of where the major issues are.
    Ms. Doney. Thank you.
    Mr. Dicks. James Allen Crouch, executive director of the 
California Rural Indian Health Board.
                              ----------                              

                                         Wednesday, March 25, 2009.

                  CALIFORNIA RURAL INDIAN HEALTH BOARD


                                WITNESS

JAMES ALLEN CROUCH
    Mr. Crouch. Good morning, Mr. Chairman and committee. My 
name is James Allen Crouch. I am executive director of the 
California Rural Indian Health Board (CRIHB). I am honored this 
morning to be accompanied by my board chairman, who we are 
proud to say is also currently the chairman of the National 
Indian Health Board.
    Mr. Franklin. Greetings. My name is Reno Franklin, Kashia 
Pomo Tribe, chairman of CRIHB and the chairman of the National 
Indian Health Board. I would also like to introduce one of the 
councilwomen from Pechanga Tribe.
    Ms. Garbani. My name is Karinna Garbani and I am one of the 
councilwomen with Changa Band, and I am representing the 
southern end for health today.
    Mr. Dicks. Is that near Palm Springs, California?
    Ms. Garbani. Yes.
    Mr. Crouch. The California Rural Indian Health Board 
represents tribes and tribal health programs across the State 
of California. We have a number of requests this morning. First 
and foremost is a $2 million committee mark for the California 
Contract Health Services demonstration project. We will talk 
about that more in a second. Secondly would be funding for the 
Indian Health Care Improvement Fund, which brings funding 
equity to all of Indian Country because although there are 12 
areas and many times you may be seeing the level of need funded 
for an area, actually in each area there are pockets of poverty 
that have yet to be reached. And finally, we are supporting the 
request for major increment into the contract support cost line 
item. The California CHS demonstration project was authorized 
in the Indian Health Care Improvement Act and continues to be 
an active statute. We are seeking a committee mark to support 
that project, to increase utilization of the Catastrophic 
Health Emergency Fund (CHEF) by tribal health programs in 
California. The committee every year makes a commitment to this 
CHEF fund by taking part of the line item in contract health 
services and setting it aside for the CHEF fund. That is an 
appropriate and a good way to modify risk for the tribal health 
programs because it pays for high-cost cases. Unfortunately in 
California, our tribal health programs are very small. The 
average size is about 1,800 active users. Navajo, for example, 
would have 12,000 in their operating unit sizes. We are 
underfunded, as everyone else in the system, but because of the 
small size of our programs and the fact that there is no one to 
stand behind them to absorb risk, when they have a high-cost 
case they simply tell them no. That means that many clients 
simply create bad debt at California hospitals. History and 
research from CRIHB shows that that is about an $18-million-a-
year burden on hospitals in California. California Contract 
Health Services (CHS) demonstration project is also like the 
Indian Health Care Improvement Fund in that there you take an 
earmark from hospitals and clinics and identify that money for 
the Indian Health Care Improvement Fund, which is there to 
bring equity across Indian Country.
    Mr. Franklin.
    Mr. Franklin. Kind of moving forward to the discussion on 
the Indian Health Care Improvement Fund, let me just say that 
the very thorough explanation of what that fund is, is inside 
of the testimony and so I am not going to entertain you with 
that.
    I would like to just touch briefly on that and say that we 
believe the most effective method of addressing a lack of 
primary care across the whole IHS program would be a multi-year 
commitment to providing a significant portion of new IHS 
resources to be distributed throughout the Indian Health Care 
Improvement Fund. With limited funds, Congress has tried to 
target the commitment to the least well-funded, and that would 
be the operating units with less than 40 percent of their level 
of need funded. To date, Congressional appropriation or 
allocations to the Indian Health Care Improvement Fund have 
failed to match medical cost inflation and have yet to lift 47 
of the poorest operating units to the 40 percent level. Our ask 
for that would be $122 million to achieve a 50 percent level of 
need funding.
    Mr. Crouch. Ms. Garbani.
    Ms. Garbani. And just to be quick, because, Chairman, you 
discussed earlier that the contract support costs are a 
national problem that still needs to be addressed. In the State 
of California--nationally the funds have been flat from fiscal 
years 2004 to 2008. In the State of California, there is a 
shortfall of over $12 million, and we simply ask that----
    Mr. Dicks. Now, this is the federal funds. It is not from 
the state, right?
    Ms. Garbani. Correct, federal funds, and we ask that that 
shortfall be addressed and that the operating burden that falls 
on those that take their responsibility under the Indian Self-
Determination Act be addressed.
    Mr. Crouch. In summation, California CHS demonstration 
project contract support costs for $100 million in the Indian 
Health Care Improvement Fund for $100. Thank you.
    [The statement of James Allen Crouch follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.021
    
    [GRAPHIC] [TIFF OMITTED] T0064A.022
    
    [GRAPHIC] [TIFF OMITTED] T0064A.023
    
    [GRAPHIC] [TIFF OMITTED] T0064A.024
    
    Mr. Dicks. Thank you for your testimony.
    Any questions?
    Mr. Cole. Just one quick one, if I may. When you have these 
shortfalls in funding, could you just elaborate a little bit on 
who picks up the additional costs? What happens to the 
individual patients that you have to turn away or you cannot 
fund their needs?
    Mr. Crouch. What happens to the individual patients when we 
cannot fund their needs is simply their health deteriorates. 
They seek care as an indigent client and produce bad debt at 
the local provider, whether it is a hospital or a diagnostic 
center, whatever. In terms of contract support costs, what 
happens is, we subsidize the core operating costs with money 
that would otherwise go for health services, and this creates 
further burden on an underfunded system.
    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Dicks. Thank you. That is the problem. Thank you. You 
did a great job.
    Jeff Koenings. Jeff, good to see you. U.S. commissioner, 
U.S. section of the Pacific Salmon Commission. How are you? 
Welcome.
                              ----------                              

                                       Wednesday, March 25, 2009.  

                       PACIFIC SALMON COMMISSION


                                WITNESS

JEFF KOENINGS
    Mr. Koenings. Doing well. Thank you. Chairman Dicks and 
committee members, I am pleased to be here today. I am Dr. Jeff 
Koenings from the State of Washington. I am pleased to be the 
Pacific Salmon Treaty commissioner representing the States of 
Washington and Oregon.
    The Pacific Salmon Treaty is an international treaty with 
Canada first ratified by the U.S. Senate in 1985. The treaty is 
implemented through the Pacific Salmon Commission, which 
consists of a U.S. and Canadian section. The U.S. section is 
made up of commissioners appointed by the President to 
represent the State of Alaska, the States of Washington and 
Oregon, the federal government and the 24 treaty tribes of 
Washington and Oregon. The great State of Idaho also receives 
salmon management monies under the treaty. This international 
commission sets upper limit harvest limits on five salmon 
species in fisheries from Alaska through Canada and to 
Washington and Oregon. The harvest limits strive to fulfill the 
fair allocation of harvests while meeting the conservation 
needs of the salmon.
    Funding the operations of the Salmon Commission comes 
through three federal agencies, State, Commerce and Interior. 
Today I would like to emphasize two budget areas in the 
Interior Department's budget. Under the Bureau of Indian 
Affairs budget, the U.S. section recommends that Congress fund 
the tribes' program at a restored funding level of $4,800,000 
for tribal research projects and participation in the U.S.-
Canada salmon treaty process, an increase of $2,530,000 over 
the fiscal year 2009 Omnibus funding bill. This funding level 
represents restoration of funding to the fiscal year 2008 level 
plus adjustments to meet increased obligations under the new 
2009-2018 Pacific Salmon Treaty agreement.
    The second area is under the U.S. Fish and Wildlife Service 
programs. The U.S. section recommends that Congress provide 
base funding of $445,000 for the U.S. Fish and Wildlife Service 
participation in the treaty process and provide funding of 
$250,000 for the Pacific States Fisheries Commission's Regional 
Mark Center. This base funding for the Fish and Wildlife 
Service will pay for the critically important ongoing work as 
part of the treaty process. The funding for the Pacific States 
Fisheries Commission's Regional Mark Center is utilized to meet 
treaty requirements concerning data exchange with Canada. As 
the treaty tribes and the States of Washington and Oregon co-
manage harvests under federal law, the U.S. section of the 
Salmon Commission is recommending a substantial adjustment to 
the funding for the work carried out by the 24 treaty tribes 
that participate in the treaty process. Programs carried out by 
the tribes are closely coordinated with those of the states and 
federal agencies but the tribes' efforts are now being hampered 
by forced staff reductions due to a 45 percent reduction in 
fiscal year 2009 funding for the treaty program. Tribal 
programs are essential for the United States to meet its 
international obligations.
    I would like the committee to know that the Commission 
provides an international forum to ensure cooperative 
management of salmon populations along the coast. In 2008, the 
United States and Canada successfully concluded lengthy 
negotiations for a new coast-wide salmon management regime 
including adjustments to the coast-wide abundant space 
management for Chinook salmon. The agreement is intended to 
last through 2018. The Fraser River sockeye and pink chapter of 
the Pacific Salmon Treaty expires next year and negotiators are 
diligently working as we speak here to complete a revised 
agreement for management of those fisheries.
    Finally, Mr. Chairman, under the treaty, both countries 
committed to rebuild the depressed runs of Chinook stocks and 
they recommitted to that goal in 1999 and again in 2008 when 
adopting a coast-wide abundant space approach to harvest 
management. Under this approach, harvest management will 
complement habitat conservation and restoration activities 
being undertaken by the States, the tribes and other 
stakeholders in the Pacific Northwest to address the needs of 
salmon listed for protection under the Endangered Species Act.
    Mr. Chairman, that concludes my oral testimony given for 
consideration by your committee and I want to thank the 
committee for your support in the past. I would be pleased to 
answer any questions.
    [The statement of Jeff Koenings follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.025
    
    [GRAPHIC] [TIFF OMITTED] T0064A.026
    
    [GRAPHIC] [TIFF OMITTED] T0064A.027
    
    [GRAPHIC] [TIFF OMITTED] T0064A.028
    
    Mr. Dicks. On the $4.8 million, we are still working on the 
previous year's funding. We are working with the Department of 
Interior on that. I think it is $1.8 million.
    Mr. Koenings. I understand.
    Mr. Dicks. It was a Senate amendment that was somehow 
dropped out of this thing without our knowing about it, so we 
will work on that. And these are very important issues. We are 
pleased that the US-Canada salmon agreement has been reached.
    Mr. Koenings. It is very positive for the next 10 years, 
absolutely.
    Mr. Dicks. So what can you say to Chairman Cagey? How are 
we going to help restore the Lummis up there? What do we have 
to do? You were the director of the Department of Fish and 
Wildlife in the State of Washington. What are your 
recommendations on that?
    Mr. Koenings. Well, the number one recommendation under the 
new annex for the treaty we are negotiating now, we have to 
change the rules by which sockeye harvest is managed. In the 
past, I do not know if you want to get this far into the weeds 
but there are four subpopulations to the Fraser sockeye 
population. Some are healthy and some are not. And what has 
happened is that when the fish finally arrive in U.S. waters, 
the weak populations are commingled with the healthy 
populations and you cannot get at them, so you cannot fish to 
the actual levels under the agreement because of that 
particular concern.
    Mr. Dicks. Because of the weak stocks?
    Mr. Koenings. Yes, because if we change the management 
approach, I think we can get at those and that is what we 
intend on doing.
    Mr. Dicks. That is what you are going to try to do in the 
agreement?
    Mr. Koenings. We are going to fix that.
    Mr. Dicks. Good. I am glad to hear that.
    Any other questions? We could be here all night just on 
that. Thank you for your good work. We appreciate it.
    Mr. Koenings. Thank you very much.
    Mr. Dicks. Now we are going to have Joy Culbreath, 
executive director of education, Choctaw Nation of Oklahoma. 
Welcome.
                              ----------                              

                                         Wednesday, March 25, 2009.

                       CHOCTAW NATION OF OKLAHOMA


                                WITNESS

JOY CULBREATH
    Ms. Culbreath. Thank you. I am not here to ask for any 
money.
    Mr. Dicks. You are a rare person. I will give you another 
five minutes.
    Mr. Cole. Mr. Chairman, part of the Choctaw Nation is in my 
district and I just do not want that to apply to every part.
    Ms. Culbreath. I am Joy Culbreath and I am the executive 
education director for the Choctaw Nation of Oklahoma, and I 
would like to say thank you for allowing me to come today and 
would like for the record to show that we want to thank 
Chairman Dicks for working with our chief, Gregory Pyle, and--
--
    Mr. Dicks. Good man.
    Ms. Culbreath. Yes, he is. We love him. In researching and 
clarifying the issue brought before you today. We also again 
want to welcome our close friend, Mr. Tom Cole, who is a member 
of this committee, and it is my understanding is the only 
Native American in the United States Congress, so we are very 
proud of that.
    Mr. Dicks. We are too.
    Ms. Culbreath. Yes. I am here to continue our discussion 
with this committee regarding the reinstitution of an academic 
program at Jones Academy to be fully operated by the Choctaw 
Nation of Oklahoma. Against the wishes of the Choctaw people, 
the academic program at Jones Academy was lost during the 
termination period of the 1950s when many Indian schools were 
closed in an attempt to break up tribes and assimilate them 
into the population. The Choctaw Nation has been diligent in 
keeping its commitment to the children of Jones Academy. Using 
only Choctaw tribal funds, we just last August opened a new 
elementary school at Jones Academy, $10.2 million, a state-of-
the-art school. All of the funds were tribal funds that built 
the school. We would love for you to come and visit this 
school, especially you, Mr. Cole.
    We really believe that Jones Academy is a place to call 
home to these students. During my tenure, an excellent onsite 
staff has been assembled and it is led by Superintendent Brad 
Spears and our vision is becoming a reality, a vision of a 
school operated by the tribe, staffed with loving and caring 
people and helping the Jones kids excel, and excel they have. 
For the past two years, the API scores, which is your Academic 
Performance Index scores, only four schools in the entire State 
of Oklahoma have had perfect scores. One of those is Jones 
Academy.
    Mr. Dicks. Congratulations.
    Ms. Culbreath. We are very proud of this. Also, we are one 
of only 34 schools out of 1,774 schools to have every regular 
education student make satisfactory or above on the state 
achievement test and so that is another proud point to claim 
with what we are doing with the academic program at Jones 
Academy. We also have a growing evening enrichment program that 
you would be very proud of. Our local university is sending an 
art teacher one day a week. This is a volunteer, no cost to us, 
that teaches art. We also have the University of Oklahoma 
journalism department that is coming one day a week at no cost 
to Jones Academy to help us to develop a professional 
newspaper. Also, we have been contacted by the University of 
Arkansas, which is closer in distance to us than even the 
University of Oklahoma, they would like to provide volunteer 
services. They are learning what is happening at Jones Academy. 
We plan to begin a music program where students can take 
private piano lessons, guitar, dance lessons, all of these 
things. We have a great Future Farmers of America (FFA) 
program. Matter of fact, just this past week a student showed 
his swine and received the reserve grand champion market swine 
at the Oklahoma City Junior Livestock Show. This is recognized 
as the world's largest junior livestock show, and this student 
placed second overall out of 600 entries. So that tells you 
what kind of program they have and how diligently they have 
worked with these kids.
    We also have a foundation board that we have established 
and we have an endowment plan so that we can look to the future 
and we are raising that to a very substantial amount of money, 
and what is so good about this, the Choctaw Nation, if you gave 
us $5, the Choctaw Nation matches it with $5. If you give us $5 
million, they match us with $5 million. And so also the Nation 
puts in $375,000 a year for the running of this school. So we 
are doing our part. We are making sure of that.
    Also, the Choctaw Nation wishes to reinstate the academic 
program--that is our request--at Jones Academy under tribal 
control. We wish to operate Jones Academy as a federal grant 
school. We ask that out government-to-government and trust 
relationship with the United States be recognized again and 
fully honored as it is with over 180 federally supported 
schools currently operating throughout the United States. 
Again, we are not asking for any construction funds whatsoever. 
That has all been taken care of.
    Mr. Dicks. You are running out of time.
    Ms. Culbreath. Oh, okay.
    [The statement of Joy Culbreath follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.029
    
    [GRAPHIC] [TIFF OMITTED] T0064A.030
    
    [GRAPHIC] [TIFF OMITTED] T0064A.031
    
    [GRAPHIC] [TIFF OMITTED] T0064A.032
    
    Mr. Dicks. Let me ask you a quick question. The moratorium 
was included in the Interior bill for 1996, and been continued 
in subsequent appropriation measures including the one for 
2009. The BIA has interpreted this to preclude the re-
establishment of a pre-existing program. We can show how this 
can be done without ending the moratorium altogether. Can you 
tell us anything about that?
    Ms. Culbreath. All right. When we say we want to re-
establish, we are not asking for a new academic program. We had 
an academic program, which was removed and taken away from us. 
We had no say-so whatsoever about that. We are proving here 
that we can--what we are saying to you is that we can educate 
these children better than anyone us and with pride and with 
their culture and with their language but we can also stand 
shoulder to shoulder with any school in the State of Oklahoma 
in academics and so we are asking you when we talk about that 
the re-establishment, we are not asking for a new school.
    Mr. Lovesee. Mr. Chairman, I am with the Choctaw Nation.
    Mr. Dicks. Come on up.
    Ms. Culbreath. This is Alan Lovesee.
    Mr. Dicks. Right. I remember you.
    Mr. Lovesee. The moratorium was put in because of 
construction problems with the new construction system and the 
fact that everything was getting so messed up with 
misinterpretations in the early 1990s. The moratorium was put 
in in 1996 and it has been interpreted by the BIA as precluding 
any discussions on any either expansion of an academic program 
or re-establishment of a previously terminated. We would like--
--
    Mr. Dicks. We will try to help you on that.
    Mr. Lovesee. We would like to see the moratorium modified 
to allow re-establishment in those cases where, one, the tribe 
does not request facilities funds so it does not mess up what 
the moratorium originally went to, and where in point of fact 
the tribe can show that it has some form of track record in 
providing services superior to where the kids are currently. 
Prior to this new school, they had been bused to a public 
school. The new school onsite is operated under public 
authority or public edicts.
    Mr. Dicks. But you want to expand the program somehow?
    Mr. Lovesee. We want to take over the grades 1 through 6 
and run them under tribal control as opposed to----
    Mr. Dicks. We will work with you, get with your Congressmen 
and your Senators to try to help you on this.
    Ms. Culbreath. And that is in our testimony.
    Mr. Dicks. Yes, I know. I saw it. We saw it in there. That 
is why I raised it.
    Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman, and this clearly is a 
case where the intent of the rules is frustrating. This can be 
dealt with at no cost to anybody and just the reassertion of 
tribal control and authority. If I may, I just want to, for the 
record, thank you and thank Chief Pyle, who is just a 
remarkable leader, and I think, Mr. Chairman, what you see here 
is--the Choctaws are an extraordinarily entrepreneurial tribe 
and when they are successful economically, they reinvest it for 
public purposes.
    Mr. Dicks. Right. They are fantastic.
    Mr. Cole. It just flows right back.
    Mr. Dicks. We have some Choctaws up in the Northwest too.
    Mr. Cole. You know, they are a big tribe. There are 110,000 
of them in Oklahoma, so they are a very substantial tribe.
    Ms. Culbreath. There are 210,000.
    Mr. Cole. I just said in Oklahoma. I am not counting the 
Mississippi Choctaws, I am not----
    Ms. Culbreath. No, I am not counting them either, just 
Oklahoma.
    Mr. Cole. Mr. Chairman, you can see what our problem has 
been for about 500 years. There are a lot of Choctaws.
    Mr. Dicks. All right.
    Mr. Cole. Again, thank you for what you are doing. Thank 
you for the example you provide in the reinvestment of tribal 
funds back into education, back into services. It is quite a 
remarkable track record, and we ought to be helping.
    Ms. Culbreath. Thank you for giving us this opportunity.
    Mr. Dicks. Yes, we will work with you.
    Ms. Culbreath. We will make you proud.
    Mr. Cole. Can I make one other observation, Mr. Chairman?
    Mr. Dicks. Yes, go ahead.
    Mr. Cole. I have to tell you, I am not really the only 
Native American. You have a lost Cherokee here in Mr. 
LaTourette. His grandmother was from Oklahoma. And if we can 
get him back on the rolls, we can double our caucus size.
    Mr. Dicks. Martha Garcia is president of the Ramah Navajo 
School Board. Welcome.
    Ms. Garcia. Thank you very much, Mr. Chairman.
    Mr. Dicks. We will put your entire statement in the record 
and you have five minutes to summarize.
                              ----------                              

                                         Wednesday, March 25, 2009.

           RAMAH NAVAJO SCHOOL BOARD, INC. BOARD OF TRUSTEES


                                WITNESS

MARTHA GARCIA
    Ms. Garcia. Okay. Thank you very much and I appreciate that 
I have been able to get on the witness list for today. As you 
said, I am the president of the Ramah Navajo School Board and I 
am here today to let you know that we are faced with a problem. 
Our first appropriation came directly from Congress back in the 
early 1970s to build our school out in Pine Hill, New Mexico, 
which is in the western portion of New Mexico, and since then 
we have maintained and kept improving upon those facilities 
over these past 40 years now in the self-determination 
community. We have been running our own educational programs 
from kindergarten through 12th grade. We have 30 other programs 
that we have contracted through Indian Health Service, 
Department of Labor and Department of Education, and the school 
board. We have been running a lot of other community programs 
because the school was the only vehicle at one time to be the 
contractor for our community for BIA RL. 93-638 programs.
    As you can see, our needs for repairs and renovation to 
upgrade the facility--the amount has been going up annually. We 
just have not been put on the list to be the next one to 
receive funding through the Bureau of Indian Affairs to do the 
repairs and renovation, and currently the cost is $4,517,755. 
That is the amount that we are going to need to repair these 
buildings. The central administration office building has been 
receiving the least of our attention as we look at maintaining 
our school building and the facilities. Our location on top of 
Continental Divide has not been a lot of help. There is always 
constant shifting and moving of the ground and our electrical 
system, our water lines and the road that goes through our 
facilities have been in need of repair all these years. Based 
on that we would like to do, repairs and renovations, to 
infrastructure and then we also need temporary facilities 
during the time that we are doing the repairs. Our facility 
covers a quarter of a section and we need to again take a look 
at that and put in security fencing.
    Mr. Dicks. Let me ask you a quick question. Are you trying 
to go in under the $500 million at the BIA for the Recovery 
Act?
    Ms. Garcia. We are trying to--we have submitted----
    Mr. Dicks. I recommend that you take a look at that.
    Ms. Garcia. Okay. I think we are ready for that, but we 
still do not know what process they are going to use. I kind of 
fear that the way they are planning their activities seems to 
be just centralized within their own system and I do not know 
how much of that is going to filter down to contracted 
programs.
    Mr. Dicks. Well, it is at least worth a look, I think. Go 
right ahead.
    Ms. Garcia. And then we had a dorm that was constructed and 
completed and we have been using it within the last three years 
but we had to put in a lot of our own funding because the 
construction issues. The architect did not put in some of the 
plans that should have been in place and then the water 
pressure going to the dorm facilities did not accommodate to 
turn the fire sprinklers on when it needs to be so we had to 
upgrade that. We had a cost overrun of close to $500,000 that 
we would like to recover. We have not had any luck working with 
the BIA trying to recover that, even though they gave us verbal 
agreement that they would do that. The water system was put 
back in place at the time that we constructed the school back 
in the early 1970s is in need of repair. Our well has been 
constantly going out and we need to put in a new well to 
accommodate not only the school but we have health centers, the 
behavior health service, the new dorm, the staff housing and 
then we also have to provide water to our housing that is off 
campus, our community housing that is off campus serving over 
300 people, families, and based on that we need to replace 
that.
    And last of all, we would like to put our early childhood 
into one area so that our educational system would be 
streamlined starting with the younger, the small from birth to 
five years old. We have them scattered throughout campus here 
and there and we would like to put them in one place. The plans 
that we have would accommodate them so that by the time they 
get to kindergarten and elementary that they would be ready for 
that. But as it is, we have different situations that prevent 
us from putting everything in one place because we just do not 
have the facilities and that is what we are looking at right 
now.
    [The statement of Martha Garcia follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.033
    
    [GRAPHIC] [TIFF OMITTED] T0064A.034
    
    [GRAPHIC] [TIFF OMITTED] T0064A.035
    
    Mr. Dicks. Thank you. Any questions?
    Okay. Thank you very much.
    Now we have Mr. Jim Zorn, executive administrator of the 
Great Lakes Indian Fish and Wildlife Commission. Welcome.
                              ----------                              

                                         Wednesday, March 25, 2009.

            GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION


                                WITNESS

JIM ZORN
    Mr. Zorn. Bojou, Mr. Chairman and members of the committee. 
Once again, it is a great honor and privilege to be here, and 
our 11 member tribes thank the committee for this opportunity 
to provide you with the information you need to do what you 
have been doing for over 25 years in our case, and that is be a 
stalwart supporter of the tribes' treaty implementation program 
under the rights protection implementation line item and now 
increasingly more so in the EPA's budget.
    As a reminder, Mr. Chairman, I know you are familiar with 
this but there is a few new members of the committee, we serve 
11 tribes in the Minnesota, Michigan, Wisconsin area who retain 
rights to hunt, fish and gather under treaties with the United 
States outside the boundaries of their reservation. Our purpose 
is to provide the biological expertise and conservation 
enforcement. A little known fact, I believe, is that we provide 
approximately $600,000 to our member tribes for the tribal 
courts, the systems that they need in place to properly 
regulate their tribal members as they hunt, fish and gather in 
the areas under the treaty coverage. The purpose of these 
rights are to provide for subsidence, economic, cultural, 
medicinal and spiritual benefit for the tribal communities.
    The funding we seek is to restore cuts in programs that we 
have made because of flat-line funding, because of indirect 
cost shortfalls and so on as well as in the EPA. I was hoping 
Mr. LaTourette would be here as well because I think as we 
spoke last year, Mr. Chairman, the Great Lakes states, tribes 
and citizenry have come together to strategize to protect and 
restore the Great Lakes, and in that strategy everyone 
recognized the importance of tribes to be there not only at the 
table for talk but in terms of substance and having their 
programs. So if I could bring some main messages on those major 
issues that you asked for, Mr. Chairman, it is from the tribal 
natural resources program perspective, environmental management 
perspective, please help secure the base of these programs. As 
these base funding levels have been eroding over time, so has 
the tribes' abilities to be partners on the very project-
specific funding like the Tribal Wildlife Grants, like the 
Circle of Flight funding and so on.
    The other point that we would like to make is that from the 
tribal communities' perspective, they tend to want to preserve 
what is already pristine, and you know, these are natural 
resource communities and the economic cost associated with 
restoring things that have been destroyed is much greater than 
what it takes to preserve something in its already good state. 
That is something that is often overlooked, and as we look at 
much of the budget package, we see efforts to restore things 
that have been degraded. The tribes need the base funding so 
that they can preserve what provides benefits for their 
community, the food that they eat, some money that they need, 
health benefits associated with a much healthier diet. If you 
recall, Mr. Chairman, and again, Mr. Cole, perhaps, you were 
not here in previous years, one thing that we try to do is 
educate our members on the pollution levels, for example, 
mercury contaminant levels in the fish that they eat, the 
walleyes, in Wisconsin, Minnesota and Michigan. We have 
produced these maps where we have sampled the fish tissue and 
found the levels of mercury in those tissues that tribal 
members eat to help the members understand where they perhaps 
want to fish so that their diet is healthy. I mean, these are 
the foods that they eat. It does not help to go to McDonald's.
    Mr. Dicks. We have the same problem in the Northwest with 
the Orcas. We do not eat the Orcas obviously but they have a 
substantial amount of mercury.
    Mr. Zorn. And we have been working on that both from the 
perspective of trying to reduce the emissions that cause the 
mercury but to educate the tribal membership and----
    Mr. Dicks. What do you think? Is it air pollution mainly?
    Mr. Zorn. Airborne obviously, and our representative from 
West Virginia and I always have this look at each other when we 
talk about the coal obviously is a large emitter of the 
mercury.
    And so the benefits of these programs, as you know, extend 
beyond the tribal communities, and that is what again perhaps 
Mr. Cole, if you would like to look at this and share this with 
Mr. LaTourette. This is the strategy that the eight states 
around the Great Lakes, 30-some tribes around the Great Lakes 
plus a large number of citizens and non-governmental 
organizations endorsed. If you look at page 12 to 13 where I 
have marked there, there is this statement about the role of 
tribal nations, and you will note that the strategy in all 
those partners recognize that without the base funding, tribes 
just cannot be there and the strategy will not succeed.
    Finally, the benefits of the surrounding communities extend 
beyond the protection of natural resources. For example, when 
our conservation officers respond to a call for help from a 
local sheriff, it does not matter the color of the uniform; we 
are there to help.
    So with that, we thank the committee for its longstanding 
support and we would be happy to help in any way we can for the 
committee to do its work.
    [The statement of Jim Zorn follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.036
    
    [GRAPHIC] [TIFF OMITTED] T0064A.037
    
    [GRAPHIC] [TIFF OMITTED] T0064A.038
    
    [GRAPHIC] [TIFF OMITTED] T0064A.039
    
    Mr. Dicks. We appreciate it. We appreciate your good 
efforts and all of the tribal efforts that go with that. Thank 
you.
    Any questions?
    Mr. Cole. Just one quick question. Do you have some idea of 
the scale you are talking about in terms of funding where you 
would like to see, where are you at now?
    Mr. Zorn. We are at about $3.9 million with the BIA rights 
protection. We would like to get that closer to $4.2 million, 
and our understanding is----
    Mr. Dicks. Is that in the budget?
    Mr. Zorn. The $3.9 million has been, yes, and so we have 
had--it was a little higher but that has been eroded through 
the across-the-board cuts so that is why we are going for a 
little bit more. Also, our understanding is, although, Mr. 
Chairman, as you pointed out, we do not know the President's 
budget exactly but our understanding is the Great Lakes 
geographic component of the EPA potentially is in for a large 
increase in part because of the strategy and other things, the 
role of the tribes there, and that is why we had mentioned the 
$300,000 in base funding out of that amount so that we can 
continue to be there with our scientists and be at the table to 
help make good policy and do good things.
    Mr. Cole. Thank you. That was very helpful.
    Mr. Dicks. Next is Geoffrey Roth, executive director of the 
National Council of Urban Indian Health. Welcome.
                              ----------                              

                                         Wednesday, March 25, 2009.

                NATIONAL COUNCIL OF URBAN INDIAN HEALTH


                                WITNESS

GEOFFREY ROTH
    Mr. Roth. Thank you. I want to first of all thank you, 
Chairman Dicks, and the rest of the committee for your 
continued support over the last three years when we had been 
zeroed out of the budget, and I appreciate you monitoring our 
program. On behalf of the 36 urban Indian member programs and 
150,000 urban Indians that our program serve annually, I would 
like to thank you for inviting us to testify today on the 
fiscal year 2010 budget. This year, the National Council of 
Urban Indian Health has four budget recommendations.
    First, we support the National Indian Health Board's budget 
recommendations that the Indian Health Service receive an 
increase of $908 million. You will be hearing more about that 
tomorrow when Reno Franklin testifies from NIHB. We are 
encouraged by President Obama's proposed increase of $700 
million. However, the Native American health delivery system 
needs to be fully funded in order to fulfill the trust 
responsibility to the Indian people.
    Second, we want to advocate for a $10 million increase in 
the Urban Indian Health Program line item. These programs have 
had nearly flat funding over the past three years. You have 
rectified the issue of the President's zeroing it out and we 
appreciate that. In order to meet rising needs, medical 
inflation rates, and remain competitive with other community 
health center programs, we must receive an increase in base 
funding.
    Thirdly, we would like to request that section 509 of the 
Indian Health Care Improvement Act be funded for delayed 
maintenance and construction costs for urban Indian health 
programs at $10 million. I will talk about that a little bit 
more in just a second. And then we are also asking for a one-
time needs assessment of the urban Indian community. The last 
needs assessment that was done on urban Indians in this country 
was in 1981 by Indian Health Services.
    We have two new budget recommendations this year, one being 
the renovation services. I want to talk a little bit about our 
work on this with the American Recovery and Reinvestment Act. 
In November the Obama Administration transition team had 
requested that we identify ready-to-build projects that could 
be built within 24 months. We identified 11 major renovation 
projects that were ready to go but were delayed because of the 
credit crisis and the commercial lines of credit drying up. 
Unfortunately, because Senate appropriators did not realize 
until too late that the Urban Indian Health Program does not 
receive funds through section 301 of the Indian Health Care 
Improvement Act, the Urban Indian Health Program was not 
included in the American Recovery and Reinvestment Act 
appropriations. We had Senate appropriators that wanted to 
rectify that situation and to carve out a portion of the Indian 
facilities money for urban Indian facilities money but I and 
the National Council of Urban Indian Health declined to take 
the money that had already been publicly displayed for the 
tribal health programs. We are not here to take money from 
tribes and we are not here to take money from an underfunded 
tribal health facilities program that already exists. We 
insisted that the only money that we would take was if they 
could find additional money. Senator Udall had drafted an 
amendment to include an additional $20 million. Unfortunately, 
it did not make it to the Floor. These renovation projects for 
urban Indian health programs will allow our programs to reach 
an additional 100,000 patients annually and create hundreds of 
new jobs and expand necessary services to our vulnerable 
population.
    The last needs assessment for urban Indians was conducted 
in 1981, nearly 30 years ago. Without a doubt, the needs for 
urban Indians have grown since then. For example, the estimated 
potential user population of the Urban Indian Health Program is 
almost 1 million people and that is just in the cities where we 
currently have services including Seattle, Oklahoma City and 
Tulsa. NCUIH strongly advocates for a new needs assessment for 
the community by a national membership-based organization. The 
needs assessment should include comprehensive demographic data 
pulled from various sources, a vigorous analysis of social 
determinants of health, an examination of major health 
disparities, an assessment of service access, utilization and 
availability.
    Again, I want to thank you for allowing us to testify on 
our budget priorities. You know, Congress has long supported 
the Urban Indian Health Program and recognizes that Native 
Americans live in cities because of the federal relocation era 
and termination policies. Again, I want to thank you for the 
last three years. Again, to recap, and I guess I am asking for 
money, $10 million increase for the urban Indian line item, $10 
million for facilities construction and $1.5 million for an 
urban Indian needs assessment. Thank you.
    [The statement of Geoffrey Roth follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.040
    
    [GRAPHIC] [TIFF OMITTED] T0064A.041
    
    [GRAPHIC] [TIFF OMITTED] T0064A.042
    
    [GRAPHIC] [TIFF OMITTED] T0064A.043
    
    Mr. Dicks. All right. Good statement.
    Any questions? Yes, Mr. Cole.
    Mr. Cole. First of all, just thank you for the work you do. 
I have been to the facilities in Oklahoma City and Tulsa and 
they are terrific, and we get a lot of folks that would not get 
health care that are from either their reservations or areas of 
historic jurisdiction that have it, so thank you.
    There is sometimes some friction between the tribes, 
obviously, and this particular service, so thank you for not, 
taking the obvious temptation and going after tribal programs, 
which would have exacerbated that. It is very farsighted of 
you. I know in the case of the Chickasaws, we now have a person 
in Oklahoma City that coordinates needs when patients come in 
because our center for health care is in Ada, Oklahoma 100-plus 
miles away. Are you seeing other tribes that are moving into a 
cooperative relationship with you where they can leverage what 
they have and what you already do and just build that link?
    Mr. Roth. You know, there are other tribes that do that 
across the country that have a set of small offices or work 
with our programs, maybe have a specific person that works in 
the office, in their clinic. I would say though that there has 
been a resistance from Indian Health Service's upper management 
to really fully integrate the ITU system, meaning the Indian 
operated, tribally operated and urban Indian system. I am 
excited about the new director that we have for Indian Health 
Service, Dr. Yvette Roubideaux, and I am hopeful that they can 
bring about true reform and really look at integrating that ITU 
system. The truth is, our population is transient and our 
population moves between urban centers and reservations for 
ceremony or for different job opportunities or for family 
reasons, so I think we could do a better job at it.
    Mr. Cole. Well, again, thank you for what you do. Because 
the need is real and you are quite right, the trust obligation 
does not cease simply because you are not on a reservation or 
in an area of jurisdiction. This really fills a tremendous hole 
in Indian health care. Thank you.
    Mr. Dicks. Thank you. Good statement.
    Jacquelyn Johnson Payta. You are going to be speaking for 
the National Congress of American Indians.

                                         Wednesday, March 25, 2009.

                 NATIONAL CONGRESS OF AMERICAN INDIANS


                                WITNESS

JACQUELYN JOHNSON PAYTA
    Ms. Payta. Right. Thank you very much, Mr. Chairman and 
members, Mr. Cole, for allowing me to testify today. President 
Garcia was planning on being here today but they had a death of 
one of their community clan leaders and he needed to be at 
home.
    On behalf of the National Congress of American Indians, 
first I want to start by sharing with you copies of our budget 
request. Every year for the last several years Indian Country 
has come together with the National Congress of American 
Indians (NCAI) all the various single-issue organizations, the 
National Indian Health Board, education, et cetera, and putting 
together a comprehensive document for your use to be able to 
spell out Indian Country's priorities. Today I would like to 
take a moment to highlight a few of those priorities as they 
relate to your committee, and certainly the top priorities of 
Indian Country. As we looked at the fiscal year 2010 budget, as 
you have stated earlier, that the President does not have the 
detail yet, but we look forward to analyzing that detail and 
sharing that with you as it relates to not only the trend of 
where Indian budgets are going but also the impact of any 
budget additions or exclusions, and we will look forward to 
sharing that information with you when we get that.
    First of all, the premise of Indian Country's base is that 
we want TPA, Tribal Priority Allocation, funded, and also fully 
fund contract support. We believe that without the funding for 
those elements, it undermines and inhibits our ability to 
provide self-determination and to be able to provide the tribal 
administrative programs and services at the local level. And 
from there, the tribes have decided that public safety, 
education, health, natural resources and economic development 
are our top priorities in this fiscal year. I would like to 
highlight just a few of those things of course. One is, we 
would like to have full funding of contract support; two, a 10 
percent increase over the TPA, the Tribal Priority Allocation 
for public safety, an issue that affects our communities across 
the board. We look at public safety, an increase in law 
enforcement as well as tribal courts and detention centers and 
maintenance. We are supporting $120 million increase for Indian 
schools, construction and repair, and of course the $24.3 
million for the Johnson-O'Malley program. Under water resources 
and water rights, we would like to have them restored to no 
less than the enacted level of 2003. For Indian land 
consolidation, $145 million for land consolidation which helps 
us promote economic development and infrastructure development 
in our communities. Under energy, we believe that energy is a 
great resource for tribes to be able to address economic 
development as well as their own resource needs. We need $5 
million for technical assistance and capacity building to be 
able to help tribes take advantage of some of the amendments 
that were in the Energy Act such as the TERAs, the Tribal 
Energy Resource Agreements, that give the flexibility of tribes 
to develop their energy and the regulations around that, and 
$10 million for the feasibility analyses that are needed by 
many tribes to help determine alternative energy needs. We also 
are asking for a minimum of $908 million increase for Indian 
Health Care Service, and of course, to fully fund IHS contract 
support costs. With EPA, we are looking at----
    Mr. Dicks. What is that?
    Ms. Payta. The EPA?
    Mr. Dicks. Fully funding contract support costs. What is 
that?
    Ms. Payta. Contract support cost is----
    Mr. Dicks. I know what it is but what is the number?
    Ms. Payta. I will get you the number. I do not have it 
here. It is in the book, though, I believe, in the book right 
there. I just do not have it written right here and I do not 
want to say it wrong but I will make sure you have that.
    Mr. Dicks. Thank you.
    Ms. Payta. And then for environmental protection, we want 
the Indian General Assistance Programs at $68.3 million. These 
are the gap programs that allow the tribes to operate the 
programs in their own communities and then $10 for the Tribal 
Cooperative Agreements that tribes across the country are 
working to do. I wanted to just conclude by saying that the 
tribes are proving themselves to be a good federal investment. 
By exercising self-determination, you are able to see that the 
programs have actually grown and expanded in many ways. Tribes 
have developed the capacity to be able to provide these public 
services at home, and we find that policies of self-
determination are allowing tribes to move forward quicker than, 
you know, the federal government providing direct services, so 
we think that is important for us to continue.
    Also with the economic recovery money, NCAI did a lot to 
provide some technical assistance and information to the tribes 
and we will continue to monitor those programs and the federal 
programs as they do the outreach on that. We want to prove to 
you that we are a good federal investment. Tribes have seen 
this as the first opportunity of many to be able to invest in 
our communities. Thank you.
    [The statement of Jacquelyn Johnson Payta follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.044
    
    [GRAPHIC] [TIFF OMITTED] T0064A.045
    
    [GRAPHIC] [TIFF OMITTED] T0064A.046
    
    [GRAPHIC] [TIFF OMITTED] T0064A.047
    
    Mr. Dicks. Good. Thank you very much.
    Any questions?
    Andy Joseph, the Northwest Portland Area Indian Health 
Board. Welcome.
                              ----------                              --
--------

                                         Wednesday, March 25, 2009.

              NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD


                                WITNESS

ANDY JOSEPH
    Mr. Joseph. Good morning, Chairman Dicks, members of the 
committee. My name is Andy Joseph, Jr. I serve as chairman of 
the Northwest Portland Area Indian Health Board and I am 
elected tribal leader from the Confederated Tribes of the 
Colville Reservation. I want to begin by underscoring the 
significant health disparities that Indian people face and 
progress we have made to address them over the 30 years since 
IHS was established in 1954. Our efforts have reduced maternal 
mortality by 64 percent, reduced cervical cancer by 76 percent, 
reduced tuberculosis mortality by 80 percent, and average death 
rate from all causes has been lowered by 29 percent. Despite 
these improvements, American Indians and Alaska Natives 
continue to have the highest health disparities in the United 
States, 400 percent more likely to die of tuberculosis, 91 
percent more likely to die of suicide, 300 percent more likely 
to die of diabetes complications, 67 percent more likely to die 
of pneumonia or influenza.
    In light of these health disparities, it is essential that 
the committee provide the Indian Health Service with the 
necessary resources to improve the health status of American 
Indians and Alaska Natives. The fundamental budget principle 
for Northwest tribes is that the basic health care programs of 
the Indian Health Service must be preserved. To do this, 
Congress must provide adequate funding to cover mandatory costs 
of pay increases, inflation, population growth and contract 
support costs. If these costs are not funded, tribes have no 
alternative but to cut the level of health care services. We 
recommend at least $469 million to maintain current services as 
follows.
    On the chart here you will see some of the numbers that I 
will talk about.
    Number one, we request that the committee make sure that 
the President's budget does not include Medicare or Medicaid 
collections as part of its increase.
    Mr. Robert. Members of the committee, if I can explain the 
chart for you, and you have this in the testimony on page 2 as 
well. This is medical inflation that has been extrapolated from 
the CPI, and if you use the Consumer Price Index, it is 
significantly lower than the medical inflation rate. The red 
line represents medical inflation extrapolated from the CPI. 
The black line is the approved budget increase for the Indian 
Health Service. The yellow represents the unfunded population 
growth as well as medical inflation, and as you can see, over 
the last eight years the agency, we projected, has lost at 
least $700 million in unfunded inflation and population growth 
so it has diminished the purchasing power of the Indian Health 
Service budget. You can see prior to 2002, we were receiving 
increases that were sufficient to cover medical inflation so 
the numbers that we project in the testimony that Mr. Joseph 
has submitted are depicted on this graph here.
    Mr. Joseph. Recommendations, we request that the committee 
make sure that the President's budget does not include Medicare 
and Medicaid collections as part of its increase. Since the 
full budget details are not available, it is not possible to 
determine this important issue including third-party 
reimbursements misrepresents the Administration's request and 
will not provide the necessary funding to maintain current 
services. We urge the committee to take into consideration 
actual medical inflation when deliberating the IHS budget. 
Medical inflation is higher than the general Consumer Price 
Index and increases based on general CPI will not cover rising 
health care costs.
    Three, we recommend the committee provide $158 million to 
fund medical inflation and provide $67 million to cover 
population growth in fiscal year 2010.
    Four, the CHS program is extremely important to the 
Northwest tribes. The Senate Committee on Indian Affairs 
reports the unmet need in the CHS program to be at least $1 
billion. We recommend the committee provide at least $45 
million increase for the CHS program.
    Five, a current for Northwest tribes is that the economic 
stimulus bill passed by Congress include $227 million for only 
two construction projects in two states. When Congress passed 
the stimulus bill, it intended the funding to be stimulating 
economies across the United States and Indian Country. Our 
tribes are dismayed by the fact that almost 50 percent of the 
stimulus funding provided to the IHS only went to two projects. 
Because the funding of these construction projects came outside 
the IHS appropriations, we recommend that Congress provide the 
IHS with special appropriation to phase in staffing at these 
new facilities. Otherwise tribes nationally will be penalized 
twice by the impact of the economic stimulus funds. First, 
tribes nationally did not get a fair opportunity to participate 
in the $227 million provided for facilities construction, and 
second, when IHS phases in the staffing at the two new 
facilities, it is likely to take 50 to 60 percent of the IHS 
budget increases in the year the projects come on line.
    Sixth, Northwest Portland Area Indian Health Board 
recommends a $2 million increase in contract support costs. We 
also urge the committee to fund a special long-term-care 
initiative in Indian Country. There are no comprehensive long-
term-care services in Indian Country, and unless the issue is 
addressed, it will become a crisis.
    Lastly, we recommend that the Congress restore the $711 
million in lost purchasing power over the last eight years by 
providing adequate budget increases in IHS in fiscal year 2010 
and 2011. Thank you.
    [The statement of Andy Joseph follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.048
    
    [GRAPHIC] [TIFF OMITTED] T0064A.049
    
    [GRAPHIC] [TIFF OMITTED] T0064A.050
    
    [GRAPHIC] [TIFF OMITTED] T0064A.051
    
    Mr. Dicks. Thank you for your statement and we will do our 
best to look at this.
    Mr. Joseph. I would like to say we do want to support our 
urban clinics and anything you can do for addressing the needs 
of our schools.
    Mr. Dicks. Yes, we are working on that too.
    Mr. Cole. I have a quick question.
    Mr. Dicks. Yes, sure.
    Mr. Cole. I am just curious. You mentioned, and this has 
come up several times in other testimony about the $227 million 
targeted toward two specific facilities, and I am not 
questioning the need. I am sure they are quite legitimate. But 
was that written specifically in the stimulus bill?
    Mr. Dicks. No, it was not an earmark.
    Mr. Cole. So how did we end up at that particular point?
    Mr. Robert. I think for us in the Northwest, it is 
questionable. There was language in the conference report that 
indicated that the $227 million should be directed to two 
projects that were currently underway on the current health 
facility construction system.
    Mr. Cole. Again, I am not questioning the need.
    Mr. Dicks. I am just saying, they went down the priority 
list and people were upset because there was a lot of money, 
and I was upset. I wanted to find out myself, but it was done 
on the basis of the priority list, which is the way we have 
operated.
    Mr. Robert. I think the concern for tribes nationally is 
that, and we have talked to Congressman Dicks about this and 
members of the staff, is that when these new projects come on 
line, they are going to take approximately 50 to 60 percent of 
the IHS budget increase. So Congress might think it is giving 
the agency and tribal health programs a 10 percent increase but 
in fact for us in the Portland area, we might only receive a 1 
to 2 percent increase because almost half of the money is going 
to be used to phase in staffing at these facilities.
    Mr. Cole. We have a very similar concern, Mr. Chairman, 
because, you know, our tribe is actually building $135 million 
facility, totally tribally funded so no federal dollars, but 
when it comes on, obviously there is a concern, will there be 
sufficient funding at the staffing level from IHS, so believe 
me, I am very sympathetic and aware of your problem. It is one 
of those, when we build something, you have to operate it, you 
have to put people in it and it really crimps the rest of the 
budget.
    Mr. Joseph. Well, what also happens is when we in our area 
only end up with the 1 percent increase, the population and 
medical rates go way up so in reality it is cutting our health 
care. We have to cut our health care needs and we end up with 
more people dying, you know, at higher rates because there is 
not the adequate funding. That is why we are asking for when 
these come on line and staffing is included that you put in an 
extra amount in to staff those facilities so that we do not 
have to feel the impact in the other areas.
    Mr. Dicks. Thank you.
    Lillian Sparks, the National Indian Education Association.
                                         Wednesday, March 25, 2009.

                 NATIONAL INDIAN EDUCATION ASSOCIATION


                                WITNESS

LILLIAN SPARKS
    Ms. Sparks. Right. Thank you for giving me this opportunity 
to testify. I want to apologize on behalf of our president, 
Robert Cook, but he is snowed in in South Dakota. Otherwise he 
would have loved to have been here with you.
    Mr. Dicks. I have seen those television clips. It looks 
pretty rough.
    Ms. Sparks. Exactly.
    Well, under new leadership with new opportunities, NIA 
believes that now is the time to reverse budget cuts in native 
education programs. We are very hopeful that schools educating 
native students will receive stronger support and funding for 
native language and cultural curriculum, funding for Indian 
school construction and repairs, and increased funding for 
tribal colleges, as stated in President Obama's blueprint for 
strengthening tribal communities.
    For the past three school years, only 30 percent of BIE 
schools have made adequate yearly progress (AYP) so that is 
very unfortunate but it is also very alarming. We are hoping 
that we can provide greater collaboration between Department of 
Education and Department of Interior, and we are asking for 
your assistance in helping to coordinate that collaboration 
between the two agencies. NIA is requesting an amount of $661 
million, which includes new program funding and a modest 5 
percent increase over fiscal year 2000 line levels. This 
includes funding for the elementary and secondary education 
programs, education management, a $25 million allocation for 
student transportation and a $5 million allocation to provide 
technical assistance to tribes that want to develop their own 
standards and assessments. Schools currently have to use 
classroom dollars to transport their students to make up for 
the transportation funding shortfall. During the current school 
year, BIE-funded school buses will travel nearly 15 million 
miles, often over dirt or gravel roads. The Little Wooden 
School located on the Pine Ridge Reservation in South Dakota 
runs 13 bus routes each day, which travel on average 1,600 
miles per day totaling 260,000 miles annually for regular bus 
runs, not including activity runs.
    For Indian school construction and repair, NIA is 
requesting $263.4 million. In May of 2007, the Office of the 
Inspector General at the Department of Interior issued a flash 
report that describes the conditions at BIE schools that 
require, and these are quotes, ``immediate action to protect 
the health and safety of students and faculty and that the 
failure to mitigate these conditions will likely cause injury 
or death to students or faculty.'' This flash report describes 
the alarming and life-threatening conditions at BIE schools 
that the federal government has created in its failure to 
properly maintain Indian education construction facilities.
    NIA is also requesting report language that the Department 
of Interior report on the status of the list of BIE schools, 
how much funding is needed to complete the projects and a 
timeline for completing the projects. Just now when you were 
speaking with the Northwest Portland Indian Health Board, you 
talked about a priority list. Well, there is a similar priority 
list over at Department of Interior for school construction but 
we do not know who is on that list, what the status of that 
list is or who is even up next for school construction projects 
and so we are asking for your assistance in making that process 
more transparent so that when schools are coming up that they 
have their systems in place and that their schools can be 
completed in a timely manner.
    I also wanted to make mention that the Recovery Act does 
provide for $450 million for construction but that money is to 
be shared with also roads and detention facilities. Earlier 
there was a witness that was talking about some of her school 
facility needs. We are not sure if that recovery funding is 
going to actually reach her. We did meet with the Department of 
Interior last week and we were advised on a number of things, 
one of them being that they have contacted the schools that 
would be candidates for receiving the recovery funding but they 
were not even sure at that time of what that actual number 
would be. So about 20 to 30 schools of the 184 schools have 
been contacted that they might be able to receive funding under 
the Recovery Act.
    Mr. Dicks. Were these schools that had made application?
    Ms. Sparks. These are schools that would be either on the 
construction list or on their repair list, which is also a list 
that we have yet to see. So we are requesting your assistance 
in terms of finding out who is on the list and the status of 
that list.
    Mr. Dicks. Has it been a preexisting list or a new list?
    Ms. Sparks. Well, we were advised that the construction 
list is a preexisting list that was established back in 2004, 
five years ago, and that is the list that we are supposed to go 
off of but we do not know which schools have been completed. We 
do not know which schools have received funding. We do not know 
who is next in line to receive funding, so that list is almost 
out of date to us. With regards to the repair list, we were 
advised that this list changes daily and so we do not know what 
that means, and when we pressed for more information we were 
advised that schools are taken off that list and added on on a 
regular basis because repairs and maintenance have been 
fulfilled and also that there are new repairs and maintenance 
needs that have been advised to Interior. So we request your 
assistance in knowing what that list looks like as well.
    Mr. Dicks. Who are you talking to over there?
    Ms. Sparks. We are talking with Jack Reever in the Office 
of Facilities Management and Construction.
    I also would like to make mention that we were advised in 
order to bring all of the school construction facilities up to 
date, it would cost approximately $1.8 billion and that does 
not include for renovation or technological advances. That is 
talking about bringing schools back to their chalkboard status. 
We are not talking about whiteboards, we are not talking about 
computers in the classroom. We are talking about 1980s 
conditions of schools, and that is $1.8 billion.
    With regards to Johnson-O'Malley funding, with my few 
seconds left, I just want to thank both Mr. Cole and Mr. Dicks 
for your continued support in terms of restoring the funding 
for Johnson-O'Malley funding. We would certainly appreciate 
your assistance in helping us remove the freeze for the student 
population count. JOM funding is now at 15-year-old program 
dollars. We do not know what the population count is looking 
like now. In Oklahoma in particular, we are advised that the 
programs have certainly grown in terms of those participating 
but not in terms of funding, and so we would appreciate your 
assistance in helping us remove that freeze.

[GRAPHIC] [TIFF OMITTED] T0064A.052

[GRAPHIC] [TIFF OMITTED] T0064A.053

[GRAPHIC] [TIFF OMITTED] T0064A.054

[GRAPHIC] [TIFF OMITTED] T0064A.055

    Mr. Dicks. Any questions?
    Mr. Cole. Just quickly, thank you for mentioning that 
because it is a huge problem for us. We have had enormous 
growth. Could you just give me quickly, being new to the 
committee, what is the total student population that we are 
dealing with in the BIE and how has it been trending over time?
    Ms. Sparks. Sure. It has been pretty consistent from what I 
have observed, about 48,000 students that are being educated at 
BIE, which is less than 10 percent of the total student 
population for Indian students.
    Mr. Cole. And what sorts of programs do we have for non-BIA 
Native Americans in other school districts?
    Ms. Sparks. Well, they receive a lot of the same services 
in terms of Title VII programs, funding under Title I, all of 
the provisions under the Elementary and Secondary Education Act 
but they receive more funding as well because they receive a 
lot of the state funding, so even though the programs may be 
similar, there are additional resources to help support the 
students at public schools.
    Mr. Cole. One other quick question, if I may. What kind of 
oversight do we have that we know--I have seen a lot of 
instances historically in Oklahoma that funding would flow into 
the public school system but it did not really get targeted 
once it got there. I mean, it was not targeted toward native 
students, toward special needs, whether it was language, 
whatever, it just became part of the baseline budget overall 
and raised it and that is fine, but that is not the purpose 
behind the money. It is supposed to reach a particular group of 
students.
    Ms. Sparks. Absolutely. We have the same concerns when it 
comes to public schools. With Title I funding, we know that 
there is an allocation that goes to the BIE schools and we can 
follow those dollars but we do not know necessarily how these 
dollars are helping Indian students that are not in BIE schools 
but may be in a state school that is a public school on tribal 
lands. So, you know, 90 percent plus Indian population, it is 
on a reservation, and they are supposed to be receiving Title I 
dollars but we do not necessarily know how much money is 
actually going to that particular school.
    Mr. Cole. I would love to sit down and work with you both 
and get better educated and see if there are ways that those 
dollars can be tracked. Frankly, you cannot really assess the 
needs if you do not track them anyway, you do not know if you 
are doing any good, just to make sure that the money again 
flows into public schools for this particular purpose is 
actually used for this purpose.
    Ms. Sparks. We appreciate the opportunity to work with your 
office on that.
    Mr. Cole. Thank you very much.
    Ms. Sparks. Thank you.
    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Dicks. Thank you very much.
    Douglas R. Nash, Institute for Indian Estate Planning and 
Probate at Seattle University School of Law. Welcome.
    Mr. Nash. Thank you, Mr. Chairman. I am very glad to be 
here.
    Mr. Dicks. How is the law school going?
    Mr. Nash. It is going very good. Thank you. Very busy this 
time of year.
    Mr. Dicks. We miss it in Tacoma but we know that Seattle is 
taking good care of it.
    Mr. Nash. It is in good hands, sir.
    Mr. Dicks. Go right ahead.

                                         Wednesday, March 25, 2009.

INSTITUTE FOR INDIAN ESTATE PLANNING AND PROBATE AT SEATTLE UNIVERSITY 
                             SCHOOL OF LAW


                                WITNESS

DOUGLAS R. NASH
    Mr. Nash. Thank you. Mr. Chairman, members of the 
committee, thank you for the opportunity to be here and to 
point out a very discrete but very serious problem in Indian 
Country, that being one of fractionated ownership of Indian 
trust lands on reservations.
    The problem, as you may be aware, is twofold. One is the 
cost to the federal government to administer and manage and 
track titles and probate the interests that are in existence in 
Indian trust lands. The other problem is for the Indian 
landowners themselves who find themselves holding increasingly 
small undivided interests in trust land, many time interests 
that have no economic value but only cultural, historic and 
family connections for them. If you are an average Indian 
landowner, you share your interest to your property with 17 
other people. If you are among the worst-case scenarios that 
exist in Indian Country, you might own only one nine-millionth 
of your property. You might own an interest in an allotment 
that generates income from a leasehold. In a worst-case 
scenario, you might earn one penny of that leasehold income and 
you would receive that penny every 177 years. You might be a 
co-owner in the most fractionated allotment in the country. 
That is an allotment that has a net value of $8,000. It costs 
the Bureau of Indian Affairs $17,560 per year to administer 
that interest, that allotment, and that was 22 years ago and so 
you can imagine the scope of that problem today.
    The Congress has recognized this problem and passed the 
American Indian Probate Reform Act, an amendment to the Indian 
Land Consolidation Act in 2004. That Act took effect June 20, 
2006. The Act is complex. It is complicated. It makes Indian 
estate planning complicated. But if left to work as passed and 
as amended, it will address the issue of fractionation over 
time, and the problem of fractionation of course has taken 120-
plus years to evolve. The Act will not fix the problem, 
however, unless it is funded. Again, Congress recognized this 
problem and within the Probate Reform Act there is an 
authorization for appropriations to implement the Act, and I am 
here to ask that that authorization be put to use.
    The Institute, which I head at Seattle University School of 
Law, was established in 2005 with the purpose of organizing 
projects and programs to deliver estate planning services to 
Indian people in Indian Country and to do that at no cost to 
clients. We do that as we have had funds available. We have had 
many models put in place and put to use with considerable 
success. In some of our projects, as high as 98 percent of the 
wills done have either reduced or eliminated fractionated 
ownership interest. We also through our program provide 
training, training for attorneys because the Act is 
complicated, through continuing legal education programs. We 
have hosted several national symposia and we have also 
developed and provided training to tribal leaders and Indian 
landowners across the country. In total, our efforts have 
reached some 21,000 people nationwide. We also serve as a 
clearinghouse for information about the Probate Reform Act, the 
newly promulgated regulations and any other aspects of Indian 
estate planning and probate through our website, which has been 
a source of information for many people across the country.
    The Institute for Indian Estate Planning and Probate has 
been funded from the outset by a grant from the Indian Land 
Tenure Foundation. We were advised a short while ago that that 
funding will end April 30. We will in the meantime struggle to 
maintain our efforts until long-term funding is secured. We 
view federal support as essential. Private foundations and many 
tribes themselves view the estate planning function for trust 
lands as a federal obligation, and in fact, up until the 
Probate Reform Act was passed, the Bureau of Indian Affairs did 
provide will-drafting services to Indian landowners. We seek a 
modest incremental appropriation to provide estate planning 
services to Indian landowners in Indian Country and to expand 
those services as far as we possibly can.
    Thank you, Mr. Chairman and members of the committee.
    [The statement of Douglas R. Nash follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.056
    
    [GRAPHIC] [TIFF OMITTED] T0064A.057
    
    [GRAPHIC] [TIFF OMITTED] T0064A.058
    
    [GRAPHIC] [TIFF OMITTED] T0064A.059
    
    Mr. Dicks. Let me ask you something. It seems to me with 
these fractionated ownerships, and this committee has had to 
suffer with this problem and see the amount of money that is 
taken away from the tribes and other programs to fund all the 
accounting and all the other things that go into this. Would it 
not be better just to have a payout, to settle these things 
rather than continuing to go through this difficult maze of 
operations?
    Mr. Nash. It is a possibility, Mr. Chairman. It is one that 
has been considered and there are a couple of problems with 
that. One, if you look at the total number of them and the 
total value, although many interests are small, the total 
numbers are in the millions of undivided interests and so the 
cost for doing that would be substantial.
    Mr. Dicks. But we are spending a lot of money with what we 
are doing.
    Mr. Nash. Definitely. The other consideration, Mr. 
Chairman, is there was the Indian Land Consolidation program, 
which did exactly that on a willing seller, willing buyer 
basis. It was put together as a pilot project several years 
ago. That project showed considerable success but has been 
defunded by the past Administration. It was actively involved 
in----
    Mr. Dicks. What is the name of that again?
    Mr. Nash. The Indian Land Consolidation program operated 
under Bureau of Indian Affairs. One of the other aspects to 
that as well in the projects that we operate, in the 
alternative we offer to Indian landowners if they are 
interested in selling their allotments selling them to the 
tribes, and many Indian landowners will take advantage of that 
for whatever reason they have and that removes them, of course, 
from the probate process as well.
    Mr. Dicks. If we went back to this Indian land 
consolidation effort and funded it, do you think that could 
help resolve this over a period of time?
    Mr. Nash. I do. We have seen their reports from about two 
years ago as their funding began to be tapered down. They 
showed some impressive results. One of the criticisms of that 
program was that despite their buying thousands of interests, 
the number of undivided interests remained the same because 
they could not buy them fast enough. But nevertheless, if you 
consider the interests they did not buy, the number would be 
even larger proportionately.
    Mr. Dicks. Well, we have to look at the funding aspects of 
this, but the authorization committees have a responsibility to 
try to come up with some answers, which they have not, as far I 
know, been able to do thus far. But thank you for your 
testimony.
    Any other comments? Mr. Cole.
    Mr. Cole. It is a nightmare problem in Oklahoma, the 
allotment situation, so what is the feasibility? I am not all 
that familiar with this Indian Land Consolidation program that 
you mentioned but I like the chairman's idea of where you can 
obviously restoring the land to the tribe so it goes back into 
their land base. What have we done on that in the past and what 
would the cost of that sort of program be, assuming again the 
individual was a willing seller?
    Mr. Nash. The original authorization I think for that 
program, if I remember correctly, started at $30 million and 
was designed to go up to like $75 million over time, and again, 
as I recall, those funds were totally expended until they began 
dropping off as part of the defunding process.
    Mr. Cole. Can you give me a numerical dimension to how many 
fractionalized owners--I mean, my brother and I own part of our 
allotment land, so I am just curious how many owners are there 
out there like that.
    Mr. Nash. Several million, sir.
    Mr. Cole. Thank you.
    Thank you, Mr. Chairman.
    Mr. Moran. It is an important issue. Thank you for bringing 
it to the subcommittee's attention.
    Mr. Nash. It is. Thank you, sir.
    Mr. Dicks. Charon Asetoyer, Amnesty International USA and 
the Native American Women's Health Education Resource Center. 
Please, have a seat. We want to welcome you here, and we 
appreciate your previous work with the committee and we want 
you to know that last year we did add funding for combating 
domestic violence and substance abuse. It includes an increase 
of $25 million for new law enforcement officers and specialized 
training on domestic violence, sexual assault and victim 
advocacy, and we also provided $7.5 million for a new 
initiative to address alarming levels of domestic violence by 
providing funds for sexual assault nurse training, forensic 
training and equipment as well as outreach and advocacy 
programs with native communities.
                              ----------                              

                                         Wednesday, March 25, 2009.

AMNESTY INTERNATIONAL USA AND NATIVE AMERICAN WOMEN'S HEALTH EDUCATION 
                            RESOURCE CENTER


                                WITNESS

CHARON ASETOYER
    Ms. Asetoyer. Thank you. Honorable Chairman and members of 
the committee, my name is Charon Asetoyer. I am a member of 
Comanche Nation of Oklahoma and, as stated, director of the 
Native American Women's Health Education Resource Center based 
in South Dakota on the Yankton Sioux Reservation. I am also the 
chair of the Native American and Alaska Native Advisory Council 
to Amnesty International USA's Stop Violence Against Women 
campaign. I would like to thank you for allowing me to testify 
before you today.
    I want to express my appreciation for the important steps 
that you took this year in the 2009 Omnibus Appropriations Act 
to combat sexual and domestic violence against native women and 
Alaska Natives. One of the most important things you can do 
this year to combat this violence is to ensure that native 
women advocates are consulted with when the Indian Health 
Service and the BIA establish the standardized sexual assault 
policies, protocols and trainings as directed in the fiscal 
year 2009 bill. Sexual assault and domestic violence against 
native women are violations of our human rights. The United 
States, according to its federal trust responsibility, has a 
legal obligation to assist Indian tribes in creating safe 
communities free from sexual assault. These abuses impede 
progress and prevent us from raising healthy children. Native 
women are two and a half times more likely to be sexually 
assaulted then all other women in the United States and one in 
three of us will be raped in our lifetime. The majority of 
these crimes will go unpunished. As high as these numbers are, 
the data does not give a comprehensive picture of the problem. 
Currently, sexual assault goes into a category with a number of 
other crimes. IHS needs to segregate out statistic on this 
particular crime. Such information is critical in order to 
prosecute these crimes.
    My first recommendation to you is to include language in 
your bill directing the IHS to establish a specific code for 
sexual assault within its collection system of units of 
service. Sexual assault against native women is not met with 
uniform response and the challenges faced by survivors at every 
level increases the likelihood of impunity for perpetrators. If 
a native woman is brutally raped on tribal land, all too often 
the initial questions for law enforcement are, one, was the 
perpetrator native or non-native, and two, whose responsibility 
is it to respond. It is outrageous that the federal government 
would allow this kind of a system to exist within the United 
States. In 1978, the Supreme Court ruled that tribal courts 
could not exercise criminal jurisdiction over non-Indian 
citizens. The ruling of Alafonte versus Shosquamish strips 
tribal authority of power to prosecute crimes committed by non-
Indian perpetrators on tribal land. This decision is a 
violation of tribal sovereignty and denies victims of sexual 
violence due process and equal protection of the law and is a 
direct violation of indigenous rights as established within the 
United Nations. The Department of Justice reports that in at 
least 86 percent of the cases of sexual assault that the 
perpetrator is non-native, thus, tribal courts could not 
prosecute. My second recommendation to you is to realize the 
right of tribal authority to prosecute crimes committed on 
tribal land regardless of whether the suspect is Indian or non-
Indian. This would afford equal protection under the law for 
victims of sexual assault, particularly rape.
    A 2003 report by the U.S. Commission on Civil Rights found 
that the per capita health expenditures for the average person 
in the United States was approximately $5,700 while the IHS 
would spend a projected average of $1,900 per person for all 
medical care. The report stated that the disparity in spending 
represents a direct affront to the legal and moral obligation 
the Nation has to improve Indian health status. My third 
recommendation to you is to increase the IHS budget in the 
amount of $908 million as recommended by the National Council 
of American Indians.
    The lack of appropriate funding for IHS affects native 
women's ability to obtain a proper sexual assault forensic 
exam. The collection of forensic evidence following an incident 
of sexual assault is critical in any police investigation and 
many prosecutors will not prosecute without it. A survey 
conducted by my organization in 2005 found that 44 percent of 
IHS facilities lacked personnel that are trained to provide 
emergency services in the event of rape. Sexual assault nurse 
examiners, known as SANEs, are registered nurses trained to 
conduct forensic exams of victims of rape or sexual violence. A 
forensic exam is critical in bringing a perpetrator to justice. 
My fourth recommendation is to increase funding specifically 
for the creation of SANE programs in all IHS service units to 
at least $25 million to ensure that these specialized nurses 
have the resources necessary to conduct their work 
appropriately. The amount was reached by Amnesty International 
in consultation with IHS experts and native advocates. My fifth 
and final recommendation is to mandate the director of IHS to 
modify the witness approval process for SANEs that have been 
subpoenaed to testify in court proceedings regarding 
information obtained in carrying out the official duties of the 
employee, and I further recommend that you mandate that if the 
director fails to approve or disapprove a subpoena within 30 
days after the receipt of the subpoena, that the subpoena shall 
be considered approved.
    I would like to thank you for allowing me to testify.
    [The statement of Charon Asetoyer follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.060
    
    [GRAPHIC] [TIFF OMITTED] T0064A.061
    
    [GRAPHIC] [TIFF OMITTED] T0064A.062
    
    [GRAPHIC] [TIFF OMITTED] T0064A.063
    
    Mr. Dicks. Mr. Moran.
    Mr. Moran. I have got some people waiting in the office but 
I wanted to be here and particularly to thank you, Chairman and 
staff, for being as responsive as you were in the 2009 
appropriations bill.
    The incidence of rape and sexual assault against Native 
American and Alaska Native women is epidemic. It is two and a 
half times what it is any other woman in the United States. 
What you have listed are exactly the things that we should be 
doing. It is an opportunity for us to do the right thing 
frankly with not a whole lot of money but if we do not act in 
the way you have suggested, it is a Byzantine maze of legality 
for you to prosecute these cases, and we appreciate the fact 
that Amnesty International has brought this to our attention. 
We appreciate your testimony, Charon, and thank you.
    And again, thank you, Chairman and the staff, and Mr. Cole, 
thanks.
    Mr. Dicks. And we now know that the President will nominate 
Dr. Yvette Roubideaux to be the next director of the Indian 
Health Service, and Dr. Roubideaux is both a scholar who has 
extensively researched American Indian health issues and a 
physician who has spent years as a provider in tribal 
communities. She is a member of the Rosebud Sioux Tribe and is 
the first woman nominated to lead the Indian Health Service. 
Over the next few weeks, Dr. Roubideaux will go through the 
confirmation process. We know that can be a harrowing 
experience. Anyway, she went to Harvard Medical School. I think 
we ought to have a meeting with her on this subject.
    Ms. Asetoyer. Yes, sir. She is awesome and she does 
understand this issue very well. What I would like to do is, I 
would like to submit through a coalition of native women and 
non-native women experts throughout the United States and some 
of the major organizations that work with reproductive issues. 
These are an outline or actually standardized sexual assault 
policies and protocols that were put together over a five-year 
period. I would like to submit them and recommend that Indian 
Health Service uses these, at least as the foundation. Why 
reinvent the wheel if these have been put together by experts? 
Also, the information I was quoting you, we put together a 
briefing paper and from that briefing paper we bring together 
national experts, native women to discuss the need for 
standardized sexual assault policies, what it means not to have 
them and how that impacts them within their community. So I 
would like to submit these documents for the record.
    Mr. Dicks. All right. Good. We will put them in the files.
    Ms. Asetoyer. And thank you.
    Mr. Olver. Mr. Chairman, may I ask a question?
    Mr. Dicks. I want to go to Mr. Cole first.
    Mr. Cole. Well, first, thanks for your testimony. It was 
exceptionally good and direct testimony. I am very interested 
in this issue you raised of jurisdiction. In our area obviously 
I think most Americans think of, you know, tribes on 
reservations and obviously we do not have reservations. We have 
areas of historic jurisdiction. So where these lines fall and 
who has authority is really a perplexing problem. So how in a 
place like Oklahoma where you have tribes with areas of 
jurisdiction but without really that much land base, how would 
you see this operating and what would you recommend we should 
do in cases like that?
    Ms. Asetoyer. Well, I am Comanche from Oklahoma but I live 
on the Yankton Sioux Reservation, which is very checkerboarded, 
so we do have a maze of justice when it comes to identifying 
which jurisdiction, and when it is on tribal or federal 
jurisdiction, we do not have the authority to prosecute these 
rapists and so it starts at the beginning. If there is no SANE 
to do a rape kit, there is no forensic evidence, the FBI does 
not like to come out of its office to investigate because there 
is no evidence. The prosecutor cannot--it is very difficult to 
prosecute a rape if there is no forensic evidence. So I think 
it was in 2005, there was less than 25 cases out of all the 
reservations that ever got to federal court because of this 
lack of forensic evidence, and because of the witness approval 
process. You have to have a witness that did the rape kit to 
testify in court in order to help get a conviction, and if the 
Indian Health Service employee is served with a subpoena and it 
has to go to the service unit director, the area director and 
then headquarters and then falls into some dark hole never to 
be heard of again. Without permission you cannot testify and 
tribal prosecutors go ballistic because they do not have a 
forensic witness. So these things are really important to get 
equal protection under the law. I would overturn--I mean, 
ideally, I would overturn Alafonte. We have to do this if we 
are going to do the right thing. If I see another young woman 
who is raped and the rapist is non-Indian, leaves the 
reservation, is not prosecuted because the tribe does not have 
the authority to do it, it is such a human rights crime. It is 
a crime that we allow this to go on.
    Mr. Dicks. Let me ask you this. Could the local 
jurisdiction, for example the Suquamish reservation in Kitsap 
County in Congressman Inslee's district; but could the local 
authorities, the county prosecutor bring a charge or does it 
have to be done by the----
    Ms. Asetoyer. The FBI because it is a 10 major crime and 
the 10 major crimes the FBI are responsible for investigating 
and bringing those cases into federal court. They do not even 
like to leave their office in Sioux Falls to come down to our 
reservation because there probably will not be any forensic 
evidence and then if there is, will that health care provider 
that did the rape kit be able to testify anyway? Probably not.
    Mr. Dicks. Why can they not testify?
    Ms. Asetoyer. Because the witness approval process within 
Indian Health Service is so cumbersome. It has to go to the 
service unit director, then the area director, then 
headquarters, and by the time it gets up there, it is in a 
stack of, you know, waiting to approve and it just seems to get 
lost the majority of the time. So we need to have a modified 
system to where once a subpoena is given to you, they have 30 
days to respond or else it is approved, it is considered 
approved so your witnesses can testify.
    Mr. Cole. And this really is a huge problem 
jurisdictionally because historically you gave tribes the 
ability to have jurisdiction over their people but you did not 
give them any jurisdiction with people on their land that were 
not of their tribe, and it intertwines every level and it does 
make these enforcement issues incredibly difficult because, 
again, the people that are responsible for enforcing the law 
usually are not anywhere close, particularly if you are a large 
reservation, land-based reservation. I would love to work with 
you on this.
    Ms. Asetoyer. Thank you very much.
    Mr. Dicks. Mr. Olver.
    Mr. Olver. I would just like to continue in the same vein. 
I am really puzzled as to how you can even begin to get at this 
one. I think your statistics have been basically for rape cases 
on tribal reservations.
    Ms. Asetoyer. Yes.
    Mr. Olver. And Mr. Cole has now brought up that there are 
lots of tribal areas but not reservations, so these statistics 
do not apply to the tribal area such as he was describing.
    Ms. Asetoyer. Right.
    Mr. Olver. Okay. Do you have any statistics? There are no 
real numbers here? I am very curious. This must be part of a 
much longer study. Do you have any idea how many rapes there 
are that occur per year on the reservations?
    Ms. Asetoyer. Well, I know one weekend on the Pine Ridge 
there was something like 54 in a weekend.
    Mr. Olver. Well, let us take that 54. Let us take that one. 
How many times do you multiply it? If you have some data on 
what goes on in all of Indian Country, that would be 
interesting, but that 54, what you have suggested is that seven 
out of those eight or six out of seven are non-Indian 
perpetrators, and what is the percentage of the other? That 
looks something like 48 and six or something like that, I 
guess. Of the six, how many go to trial?
    Ms. Asetoyer. Like I said, probably none.
    Mr. Olver. Probably none?
    Ms. Asetoyer. Maybe one-half, maybe one. Like I said, in 
2005 it was less than, you know, 25 cases throughout the entire 
United States, all of the 500, 600 reservations and villages, 
Alaska Native villages that went to court.
    Mr. Olver. Twenty-five cases nationwide?
    Ms. Asetoyer. Went to federal court.
    Mr. Olver. Those went to federal court?
    Ms. Asetoyer. Yes.
    Mr. Olver. But if it went to the federal court that would 
mean that was the non-Indian perpetrator?
    Ms. Asetoyer. Yes. Of the----
    Mr. Olver. Of all of the reservations----
    Ms. Asetoyer. No, that would be any, whether it was native 
or non-native.
    Mr. Olver. Why do they have to go to federal court in the 
case of native perpetrators? Are the tribal courts able to do 
that?
    Ms. Asetoyer. Yes, but sometimes the FBI will take them 
to--the Department of Justice will take them to federal court 
because----
    Mr. Olver. There is only 25 out of all, you know, 54 on--
which one? Which reservation did you say? Rosebud?
    Ms. Asetoyer. No, that was Pine Ridge. Now, the native 
perpetrators can go into tribal court but they cannot give a 
serious enough sentence as federal court can.
    Mr. Olver. Is the incidence of rape very variable from 
reservation to reservation?
    Ms. Asetoyer. Well----
    Mr. Olver. For instance, would Navajo be likely to--can I 
proportionate up from 54 on Pine Ridge with its 15,000 people 
or so to Navajo land which has 150,000 people?
    Ms. Asetoyer. You know, to be honest, this is a subject 
that a lot of people do not like to talk about but it is pretty 
much the same on most reservations throughout the United 
States. One of the largest problems in trying to get a 
prosecution, whether it is of a native person within tribal 
court or a native person or a non-native person that does get 
to federal court is the fact that they cannot--the person that 
did the rape kit or the forensic exam cannot testify in court 
because they have not been able to respond to the subpoena that 
they got because it was not approved by headquarters, by Indian 
Health Service headquarters. This is a huge problem.
    Mr. Dicks. Wait a minute now. You are saying that they have 
to go back to Washington, D.C., to get what done?
    Ms. Asetoyer. If you are given a subpoena to testify in 
court, okay, you have done a rape kit, it has to go through 
your first employer, which is the service unit director, you 
know, at the hospital you work at or the clinic you work at, 
then at the area office, then up to Washington because you are 
a federal employee. It has to be approved by the head honcho, 
the director of Indian Health Service at Rockville. When it 
gets there, it just falls into a hole. I mean, we rarely in a 
reasonable amount of time ever get them back. So then the 
prosecutor back at the community level or the federal level in 
court does not have a forensic witness. It is really important 
to have that forensic witness, the person that did the rape 
kit, to testify in court on the authenticity of the evidence 
that was collected. So if you do not have that person, it is 
very difficult to get a conviction without that expert testify 
that that evidence that was collected is authentic.
    Mr. Olver. Mr. Chairman, may I continue for just a minute?
    Mr. Dicks. Yes, go ahead.
    Mr. Olver. It sounds to me is if you have 50,000 rapes on 
the reservations and you are saying that of those, only 25 have 
been taken to court, whether it be Indian or non-Indian 
perpetrators. But my guess is, given what you said when I asked 
whether any of the six went to court, what was the percentage 
of the six that went to court? You said well, maybe one. That 
makes me suspect that of the 48 who were non-Indians, there was 
not even maybe one in court.
    Ms. Asetoyer. No. Some of them went to court, but went to 
tribal court, but if you do not have the----
    Mr. Olver. But you have no jurisdiction in tribal court.
    Ms. Asetoyer. Of native, over native perpetrators, okay, we 
do.
    Mr. Olver. But the native perpetrators were the six, the 
non-native perpetrators were the 48 out of your 54 from your 
data as you gave it, that 86 percent are non-native 
perpetrators.
    Ms. Asetoyer. Okay. Out of the six, the ones that went into 
tribal court in most instances received very little, if any, 
kind of a sentence because there probably was not a forensic 
witness because that process is so difficult. Tribal 
prosecutors say that is the biggest hindrance. We are talking 
about trial prosecutors. They say that it is the biggest 
hindrance in trying to get a conviction because they do not 
have the forensic witness because the witness approval process 
is so difficult to get approval.
    Mr. Olver. This is bizarre.
    Mr. Dicks. We have four minutes to vote, and we will 
continue to have this dialog with our new administrator, and we 
are going to hold a hearing on BIA law enforcement on April 22 
and domestic violence will be one of the issues we will 
address. Thank you for your testimony and we are going to keep 
working on this until we get this thing straightened out.
    Ms. Asetoyer. Thank you very much for your time.
    Mr. Dicks. The committee is adjourned. We will start up 
again at 1:30.
                              ----------                              

    Mr. Dicks. The Committee will come to order. Next we have 
Conrad Edwards from the Council for Tribal Employment Rights 
and Ed Hensley, Northwest Construction Market Representative. 
Welcome.
    I just want to explain you are going to have five minutes. 
Your whole statement will be put in the record. You have five 
minutes and one minute to summarize. There will be a yellow 
light that comes on when you have a minute left, and the red 
light when you have nothing left. We are not going to be too 
strict, but we have to do this to stay on schedule. We have a 
lot of people this afternoon.
    Go right ahead.

                                         Wednesday, March 25, 2009.

                  COUNCIL FOR TRIBAL EMPLOYMENT RIGHTS


                                WITNESS

CONRAD EDWARDS
    Mr. Conrad Edwards. Okay. Thank you, Mr. Chairman.
    We thank you for the opportunity to present to you a proven 
cost-effective partnership and plan that brings together the 
opportunities and resources of the Labors' International Union 
of North America, Council for Tribal Employment Rights, and the 
Department of the Interior, Office of Indian Energy and 
Economic Development.
    The partnership has successfully piloted our program, 
native careers, construction careers, initiative program, on 
the Blackfeet Indian Reservation in Montana, the Spirit Lake 
Dakota Nation in North Dakota, where we have trained 
approximately 40 tribal members, and the program placed over 90 
percent of those trainees, created two small businesses, and a 
tribal construction company. Currently we have requests from 
over 25 tribes to bring the program to their communities.
    The program itself is designed to attack the 15 to 70 
percent unemployment rate that still plagues Indian Country. It 
proposes to do this by promoting and developing cooperative 
relationships between tribes and construction unions to create 
careers in the construction trades for Indian workers on 
reservations with high unemployment rates, to do it onsite, on 
tribal economic development projects.
    A secondary to that is to create entrepreneur opportunities 
and encourage small business development for tribes and their 
members on those same projects that will have a lasting impact 
on the tribes.
    Today we are here requesting the support of the committee 
to provide the resources through the Office of Indian Energy 
and Economic Development for the unions and CTER to be 
responsive and responsible to the tribes that need and have 
requested the program. We request the resources to 
institutionalize the program at the national level by funding 
the Native Construction Careers Institute, which will involve 
more trade unions in the program and expand the training to 
include more skill sets and business project management.
    At this point, Mr. Chairman, I would like to call upon our 
union partners to discuss their involvement and perspective on 
this important program.
    Mr. Dicks. Good.
    Mr. Hensley. We currently have programs that train Native 
workers to become involved in the construction industry. As we 
all know, we have a situation where folks are leaving the 
construction industry, and we need to backfill those positions. 
We have a shortage of construction workers in the rural west to 
build the new alternative energy projects this country will 
need. There is also a shortage of health workers and skilled 
employees in other professions in which unions are involved.
    Unions have unparalleled expertise in training and can help 
Indian workers launch careers in the construction and health 
professions. We currently have adopted our programs from the 
Kingston, Washington, Training Center.
    Mr. Dicks. Good.
    Mr. Hensley. And we have taken them onsite to the 
reservations to train folks on projects. As we train, we expect 
those workers, obviously, to go to work on those projects. We 
are seeing an increased number of projects on reservations. We 
want to see that economy stay local. The best way to do that, 
obviously, is to train the Native workforce to do the jobs on 
there.
    There is going to continue to be a need for skilled 
workers, and as we see the import of other workers, we would 
like to see, as unions, we want to join together and train 
folks in Indian Country. We have several contractors now that 
are willing to come on board as partners and become mentors for 
us to mentor entrepreneurs and train folks to start their own 
subcontracting companies so that the construction work, again, 
can be performed through our entrepreneur programs on those 
same construction sites.
    Once the work is completed on the reservation, then we hope 
to be able to employ those same individuals off reservation 
through our hiring halls on projects that are in mainstream.
    Thank you, Mr. Chairman.
    [The statement of Conrad Edwards follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.064
    
    [GRAPHIC] [TIFF OMITTED] T0064A.065
    
    [GRAPHIC] [TIFF OMITTED] T0064A.066
    
    [GRAPHIC] [TIFF OMITTED] T0064A.067
    
    Mr. Dicks. Well, I want to congratulate you on this. I 
think this is a great initiative and will help train people for 
jobs that are still out there.
    How is the current economic circumstances affecting your 
program?
    Mr. Hensley. Well, we are down. Well, it is obviously down 
some.
    Mr. Dicks. Yes.
    Mr. Hensley. And we are backwards probably around 13 
percent unemployment in construction presently, however, we are 
seeing that there are some projects coming up under the 
stimulus package on the reservations.
    Mr. Dicks. Good.
    Mr. Hensley. And we want to make sure that the folks on the 
res get the jobs.
    Mr. Dicks. So the Laborers Union nationally, they are the--
--
    Mr. Hensley. Yes.
    Mr. Dicks [continuing]. Lead on this?
    Mr. Hensley. Our general president, Terry O'Sullivan, has 
signed on with CTER in full support of this program.
    Mr. Dicks. Well, we compliment you for this.
    Mr. Hensley. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. No questions right now.
    Mr. Dicks. All right. Thank you very much. We appreciate 
your being here.
    Mr. Hensley. Thank you.
    Mr. Conrad Edwards. Thank you, Mr. Chairman.
    Mr. Dicks. Our next witness is Cedric Black Eagle, Interim 
Chairman of the Crow Tribe of Indians.
                              ----------                              

                                         Wednesday, March 25, 2009.

                               CROW TRIBE


                                WITNESS

CEDRIC BLACK EAGLE
    Mr. Black Eagle. Thank you. Good afternoon, Chairman Dicks, 
members of the Interior Appropriations Subcommittee. My name 
for the record is Cedric Black Eagle, Interim Chairman of the 
Crow or Apsaalooke Nation. I was selected as Vice Chairman of 
our Nation. I am honored to speak to you today on behalf of the 
Apsaalooke Nation on the subject of interior related agencies 
appropriations.
    As time is short, I would like to briefly discuss a few 
relatively small programs that have had a great impact on the 
Crow and elsewhere.
    First, the Indian Land Consolidation. The Indian Land 
Consolidation Program has been completely eliminated from the 
federal budget. The ILCP is funded through the Office of 
Special Trustee and administered by the Bureau of Indian 
Affairs. We request that funding for this valuable and 
successful program be restored to the budget.
    The ILCP has operated a pilot program on the Crow Division 
since 2005. The program at Crow was previously staffed by about 
seven individuals and is now down to three staff members. After 
September 1, 2009, unless funding is restored the program will 
end. And since April 1, 2005, the program has purchased over 
6,000 land interests, which all went back into trust for the 
Crow Tribe, providing more funding for the purchase of 
additional interests, and in under 4 years about $200,000 has 
already come back into the fund to buy additional interests.
    At this point in time appropriations to this program for 
administrative costs and some land purchases are still 
necessary, but in the foreseeable future the program, if 
allowed to continue, will be able to support itself from 
interest on revenues from purchase, fractionated shares, and 
land.
    I would like to talk about carbon sequestration research. 
The Omnibus Appropriations Bill included $6 million for carbon 
sequestration research. We encourage the committee to double 
this amount to $12 million and make these funds readily 
accessible to tribes.
    The Crow Tribes Many Stars Project, a clean coal 
development, seeks to take coal from the Crow Reservation and 
turn it into clean liquid products. This coal-to-liquids 
process allows for complete capture of the carbon and safe 
sequestration, avoiding any emissions onto our reservation and 
the world environment. Although much of the Nation's attention 
on energy production has rightfully been focused on renewables, 
the Crow Tribe's best economic development opportunity lies 
with coal production from our reservation. This is a $7 billion 
project. It will employ around 4,000 construction workers 
during construction and 900 permanent jobs after it opens.
    We need the Federal Government's assistance in making this 
project work for the good of the Crow economy and the Crow 
people and advance America's energy independence.
    Housing Improvement Program. Again, the Housing Improvement 
Program is another federal program that helps very low income 
families with housing and home repairs and to make their houses 
livable. On the Crow Reservation this program is vital. If you 
were to visit, you would see that many of the homes that were 
built back in the '50s and '60s are in severe need of repair. 
The HIP was funded for $13.6 million in fiscal year 2008 and 
fiscal year 2009. We were pleased to see that more funds may be 
available through the economic stimulus. I encourage the 
subcommittee to continue the increases in funding.
    Abandoned mine reclamation payments is another, as well as 
Indian healthcare, law and order, public safety.
    And I would like to sum up and say that our position to 
become self-sufficient as Indian tribes do across this country, 
ours is going to be in energy and energy-related programs such 
as the mini source project, and it is vital for us that carbon 
sequestration, again----
    Mr. Dicks. Right. I agree with you completely. That is the 
right point to make, and if we are going to use coal, there is 
going to have to be significant carbon sequestration, and there 
has not been that much science. We know how we do this into 
existing oil and gas fields, but it is when you are just going 
out in a new area where, according to the U.S. Geological 
Survey, there has not been a lot of science on this.
    So we agree with you. We think it is a significant part of 
the answer on coal.
    All right.
    Mr. Black Eagle. Thank you.
    [The statement of Cedric Black Eagle follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.068
    
    [GRAPHIC] [TIFF OMITTED] T0064A.069
    
    [GRAPHIC] [TIFF OMITTED] T0064A.070
    
    [GRAPHIC] [TIFF OMITTED] T0064A.071
    
    Mr. Dicks. Thank you very much. Mr. Cole.
    Mr. Cole. I want to say how much I appreciate your emphasis 
on the energy part of this and just kind of make a point for 
the record if I may, Mr. Chairman. We have got a lot of tribes 
in relatively remote areas that, cannot benefit from 
traditional kinds of economic activity or gaming activity, and 
the ability to develop your own resources on your own land is 
really critical. It is the only way some of these tribes will 
have a chance to become economically independent.
    And the key thing here is I often see efforts by people 
that have conflicting views, usually environmental views, but 
this is not federal land. This is Indian land. This is 
reservation land. The tribe owns the land, and the tribe ought 
to be free, to develop its resources. I noticed you pointed out 
on drilling, those are great things to do just to put tribes in 
the position to be competitive and to develop their resources, 
sell them, and then use the proceeds for the benefit of their 
people.
    So I am glad you are here to make the point. Thank you.
    Mr. Black Eagle. Thank you. I appreciate the time. Thank 
you.
    Mr. Dicks. Thank you. Kathryn Brigham, Chairwoman of the 
Columbia River Inter-Tribal Fish Commission. Welcome.
                              ----------                              

                                         Wednesday, March 25, 2009.

              COLUMBIA RIVER INTER-TRIBAL FISH COMMISSION


                                WITNESS

N. KATHRYN BRIGHAM
    Ms. Brigham. Thank you. Good afternoon. I am here today to 
talk about the Columbia River Inter-Tribal Fish Commission base 
budget.
    We have been working, as you have are pointing out with the 
Colvilles, a number of tribes have been making success stories 
in the Columbia River Basin, but with that success comes the 
added management responsibilities that we have in the Columbia 
Basin.
    We are seeking $7,712,000 to the CRITFC Organization, and 
this is an increase of 450,000. This will go through the other 
recurring programs; wildlife parks, rights protection 
implementation, areas to restore base funding, program funding 
to the commission and to the member tribes. Of that, 3.6 
million will go to the member tribes.
    We are also seeking 8.4 million to increase the Pacific 
Salmon Commission budget because we are increasing our 
responsibilities to the Pacific Salmon Treaty.
    The Northwest Indian Fish Commission and CRITFC have been 
working together to restore a $1.8 million cut within the 2009, 
Omnibus Bill, and with that we are hoping to get a commitment 
from BIA today that the $1.8 million is there for reprogram, 
but we will not know until the end of the day if that that is 
an option for us. So we are working on it. And Billy might be 
able to tell you more tomorrow. Okay. So we are working to do 
that because if we do not get that $1.8 million, we are going 
to have to make some cuts within our organizations, and the 
Northwest is looking at the end of this month, and we are 
looking at later on this year.
    But we have come a long way since the Bolt and Bologna 
Decision, the Bologna in 1969, the Bolt in '74, that says the 
tribes have the right to manage and co-manage fisheries on the 
Columbia River, and we think we have done some good things on 
our reservations. All of us have put salmon back, we are 
managing fish, and we have also come a long ways. This last 
year we signed three agreements; the Accord is a 10-year 
agreement, the Pacific Salmon Commission agreement is a 10-year 
agreement, and the USV Oregon is a 10-year agreement. All of 
those are supporting each other to rebuild naturally spawning 
fish above Bonneville. And that is consistent with the Power 
Planning Council Act as well and also consistent with our 
treaty to rebuild naturally spawning fish above Bonneville.
    With the accord, this is from the action agencies, and this 
accord funding has strings to it, so we are not able to take 
the accord funding and transfer it over to any other things 
other than the projects have been identified. So that is why we 
are looking at the increase for the base budget so that we can 
actually go out and manage our fisheries.
    Other species we are looking at are salmon, lamprey, and 
sturgeon and freshwater mussels. We are finding out that our 
mussels are able to clean the water, and we have some good 
projects in the Columbia Basin, and so we want to continue to 
work on them as well.
    And, again, you know, we are looking for the increase 
because we have not had an increase in our funding for quite 
some time. Due to inflation and cost of living and everything 
else, the rising costs have just gone up, and it is really 
difficult for us to--in fact we have had to cut staff, and we 
have also had to stretch our staff quite thinly to do what we 
are trying to do a few years ago.
    Mr. Dicks. Have you had a chance to look at the Hatchery 
Scientific Review Group report?
    Ms. Brigham. Yes, we have, and we have gone through the USV 
Oregon process, and that process has reviewed it to see if it 
is consistent and supports the USV Oregon 10-year agreement, 
and we have some concerns with it, but at the same time we 
think that there is a lot of good work in it, and that it is a 
tool that we can use to help us in our management and 
production in the Columbia River Basin.
    Mr. Dicks. What are the concerns?
    Ms. Brigham. The concerns are that it is pretty narrowly 
defined, but at the same time there are some things in there 
that says we can use this scientific approach to rebuild these 
species. We have used some of them in the Umatilla Basin and 
changing our management, our evaluation of the stocks, those 
types of things. So we can use some of the stuff that is in the 
report.
    We do have seven points of concern that we have shared with 
your staff, so, you know, that is available. And then we will 
be there on Friday to let you know where we are at.
    Also, we are working on climate change, and we do not have 
the funding for that. U.S./Canada Water Treaty, that is coming 
up in 2024. We would like very much to be at the table for that 
because water is needed in the Columbia River Basin, and the 
last treaty was a power treaty, not a fish treaty.
    [The statement of N. Kathryn Brigham follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.072
    
    [GRAPHIC] [TIFF OMITTED] T0064A.073
    
    [GRAPHIC] [TIFF OMITTED] T0064A.074
    
    [GRAPHIC] [TIFF OMITTED] T0064A.075
    
    Mr. Dicks. Okay. Your time has expired.
    Mr. Cole, do you have anything you would like to--we will 
put your entire statement in the record.
    Ms. Brigham. It is in. Yes. These are just my talking 
points. Thank you.
    Mr. Dicks. Anything else? How much time do we have?
    Ms. Brigham. Oh, I wanted to share this with you. This is 
something that 35 tribes agree upon. It is a document that the 
Northwest Indian Fish Commission and the Columbia River Inter-
Tribe Fish Commission have worked together on and then the 
Great Lakes Fish Commission has also supported. This outlines 
how we want to protect our tribal sovereignty, rebuild our 
tribal base capacity and our annual base budget, protect and 
restore our water rights, and then also have the Federal 
Government live up to its trust responsibility. And there is a 
lot of information within this book and----
    Mr. Dicks. Good. I will look at it on the airplane.
    Ms. Brigham. Okay. We will see you Friday.
    Mr. Dicks. Thank you.
    Ms. Brigham. Okay. Thank you.
    Mr. Dicks. Daniel Tucker. I think we got time to do one 
more. Let us do one more. Is he not here? Is Larry here?
    Mr. Blythe. Larry Blythe.
    Mr. Dicks. Yes. Larry Blythe.
                              ----------                              

                                         Wednesday, March 25, 2009.

                       INTERTRIBAL TIMBER COUNCIL


                                WITNESS

LARRY BLYTHE
    Mr. Blythe. Good afternoon, Chairman Dicks, and members of 
the subcommittee. I am here today to represent the Intertribal 
Timber Council. Our president, Nolan Colegrove from Hoopa could 
not be in attendance today, so I am pinch hitting. I am reading 
from some of his prepared remarks so hopefully I do not stumble 
too bad.
    The Intertribal Timber Council is an organization of 70 
tribes that collectively possess most of the 18 million forest 
acres the BIA holds in trust. The ITC appreciates testifying 
today because the BIA Forestry Program is in trouble and needs 
this subcommittee's attention.
    Last year the ITC testified that a 2003, independent report 
noted that BIA Forestry receives only about 1/3 the per-acre 
funding provided the U.S. Forest Service. Now, a review of 
federal forestry budgets from fiscal year 2004 to 2009 shows 
the situation is becoming much worse for BIA Forestry.
    Mr. Chairman, from fiscal year 2004 to fiscal 2009, BIA, 
Tribal Priority Allocations Forestry has increased only 3.8 
percent. During the same period the Forest Service Forest 
Products Budget has gone up 25.5 percent and the Bureau of Land 
Management Public Domain Forest Management Budget has gone up 
26.5 percent. Inflation alone has gone up 14.1 percent.
    A 3.8 increase for BIA Forestry should not be the case. The 
United States has a trust responsibility and liability for 
tribal forests. Our tribal governments, often among the 
neediest, rely on our forestry revenues to provide basic 
services. Our forests are very hardworking, serving multiple 
uses while producing an estimated 2008 harvest of 500 million 
board feet, or about 250 percent of the harvest per acre from 
the National Forest System's 193 million acres.
    Yet BIA Forestry receives far, far less per-acre funding 
and is falling even further behind. The failure to keep up with 
inflation alone is reducing BIA Forestry employees and 
diminishing the program. Basic management is suffering, and 
initiatives enjoyed by the Bureau of Land Management and the 
Forest Service, such as adoptive planning for climate change, 
are not being addressed in BIA trust forests. With the trust 
responsibility, tribal forests should be getting first-class 
federal forest management, but they are not.
    To begin to correct this disparity the ITC urges a 2.6 
million increase to make up for inflation. We ask that the 
subcommittee devise a plan to provide BIA Forestry the balance 
of an '04 through '09 increase like those for the Bureau of 
Land Management and the Forest Service, and we would wish for 
an opportunity to sit down with the subcommittee to learn why 
this disparity has occurred and what might be done to correct 
it.
    For BIA Forestry projects the story is even worse. Funding 
from fiscal year 2004 to 2009 has declined from 17.8 million to 
17.6 million, while inflation has jumped 14.1 percent. To begin 
to correct this, the ITC urges that 1 million be restored to 
the Timber Harvest Initiative so that tribes with harvest 
backlogs can prepare supplemental sales to both meet the market 
recovery and come back in compliance with their management 
plans. The ITC urges that 5 million be added for forest 
development to begin to reduce the thinning and replanting 
backlog that persists on \1/6\ of our commercial forest, 
harming its future value and the tribe's future economies.
    The Intertribal Timber Council does thank the subcommittee 
for restoring 1 million to the BIA Endangered Species Program, 
saving the Field Level Program, which is where the mandates 
must be met. But the program has suffered from years of low 
requests from the Administration and funding is now applied 
nationally. The BIA ESP needs 4.7 million to give Indian trust 
lands the same level of endangered species coverage as the 
Bureau of Land Management. Within that, Northern spotted owl 
and marbled murrelet tribes who started the program in fiscal 
year 1991 should get 2.3 million to inflation adjust their 
funds to fiscal year 1995 levels.
    Intertribal Timber Council also urges that land 
consolidation get 59.5 million as requested in fiscal year 
2007. Land consolidation must be pursued. If not, fraction-
nation will only increasingly cripple the BIA.
    And finally, ITC urges wild land fire accounting and 
business practices be standardized between the Forest Service 
and Department of Interior and that tribal wild land fire 
contract support costs go to the BIA indirect cost pool instead 
of preparedness funding.
    That concludes my remarks. I want to thank the committee.

    [GRAPHIC] [TIFF OMITTED] T0064A.076
    
    [GRAPHIC] [TIFF OMITTED] T0064A.077
    
    [GRAPHIC] [TIFF OMITTED] T0064A.078
    
    [GRAPHIC] [TIFF OMITTED] T0064A.079
    
    Mr. Dicks. All right. Well, thank you. We are going to have 
to run over and vote, but please wait, and we will be back.
    [Recess.]
    Mr. Dicks. It is my opinion there is a big backlog on 
forestry issues, thinning, pruning, adaptive management. The 
previous Administration simply did not put the money in the 
budget, so we are going to take a look at these things, and we 
will do our best.
    Mr. Blythe. Absolutely. Thank you.
    Mr. Dicks. Good.
    Mr. Blythe. Thank you, Mr. Chairman.
    Mr. Dicks. Thank you.
    Ron Suppah, Chairman of the Warm Springs of Oregon. How are 
you, sir?
    Mr. Suppah. Good.
    Mr. Dicks. You may proceed.
    Mr. Suppah. All right.
                              ----------                              

                                         Wednesday, March 25, 2009.

          CONFEDERATED TRIBES OF THE WARM SPRINGS RESERVATION


                                WITNESS

RON SUPPAH
    Mr. Suppah. Mr. Chairman, members, good afternoon. I am Ron 
Suppah, Chairman of the Warm Springs Tribal Council, and I 
appreciate the opportunity to testify this afternoon.
    I have seven BIA and IHS items that I would like to 
discuss.
    First in BIA, the basic tribal priority allocations 
Forestry Budget has fallen way behind inflation, and the 
program is shrinking. At Warm Springs 11 of our 27 BIA forestry 
positions are now basically permanently unfunded. Fewer and 
fewer BIA personnel are being asked to do more and more, and 
management capacity has seriously eroded. We agree with the ITC 
that the subcommittee look into this problem and to 
significantly increase forestry funding to bring it more into 
line with the Forest Service.
    Second, over the past 5 years forestry project funding has 
fallen from 17.8 million to 17.6 million. To begin to correct 
this, we agree with the ITC that 1 million be restored to the 
Tribal Harvest Initiative. At Warm Springs as our regular BIA 
forestry staff has been de-funded, we have been able to use 
some of the Timber Harvest Initiative to conduct salvage sales, 
but now the funding has been cut by half, leaving just one 
person for salvage on our 440,000-acre forest.
    We also agree with funding 5 million to forest development. 
At Warm Springs, the 60,000-acre thinning and planting backlog 
on our 250-acre commercial forest has not seen any improvement 
in many years. A $5 million forest development increase will 
help to improve this situation for Warm Springs and timber 
tribes nationwide.
    Third, Warm Springs suggests a total of 5 million for BIA 
Endangered Species Program within that amount. We agree with 
the ITC that 2.3 million be for the Northern spotted owl. The 
BIA ESA Program was originally funded for the owl but now is 
being applied all across the country. That 2.3 million will 
restore the owl program back to its original inflation-adjusted 
levels.
    Fourth, the recent and very needed emphasis on BIA law 
enforcement is appreciated, but to date it has not much helped 
our very-lightly patrolled 650,000 acre reservations, where a 
wide array of criminal activity is persistent, including gangs, 
meth labs, and marijuana farms. To help assure that Warm 
Springs participates in BIA law enforcement increases, we ask 
that for fiscal year 2010, BIA be directed to provide Warm 
Springs an increase of 750,000 over our fiscal year 2008, 
funded level.
    Fifth, for major BIA national programs we ask that 25 
million be provided for Johnson-O'Malley, that the BIA Housing 
Improvement Program get 20 million, and that Welfare assistance 
get 80 million.
    Sixth, over at IHS we ask that contract health service be 
increased by 110 million as recommended by the National Indian 
Health Board. We have no IHS hospital in the northwest and are 
dependent on CHS funding.
    Seventh, we ask that funding for new and expanded IHS P.L. 
93-638 contracts be directed to those purposes. We also ask 
that IHS contract support costs be increased by 143.3 million 
as recommended by the National Indian Health Board so Warm 
Springs and other tribes can more fully participate in the 
contracting of IHS activities.
    Mr. Chairman, thank you. That concludes my statement.
    [The statement of Ron Suppah follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.080
    
    [GRAPHIC] [TIFF OMITTED] T0064A.081
    
    [GRAPHIC] [TIFF OMITTED] T0064A.082
    
    [GRAPHIC] [TIFF OMITTED] T0064A.083
    
    Mr. Dicks. Again, we appreciate your statement and 
recognize that these forestry issues have fallen behind, and 
you know, you very succinctly hit on most of the national 
issues. So we appreciate it.
    Mr. Cole.
    Mr. Cole. No questions.
    Mr. Dicks. Thank you.
    Mr. Suppah. Thank you, guys.
    Mr. Dicks. Cheryle A. Kennedy, Tribal Council Chairwoman, 
Confederate Tribes of the Grand Ronde of Oregon. How are you?
    Ms. Kennedy. I am good. It is good to see you.
    Mr. Dicks. It is good to see you. Right.
                              ----------                              

                                         Wednesday, March 25, 2009.

            CONFEDERATE TRIBES OF THE GRAND RONDE COMMUNITY


                                WITNESS

CHERYLE A. KENNEDY
    Ms. Kennedy. Good afternoon. Again, it is great to be here. 
Thank you for this opportunity to provide testimony. My name is 
Cheryle Kennedy. I am the Chairwoman of the Confederate Tribes 
of the Grand Ronde Community of Oregon. I am proud to be here 
today representing over 5,000 tribal members. I especially 
appreciate both that the chair and ranking member are from the 
Pacific Northwest.
    Having served as the executive director of the Northwest 
Portland Area Indian Health Board, in that capacity I met and 
visited with most of the tribes that live in Washington, 
Oregon, and Idaho. I also want to add comment that we support 
the testimony that was supplied by the Northwest Portland Area 
Indian Health Board earlier.
    I come from a federally-restored tribe. I was a member of 
the Grand Ronde tribe when Congress passed the Western Oregon 
Termination Act, ending the federal recognition of all western 
Oregon tribes, including Grand Ronde. For most Grand Ronde 
people termination meant a loss of homeland, identity as a 
tribe, and services from the Federal Government. After 30 years 
of work, hard work and perseverance, the Grand Ronde people 
convinced Congress in 1983 to reverse its ill-fated termination 
decision and restore Grand Ronde's federal recognition.
    Today my testimony is shaped in part by my 30-year career 
as a health administrator, working to improve the access and 
quality of healthcare to Natives and more importantly as 
someone who personally experienced the immediate injustice of 
termination.
    Today my testimony focuses on the severe under-funding of 
contract healthcare services, and at the end of my written 
testimony there are a couple remarks that I will make.
    The CHS budget is important for the Grand Ronde Health and 
Wellness Center as there are no IHS hospitals in the Portland 
area unlike most other areas. This is significant because 
hospitals provide services that outpatient clinics cannot. This 
gap in services is covered by CHS funds. Due to the lack of 
facilities to deliver inpatient services, Grand Ronde has no 
choice but to purchase specialty care from the private sector.
    CHS does not function as an insurance program with a 
guarantee benefit package. When CHS funds are depleted, CHS 
payments are not authorized. Therefore, people who are 
accessing CHS services, once the funds are stopped, there are 
no service provided, only exasperates their health conditions, 
resulting in loss of function, sometimes loss of lives. So it 
is very important that we get this service funded.
    This problem is fairly significant. As you know, nationally 
the CHS program represents 19 percent of the total health 
services account. In the northwest the CHS Program represents 
30 percent of the Indian health service Portland area office 
budget. That demonstrates the significance of our dependence on 
CHS funds for the northwest.
    When tribes run out of CHS funds during the fiscal year, 
many go without. This process also causes more additional 
dollars to be used at the beginning of the fiscal year for the 
CHS budget because the conditions worsen.
    The good news is that the solution is simple. Fund the IHS 
at a needs-base level. It is estimated that $1 billion will 
fully fund the CHS Program. An additional $1 billion.
    Termination for Grand Ronde resulted in a 30-year gap in 
history and suspension in community and infrastructure 
development, starting from ground zero. The effort to build and 
sustain our community has been a monumental challenge, 
significantly more complex than one faced by a mature 
established municipality with a continuous history of 
development. Tribes who experienced termination did not have 
the opportunity to participate in budgets that were appropriate 
that addressed basic infrastructure development, and we lag far 
behind tribes that were not terminated. This issue must be 
addressed in the appropriations budget.
    An additional comment I would like to make is the 
Confederated Tribes of Grand Ronde was pleased to see 
Congressional action to earmark money for Indian Country in the 
American Recovery Investment Act. However, the recession the 
Nation is now in, has been experiencing, has been the norm for 
Indian Country. In fact, Indian Country suffers from higher 
rates of unemployment and poverty than the rest of the Nation. 
Economic development is critical for Indian Country, and tribal 
governments know this better than most.
    I challenge the members of the subcommittee and all of 
Congress to fulfill the treaty obligations of this Nation by 
appropriating more economic development funds for Indian 
Country in the 2010 budget and any future stimulus package and 
base the funding levels of the Indian Health Service Budget on 
the true healthcare needs of Indian people.
    And I thank you for this opportunity to testify.
    [The statement of Cheryle A. Kennedy follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.084
    
    [GRAPHIC] [TIFF OMITTED] T0064A.085
    
    [GRAPHIC] [TIFF OMITTED] T0064A.086
    
    Mr. Dicks. All right. Thank you for an excellent statement 
as usual, and we know there are serious problems, and we are 
hoping that the new Administration's budget will be better on 
many of the issues that you have discussed.
    Ms. Kennedy. And I would mention that I know that the 
committee has looked at the lack of mental health funding, 
alcohol, drug, dental, and an additional long-term financing, 
and so that was not part of my written statement. I believe the 
Health Board did make those statements, but I wanted to----
    Mr. Dicks. Yes. We will put them all in the record.
    Ms. Kennedy. All right. Thank you very much.
    Mr. Dicks. Thank you.
    Pablo Viramontes.
    Mr. Viramontes. Good afternoon.
    Mr. Dicks. Welcome.
                              ----------                              

                                         Wednesday, March 25, 2009.

                  INDIAN HEALTH CENTER OF SANTA CLARA


                                WITNESS

PABLO VIRAMONTES
    Mr. Viramontes. Good afternoon. Thank you for listening to 
my testimony. My name is Pablo Viramontes, and I am coming to 
you as a representative of the Indian Health Center of Santa 
Clara Valley, which is located in San Jose, California. It is 
an honor to be here today, and I thank you for your time. I ask 
for your permission to speak to you today about American Indian 
traditional healing ways.
    The organization I represent, the Indian Health Center, is 
an urban Indian health program. It was started in 1977, with 
funding from Congress because of huge health disparities that 
were found in Indians who were living in urban areas. We 
provide health services for American Indians and anyone else 
who needs services. We provide western and traditional healing 
ways, and they not only benefit American Indians, they benefit 
the overall community.
    Many Indians who live in urban areas do not have much 
contact with the reservation or know a lot about traditional 
ways. Traditional ceremonies can bring the people back to 
health, and people in urban areas are now seeking this, both 
Indian and non-Indians. Traditional ceremonies are spiritual, 
not religious. They are based on spirituality, not religion. 
These practices have been going on for centuries, but our next 
generation, our youth, are not learning and are forgetting 
these ways.
    We must think of our future generations who seem like they 
are being left behind. People who are away from their 
reservations and the youth and the others who the Creator has 
guided to be on this path are seeking this and need access to 
these ceremonies. The traditional teachings of American Indian 
indigenous cultures teach all people not to be wasteful, to 
honor the environment, to honor Mother Earth, to honor the 
plants and animals and everything around us.
    All tribes have a word for all my relations. Lakota say, 
omatakiosin. My tribe says, aseemockimoo. The Southern 
Indigenous Tribes say, epodlinwani. So that means that we are 
related to everything, to the sky, the earth, the plants that 
grow on Mother Earth, the animals that walk on Mother Earth. We 
are related to everything we can possibly think of.
    Because we are related to everything, we need to ask 
permission before we take. We are losing our traditional ways. 
We have forgotten to ask permission of everything around us. 
Since we are all related, we should pray to this land before we 
dig the holes in it for a new building. We should ask the land 
if we can do this. It shows our intention. We should ask 
permission of everything, and it is beautiful because it makes 
you egoless.
    And when you make yourself as important as an ant, a plant, 
a tree, when you ask permission, it is humbling, and it honors 
all the relations because everything is connected. Everything 
will connect with you if you ask permission in the right way. 
Because we are related, everything has medicine, and everything 
is a teacher.
    I want to talk to you about three medicines and teachers. 
The drum, sage, and the sweat lodge ceremony. The drum is the 
heartbeat of the people. Men say it was given to them by the 
females because they are the life givers. When a baby is born 
and is laid on the mother's breast so it can feel the 
heartbeat, we can honor that women gave that heartbeat to them. 
Men need to learn about the drum to keep their families intact 
so that that heartbeat of the family continues. The drum is the 
teacher. It teaches people to be in harmony with each other and 
the heartbeat of the Nation.
    Even before it is set up the drum is always honored with 
tobacco. To honor that animal and that tree that had to give up 
its life to be part of that sacred instrument. Because the drum 
is so powerful, a lot of traditional people believe that you 
need to lead a clean life if you are going to be on that drum. 
You cannot use drugs or alcohol. The drum belongs to the 
people, and it has a caretaker, and the caretakers are chosen, 
and they make sure that whoever comes around them and wants the 
drum to teach them, that they are ready for it, because the 
teachings are very sacred. It is important that a community 
knows that if a community member goes onto the spirit world, 
that there is a drum available for that family.
    Sage. Most tribes had an herb. It was a plant that was 
indigenous to that area, so they used it to clean energy. The 
Buddhist people use incense. Southern Indigenous tribes use 
cobon, and northern and other tribes use sage and sweet grass 
and cedar. Most of the sage we use in California is a white, 
sweet white sage which grows mostly in Southern California. 
People who go harvest the sage are taught not to sell it, 
because it belongs to the people. It is medicine. When you go 
harvest it, you can use it for personal use or give it to the 
people who know how to use it or get it for the grandmas or the 
grandpas that can no longer go out there and harvest it.
    Normally tobacco is used for an offering, but you can use 
words if you do not have tobacco, and you should ask permission 
from that plant and tell that plant of your intentions. Tobacco 
and sage are medicines, just like the songs and the prayers for 
that ceremony. Sage is used to clean that energy around us. You 
might have someone who comes into your home who you know is 
using profanity and drugs and alcohol or was not acting in the 
proper manner. Once they leave you can burn that sage and clean 
it. That way you can honor your space, your special space that 
you have in your home.
    Everything, the birds, the rocks, the teachers, everything 
is a teacher. The drug is a teacher. All these things are 
teachers. The sun, the earth are also teachers, and they are 
all free, and all they ask is that you ask their permission.
    Mr. Dicks. I hate to have to cut you off but----
    Mr. Viramontes. Okay.
    Mr. Dicks [continuing]. Your time has expired, and we will 
read the statement, and it will be placed in the record.
    Mr. Viramontes. Okay. Well, I thank you for listening to me 
now. Could I just read the conclusion?
    Mr. Dicks. Yes. Sure.
    Mr. Viramontes. Okay. In conclusion, Indians live in two 
worlds, especially Indians who live in urban areas. We need to 
preserve our traditional ways because that is part of what 
heals us. It also helps heal others who the Creator had led to 
this. We are moving into a new age, and we need to remember 
these things. We need to remember that we are all related and 
that we need to offer prayer and ask for permission. We need to 
teach our youth these ways and do things in a right way, and we 
need to support those traditional practices and protect them 
from people who would try to make a profit from them. These 
practices can be shared, but they should not be done by someone 
who does not walk this road.
    Please support these traditional medicines and teachers so 
that we may all benefit.
    I thank you.
    [The statement of Pablo Viramontes follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.087
    
    [GRAPHIC] [TIFF OMITTED] T0064A.088
    
    [GRAPHIC] [TIFF OMITTED] T0064A.089
    
    Mr. Dicks. Thank you. Norman J. Cooeyate. You may proceed.
                              ----------                              

                                         Wednesday, March 25, 2009.

                             PUEBLO OF ZUNI


                                WITNESS

NORMAN J. COOEYATE
    Mr. Cooeyate. Thank you, Chairman Dicks, and members of the 
committee. Good afternoon. My name is Norman Cooeyate. I am the 
Governor for the Pueblo of Zuni.
    My tribe's current land area covers 450,000 acres in 
western New Mexico and the northern portion of Arizona, about 
150 miles west of Albuquerque, New Mexico. Although we face 
many challenges, we are fortunate that we still live on our 
ancestral homelands.
    Ours is a very traditional and humble community, and I 
invite the chairman and the members of this committee to visit 
and break bread with us in Zuni. You will not be disappointed.
    I ask to testify today because decades after we have first 
started contracting with the government, the government still 
fails to honor our contracts by failing to pay contract support 
costs that the government owes. The time has long past when 
this shameful conduct must end and when government's practice 
of repeatedly breaching agreements with our tribes and with 
other Indian tribes must cease.
    I am here because this is something this committee and this 
Congress can change. In the 1990s our tribe began to confront a 
financial crisis over the government's recurring payment 
shortfalls. Here is a background to that crisis.
    As you know, in order to operate the essential governmental 
programs that IHS and BIA have transferred to us, we must have 
administrative structures in place. Just like any government or 
business we need insurance. We need to account for our contract 
expenditures. We need to make payroll. We need to purchase and 
track property and equipment, and we need to manage our 
employees. On top of all this, federal law adds unique demands, 
requiring us to pay for independent and certified audits every 
year.
    These are the expenditures that the government expects us 
to cover from a special pool of funds called an indirect cost 
pool. Money for that pool comes from all of the tribe's 
contracts and grants, as well as from the tribe's revenue. From 
this pooled money we pay for all our fixed administrative 
costs, including insurance and audit costs.
    Of course, the Federal Government does things differently 
such as self-insuring or else using agency lawyers and 
accountants or using the General Service Administration, the 
Office of Personnel Management, and other agencies to carry out 
these same functions.
    We cannot spend whatever we choose to spend on these 
things, nor would we want to. Instead, our expenditures must be 
reviewed and approved by an agency within the Interior 
Department called the National Business Center or NBC. Even 
then we can only get approval for our indirect cost pool 
expenditures, and from that indirect cost rate, if we present 
an audit from the most recently completed year, on top of that 
once the new year is over, we must do another audit to see how 
the funds were spent and then square up with NBC.
    The system is completely transparent, and it enjoys 
complete accountability. We try to keep our indirect cost rate 
as low as possible so that most of our funds are devoted to the 
direct delivery of services to our people, whether it is law 
enforcement, healthcare, or Head Start. We are not a rich 
tribe, and every dollar must count.
    Once we have an indirect cost rate, the rate applies to all 
of the funding agencies with which we have contracts and 
grants. This is the law as spelled out by NBC and OMB. The 
problem is not contrary to the same law. Every year the BIA and 
IHS disregard these agreements. The law requires them to pay 
the full indirect costs as we have negotiated with NBC, but IHS 
and BIA refuse. They do not budget for these costs. They do not 
ask Congress for these costs, and so Congress does not 
appropriate funds to pay these costs.
    But since these are fixed costs and we have to account for 
spending these costs, we must still pay them. The result? Deep 
program reductions in essential services we have contracted to 
provide to our people. Cuts in public health nursing and 
alcohol and substance abuse treatment, cuts in emergency 
medical services, cuts in police and realty services, cuts in 
child education and adult scholarships, cuts in housing 
services. The list goes on and on. Year in and year out we are 
forced to cut jobs to provide services to our people so that 
our books remain balanced in the face of BIA and IHS 
underpayments.
    This has got to stop. No other government contractor gets 
shortchanged in this way. If necessary, supplemental 
appropriations are made to pay governmental contracts in full. 
This committee must, therefore, ask the question, why does the 
government think it is lawful to cheat us on our contracts? Is 
it because we are Indian tribes instead of Boeing or 
Halliburton? The question must be asked.
    For many tribes the crisis reached the boiling point in the 
1990s. We sought out legal counsel, and we filed two class 
action lawsuits against IHS and one against BIA. Our BIA 
lawsuit eventually resulted in a settlement for all the 
Nation's tribes over shortfalls that occurred in the early 
1990s. The settlement was part of a combined settlement with 
other claims in other class action against the BIA that was 
filed by our neighbors, the Raymond Navajo Chapter.
    Our IHS lawsuit was blocked by another judge from 
proceeding as a class action. Then we settled our own claims 
against IHS but only for the shortfalls we suffered in the 
1990s. Since these cases nothing has changed. Today the BIA and 
IHS shortfalls continue. Even after the 1999 GAO report 
investigated and confirmed the integrity of the entire contract 
support cost process and reported on the terrible impacts the 
shortfalls are creating in Indian Countries. The shortfalls 
continued, even after the Supreme Court ruling in 2005, 
Cherokee Nation case that the government must pay these 
contracts in full, the shortfalls continues. Even after the BIA 
adopted a new contract support cost policy in 2006, the 
shortfall continued.
    And now I know I am running out of time. One thing I want 
to say is the result. In each of the last 2 years we have 
suffered contract support shortfalls of nearly $460,000, 
including $382,387 in the BIA underpayments. In fact, the BIA 
does not even pay 1/2 of the total contract support cost it is 
required to pay under the laws in our contracts.
    Not only is this shortfall stunning in itself, it means 
several cuts at a time when our community can hardly afford 
more unemployment. And to make my point, if this country is 
worried about double-digit unemployment numbers, our tribe is 
ready to provide our expertise in this category, as we have 
been experiencing unemployment greater than 60 percent in the 
past 10 years. This is a terrible time to correct this practice 
that has been continuing.
    On behalf of the Pueblo of Zuni, I thank this committee and 
the 111th Congress to make sure that from this day forth the 
government honors its legal duty to pay the full contract 
support costs that are due under our contracts and under the 
Self-Determination Act.
    And I know I am out of time so I will leave the rest for 
you to read.
    [The statement of Norman J. Cooeyate follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.090
    
    [GRAPHIC] [TIFF OMITTED] T0064A.001
    
    [GRAPHIC] [TIFF OMITTED] T0064A.092
    
    [GRAPHIC] [TIFF OMITTED] T0064A.093
    
    Mr. Dicks. It will be on the record. Thank you.
    Mr. Cooeyate. Thank you.
    Mr. Dicks. Any questions?
    Joseph Villa Pauline.
    Carl Edwards. Well, welcome, and we will put your statement 
in the record, and you may proceed.
                              ----------                              

                                         Wednesday, March 25, 2009.

       LAC DU FLAMBEAU BAND OF THE LAKE SUPERIOR CHIPPEWA INDIANS


                                WITNESS

CARL EDWARDS
    Mr. Carl Edwards. Mr. Chairman, my name for the record is 
President Carl Edwards. I respectfully represent the Lac du 
Flambeau Band of Chippewa Indians, and, no, I am not the 
racecar driver.
    But I am at council for 8 years, for the past 6 months I 
have become tribal president. Like you have heard over and over 
again today, Indian Country needs your help to provide health, 
education, and welfare for our membership. Our list is long and 
wide during these hard times for both our Nations. I think most 
of tribal president, chairpersons our administrators have 
indicated to you that view today.
    Indian Country is not recession proof, and because of our 
location, we get hardened fast. Our reservation located in the 
warm and balmy north woods of Wisconsin.
    Mr. Dicks. I bet it is cold up there right now.
    Mr. Carl Edwards. Actually, sir, it is kind of raining 
right now.
    Mr. Dicks. Raining.
    Mr. Carl Edwards. But it will get cold this weekend. 
Seattle actually is very beautiful. I have been there one time.
    Mr. Dicks. Yes.
    Mr. Carl Edwards. So as requested by this committee the Lac 
du Flambeau Band has submitted a written testimony which will 
similarly address our needs. In general, we request increased 
funding for contract support and cost of living expenses for 
BIA and IHS programs, increased funding for conservation of 
wildlife through the BIA. Right now it is currently funded all 
through our general fund dollars.
    Increase funding for BIA forest programs. It has been about 
flatlined for about 8 years now and as you have heard earlier 
with the Intertribal Timber Council. Restore our Circle of 
Flight dollars, support for the Great Lakes Indian Fish and 
Wildlife Commission, increase funding for contract health, 
increase funding for historical preservation officers.
    I know this is a long list, but we need your continued 
support. I understand your problem as we at the tribal level 
also need to make hard fiscal choices.
    Mr. Chairman, in the short time we have together there is 
one overreaching problem we face as tribal government and as a 
major national concern. It is the continued increase in 
healthcare costs. This problem impacts all faces of tribal 
government. It is very important that Congress, the new 
President, and tribal governments work together to solve this 
national concern.
    So, Mr. Chairman, as you have heard many times in your 
tenure as chairman of this committee, my tribe and 500 other 
tribes have a special relationship with the United States 
because of our treaties signed by our ancestors. These treaties 
are constitutionally protected, so please help us also move 
fundings and shortfalls in Indian Country. Thank you for your 
past, present, and future support.
    [The statement of Carl Edwards follows:]

    [GRAPHIC] [TIFF OMITTED] T0064A.094
    
    [GRAPHIC] [TIFF OMITTED] T0064A.095
    
    [GRAPHIC] [TIFF OMITTED] T0064A.096
    
    Mr. Dicks. Well, thank you, and I also noted here you have 
your National Park Service Programs, you ask for 13 million be 
part of tribal historic preservation offices, which would 
provide a modest base funding amount of 170,000 per--do you 
know anything about that program?
    Mr. Carl Edwards. I brought my departmental services 
director with me.
    Mr. Dicks. All right.
    Mr. Carl Edwards. Larry.
    Mr. Wawronowicz. Yeah. Basically the tribal historic 
preservation offices take on the responsibility of state 
preservation offices, and under the National Historic 
Preservation Act there was a lot of dollars associated with 
that program, but as more and more the tribes took on that 
responsibility, the pot never increased but the tribes did, so, 
you know, our base funding has been decreasing over time over 
the years.
    So currently in our particular case, you know, the general 
fund is picking up some of the costs associated with our tribal 
historic preservation offices, and you know, any kind of 
federal undertaking, for example, if we are going to be putting 
in BIA roads or putting any kind of buildings up, you know, 
THPO has to give us the clearance for, you know, for NEPA, so 
it gets to be a rather instrumental part of how we do business 
on the reservation.
    Mr. Dicks. Okay. Any other questions?
    I think that is our last witness. So the committee will 
stand adjourned until 9:30 tomorrow morning.
                                        Thursday, March 26, 2009.  

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


                   PUBLIC WITNESSES--NATIVE AMERICANS

                      Opening Remarks of Mr. Dicks

    Mr. Dicks. The committee will come to order.
    Welcome to the second of three days of public witness 
testimony. Yesterday we heard testimony from many witnesses 
regarding the state of Indian law enforcement, schools and 
health care and many other issues. I am pleased to hear of some 
of the successes of these programs but I understand there are 
still many challenges. I would like to thank yesterday's 
witnesses for sharing their experiences and concerns with us 
and I welcome all of you testifying today.
    One important reminder to our witnesses before we start. We 
have many speakers scheduled to testify today. To ensure that 
we are able to accommodate everyone, I ask that our witnesses 
respect the 5-minute time limit. A yellow light will flash with 
1 minute remaining in your time in order to give you an 
opportunity to wrap up your statement. When the red light comes 
on, then your time has expired. Your complete statement will be 
put into the record.
    I will turn to my ranking colleague, Mike Simpson of Idaho.
    Mr. Simpson. Go ahead, Mr. Chairman. I appreciate these 
hearings and look forward to the testimony today.
    Mr. Dicks. Our first witness is Faye BlueEyes of the DCG 
School. Welcome. We are glad to have you here. We will put your 
statement in the record and you may proceed for 5 minutes.
                              ----------                              

                                        Thursday, March 26, 2009.  

              DZILTH-NA-O-DITH-HLE COMMUNITY GRANT SCHOOL


                                WITNESS

FAYE BLUEEYES
    Mr. Chavez. Good morning. I am Ervin Chavez, president of 
the school board that operates the Dzilth-Na-O-Dith-Hle 
Community Grant School, a BIA-funded school on the Navajo 
Reservation in New Mexico. We have also submitted a written 
report in addition to our comments this morning, Mr. Chairman. 
With me is Faye BlueEyes, our program director, who has many 
years experience of BIA school management. We are here to tell 
you the most significant challenges we face in providing 
quality education to our 205 Navajo children in our K-8 school. 
I have asked Faye to present our budget problems with 
administrative cost grants, student transportation and 
facilities. Faye.
    Ms. BlueEyes. Good morning, Mr. Chairman. Every year you 
hear witnesses report that tribally operated schools are 
receiving insufficient funds to cover their administrative 
costs. I am here to tell you the situation today is even worse 
than last year and it will get worse unless Congress and the 
Administration act to correct the problem. Let me put it in 
perspective for you. If the Clerk of the House received only 66 
percent of the amount she needs to operate the House of 
Representatives, what would she do? Would she have to severely 
curtail services? Yes. Would she have to lay off many of her 
employees? Yes. If she had very few people in her finance 
office, would layoffs threaten her ability to maintain proper 
financial controls? Yes. Would she have to ask employees she is 
able to keep to work longer hours and take on more duties? Yes. 
Shortage of administrative cost grant funding forced all of 
these cutbacks on us. We have to pay for insurance, engage 
auditors and perform background checks on our employees who 
supervise our Navajo children. These expenses are non-
negotiable. When we do not have enough administrative cost 
money, we have to take funds from our education program budget 
to cover them. Please provide us with the administrative cost 
grant appropriations that will fully cover the needs of 
tribally operated schools, $58.6 million.
    Thank you for the increases provided to the student 
transportation account over the last two years. They were small 
but very welcome. You know that we need additional funding to 
support our bus systems. If we cannot get our children to 
school, we cannot educate them. Even though gasoline prices 
have declined from last year's high levels, the costs of diesel 
fuel have not declined nearly as much. Our buses run on diesel 
fuel, which in our area costs us nearly $3 a gallon.
    In addition to fuel, we have to pay bus driver salaries and 
maintain buses which travel daily on dirt, washboard roads. We 
just do not get enough funding to cover all these costs. 
Therefore, we have had to cancel two of our five bus routes in 
order to reduce costs. This means many students will have far 
longer bus trips to and from school every day. Remember that 
our students are young, age 5 to 12. When kids have to spend 
long hours on the bus, they are tired by the time they get to 
school. We fear that the increased achievement levels we 
accomplished in the last year will be jeopardized if our 
students are too tired to learn. Please increase student 
transportation by at least 24 cents per mile, bringing it to 
$3.15 per mile.
    Finally, I want to mention our school facilities. All of 
our buildings belong to the federal government but your 
investment in them is not being protected because we do not get 
sufficient resources to maintain them properly. In fact, last 
year we received only 52 percent of the amount the BIA 
calculated we needed for operation and maintenance expenses. We 
doubt that any facilities maintenance staff could keep 
buildings in proper order with only half of the needed 
resources. Let me tell you some of the things our children have 
to endure. Our heating and cooling system is so out of whack 
that some classrooms are sweltering hot while others are so 
cold the kids have to keep their coats on. These conditions 
produce the high level of student and staff illness you would 
expect. The sewer lines that run under our school buildings are 
leaking. This produces horrible-smelling, germ-filled air 
throughout the building which our staff and students are 
exposed to daily and the leaking moisture has now presented us 
with mold problems.
    In closing, I ask the committee to please make up for years 
of substandard funding to the BIA school system. Please show 
our system the same level of respect and attention you would 
want for the school that educates your children.
    [The statement of Faye BlueEyes follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.001
    
    [GRAPHIC] [TIFF OMITTED] T0064B.002
    
    [GRAPHIC] [TIFF OMITTED] T0064B.003
    
    [GRAPHIC] [TIFF OMITTED] T0064B.004
    
    Mr. Dicks. Thank you very much. We appreciate your 
statement.
    Are there any questions? Okay. Thank you.
    Next we will have the testimony of the Puyallup Tribe of 
Indians before the House Appropriations Committee, David Bean. 
Hi, David. Welcome. We are glad to see you.
                              ----------                              

                                        Thursday, March 26, 2009.  

                             PUYALLUP TRIBE


                                WITNESS

DAVID BEAN
    Mr. Bean. Good morning, Mr. Chairman. My name is David 
Bean. I am a member of the Puyallup Tribal Council. I have with 
me today Councilman James Miles, tribal member Chester Earl 
from land use department, and Michael Boshop from our 
government relations office.
    On behalf of the Puyallup Tribe, we would like to thank the 
committee for their continued support on many tribal issues. In 
addition, we would like to thank the chairman for his continued 
service to the State of Washington.
    Mr. Dicks. Thank you.
    Mr. Bean. More specifically, your tireless efforts towards 
the negotiations that led to the historical land claim 
settlement agreement which brought tremendous economic 
prosperity to the Puget Sound region.
    Mr. Dicks. Thank you.
    Mr. Bean. I would also like to thank you for your 
assistance in obtaining funding for the development of the 
Puyallup Tribe Health Authority and Chief Leschi Schools, both 
of which provide services to a community numbering over 25,000 
Native Americans from over 350 tribes. We have submitted 
written testimony for your review. I would like to call your 
attention to the following areas: reauthorization of the Indian 
Health Care Improvement Act, operations of any programs and 
contract support costs, fisheries and natural resource 
management, education, public safety, justice and law 
enforcement.
    Funding for Indian Health Service fails to meet the 
standards of health services for many Native Americans across 
the Nation. The Puyallup Tribe has been operating their own 
health care program since 1976 and the Indian Self-
Determination Act. The Puyallup Tribe Health Authority operates 
a comprehensive ambulatory care program to an expanding 
population in the Tacoma-Pierce County area. There are no IHS 
hospitals in the Portland area so all specialty and hospital 
care have been paid for out of contract allocation. The 
allocation to the Puyallup Tribe Health Authority has been 
significantly inadequate to meet the needs since 2004 with the 
Puyallup Tribe started subsidizing contract health care in the 
amount of $2.8 million. This past fiscal year that number has 
grown, that subsidy has grown to $6 million. Therefore, the 
Puyallup Tribe of Indians supports all efforts by Congress and 
this Administration to pass the Indian Health Care Improvement 
Act.
    The fiscal year 2010 BIA budget needs to include increased 
funding for the operations of Indian programs. Tribal 
communities have some of the greatest needs in the areas of 
child abuse and neglect and mental health services. Addressing 
the unmet needs and providing services for our most vulnerable 
and victims of abuse should be a priority of all people. Our 
needs are many. Our needs are complex.
    Within the operations of Indian programs is the tribal 
priority allocations. This tribal priority allocation budget 
must support desperately needed and vital services for our 
community. Unfortunately, these functions have not received 
adequate funding to allow the tribes the resources to fully 
exercise self-determination and self-governance. The BIA needs 
funding in order to carry out their trust responsibility which 
has fallen short for many years. This is not the fault of the 
BIA staff. They have been underfunded and understaffed for many 
years. We are fearful for the loss of many valuable, 
experienced BIA staff due to retirement eligibility over the 
next five to ten years. We are requesting support by the 
committee to fund the operations of Indian programs at the 
fiscal year 2009 funding level and to fund contract support 
costs at a 100 percent level.
    The Medicine Creek Treaty secured for the Puyallup Tribe 
and other Tribes the right to hunt on open and unclaimed lands. 
This treaty right is reserved in the same paragraph that also 
reserved the rights to fish and gather shellfish. 
Unfortunately, the BIA program that was designed to support 
this treaty activity has not received adequate, if any, 
appropriations in the last several years. We ask for your 
support to address the unresolved hunting issues and fishing 
rights issues. The Puyallup Tribe concurs with the Northwest 
Indian Fish Commission, their request to fund tribal wildlife 
management treaty hunting rights program for the fiscal year 
2010 budget.
    In the area of education under the Department of the 
Interior, the BIA's budget has historically been inadequate to 
meet the educational needs of Native Americans. The tribe's 
Chief Leschi Schools is reaching full capacity and without any 
additional appropriation construction, overcrowding will 
negatively impact the quality of education for our students 
resulting in unmet educational needs that have multiplied over 
the past decade. Therefore, we concur with the National Indian 
Education Association request to double the Indian school 
construction funding over the fiscal year 2009 level.
    The Puyallup Reservation encompasses about 18,000 acres and 
services 25,000 Native Americans representing over 350 tribes. 
We have a police department with one chief of police, 26 
officers, two reserve officers, and this division is not able 
to provide an adequate level of policing as a result of the 
increase in population, increase in gang activity and the 
increasing presence of meth labs. A recent inspection--time is 
up.
    Mr. Dicks. Go ahead and finish.
    Mr. Bean. Okay. I just wanted to respect the time.
    Mr. Dicks. No problem.
    Mr. Bean. Okay. The Puyallup law enforcement division is 
not able to provide adequate levels of policing as a result of 
increased population, increased gang-related activities and 
increasing meth labs. Our tribe's detention facility is housed 
in a modular unit as a result of the 2001 Nisqually earthquake. 
A recent inspection by the BIA Office of Professional Standards 
determined that the facilities were unsafe and recommended that 
no further funding should be utilized for facility 
rehabilitation.
    [The statement of David Bean follows:] 

    [GRAPHIC] [TIFF OMITTED] T0064B.005
    
    [GRAPHIC] [TIFF OMITTED] T0064B.006
    
    [GRAPHIC] [TIFF OMITTED] T0064B.007
    
    [GRAPHIC] [TIFF OMITTED] T0064B.008
    
    Mr. Dicks. Thank you. Any questions? Well, we appreciate 
very much your testimony and coming in. We will continue to 
work together.
    Mr. Bean. Thank you, sir.
    Mr. Dicks. Reno Keoni Franklin, chairman of the National 
Indian Health Board. Welcome.
                              ----------                              

                                        Thursday, March 26, 2009.  

                      NATIONAL INDIAN HEALTH BOARD


                                WITNESS

RENO KEONI FRANKLIN
    Mr. Franklin. Good morning, Mr. Chairman, members of the 
subcommittee. My name is Reno Keoni Franklin. I am a tribal 
member of the Kashia Pomo Tribe, a 7-year elected health 
delegate there, and come from Sonoma County Indian Health up in 
northern California and chairman of the California Rural Indian 
Health Board and recently elected chairman of the National 
Indian Health Board.
    Mr. Dicks. Congratulations.
    Mr. Franklin. Thank you, sir. Sitting with me is Jennifer 
Cooper, our legislative director.
    I am here today to give you the National Indian Health 
Board's views and priorities for the fiscal year 2010 budget. 
NIHB was pleased to learn that the Obama Administration is 
proposing what is described as a significant increase to the 
IHS budget request for fiscal year 2010. It is a figure in 
excess of $4 billion. While we do not yet have any details 
about the programs and projects for which increases are 
requested, we are hopeful the Administration's budget will 
reflect the recommendations for fiscal year 2010 made in March 
by the tribal leaders who comprise the IHS national tribal 
budget work group. The work group recommended increases in the 
IHS budget totaling $908 million above the expected fiscal year 
2009 funding levels. These recommendations focus on two types 
of needed increases.
    First, the work group recommends an increase of $449.3 
million in current services. Current services increases are 
those budget increments needed for the Indian health system to 
merely continue to operate at its current level of service. 
This category contains such items as pay cost increases for IHS 
tribal and urban program employees, medical inflation, contract 
support costs, funding for population growth, facilities 
construction and staffing, urban program funding and 
restoration of rescission amounts from fiscal years 2005 and 
2006. Without these increases to base funding, we would 
experience a decrease in our ability to care for our existing 
service population.
    Second, the work group recommended a $458.7 million 
increase be added to identified programs and facilities 
accounts. Program services increases refer to recommended 
increases in the IHS budget accounts to enable our programs to 
improve and expand the services they provide to Indian 
patients. The IHS has long been plagued by inadequate funding 
in all programmatic areas, a circumstance which has made it 
impossible to supply Indian people with the level of care they 
need and deserve.
    In addition, I want to mention three issues involved with 
budget management which deserve special attention from the 
subcommittee. First, it has been the OMB's practice for the 
past several years to apply non-medical inflation factors to 
the IHS budget. This underestimates the amount needed to keep 
up with inflation. Instead, the medical inflation factor should 
be applied to the IHS budget to more correctly reflect the 
increased amount needed for a system that is responsible for 
providing direct care to patients and for purchasing care from 
public and private providers through the Contract Health 
Services program. For Congress to make informed appropriation 
decisions, it needs to have accurate estimates of the amount 
needed to cover inflation in medical costs. Thus, we ask the 
Appropriations Committee to instruct IHS budget developers and 
OMB to apply a true medical inflation rate to all subsequent 
IHS budget requests. And just to kind of sum that up, the 
difference is a 4 percent versus a 10 percent for the true 
medical inflation rate.
    Second, the IHS budget must be shielded from administrative 
rescissions and Congressional across-the-board cuts. Our system 
provides direct care to patients. It would be difficult enough 
to absorb such reductions if the IHS system were funded at its 
true level of need. But whereas our system is funded at 60 
percent of need at best, arbitrary, unplanned-for cuts to 
program funding put prudent patient care at severe risk. The 
NIHB asks for bill language that would protect the IHS budget 
from all rescissions and across-the-board cuts imposed by the 
Administration or Congress.
    Third, Indian programs throughout the federal government 
need better coordination, especially with regard to budget 
development. This is why the NIHB along with NCAI has 
recommended that the Obama Administration appoint an Indian 
programs liaison officer at each federal agency including OMB. 
Ideally, the OMB liaison officer would be located in the Office 
of the Director and charged with gathering in one place 
information about Indian Country's needs and advising the 
director on how to more effectively and efficiently coordinate 
Indian programs within and between federal agencies. For 
example, programs to combat alcohol-substance abuse in Indian 
Country involve at least four agencies: the IHS, BIA, the 
Department of Education and SAMHSA. Coordinating agency agendas 
and budgets for programs with similar objectives would help 
reduce duplicate paperwork requirements and better target 
services to intended beneficiaries. The NIHB asks the 
Appropriations Committee to encourage the OMB Director Orszag 
to create a new position in his office to coordinate budget 
policy for Indian programs.
    On behalf of the National Indian Health Board, I thank you 
for the opportunity to address you and answer any questions if 
you have any.
    [The statement of Reno Keoni Franklin follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.009
    
    [GRAPHIC] [TIFF OMITTED] T0064B.010
    
    [GRAPHIC] [TIFF OMITTED] T0064B.011
    
    [GRAPHIC] [TIFF OMITTED] T0064B.012
    
    Mr. Dicks. Thank you. Are there any questions?
    Mr. Cole.
    Mr. Cole. Could you describe a little bit more detail this 
position recommendation that you just mentioned for Director 
Orzag? How would that work? What would that person do 
precisely?
    Mr. Franklin. Well in the example we discussed four 
different entities working on drug and alcohol issues in Indian 
Country. We have four different agencies that are all at the 
same time having input on the budget process. If we had one 
person in that office to gather that information, have it all 
with one central person and disseminate that information to the 
director, we believe it would make it a lot easier for them to 
get that information and appropriately disseminate it.
    Mr. Cole. So now this information would just come from four 
different directions to the director. Is there ever a 
disagreement? I mean, what is the process for reconciling when 
you will get four different estimates or four different 
decisions?
    Mr. Franklin. I imagine there is some confusion that goes 
on. I know that the OMB does not have a tribal liaison, and not 
having that person complicates how they receive that 
information.
    Mr. Cole. Are there comparable people on the staff for 
other kinds of, you know, topic areas that would have this sort 
of diversity of opinion flowing in?
    Mr. Franklin. Yes, and they do have great staff over there 
but, you know, I think that when you have two large Indian 
organizations like NIHB and NCAI both recommending and stating 
that there is a need for that.
    Mr. Cole. That is a good idea. Thank you very much.
    Mr. Franklin. Thank you, sir.
    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Dicks. Thank you.
    Myra Pearson, chairwoman, Spirit Lake Tribe, Fort Totten, 
North Dakota.
                              ----------                              

                                        Thursday, March 26, 2009.  

                   SPIRIT LAKE TRIBE OF NORTH DAKOTA


                                WITNESS

MYRA PEARSON
    Ms. Pearson. Good morning, Mr. Chairman and members of the 
committee.
    Mr. Dicks. Are you facing flooding out there?
    Ms. Pearson. Oh, yes. I am the only one that got out of 
North Dakota. That is why I am here.
    Mr. Dicks. Well, we are glad you made it.
    Ms. Pearson. I struggled but I made it.
    Mr. Dicks. You might want to stay here a while.
    Ms. Pearson. No, I am going right back home. We have got 
things that have to get done.
    Thank you for this opportunity, and as chairwoman for the 
Spirit Lake Tribe, I want to submit this written comment to the 
Committee on Appropriations regarding the appropriations made 
to the United States Department of the Interior insofar as 
appropriations apply to tribal communities and tribal programs.
    The Spirit Lake Tribe has needs totaling $66.4 million to 
address deficiencies in funding for flood control, road 
projects, housing and construction, courts, child protection 
and welfare as well as a number of environmental issues 
affecting our community. All of these issues are presently 
funded through the P.L. 93-638 contracting process with funding 
to the tribe coming through the Bureau of Indian Affairs. For 
many years the Spirit Lake Tribe has entered into 638 contracts 
with the Bureau of Indian Affairs so that the tribe may 
determine priority funding areas as well as deliver services to 
the community in a more efficient and effective manner. Despite 
years of efforts, the programs administered through the tribe 
have continuously faced funding deficiencies. During the past 
three years, the tribe has conducted a self-assessment by and 
through our planning department. In part, the self-assessment 
involved prioritization of community needs as well as a 
comparison study between the level of needs stated by the 638 
contract-funded programs and the actual level of funding. The 
assessment resulted in findings that many of the identified 
community needs and priority areas were programs that are 
funded through 638 contracts. As part of the budgets that 
reflected the financial needs of the programs that would 
support basic operational costs, these financial budgets were 
then forwarded to the BIA as part of the annual budgeting 
cycle, and despite the needs presented to the BIA, these 
programs were underfunded by more than $2 million. That is a 
significant amount of money to a community of little more than 
6,500 members. These dollars could dramatically change the 
basic services provided in our community.
    After reviewing the local assessment, it became apparent 
that the tribe was not receiving adequate funding to carry out 
basic services to the community, and what we found is that 
prior to receiving funding under the 638 contract, the BIA was 
reallocating discretionary and administrative funds. The tribe 
has no way of knowing what these discretionary or 
administrative funds are used for by the BIA but what we are 
certain of is that when these funds are removed, the result is 
that service providers at the tribal level are shortchanged to 
the point that it is difficult, if not impossible, to meet even 
the basic needs of our constituents. Allowing the BIA to 
continue to remove funds from the 638 contract process binds 
the hands of many tribes and is contrary to federal policies 
supporting self-determination.
    The tribe has several immediate and necessary needs that 
must be met if we are to meet the most basic needs of our 
community. I am not going to go into all of those and you will 
receive a summary on each one, but right now we are faced with 
flood control. We are looking at our road projects that are 
being torn apart as well. You know what we have there. We have 
housing and construction contracts that we would like funded 
and fulfilled. We have courts and law enforcement that need 
funding. We have child protection, child welfare and 
environmental needs and issues.
    As you can see from this testimony, the needs of the Spirit 
Lake Tribe are identified and will be totaled at $66.4 million. 
During the last funding cycle of our 638 contract dollars, our 
dollars only totaled $6,642,000. There is no way possible that 
the tribe is able to effectively perform these very basic 
community needs without adequate funding for these programs.
    We need to receive adequate funding for basic programs and 
projects such as those that I have outlined in the testimony. 
Only by providing adequate funding can we truly move towards 
self-determination. We must solidify our base services so that 
we can build our capacity at local levels. Tribes cannot be 
expected to have our personnel do twice the work with half the 
necessary funding. Very simply, we are requesting that the 
appropriated funds be sufficient to meet the needs of the 
tribes and we are further requesting that the BIA stop taking 
large portions of the appropriated funds for discretionary 
purposes.
    I thank you for your time and your consideration of both 
this request and comments on these matters.
    [The statement of Myra Pearson follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.013
    
    [GRAPHIC] [TIFF OMITTED] T0064B.014
    
    [GRAPHIC] [TIFF OMITTED] T0064B.015
    
    [GRAPHIC] [TIFF OMITTED] T0064B.016
    
    Mr. Dicks. Thank you. Are there any questions? All right. 
Thank you very much.
    Next we are going to have Dr. John Finley, president of the 
American Dental Association. Welcome, Dr. Finley.
    Dr. Finley. Thank you, sir.
    Mr. Dicks. We appreciate your being here today.
                              ----------                              

                                        Thursday, March 26, 2009.  

                      AMERICAN DENTAL ASSOCIATION


                                WITNESS

JOHN FINLEY
    Dr. Finley. Good morning. Chairman Dicks, Ranking Member 
Simpson and members of the committee, I am John Finley, 
president of the American Dental Association and a practicing 
dentist in Texas. Let me say that the ADA appreciates very much 
the opportunity to appear before you today and to comment on 
oral health issues that affect American Indians and Alaska 
Natives and the dentists who serve in the Indian Health 
Service.
    First, Chairman Dicks, we would like to congratulate you 
and other members of the committee for the increases you were 
able to secure for the IHS and particularly the dental program 
in the omnibus and stimulus bills earlier this year. Those 
funding increases will begin to close the gap in disparity of 
disease and access to health care between American Indians and 
Alaska Natives and other ethnic groups. For several years the 
ADA has come before this committee and shared our concerns 
about the IHS dental workforce. The recommendations today 
include a stronger role for the director of the IHS 
headquarters division of the oral health to address this 
chronic issue. These dental program need the dental director's 
supervision and control of funding in order to effectively make 
changes. Our greatest concern is the impending loss of the most 
experienced IHS dentists. Dentists with residencies in 
pediatrics, oral surgery and other health specialties provide 
advanced oral health care to Indian people. With child 
cavities, or decay, and periodontal disease among diabetics 
being rampant, these dentists are in high demand. However, 65 
percent of them will be eligible for retirement this year. We 
urge the committee to increase the dental program line by $1 
million for dental residencies and indicate that it is to 
continue as part of the base of future budgets. Additionally, 
the committee needs to specifically allocate the use of these 
funds to the director of the IHS headquarters division of oral 
health.
    Mr. Chairman, we are pleased to report that the IHS dental 
program is seeing improvement in filling vacancies. A year ago 
there were over 130 vacancies. Today there are 87. We believe 
that several factors have contributed to this reduction. The 
IHS dental staff has put a greater emphasis on recruiting, 
especially in the area of dental students for their summer 
extern program as a way to introduce them to the service. 
Student applications have gone from 151 to 322 in the last 
year. The IHS expects to place this year about 120. Dental 
recruiters attribute some of this success to the new online 
application service which they promote at recruitment events as 
well as in ADA publications. The ADA urges the committee to 
provide an additional $250,000 to allow the director of the IHS 
headquarters division of oral health to double the number of 
externs in the dental program.
    While the reduction in----
    Mr. Dicks. What is an extern?
    Dr. Finley. People who go into the areas and actually 
participate and practice dental care, learning and 
participating, on-the-job training to some extent.
    Mr. Dicks. Okay.
    Dr. Finley. While a reduction in vacancies is encouraging, 
there is a caveat that goes with them. In the past year some 
tribally and federally managed programs have stopped 
advertising for dental positions that have been vacant for too 
long. This is not what the ADA would like to see and we would 
hope that in the future the IHS will be able to find a way to 
hire dentists at those sites too. In the past ADA has testified 
that the IHS dental program would need $20 million to bring all 
federal and tribal dental programs into the service's 
electronic dental record system. We are hopeful that some of 
the stimulus money will come to the dental program because the 
electronic dental records system will provide better 
recordkeeping and capture data from patient encounters. The ADA 
has also heard that the lack of having an EDR system 
discourages dental students from joining the IHS. At this time 
we do not know how much stimulus funding will be allocated to 
the dental program but we will keep the committee apprised if 
additional funding is needed.
    From the association's experience of working with the IHS 
over 35 years, we have seen the following: a 14 percent 
increase in the number of children with no decay, a 12 percent 
decrease in the number of children with high decay rates, a 9 
percent decrease in the number of adults with periodontal 
disease. However, we want to see even better trends in the 
future.
    Thank you for allowing the American Dental Association to 
participate today. We look forward to working with you and 
seeing that the IHS is a dental program that works for all. The 
ADA remains committed to working with you, the IHS and the 
tribes to aggressively reduce the disparity of oral disease and 
care that currently exists in Indian Country. Thank you, Mr. 
Chairman.
    [The statement of John Finley follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.017
    
    [GRAPHIC] [TIFF OMITTED] T0064B.018
    
    [GRAPHIC] [TIFF OMITTED] T0064B.019
    
    [GRAPHIC] [TIFF OMITTED] T0064B.020
    
    Mr. Dicks. Last year you had an issue about people being 
able to, from different states, was it, accreditation? What was 
that concern? We tried to help you on it, I know that.
    Dr. Finley. You have and you did and we greatly reduced the 
problems in that area. We are able to send volunteers. In fact, 
we have several programs that are----
    Mr. Dicks. That is what it was.
    Dr. Finley. Yes, sir. And I thank you for that help. We 
have been successful at promoting that program.
    Mr. Dicks. Are people still in the National Health Service 
Corps? Is that program still there?
    Dr. Finley. There are still programs like that and we have 
several other programs that we are working on, new programs 
that we are working on to put more people in those areas.
    Mr. Dicks. Now, our expert is Mr. Simpson.
    Dr. Finley. He is.
    Mr. Dicks. I think we can fix this one thing, it is small 
enough where it could be a pilot project. We could see how 
these electronic records work. I think our committee has 
already taken a lead on this and I would like to see us finish 
the job.
    Dr. Finley. Well, you have taken the lead and we are very 
much appreciative of that.
    Mr. Dicks. And we appreciate the ADA and your people 
helping us work on those volunteers. If you have any problems, 
you let us know.
    Dr. Finley. Thank you, sir.
    Mr. Dicks. Thank you.
    Dr. Joe Shirley, Jr., president, the Navajo Nation. 
Welcome.
                              ----------                              

                                          Thursday, March 26, 2009.

                             NAVAJO NATION


                                WITNESS

JOE SHIRLEY, JR.
    Mr. Shirley. Good morning, Chairman Dicks. Thank you very 
much. Ranking Member Simpson, committee members, it is really 
good to be afforded the opportunity to testify even for a few 
moments.
    First I would like to underscore the need for meaningful 
tribal consultation. Tribes----
    Mr. Dicks. You know your whole statement will be put in the 
record and you have 5 minutes to summarize.
    Mr. Shirley. Thank you. First I would like to underscore 
the need for meaningful tribal consultation. Tribes need to be 
at the table talking about funding and programs. The concept of 
the government-to-government relationship should mean that the 
federal government includes tribal governments in the decision-
making process. One gets the message when sitting in tribal 
consultation meetings that decisions have already been made and 
consultation is nothing more than a pretense to be able to say 
that we listened and took notes but other priorities govern the 
process.
    Mr. Dicks. I think that is going to be different under this 
Administration.
    Mr. Shirley. I am really looking forward to it, sir.
    Let me go ahead and also talk about education, roads, 
health care and public safety. I just want to kind of mention 
some things about it. Education--within the Department of 
Interior's Bureau of Education exist several programs that 
administer funding to the Bureau of Education and Indian 
Affairs Schools. I will briefly mention some problem areas. 
Regarding the administrative cost grants, under school 
operations, many tribes have struggled with a continued decline 
of administrative cost grants, ACGs. The ACG is a statutory 
formula base method created by Congress to calculate the amount 
of funds that should be provided to tribes for the 
administrative and indirect cost expenses incurred in the 
operation of the Bureau of Indian Affairs contract and grant 
schools. Although statutorily mandated, funds appropriated by 
Congress for ACGs have been rarely enough to cover the full 
amount. In school year 2007-2008, schools received 65.75 
percent of the amount they should have received under the 
formula. Comparatively, in school year 1999-2000, it was funded 
at 82 percent. The Navajo Nation requests that Congress fully 
fund ACGs at the level granted by the statutory formula.
    Now, regarding Johnson-O'Malley, this is a key program 
whereby Navajo parents and community members have been able to 
become involved in the public schools operating in the Navajo 
Nation. Navajo Johnson-O'Malley serves 50,000 students who are 
reservation based from early childhood through the 12th grade. 
Inflationary costs have not been fully allowed for within the 
budget, resulting in an effective reduction in the JOM program 
overtime. The Navajo Nation strongly supports an increase in 
the JOM program to a level of $24.3 million, consistent with 
the position taken by the National Johnson-O'Malley 
Association. This amount will cover the inflationary costs of 
additional students entering the system over the last decade.
    Regarding school construction, there is a backlog of about 
81 schools that are in need of major repair or replacement. 
Some of the schools on Navajo are very dilapidated and are in 
danger of endangering some of the students that go to school 
there so whatever could be done to get funding to catch up, 
that would be appreciated.
    Now, regarding roads, the Navajo Nation currently has over 
10,000 miles of roads within the BIA's Indian Reservation Roads 
(IRR) program. The Department of Transportation and BIA 
administer the IRR program with funding coming from the Federal 
Highway Administration to IRR. The Navajo Nation has grave 
concerns regarding the Bureau of Indian Affairs' inequitable 
interpretation of the funding mechanism approved by Congress 
under the SAFETEA-LU statute of 2005. The inequitable 
distribution pits small tribes against large land-based tribes 
and has eroded the Congressional intent of the Indian 
Reservation Roads program by turning it into an all roads 
program.
    Mr. Dicks. You know, that program is going to be 
reauthorized this year. I would really urge you to go to talk 
to Mr. Oberstar and his staff to make sure they understand your 
concerns.
    Mr. Shirley. Certainly, sir. Thank you very much for that.
    We are working with our Congressional leaders to achieve 
the necessary amendments in the upcoming reauthorization of the 
SAFETEA-LU. In the interim, it is of the most importance to 
fully fund the program to ensure the safety of the residents of 
the Native nations.
    Regarding Indian Health Service, there is approximately a 
$6.5 billion backlog of health care facilities construction 
projects throughout Indian country. The stimulus package 
provided an additional $227 million but the Indian Health 
Service was required to fund only two projects currently under 
construction, which is a drop in the bucket. The 2009 budget 
for health facilities increased by $16 million from 2008 funded 
levels. While the increase is appreciated, these increases do 
not fulfill the critical health care facilities construction 
needs. Until all the health facilities are funded, we need to 
maintain the current funding priority system that honors the 
volume of health services provided. The Navajo Nation has 
played by all the rules for 30 years and promises need to be 
kept.
    And lastly, regarding public safety, currently the BIA 
funds only BIA owned and operated detention facilities. The 
Navajo Nation does not receive any construction funds under 
this budget line item. The Navajo Nation owns and operates 
under a 638 contract with the BIA six adult detention 
facilities located in Winter Rock, Chinle, Kayenta, Delcon, 
Arizona, and in Shiprock, Crown Point, New Mexico. Three of 
these facilities are temporary holding facilities for new 
arrestees while the other three are used for serving inmates. 
The Navajo Nation requests Congress to direct the BIA to 
allocate a fair portion of the public safety construction funds 
to tribally-owned and 638-contracted facilities.
    Gentlemen, thank you very much.
    [The statement of Joe Shirley, Jr., follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.021
    
    [GRAPHIC] [TIFF OMITTED] T0064B.022
    
    [GRAPHIC] [TIFF OMITTED] T0064B.023
    
    [GRAPHIC] [TIFF OMITTED] T0064B.024
    
    Mr. Dicks. Thank you. Are there any questions?
    Mr. Cole.
    Mr. Cole. First of all, thank you for your testimony. I am 
going to differ with you a little bit and see if we can find 
some common ground on the Indian road program because in 
Oklahoma we do not have eight reservations. We have large 
native populations, and in many cases they are segregated in 
areas historically so it is not like they are spread evenly 
throughout the population. The road program for us is a big 
deal because we have the second highest number of deficient 
bridges in the country. We have the same kind of problems, and 
this has been a friction point between Oklahoma tribes and 
land-based reservation tribes. I think each side has a pretty 
good argument to make because at the end of the day we just 
underfund the program. That is our problem. That pits us 
against one another sometimes in this. I would like to see if 
there is some way we can work together on that and find 
increased funding overall because again our native population 
is disproportionately rural, disproportionately located in the 
poorest parts of the state. Our tribes that are now the ones 
that are successful economically are investing pretty heavily 
in road programs in partnership with the states and we actually 
work with the county governments and take not just our federal 
money but money generated by the tribes themselves and reinvest 
them in the roads and bridges or areas that are important to us 
economically in terms of developing our own enterprises. So if 
we can find some way to work together on that, maybe we would 
not be at odds on what is too little money to begin with.
    Mr. Shirley. We are doing everything we can, sir.
    Mr. Cole. Now, I know you do. I really do, and I just thank 
you for being here. You represent a great people.
    Mr. Shirley. Thank you very much, sir.
    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Dicks. All right. Thank you very much. We appreciate 
your testimony.
    Now we are going to have testimony of Chad Smith, principal 
chief of the Cherokee Nation.
                              ----------                              

                                          Thursday, March 26, 2009.

                            CHEROKEE NATION


                                WITNESS

CHAD SMITH
    Mr. Smith. There are two issues I would like to visit 
about. They are underfunding of contract support costs and 
underfunding of contract health care.
    I want to just start with a story. The Cherokee Nation in 
1871 began an orphanage because we had 4,000 widows and orphans 
because of our involvement in the American Civil War. Two-
thirds of the Cherokees fought for the North and a third fought 
for the South. As a result of history, a boarding school 
occurred at that orphanage after Oklahoma statehood, became an 
orphan training school. In fact, my dad graduated there in 
1940. In 1985, the Cherokee Nation contracted the boarding 
school, now known as Sequoia, from the Bureau of Indian 
Affairs. In my tenure in the last 10 years, we have made it a 
priority to make it a leadership academy. In 1999, it had a 
capacity of 350. Two hundred and four kids attended. It was 
known as a school of last resort. Today, we turn away 150 kids 
a year. It is known as a school of first choice and it is 
because we have had the opportunity with funding and the 
opportunity to actually design a school that performs. Our 
problem is the lack of contract support costs through the 
Bureau of Indian Affairs and companion Indian Health Service. 
We lose about $1 million a year from the BIA contracts we 
administer and about $14 million in IHS contracts. And why this 
is so important, I wanted to share with you, is that there is 
actually a difference being made at Sequoia High School. This 
last year, this young lady, Angel Goodrich, the best basketball 
player in Oklahoma, D1 candidate, she is now at University of 
Kansas. I have to brag about our girls' basketball team. We are 
two points short of winning the state championship four times 
in a row. Nathan Stanley, D1 prospect. He has now got a full 
ride at the University of Mississippi. He will be their next 
starting quarterback. Following these footsteps is Sam 
Bradford, a Cherokee from the University of Oklahoma. 
Unfortunately, Sam Bradford did not go to Sequoia. Lorne Hammer 
in that same class, D1 scholarship, full ride, plays softball 
and basketball at Mercer University. These are all from our 
graduating class. This young man, Trey Francis, is first 
candidate at West Point. Our class of 89 seniors last year 
earned $2.5 million in scholarships because of the hard work of 
one staffer, Augustus Smith. I am saying all these things to 
say this, we have a great opportunity with properly funding 
contract support costs. It allows us to go about building great 
institutions, designing programs that actually work, and we 
have similar success stories in health care and law and other 
areas. There are a number of people that appeared before me 
that are very articulate in these areas. So it is my desire and 
design to share with you that success can happen when these 
programs are properly funded and the lives of many students at 
Sequoia and throughout the Cherokee Nation have been altered 
very favorably.
    One of the greatest successes we have had at our Sequoia 
Schools is added immersion language school. We have 6,500 
speakers. Within a decade they will be all gone. We now have 65 
young people who when they walk in the door are speaking 
nothing but Cherokee. It is just an exciting proposition. With 
the chairman's permission, I would like to offer you a CD where 
our children sing exclusively in Cherokee gospel and patriotic 
songs as evidence of the success we have had.
    Mr. Dicks. Thank you.
    Mr. Smith. With that, Mr. Chairman, I would like to 
entertain any questions.
    [The statement of Chad Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.025
    
    [GRAPHIC] [TIFF OMITTED] T0064B.026
    
    [GRAPHIC] [TIFF OMITTED] T0064B.027
    
    [GRAPHIC] [TIFF OMITTED] T0064B.028
    
    Mr. Dicks. Tell us about your special diabetes program.
    Mr. Smith. We have had great success in trying to work 
ourselves upstream to prevent and anticipate the problems with 
diabetes with partnerships with the local community, the 
hospitals and such. We have seen actual lowering of indices for 
diabetes. It has been a successful program, but when you have a 
successful program, I think you would agree that you cannot 
stop midstream. We are making progress, but if Congress can 
find ways to continue the funding of that, increase it, it will 
have tremendous effect.
    Mr. Dicks. Are there any other questions? Mr. Cole.
    Mr. Cole. Thank you very much. I have a series of things so 
the committee understands the scope of what Chief Smith and his 
people do, which is really extraordinary.
    Chief, can you quickly tell us the size of the tribe, 
number of kids you are educating and what your total budgets 
are that are frankly reinvested right back, apart from federal 
dollars, that you earn through commercial enterprise that you 
reinvest back in your people?
    Mr. Smith. We a fairly large tribe. We are second to 
President Shirley's Navajos. We are in a quick race trying to 
get number one. We believe he has the edge on us. We have about 
280,000 citizens. Half live in Oklahoma. We have a fairly large 
budget and we have some gaming where we invest two-thirds of 
the gaming back into business so we can create jobs. The 
formula is very simple. If we can create a job, it saves $8. 
For every $1 we invest in creating a job, it saves $8 in social 
services. It creates dignity for people. They can afford their 
own insurance, their own education, their own homes, their own 
higher education. We now employ close to 7,000 people. Half of 
those are with our government. And we really look to a long-
term strategy, and thank you, Congressman Cole. We think the 
ultimate value of the Cherokee Nation is to help our people 
become happy and healthy, and we have a very simple philosophy. 
It is to create jobs, create cohesive communities and 
revitalize our language because that is where our great 
competitive intelligence lies.
    Mr. Cole. One other question or just point of information. 
As I recall, the team Sam Bradford did play for in high school 
did win the state championship.
    Mr. Smith. He actually played basketball with the 
outstanding player at O.U. now. Blake----
    Mr. Cole. Griffin.
    Mr. Smith. Griffin. They played on the same AAU team. 
Indian sports trivia.
    Mr. Cole. One other point. I have to make this for my 
colleagues on the committee. If you have a chance, you ought to 
listen to that tape because those kids did perform at the White 
House, an earlier iteration of them when we were opening up the 
National Museum of the American Indian, and it was spectacular. 
We had a group of tribal leaders. There was the central focus 
of the entertainment and they weave in Cherokee and English in 
and out of patriotic songs. It is quite moving. At the end of 
it, though, we got war whoops, which sort of surprised the 
Secret Service and rattled the President. I think those were my 
Comanches actually. Cherokees are very well behaved.
    Mr. Dicks. Thank you. Thank you very much.
    Next we will have John Stone, vice chairman of the Yankton 
Sioux Tribe. Hi, John. How are you?
                              ----------                              

                                          Thursday, March 26, 2009.

                          YANKTON SIOUX TRIBE


                                WITNESS

JOHN STONE
    Mr. Stone. Mihanawashda. It is a cultural good morning to 
everybody in my language. My name is John Stone. I am the vice 
chairman for the Yankton Sioux Tribe. I am here to give a 
little talk about some funding appropriation here.
    Greetings to you from the members of the Hanktawa Nation, 
known to you as the Yankton Sioux Tribe of South Dakota. We are 
a federally recognized tribe that has a form of government that 
is one of the last true democracies of the United States, one 
that preexisted the 1934 Indian Reorganization Act, and still 
continues to officially function in its ancient form. Thank you 
very much for asking us to testify before you this morning.
    As the President and the Congress have recognized, we are 
here today to testify as part of our government-to-government 
relationship because of our treaties and longstanding trust 
relationship that exists between our nation and yours. This 
relationship is one that has developed over time because the 
United States acquired legal and moral obligations to our 
people as a result of many years of assertion of military, 
economic and extralegal power of the United States over our 
people, including the annexation of our lands, which once 
covered all of eastern South Dakota. In spite of this legal and 
moral obligation to our people, the Congress has failed to 
provide for our people as set forth in the 1851 and 1858 
treaties and in subsequent agreements and obligations. In fact, 
we have not even been supported to the same degree as other 
American citizens or even to the degree that you have granted 
foreign assistance to other nations and peoples. Our tribe 
would be able to meet the basic human needs of our people 
within even a portion of what you have expended in Iraq, to 
date, installing democracy there. We have never been the 
beneficiaries of such largesse of the United States government. 
In fact, it is true at the present time you spend $7,200 per 
year for health care on military veterans, $5,200 per year for 
Medicare beneficiaries, $3,900 per year on prisoners entrusted 
to the U.S. Bureau of Prisons and $1,500 a year for tribal 
members served by U.S. Indian Health Service.
    The statistics do not lie. Our people are literally dying 
for a lack of health care. I do not need and do not have the 
time to reiterate the horrible health care statistics of tribal 
members on a reservation and throughout the United States. Even 
the Congress has reported these statistics to itself year after 
year and it does not make a difference. Indian Health Service 
has been operating at 50 percent or less of its true need for 
over a decade.
    On our reservation, one-half of more than 3,000 recommended 
medical procedures at our Wagner Service Unit were denied 
because these people are not dead, dying or loss of sense, 
category one status requirement for contract care. The Reagan 
and Bush Administrations began the process of closure of 
inpatient IHS facilities back in the late 1980s. Despite 
internal reports by Indian Health Service that it was less 
expensive to keep these inpatient facilities open because of 
the tremendous buying power of the United States combined with 
the ability to attract and pay doctors at a rate less than that 
required by private primary care physicians.
    Despite this fact, the closures began and led to an even 
greater catastrophe, which was the closure of the emergency 
room at IHS facilities because they no longer had inpatient 
facilities. This has led to a humane crisis of immense 
proportions because of the rural nature of Indian reservations 
throughout the United States. Our inpatient facility was closed 
in the early 1990s, just after our hospital was renovated and 
upgraded. Although we fought to keep the 24-hour emergency room 
open, it was finally closed a few years ago over the tribe's 
objection. We did our best to hang on in litigation until 
Congress, which has sole jurisdiction over our health care 
needs, stepped in and acted to repair the damage that the 
Reagan and Bush Administrations did to our people. However, not 
one in Congress came to our rescue and finally the federal 
courts relented after 14 years of litigation and allowed the 
emergency room to close. The federal court barely noted in 
making its decision that Congress needs to act but has failed 
to do so.
    It has been predicted by another recent IHS Commission 
study that closure of the emergency room of the Wagner Service 
unit will certainly lead to death of tribal members, and we 
have experienced this four times now since the closure. People 
will not and do not want to go to a non-tribal hospital. Where 
they are comfortable with their physicians and lifelong health 
care being there, they would rather die than go to another 
hospital. So faced with these issues, we were working in 
consultation with IHS to properly transition these people and 
that never occurred. We were to be giving community meetings to 
educate the people on how to obtain these emergency services, 
and that was never done.
    In conclusion, Mr. Chairman, we have survived over 20 years 
of Administrations' insensitive and sometimes actually hostile 
to our people. Even though funding neglect and outright 
malicious intent of enforcement of laws, regulations, policies 
and executive branch discretion, the branch of the government 
which has full Constitutional authority over Indian affairs, 
the Congress, has been unable to step forward and balance out 
this neglect and hostility until this year, and we see this new 
Administration as a very promising star in the future of Indian 
nations, and I thank you for your time.
    [The statement of John Stone follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.029
    
    [GRAPHIC] [TIFF OMITTED] T0064B.030
    
    [GRAPHIC] [TIFF OMITTED] T0064B.031
    
    [GRAPHIC] [TIFF OMITTED] T0064B.032
    
    Mr. Dicks. Thank you, and we appreciate it. Any questions?
    All right. Next we will have my good friend, the Honorable 
Billy Frank, Jr., chairman of the Northwest Indian Fisheries 
Commission.
    Mr. Frank. Good morning, Chairman.
    Mr. Dicks. Good morning, Billy.
    Mr. Frank. Yes.
    Mr. Dicks. You may proceed as you wish. We will put your 
entire statement in the record.
                              ----------                              

                                          Thursday, March 26, 2009.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                                WITNESS

BILLY FRANK, JR.
    Mr. Frank. Thank you, Mr. Chairman. I am Billy Frank, Jr., 
chairman of the Northwest Indian Fish Commission. It is indeed 
a privilege to be among such a distinguished cadre of tribal 
leaders here today presenting funding requests for all our 
people throughout our great United States.
    Before I get to the 2010 Bureau of Indian Affairs statement 
here, I want to thank you, Mr. Chairman, for reinstating our 
Pacific Salmon Commission funding this year in 2009, and I am 
glad to see this Idaho man here because my relatives live over 
there.
    Mr. Simpson. I am glad to be here.
    Mr. Dicks. He is doing a fine job.
    Mr. Frank. Yes, I know. But anyhow, the Pacific Salmon 
Management Commission is a Participant in the U.S. 
international treaty with the United States and Canada. Pacific 
salmon runs from Alaska to Mexico and we, the tribes, are the 
managers. We have a contractual agreement with the United 
States to be the staff of that international policy people and 
we sit at that table. We sit on the Pacific Salmon Management 
Council 200 miles off the ocean. We sit on the international 
treaty in Canada and the United States in our sections. You 
reinstated that money for now. The past Administration has 
earmarked that money and we have been having a hard time. This 
money has not come easy and it is just $1.772 million. I mean, 
man, this is no money, you know, and we in the commission that 
represents the tribes in the Northwest have the infrastructure, 
the best infrastructure there is, to sit there and do our job. 
But without that money, we were going to have to retrocede to 
the United States this coming Monday, and Congressman Norm 
Dicks had that reinstated in the Interior Department and we 
thank you for that. But we need that in the base funding. That 
should not be an earmark. It should never have been an earmark 
because we have a treaty with the United States and Canada and 
we have 20 treaty tribes that we represent here.
    So anyhow, I have----
    Mr. Dicks. We will work with you on that.
    Mr. Frank. Yes. We have on our right Bob Kelly of Nooksack 
Tribe. He is the commissioner. On my left is Mike Grayum, our 
executive director of the commission, and Ed Johnstone, the 
Quinault Tribe commissioner. Michael?
    Mr. Grayum. Thank you, Mr. Chairman. Billy has asked me to 
quickly review the appropriations request for 2010. Our most 
critical need is to secure and enhance our base fisheries 
management program through the Bureau of Indian Affairs. And 
when I talk about securing, I am talking about the problem that 
Billy just spoke to, the $1.8 million Pacific Salmon Treaty cut 
the Administration has put in the budget since 2007 and now, 
unfortunately it has been in our view, inappropriately labeled 
as an earmark when it is really a federal responsibility to an 
international treaty.
    We also are talking about the inclusion of the $1.74 
million for the statewide timber, fish and wildlife program 
which has been an earmark for quite a few years and something 
we are working hard with the Administration to get rolled into 
the base. And then when we talk about enhancing the base, we 
are talking about addressing the critical problem we face and 
we have shared this with you, Congressman Dicks. Our base 
management dollars have been reduced since the 1970s to the 
point now where it is critical in fiscal 2010. It is 
particularly important now in light of the budget cuts that are 
occurring in the State of Washington for natural resource 
management. We are going to be faced with having to cut some 
critically important collaborative management initiatives if we 
cannot get that base enhanced.
    We are also talking about the need to increase the base 
funding to address some newly mandated management 
responsibilities for shellfish and wildlife. We also need 
funding for salmon recovery and fishery enhancement efforts 
through the use of hatcheries. That deals with the maintenance 
of hatcheries, which is a current account within the Bureau 
that is grossly underfunded. We also need money, continued 
funding to implement hatchery reform projects.
    And then the next one I want to touch on is a water 
resource cooperative partnership that we are working to develop 
between the tribes, the BIA and the USGS, and what we are 
trying to do there is develop a cooperative program to collect 
important water quantity information, which is going to be 
critical to the tribes and the state as we pursue discussions 
on water rights issues.
    And then with the Environmental Protection Agency, we are 
looking to continuation of the funding for the tribal 
participation in the Puget Sound Partnership, the cleanup of 
Puget Sound and very importantly the development of a pilot 
program with EPA to create a pathway to implementing tribal 
environmental programs that we have been working on the 
capacity development through the use of the Indian General 
Assistance program funding. We also support IGA being increased 
as an important funding source for us to adequately fund our 
water quality program. But we now need to move into the 
implementation phase of a tribal environmental program with EPA 
and that is going to require new funding. So that is a quick 
summary of what we are requesting.
    [The statement of Billy Frank, Jr. follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.033
    
    [GRAPHIC] [TIFF OMITTED] T0064B.034
    
    [GRAPHIC] [TIFF OMITTED] T0064B.035
    
    [GRAPHIC] [TIFF OMITTED] T0064B.036
    
    Mr. Dicks. Well, we appreciate your good work out there and 
we are pleased that we are going through with the shellfish 
settlement. We will continue to work on making sure that is 
funded and we will try to do as much as we can on these other 
important issues. But I am glad we got the $1.772 million. 
Billy has got it down to the penny. But I want to just say we 
do appreciate your good work. Are you going to be down in 
Portland tomorrow?
    Mr. Frank. Not unless you want me to be.
    Mr. Dicks. I just wondered if you were going to be there.
    Mr. Frank. I hear you are going to be there.
    Mr. Dicks. We have to keep working together.
    Mr. Frank. Oh, yes, absolutely.
    Mr. Dicks. And we have to help each other. We get Idaho. I 
told Mike this. The sockeye, they are going to Redfish Lake. 
The brood stock program is at Manchester, Washington, in my 
district.
    Mr. Frank. Exactly.
    Mr. Dicks. So we think that is an amazing project and we 
have to keep working on that.
    Mr. Frank. We have to take better care of the Snake River 
that goes into our country.
    Mr. Dicks. Yes, we heard of it. Any other questions. All 
right. We have to keep rolling here, Billy. Thank you.
    Mr. Frank. Thank you.
    Carmelia W. Skeeter, CEO of the Indian Health Care Resource 
Center of Tulsa. Welcome.
    Ms. Skeeter. Thank you very much, Chairman, for allowing me 
to speak. It is Carmelita.
    Mr. Dicks. Carmelita. They had it down here wrong. I want 
you to know that. Carmelita. Beautiful name.
                              ----------                              

                                          Thursday, March 26, 2009.

                   INDIAN HEALTH CARE RESOURCE CENTER


                                WITNESS

CARMELITA W. SKEETER
    Ms. Skeeter. Thank you very much. I am the CEO of Indian 
Health Care Resource Center, which is an outpatient clinic in 
Tulsa, Oklahoma, and we serve a population of 16,000 active 
users at our facility. I want to tell you that the money that 
the federal government has invested in our program we have 
turned over threefold, so I believe that we have done an 
excellent job with the funding that we receive from Indian 
Health Service. I am here to urge you to please consider and 
fund the request for Indian Health Service that President Obama 
has asked for in his budget and to increase the urban Indian 
health funding by $10 million. They are like 2 percent of the 
overall Indian Health Service budget. This would raise their 
funding from $34.5 to $44.5, which is desperately needed. As 
the censuses have told us, the 66----
    Mr. Dicks. Well, in the past they have just eliminated the 
money for this.
    Ms. Skeeter. Right.
    Mr. Dicks. This committee put the money back in.
    Ms. Skeeter. Thank you very much.
    Mr. Dicks. But I agree with you. I think it is time. We 
have just been putting back in the amount that had been there 
and we desperately need an increase for those 34 urban 
programs.
    Ms. Skeeter. In Oklahoma, we have been very fortunate in 
being able to increase our Medicaid, Medicare collections and 
that helps offset some of the cost of what we do not receive 
from Indian Health Service.
    The other big issue that I want to speak to is contract 
health care, and that is a great need for Indian people because 
of referring patients out to specialists, we never get off of 
the number one list. We referred 60 patients out this last 
quarter to Claire Moore Indian Hospital for contract health 
care services. Out of that 60 patients, only 10 received care. 
The others were referred back to us and said they did not meet 
the list, and those are primarily orthopedic issues, shoulders, 
knees, arthritis and there is no means to pay for those. Our 
patients are the patients that fall within the parameters of 
adult from 22 years of age to 64, and there is no means to 
cover that age span. So we definitely need an increase in 
funding for contract health services with Indian Health 
Service. The issue is dire because you have people that do not 
receive the surgeries and then they cannot work and they cannot 
be a part of the economy, helping their families and taking 
care of their responsibilities.
    I just want to tell you a little bit about the program that 
I am the CEO of. The program was started in 1976. We started 
out with four employees. We now have 115. We provide very 
comprehensive health services of mental health, substance 
abuse, and the diabetes program. I have six medical 
professionals on staff in the outpatient clinic. We have a 
contract with O.U. for prenatal and OB care. We have a dental 
department, optometry. Our biggest program growing to date, 
thank Congress for the funding for our diabetes, is our 
wellness department. We are in four elementary schools in Tulsa 
teaching after-school programs to prevent obesity, heart 
disease and diabetes. So we have a very active program in the 
city of Tulsa. We have been very fortunate to have the support 
of our Congressional members. We have contracts with the 
Cherokee Nation. We are working on a new contract with the 
Creek Nation and we have a contract with the five tribes in 
northeastern Oklahoma to help with their diabetes program. So 
our next step is to go into tele-medicine and work with the 
Creek Nation. We have psychiatrists on our staff and we want to 
offer that service to the rural area.
    I am open for any questions.
    [The statement of Carmelita W. Skeeter follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.037
    
    [GRAPHIC] [TIFF OMITTED] T0064B.038
    
    [GRAPHIC] [TIFF OMITTED] T0064B.039
    
    [GRAPHIC] [TIFF OMITTED] T0064B.040
    
    Mr. Dicks. Mr. Cole.
    Mr. Cole. Just a couple just for the record because I think 
it is an astonishing figure. You mentioned your patient base at 
16,000. How many tribes are represented among that?
    Ms. Skeeter. A hundred and fifty.
    Mr. Cole. And that is, Mr. Chairman, one of the huge issues 
in Oklahoma City and Tulsa obviously. We have many different 
tribes and a lot of those folks are very far away from the 
areas of their tribal base so there is no ability for them to 
access, really, what they are entitled to by law. If you are 
not there and do not have these urban-based centers where so 
much of the native population is now off reservation and doing 
other things.
    Ms. Skeeter. Yes, Congressman.
    Mr. Cole. And what would happen to your patients if they 
could not come to you?
    Ms. Skeeter. They would have to try to find a way back to 
the rural areas to Cherokee Nation, which is 70 miles away, or 
Indian Health Service Hospital, which is 30 miles away, or end 
up in the emergency rooms, which is where they were when we 
started our program.
    Mr. Cole. Which is where most of them end up so we would 
end paying for them in indigent care in some other facility 
when they are actually entitled to medical care but they are 
too far away from reservations and their tribes to get it.
    Ms. Skeeter. Yes, Congressman.
    Mr. Cole. Thank you for what you do. You guys do a 
tremendous job.
    Mr. Dicks. Yes, thank you for your testimony and we 
appreciate your being here.
    Ms. Skeeter. Thank you.
    Mr. Dicks. Now we have Patty Marks.
                              ----------                              

                                          Thursday, March 26, 2009.

                           OGLALA SIOUX TRIBE


                                WITNESS

PATTY MARKS
    Ms. Marks. Thank you. Good morning, Mr. Chairman and 
members of the committee. Ms. Two Bulls has been stranded in 
Rapid City for the last three days in the western blizzard, 
which actually forms a perfect backdrop for the testimony she 
asked me to present today, which deals with facilities.
    Before doing so, Mr. Dicks, I have to thank you personally 
and on behalf of the tribe for putting the first money in the 
detention construction budget in 2009 in years. Pine Ridge is 
the proud recipient of some of that money and they are very 
anxious to move forward with their new justice center. I am 
here to ask you to please try to keep that going because Pine 
Ridge, for those of you not familiar, is one of the largest 
reservations in the country, about 185 miles by 70 miles, so 
think Baltimore to Richmond and D.C. to Gettysburg. It is a big 
area. And given that fact, the tribe has to operate on an 
eastern and a western district for public safety and emergency 
services. The facility in Pine Ridge is the main help for the 
west and the facility in Kyle, which was built at exactly the 
same time, is the eastern hub. Now, Kyle was listed according 
to our Congressional district as the number one project on the 
stimulus renovation priority list but Mr. Patrick Ragsdale has 
recently concluded that that facility is far too gone and there 
is no way that it can be renovated so we are going to be making 
an effort now to try to move that into the new construction.
    One of the topics I wanted to talk to the committee about 
today is the need and the urging that we have for this 
committee to start working with the various counterparts that 
fund the Department of Justice. That $225 million that was put 
into DOJ construction is a very positive thing and we are all 
thrilled about it, those of us that work in the field. But I 
have to tell you that for tribes like Pine Ridge, it is never 
going to work. The reasons are simple. One, it is competitive 
so it does not follow the priority list. Therefore, the tribes 
at the top of the priority list have to compete with the tribes 
at the bottom. Second, it requires a 10 percent match and there 
is no waiver, Justice is telling us this year. So for a tribe 
like Pine Ridge that has an average per capita income of $3,500 
per person and is located in the poorest county in the United 
States, according to the U.S. census, coming up with $1 million 
or $2 million in cash to match a federal facility is 
impossible.
    Additionally, the DOJ has stated that it will not allow the 
tribes to combine their court functions into the justice center 
concept it is putting out in bid this last week. So for tribes 
like Pine Ridge, that means building two facilities where one 
is really the appropriate use of federal money. It is going to 
add to the cost. It is going to delay the process. So we are 
here to ask you to give the most serious consideration to 
continuing to fund these programs under BIA for those tribes 
who are never going to qualify for the Department of Justice.
    Along those same lines, I would encourage the same thing 
with the Byrne grant money. I thank you from the bottom of my 
heart for all the work that you have done in increasing the law 
enforcement operations budgets, but again, it is not enough. We 
all know that. We appreciate the fact that the President and 
this committee have been struggling with this issue but the 
reality for tribes like Pine Ridge is that the Byrne grant also 
requires a match and if you cannot come up with the money, you 
cannot get the dollars. When you can come up with the money, 
those Byrne grants only fund officers for between one and three 
years. So we spent $30,000, $40,000 to get an officer 
completely trained, equipped and up to speed and then have to 
lay him off in two years and start all over again. We cannot 
even continue the same officers because under the DOJ regs that 
is called supplanting. You cannot take someone previously 
funded with federal dollars and pay for them with DOJ. So I 
encourage you to please take a serious look at these law 
enforcement issues both on the facilities front and on the 
operations front because these are issues that need to be 
addressed. Pine Ridge, for example, has gone from 110 officers 
in 1990 to 41 today, and it will be losing four when the DOJ 
grant expires in about two weeks. This is serious.
    I would also like to take just a couple of minutes to 
mention the situation with health care. Many, many years--I 
have been doing this for 30 years, and many years ago the 
Indian Health Service regularly funded buildings outside the 
hospitals and clinics that were direct service providers. Those 
include health admin, dialysis, certain diabetes locations, 
detoxification and other similar things. I had a meeting when 
the stimulus passed. The chairwoman and I had a meeting with 
Mr. Gary Hart, the director of construction for Indian Health 
Service, and when we walked, Gary and I are old friends and he 
said I am really glad you are here because I need to talk to 
you about the demolition of the old Pine Ridge Hospital. Now, 
that building was condemned 17 years ago when this committee 
authorized the construction of a new facility. What Mr. Hart 
did not know is there is still 110 people working in that 
building. That building has had zero dollars in M&R in 17 
years. We have dialysis and diabetes patients literally 
crawling up two flights of stairs to get treatment because the 
elevators do not work, and most recently we had a young lady 
typing at her desk when not the ceiling but the roof caved in 
on her. Thanks to a power greater than me, the lady is fine, 
she is fine, but this needs to be addressed as soon as 
possible. So we talked to IHS and I said well, we have an 
authorization but we have not had any money to build anything 
other than hospital and clinics or repair anything other than 
hospital and clinics in the last 15 years. So we went to HRSA. 
HRSA said this is an Indian Health Service responsibility, go 
see the appropriations committees. So I am here today to ask 
for help on that basis.
    The last thing I would like you to consider is a specific 
issue very relevant today because of the storm and that is 
something else IHS has not been building in years and that is 
ambulance centers. When the IHS built some of the hospitals 10 
and 15 years, they ran out of money so not only do we have 
programs that are located in old, dilapidated condemned 
buildings, what those new buildings, those new hospitals and 
clinics also do not have ambulance bays. Now, Pine Ridge today, 
the temperature is 11, the wind chill is minus 3. There are 
four foot of snow banks. This time in July the temperature will 
be around 95 to 98 and what happens is, we have to run the 
ambulances at Pine Ridge 24/7 for all but about two months a 
year. That is not for the convenience of the staff, that is to 
keep the medical equipment, the bandages and the medicines from 
either freezing or getting too hot for use. What we are asking 
for here are not expensive buildings. We are asking for simple 
steel structures at a cost of around $300,000 or $400,000 to 
store four or five ambulances and have them ready to go. We are 
wasting an awful lot of money running those vehicles 24/7 and 
we are having constant problems with damaged medications which 
have gotten too hot or too cold.
    Mr. Dicks. Thank you.
    Ms. Marks. So thank you very much for your time. I 
appreciate everything and I will be glad to answer any 
questions.

[GRAPHIC] [TIFF OMITTED] T0064B.041

[GRAPHIC] [TIFF OMITTED] T0064B.042

[GRAPHIC] [TIFF OMITTED] T0064B.043

    Mr. Dicks. Any questions? Mr. Cole.
    Mr. Cole. Just quickly, I am just very curious about this 
Justice Department problem with dual-use facilities, you know, 
in I would assume courts, detention, dispute resolution. I have 
seen one of these in Mississippi, Choctaw Reservation. It is 
absolutely spectacular. It is very first-rate state of the art. 
What is the justification? Why do they have a problem?
    Ms. Marks. They are saying that when the stimulus bill 
appropriated that money, what it did is, it cited to an old 
statute that specifies that it cannot be used for other than 
detention facilities. So they consider the court, which is a 
separate section of the same statute, to fall outside of that. 
What we are doing at Pine Ridge with the help of this committee 
is, we are combining a condemned police department building, a 
condemned courthouse and a condemned jail and a condemned 911 
building all into one justice center which will have one 
parking lot, one set of utilities, et cetera. It is a cost-
effective way of doing it.
    Mr. Cole. Mr. Chairman, I know we cannot legislate here but 
why would that be a problem to get some language that would 
eliminate that kind of ridiculous interpretation because these 
dual-use facility things are really good. I mean, I have seen 
them on multiple places. They are outstanding and it is just 
the best use----
    Mr. Dicks. We will take a look at it.
    Ms. Marks. And most importantly, please figure out a way of 
trying to get them to either waive the matches or be clear that 
they are authorized to waive the matches because again, for a 
tribe like Pine Ridge, with absolutely zero dollars to have to 
come up with a 10 percent match on a $20 million building, they 
do not have $2 million laying around. If they did, their 
facilities would not have furnaces that do not work today.
    Mr. Dicks. Some of these issues, the Byrne grants are 
before the Commerce, Justice, Science appropriations 
subcommittee. We have some of this but we certainly could talk 
to Mr. Mollohan, who is on this committee who is chairman of 
CJS.
    Ms. Marks. And I would just like to point out, this 
committee does have the authorization under the Snyder Act. I 
do not know who came up with the idea of switching these things 
off but it was a budget cut move. Justice was easier to get 
money into than Interior. But for the majority of large land-
based tribes and the poorest tribes in the country, it does not 
work. Gentlemen, thank you very much for your time.
    Mr. Dicks. Thank you very much.
    Now we have Dr. Szekely. Thank you, Doctor. Assistant 
professor in the Department of Obstetrics and Gynecology at the 
University of Michigan. Wonderful school.
                              ----------                              

                                          Thursday, March 26, 2009.

                        FRIENDS OF INDIAN HEALTH


                                WITNESS

DANIEL SZEKELY
    Dr. Szekely. Thank you, sir. Good morning, Chairman Dicks 
and Ranking Member Simpson, committee members. As introduced, I 
am in the Department of Obstetrics and Gynecology at the 
University of Michigan. Today I am serving on the American 
college of OB/GYN Committee on American Indian Affairs and 
speaking to you for the Friends of Indian Health. My 
background, I served six years as medical director of the 
Alaska Native Medical Center in Anchorage, and actually prior 
to that I was in practice for years in Port Angeles where we 
provided specialty services for women from some of the area 
tribal health clinics.
    Mr. Dicks. Good.
    Dr. Szekely. The Friends of Indian Health is a coalition of 
over 50 health organizations and individuals dedicated to 
improving the health of American Indian and Alaska Native 
people. The Friends thanks you, Mr. Chairman and the committee, 
for the additional Indian Health Service funding secured in 
both the 2009 omnibus and the stimulus bills. This increased 
funding will help build needed health care clinics, develop 
health information technology for these centers and provide 
additional health care services.
    Mr. Dicks. I would just say this was done on a bipartisan 
basis on this committee, even though the budgets were totally 
inadequate and we had a very serious problem. When Mr. Tiahrt 
was the ranking member, we had great cooperation and the 
restoration of the money was done on a bipartisan basis, which 
I am very pleased with because I think our committee should 
operate that way. Go ahead.
    Dr. Szekely. That is great, and certainly from outside the 
beltway, that is very, very encouraging.
    Mr. Dicks. This is one of the rare islands of cooperation.
    Dr. Szekely. That is great. We look for islands of sanity, 
believe me.
    So from my experience in IHS, I have learned the importance 
of getting patients into early treatment, the barriers that 
remoteness can create for health care and what kind of 
incentives it takes to get health care providers to serve in 
understaffed and hard-to-reach areas. Currently the IHS has 
1,500 vacancies which are going to increase overtime because 
the IHS has a graying workforce. The IHS is very vulnerable to 
having a big exodus of nurses in the near future as nearly 80 
percent of them serving in the IHS now are over the age of 40.
    To address this crisis, the IHS needs to improve its 
recruitment efforts. While some IHS divisions are very 
effective at recruitment, others are not. Members of the 
Friends and those who work with Indian health including my 
experience in Alaska are often frustrated when potential 
candidates are discouraged even before they apply. The 
complaints include candidates not being able to find anyone to 
give them information about vacancies and specific locations 
and never hearing back from the IHS even when they have applied 
for a position. We urge the committee to encourage the IHS 
director to collect successful approaches. There are success 
stories. Find those stories currently used in some divisions 
and develop a global effective recruitment program that can be 
used by all IHS recruiters.
    Mr. Dicks. Do you know that President Obama has nominated 
Dr. Yvette Roubideaux to be the director of the Indian Health 
Service from Harvard and she is a Rosebud Sioux? So I think we 
are going to have somebody there that we can work with because 
I completely agree with you. These issues have to be raised, 
and I think there will be a lot more sensitivity with this new 
director, assuming Senate confirmation.
    Dr. Szekely. That is great. And we just hope the committee 
can encourage this new director to improve and streamline the 
hiring process. That is critical. Recently an Oklahoma facility 
lost a potential obstetrician/gynecologist because the area 
office took over six months to process the applicant's 
paperwork after the facility had already interviewed and 
offered him the job. The candidate became discouraged and 
looked elsewhere.
    So making improvements in the recruitment and hiring 
process will help but my experience as a medical director has 
also been that loan repayment is one of IHS's best recruiting 
and retention tools. This is especially true when trying to 
fill specialty positions like obstetricians and gynecologists. 
Facilities are remote, patients need to be transported safely 
and quickly over long distances. There is a high incidence of 
complicating diseases like diabetes. All of these make 
practicing in the IHS challenging but providers will come and 
they will stay, particularly if offered loan repayment. Last 
year, due to a lack of loan repayment funds, 231 health care 
professionals already working in the IHS as well as 95 new 
recruits left because their loan repayment account ran out 
after two years. So the Friends requests an additional $18.5 
million for loan repayment to allow the IHS to hire and keep 
the needed health care providers.
    One additional thing we think that is, again, not a huge 
cost but will make a huge difference, for six years the Office 
of Personnel Management has been working to revise its 
recommendations for a new 600 series pay scale. This covers 
clinical and support staff. Many of these positions usually are 
filled by tribal members so you have a crucial cultural link 
but the salaries are below clerical positions. A receptionist 
earns more than a dental assistant. An experienced nurse-
midwife will take a 50 percent working for IHS and LPNs in 
Oklahoma are paid more at Walmart than an IHS facility. So the 
Friends strongly urges the committee to direct OPM to release 
this new 600 series pay scale and work with IHS to provide 
sufficient funding for these positions.
    You have heard compelling stories today about specific 
needs. We feel these are steps that can have tremendous benefit 
downstream and do not necessarily have huge costs. So these 
procedural recommendations I think are also very cost-
effective.
    Thank you for the opportunity to testify.
    [The statement of Daniel Szekely follows:] 

    [GRAPHIC] [TIFF OMITTED] T0064B.044
    
    [GRAPHIC] [TIFF OMITTED] T0064B.045
    
    [GRAPHIC] [TIFF OMITTED] T0064B.046
    
    [GRAPHIC] [TIFF OMITTED] T0064B.047
    
    Mr. Dicks. Any questions? All right. Thank you. We 
appreciate your service.
    Dr. Szekely. Thank you, sir.
    Mr. Dicks. Harold Dustybull, Johnson-O'Malley Association. 
Welcome.
                              ----------                              

                                        Thursday, March 26, 2009.  

                 NATIONAL JOHNSON-O'MALLEY ASSOCIATION


                                WITNESS

HAROLD DUSTYBULL
    Mr. Dustybull. Chairman Dicks, Ranking Member Simpson and 
members of the subcommittee, it is always a pleasure to appear 
before you folks because you folks are some of our strongest 
supporters in Indian education in the Congress and in our 
country. I want to introduce myself. My name is Harold. First 
of all, I want to let you know that Virginia could not be with 
us today. She is the chairman of our association. I am the vice 
chairman of the association. My name is Harold Dustybull. I am 
from the Black Feet Tribe on the Black Feet Indian Reservation 
in Browning, Montana, and I was one of the fortunate ones to 
make it here through the weather.
    Mr. Dicks. Good.
    Mr. Dustybull. I want to acknowledge our new subcommittee 
member, Congressman Cole. It brings us great pride to know that 
we have one of our own serving in the United States Congress. I 
also want to acknowledge my Montana delegation. They have 
always been so helpful to us in our fight for JOM.
    But I want to give a special thanks to Chairman Dicks for 
many times saving JOM for the Nation's poorest children on 
Indian reservations. There were many times that we did not see 
the future but Congressman Dicks would reach down through the 
bureaucracy and the rhetoric and pull JOM to safety. I want you 
folks to know that my people from Indian Country, we know you 
and we know who you are and we thank you. My people are 
spiritual people. They remember you in their prayers.
    Mr. Dicks. Thank you.
    Mr. Dustybull. I thank you for this opportunity. I have a 
testimony here that I will be leaving in the back for you folks 
to put in the record.
    Mr. Dicks. We will put it in the record.
    Mr. Dustybull. But I want you folks to know that basically 
this testimony talks about the $24 million that we are asking 
that the Congress can restore JOM back to. This was the amount 
of money we received in 1994 and 1995 when they froze our head 
count and unfortunately our head count is still frozen so I 
cannot give you a true count of our number of students that we 
have in JOM. At late as 2004, the program was receiving $24 
million. It was after that, and I do not have to tell you folks 
the history. You folks know what happened to JOM, and again, as 
I said, if it was not for Chairman Dicks, I would not even be 
here today.
    I want you folks to know that we are partners with NIEA and 
NCAI and this is the amount we are asking for. The 
Administration, I am told, has put JOM back into budget for 
2010. I do know the figures that are in that budget. It has not 
been made available to me but I want to say that this all came 
from hard work from the parents and it came from hard work from 
the schools and it came from hard work from the Congress to see 
this happen.
    Mr. Dicks. Again, this is why we have this hearing. We have 
had it for the last three years. It is because we learn a lot 
at these hearings about the programs that are important to the 
tribal members and your testimony and that of others on this 
issue last year made a big difference in our evaluation.
    Mr. Dustybull. Yes, and I thank you for that. You know, 
there are 562 tribes across the Nation and 93 percent of our 
children attend public school. It is a JOM program that serves 
these students that makes a difference. I was at an education 
conference Monday and a young man was the keynote speaker and 
this young man was a junior in high school. He spoke about his 
life, how he was drug-free and alcohol-free, and even though 
these social ills surround where he is, he is from the State of 
Wyoming, he talked about how he was able to stay this way and 
how he had this drum. He showed an Indian hand drum. He said 
this is my father. He said I am learning my songs, and every 
time I feel bad, he said, I sing my songs. He said I credit JOM 
for bringing my culture back to me. This is some of the stuff 
that JOM does for our people. You know, we would not be 
fighting so hard for JOM if we had something to replace it 
with, but in Indian Country we have nothing to replace it with. 
If we lose JOM, we just lose ground. JOM is the glue that 
brings the parents and the school together. If it were not for 
JOM, the parents would not be in the schools but the parents 
have something to come to the schools and participate. The 
parents are the ones that set the program, design the program 
and approve the programs and the budget. They are the ones that 
establish the treatment level that they want their children to 
achieve.
    With that, I thank you, and if there are any questions, I 
will do my best to answer them.
    [The statement of Harold Dustybull follows:] 

    [GRAPHIC] [TIFF OMITTED] T0064B.048
    
    [GRAPHIC] [TIFF OMITTED] T0064B.049
    
    [GRAPHIC] [TIFF OMITTED] T0064B.050
    
    Mr. Dicks. Well, again, we appreciate your testimony. Any 
questions?
    Mr. Cole. Quick question, because you referred to it in 
your testimony, the frozen head count from the middle 1990s. 
What would you estimate had that not been done the head count 
would be today?
    Mr. Dustybull. I believe the head count, I think when it 
was frozen it was like 272,000, and I believe without a doubt 
that head count is well over 300,000. When my head count was 
frozen back home on the Black Feet Indian Reservation, it was 
close to 2,200 students. In 2008, we counted over 2,500 
students. So you can see it is growing. A lot of people are 
coming back home to the reservations.
    Mr. Cole. And what is your comfort level that Johnson-
O'Malley funds when they go, because this has been a concern of 
mine not just about that but other programs, when they flow 
into public school systems are actually used as they are 
intended to be used, in other words, that they are directed at 
native children, they do not just become absorbed somehow 
overall in the budget.
    Mr. Dustybull. That is the unique thing about the program 
is the program is designed in the regulations that govern this 
program given parents the authority to determine how these 
funds are going to be used and so they work hand in hand with 
the schools to determine the needs that they want to be met in 
the schools for their children so they have that power and that 
authority. This is one of the only programs in Indian Country 
that gives these parents that authority. That is why this 
program is so vital. It was vital in 1934. It is vital today. 
It will be vital in 2011, 2012 and so on because it changes 
with the times.
    Mr. Cole. Thank you very much. Thank you, Mr. Chairman.
    Mr. Dicks. Okay. Thank you. Is Ralph here? Where is Ralph? 
Executive director of the Seattle Indian Health Board, welcome.
                              ----------                              

                                           Thursday, March 26, 2009

                      SEATTLE INDIAN HEALTH BOARD


                                WITNESS

RALPH FORQUERA
    Mr. Forquera. Thank you very much, Mr. Dicks. Good morning, 
everyone. My name is Ralph Forquera. I am the executive 
director for the Seattle Indian Health Board. I would really 
like to express my sincere thanks to this committee for their 
efforts over the last three years to reinstate the urban Indian 
health funding back into the budget for us. We were very 
encouraged with the fact that President Obama came in with a 
4.8 percent increase for our program this year and it is a mere 
$36 million to fund our programs, which is not a lot of money 
in the health care world, as you well know, but an important 
aspect of the foundation of the work that we try to do with the 
urban Indian populations around the country.
    In my written testimony, I tried to give a few comments 
about why I really appreciate the fact that you guys have been 
so supportive over the last several years. The work that we do 
does in fact change lives. It does in fact improve the lives of 
Indian people living in cities, and I thought it would be 
helpful if you just had an opportunity to see a couple of 
little examples of how we have made a difference in the lives 
of a number of people.
    I also wanted to express my support and I think the support 
of most of the urban Indian programs for the appointment 
recently of Dr. Yvette Roubideaux as director for the Indian 
Health Service. I had the privilege of working with Yvette for 
a number of years around health policy issues and she and I 
have actually shared a couple of papers that we put together 
over the years. She is a very knowledgeable person, understands 
the Indian health system very, very well and I think also 
understands the relationships between the tribal communities 
and the urban communities and I think will be a very big asset 
to us in terms of building that liaison and that continuity of 
relationships that I think is important for our future.
    In my request, I am making a request for an additional 9.8 
percent for the 2010 appropriation to around $40--$40 million.
    Mr. Forquera. But $40 million for the urban Indian programs 
and then $1 million for a program that I operate. The Seattle 
Indian Health Board has an Urban Indian Health Institute. It is 
a research center that we created about eight years ago for the 
purposes really starting to identify and track health 
conditions among urban Indians. The Indian Health Service's 
work is primarily focused on Indians living on and near 
reservations and it is primarily working with Indian people who 
are members of federally recognized tribes. There are a large 
number of Indian people that have been displaced over the years 
and no longer are members of the federally recognized tribe nor 
are they living on or near reservations. They are in cities 
throughout the United States. We know very little about them. 
Through the institute, we have done work over the last several 
years looking primarily at secondary data systems so we have 
been looking at the census, we have been looking at information 
that is collected by the National Center for Health Statistics, 
CDC and other places and have identified really striking 
inequities in the health problems among Indian populations 
living in cities, and we need to do more work around that area. 
We especially need to do work in doing a study around primary 
data collection sources so that we can confirm the information 
that we have and we can also find out the true extent of the 
problem. We think that because of a whole variety of problems 
the data collection at this point in time that the information 
that we have grossly underestimates the true extent of the 
problem, and only through doing really precise, specific data 
collection with our partner organizations and with other cities 
that do not have urban Indian programs around the country can 
we really be able to articulate precisely what the inequities 
really are and then begin to develop strategies that can 
address those particular inequities. We have been chasing a lot 
of other people's ideas about what works well, and some things 
do work well but some things do not work well and we need to 
understand what does and what does not if we are going to use 
our resources effectively, and that is really the work that the 
institute has been trying to do for the last several years.
    So the request that we are making is really for some 
foundational dollars to help us to be able to really focus our 
work, specifically are looking at what the needs are of the 
urban Indian population and to focus study work that will 
specifically address some of the needs that the population has 
and how they relate to some of the kind of standardized ways 
that the Nation is looking at the health care reform 
initiatives that will be coming forward. We really believe that 
we have to be a piece of the health care agenda. We serve 
specific populations, and if we want to reach full access, 
complete access, you have to use institutions like ours as a 
vehicle for doing that and so the only way that we can be most 
effective to you is if we have knowledge about what we do and 
we have knowledge that we can then use as a way of creating the 
mechanisms necessary in order to be able to really not just 
provide care but to improve the health status of the population 
itself.
    So with that, I thank you very much for the opportunity to 
be here.
    [The statement of Ralph Forquera follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.051
    
    [GRAPHIC] [TIFF OMITTED] T0064B.052
    
    [GRAPHIC] [TIFF OMITTED] T0064B.053
    
    [GRAPHIC] [TIFF OMITTED] T0064B.054
    
    Mr. Dicks. I appreciate your testimony and your good work, 
and again, thanks for being here. Mr. Cole.
    Mr. Cole. Just two questions. One, from what research you 
have done, first, do you see significant differences in the 
health challenges that Native Americans on reservations versus 
just in cities and away from reservations have?
    Mr. Forquera. There are similarities in terms of the extent 
of conditions but the factors that contribute to them tend to 
be a little bit different. A good example is on a reservation, 
unemployment is a problem but because of family and other kinds 
of things, there are ways of getting assistance. In a city, 
unemployment is a huge problem for a native person because they 
do not have access to insurance and other kinds of things for 
the health care assistance that they need. Education is another 
factor. In a city like Seattle, for example, where the majority 
of the population have four-year college degrees, if you only 
have a high school diploma, you are limited in your capacity to 
be able to get a reasonable job and so those are the kinds of 
things that we really struggle with in trying to figure out how 
to work with our community to get them convinced that these 
things are necessary in order to be able to live in the city, 
and secondarily to help get them through the process because 
oftentimes too many Indian people come with very limited 
educational backgrounds. Getting them into academic 
institutions or getting them into even vocational institutions 
can be a challenge.
    Mr. Cole. Second question. What kind, if any, outreach 
exists so that--I mean, as you say, you specialize in a very 
unique population, so do most of the Indian care facilities 
around the country, but there are a lot of Indians that do not 
go to Indian care facilities, and given the fact that there are 
differences just in rates of disease and challenges, what sort 
of exists if any to sort of educate non-Indian health care 
centers that are dealing with significant numbers of Native 
Americans?
    Mr. Forquera. It is an area that we have really tried to 
focus on again through the institute, and one of the things 
that we have been doing is trying to meet with state and local 
governments around the country that have the responsibility of 
collecting this information, working through the National 
Center for Health Statistics and the Center for Disease Control 
and Prevention that also has oversight over a lot of that. They 
get a lot of their information from states so what we have 
tried to do in the last several years is meet with state 
officials from various states. We have had some that have been 
very cooperative. Washington State is great and California has 
been very, very good, and there have been some states that have 
been very good. There have been others that we have had 
difficulty with and now because of the funding shortfalls we 
have run into even greater problems because they really just do 
not have time or the resources to be able to devote to us. So 
we are working on that. We also have been working with a 
variety of organizations to try to get hospitals which 
currently do not have the responsibility to keep ethnic data. 
So we do not really know other than, you know, Indian people 
that we know about that are in hospitals. We do not really know 
how many Indian people are getting care outside of the Indian 
health system and that is another area that we really need to 
put some concentrated work around.
    So again, the institute is kind of a, what I see it as is 
the coordinating body for doing that kind of work and bringing 
these kinds of questions to the right sources.
    Mr. Cole. Thank you very much. Thank you, Mr. Chairman.
    Mr. Dicks. Thank you very much, Ralph. Thank you for being 
here.
    We are going to go to Ned Norris, Jr., just out of order 
here, and after this witness, Mr. Hinchey will assume the 
chair. Thank you. It is good to see you again. I really enjoyed 
my trip. It was a very revealing trip to see the size of your 
reservation, which is larger than the State of Connecticut. 
That is pretty amazing. Also just to see that the problems on 
the border down there in Arizona are very significant and we 
are glad you are here today to testify.
    Mr. Norris. Mr. Chairman, thank you for the opportunity.
    Mr. Dicks. We will put your statement in the record and you 
have 5 minutes to summarize.
                              ----------                              

                                          Thursday, March 26, 2009.

                         TOHONO O'ODHAM NATION


                                WITNESS

NED NORRIS, JR.
    Mr. Norris. Thank you, sir. I just wanted to thank the 
committee and thank you for this opportunity to be here today 
and to offer testimony regarding the 75 miles of international 
border that borders the southern part of the Tohono O'Odham 
Nation. I also thank you, Mr. Chairman Dicks, for your recent 
visit to the Tohono O'Odham Nation where you witnessed 
firsthand some of the issues that we are having to face with 
regards to border-related crimes, illegal immigrants and drug 
trafficking, robbery, sexual assaults, stolen vehicles and 
property crimes.
    The Tohono O'Odham Nation is 2.8 million square acres in 
size. We are in the southwestern part of the State of Arizona. 
We have in excess of 28,000 enrolled tribal members within that 
2.8 million square acres. We have about 56 remote villages, 
communities that exist. Also we have nine villages that 
continue to exist in the country of Mexico. Also, we have 1,500 
enrolled members living in Mexico and they are not necessarily 
living in Mexico because they want to live there but because 
when the international border was established, it essentially 
cut that part of our membership off from the membership that 
ended up in the United States.
    For several years the Tohono O'Odham Nation has spent over 
$3 million of its own resources annually in an effort to combat 
illegal border activity. The Tohono O'Odham Nation's police 
department spends between 30 and 40 percent of its time on 
border crimes stretching our law enforcement resources to the 
point of compromising public safety. That is 30 percent to 40 
percent of the time that is not being spent policing the Tohono 
O'Odham Nation, its members and so on and so forth. We share 
the federal government's concern with protecting our nation's 
borders and our citizens from criminal activity and potential 
terrorist attacks. We need to address these issues and other 
law enforcement challenges at the border and throughout our 
tribal lands. It is vital to the nation's efforts to protect 
its more than 28,000 enrolled tribal members and to work with 
the federal, state and local law enforcement partners to 
improve the public safety and officer safety and increase 
border security and reduce border-related crime.
    Mr. Chairman, members of the committee, I would like to 
just take this opportunity to talk about three particular areas 
that are of grave interest to the Tohono O'Odham Nation. These 
particular three areas are not in total as far as the issues 
that we are concerned about but are highlighting some of the 
areas we would like to begin to continue to address. One of 
those is our Tohono O'Odham police department. In 2008, there 
were 72,349 calls for police assistance. Of those, 7,368 were 
of a violent or dangerous nature. Some of the things that we 
are experiencing within our tribal communities are an increase 
in gang activity and also an increase of drug trafficking 
within the Tohono O'Odham Nation's lands. Much of the time that 
is spent with our law enforcement addressing immigration issues 
and border issues really has an impact on whether or not they 
are able to respond adequately to other areas of the nation. As 
I expressed, we have 2.8 million square acres. We have some 56 
remote villages. Response time, depending on where the incident 
occurs, is usually anywhere from five minutes to several hours 
before police officers can respond. There is a need to increase 
the tribal officers and hopefully be able to assist more 
effectively the Department of Homeland Security, ICE, Customs 
and Border Protection and other federal agencies in patrolling 
the 75 miles of border shared by the Tohono O'Odham Nation and 
Mexico.
    Also, I would like to talk about law enforcement 
communications. The nation is committed to address 
interoperability challenges currently experienced on the 
nation. Many times when our tribal law enforcement respond to 
situations that are occurring along the border, there is 
essentially no method of communication between the tribal and 
the federal law enforcement entities that are responding to a 
situation there on the border. We would like to be able to 
address that by addressing the interoperability challenges that 
we have by placing different technical capabilities, microwaves 
and different things on the nation's lands so that way we can 
begin to have the agencies be more effective in working with 
each other.
    Lastly, Mr. Chairman, is the need to establish an emergency 
operations center. Tohono O'Odham Nation being as isolated as 
it is in the southwestern part of the State of Arizona realizes 
that there is a need to establish such a center so that way we 
can continue to effectively work with the Department of 
Homeland Security and other agencies that are working within 
our nation. I realize I am out of time.
    [The statement of Ned Norris, Jr. follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.055
    
    [GRAPHIC] [TIFF OMITTED] T0064B.056
    
    [GRAPHIC] [TIFF OMITTED] T0064B.057
    
    [GRAPHIC] [TIFF OMITTED] T0064B.058
    
    Mr. Dicks. Thank you. You did a good job and we appreciate 
your efforts and we understand the difficulty of that situation 
being right on the border, and I learned a lot by being down 
there and seeing it. Actually the border patrol took us up in 
the helicopter and we went over a lot of your lands and so we 
really do see the problem that is there, and we have to 
continue to work with the Members of Congress from Arizona to 
help them with this cleanup of the waste--an issue that is very 
serious.
    Mr. Norris. Yes, sir, Mr. Chairman. Just real quickly, in 
response to the waste, we had a pilot project that we were 
involved in with the region San Francisco area as far as the 
Environmental Protection Agency and did a pilot project to 
identify illegal staging areas within Tohono O'Odham Nation. In 
a year's time span, we identified 134 illegal dumpsites within 
the nation's lands. Within a two-year time span, we confiscated 
104 million tons of waste in the form of backpacks, water 
bottles, blankets, clothing and so on and so forth with our 
nation's lands and we are concerned that those illegal 
dumpsites continue to grow and the trash continues to 
accumulate on the nation's lands, creating environmental 
concerns, health issues for our nation's members.
    Mr. Dicks. All right. Thank you very much.
    Mr. Hinchey, why do you not assume the chair? Elbridge 
Coochise is the next witness. I am very sorry I have to go but 
this is an emergency.
    Mr. Hinchey [presiding]. Mr. Coochise, thank you very much 
for being here. It is a pleasure to be with you and we very 
much appreciate your testimony.
                              ----------                              

                                          Thursday, March 26, 2009.

                INDEPENDENT REVIEW TEAM ON TRIBAL COURTS

                                WITNESS

ELBRIDGE COOCHISE
    Mr. Coochise. Thank you. I am Elbridge Coochise, a retired 
judge of 10 years now, and I am heading the Independent Court 
Review Team, three years in the making now. The Department of 
Interior's central office had requested additional funding 
through OMB and it got axed in fiscal year 2006, and they put 
out a solicitation for bids so it is not anybody from the 
bureau or any tribe or organization, and I submitted a bid with 
four others who are either retired judges, retired prosecutors, 
attorneys, and we have been working and we have reviewed and 
assessed 50 courts to date.
    There are 299 operating court systems in Indian Country. 
However, the ones we are reviewing are the 156 that actually 
get some federal funding from Department of Interior, and we 
are here to request an additional $50 million be added to the 
BIA tribal courts. They currently only get $11.9 million for 
the 156 tribes, and the request is to help the tribes with 
their court systems in the hiring and training of court 
personnel. Our assessments found that the tribes with their 
court system, if they get a little money they really cannot 
compete with sufficient staff and salaries that are comparable 
to local and state governments. An example, we just finished a 
review two weeks ago. The tribal appellate court has 29 cases 
that are backlogged but they only have money to pay licensed 
attorneys who are judges $25 an hour and limit them to four 
hours per month to hear appeals, and so the increases are 
needed for judges who are in place now and court personnel and 
then technology. Many of them do not have the software to keep 
records, even recording systems, and of course security systems 
in tribal courts are really pretty much nil. Anybody can walk 
in and out of them. And we found in the reviews that tribal 
courts are really needing updates. They are operating with 
courts that were developed 20, 30 years ago or borrowed from 
someone else. We do understand the President's budget has 
increased law enforcement for 2010 by $110 million but you have 
to also understand that tribal courts are part of that and for 
law enforcement detention, from law enforcement to detention, 
they have to go through tribal courts, and with $11.9 million, 
it is just not enough to do the job, and we do want to thank 
the committee. Last year you put a little bit of money, one-
time funding of 2.4 into tribal courts and 18 of the courts 
that were reviewed were given some funding, which they 
certainly have put to good use.
    So in our reviews, we found that tribal governments only 
receive about 26 percent of their total court budgets from the 
federal funds and so basically one-fourth of the money and 
three-quarters is tribal funds that they use. Like I said, OMB 
had turned down any request for funding until they got data and 
so our directives are pretty much three. One is, what money is 
the tribes getting, how are they spending it, are they spending 
it like it is appropriated, and then this last fiscal year they 
said what about due process, the speedy trial issue, so toward 
the end of the fiscal year we started looking at due process 
issues and we found that the 15 courts that we reviewed, there 
was only one where there were violations of due process, the 
speedy trial issue. I know most of you probably saw the big 
article in the New York Times last year about no representation 
in tribal courts and that is not really the case from what we 
found in 14 of the ones we reviewed provided, and we used the 
standard where they had no standard of the federal review 
standard and they were all within that standard in dealing with 
due process issues. But we have courts out there including the 
last one two weeks ago that are in condemned buildings. They 
are health hazards. In fact, the judge and a court reporter 
went in and worked 40 minutes in one clerk's office getting 
information and they both got sick because of the condemned 
building and what was in there.
    I would like to share with you our final report that we did 
for fiscal year 2008 and it gives you more of the details on 
what we found in the assessment. So we are requesting on behalf 
of the tribal courts an additional $50 million to help them 
operate their systems.
    Mr. Hinchey. Fifty million, did you say?
    Mr. Coochise. Fifty million, yes, so that their court 
systems can operate in a more decent fashion and provide due 
process to the community members.
    So with that, I do thank the committee for allowing me to 
appear before you this morning, and again, thank you. Last year 
the minimum amount, even though it was minimal and one time, it 
really helped a lot of courts. One court burnt down and 
additional $200,000 just helped them to get started. But there 
are many more that are operating in condemned buildings and no 
staffing and not the resources to deal with it. So with that, 
we would like to thank you again. If you have any questions, I 
would be glad to answer them.
    [The statement of Elbridge Coochise follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.059
    
    [GRAPHIC] [TIFF OMITTED] T0064B.060
    
    [GRAPHIC] [TIFF OMITTED] T0064B.061
    
    [GRAPHIC] [TIFF OMITTED] T0064B.062
    
    Mr. Hinchey. We very much appreciate your testimony and 
drawing our attention to this very critical issue and we thank 
you very much for doing it. Are there any questions? We are 
under a little pressure here. We have a vote system on. I thank 
you again for that testimony and it is very clear, we have 
taken notes, and I am sure that our chairman and all the rest 
of us will focus attention on it. Thank you very much, Mr. 
Justice.
    Mr. Coochise. Yes, and be sure to thank him because I met 
with him last year and he came through, you and the committee. 
Thank you very much.
    Mr. Hinchey. Will do. Thank you very much.
    Our next is Myron Schurz. I understand you are going to be 
flying out this afternoon, so----
    Mr. Schurz. Yes, I will be quick.
                              ----------                              

                                          Thursday, March 26, 2009.

                      GILA RIVER INDIAN COMMUNITY

                                WITNESS

MYRON SCHURZ
    Mr. Schurz. Good morning, Mr. Chairman, distinguished 
members of the subcommittee. I will acknowledge Congressman 
Cole. He has been out to Gila River. Thank you again for 
visiting. Good morning. I am Myron Schurz and I serve on the 
council of the Gila River Community. I thank the subcommittee 
for the opportunity to testify this morning. We are pleased to 
be able to report to the subcommittee today regarding our 
success in working with the Indian Health Service as a full 
partner on the construction of the recently opened Phoenix 
Indian Medical Center Southwest Ambulatory Care Center, which 
opened in January 2009, which is on the west end of our 
reservation. We are also here to describe the critical 
importance of ensuring that Congress acts aggressively to fully 
fund the PIMC Southeast Ambulatory Care Center, which received 
$2.5 million from Congress in fiscal year 2005 for a partial 
design but which still requires $67.7 million for full 
construction in fiscal year 2010. Although the design funding 
was appropriated in fiscal year 2005, the community just 
received that funding in February 2009. We are moving forward 
with the design and we are confident design work can be 
complete in fiscal year 2009.
    As the subcommittee is aware, there has been a $3.6 billion 
backlog of unmet need for priority health care facility 
projects at IHS. These projects, although essential to the 
health and well-being of Native Americans across the country, 
have been funded over the past decade at a very small fraction 
of need. Funding these new projects has clearly not been a 
national priority either at IHS or Congress. Even the $227 
million in the stimulus bill for the new health care facilities 
only completes two projects, two projects that have long 
awaited funding. We all understand, however, that we now find 
ourselves at the start of a new era. Now is the time for the 
federal government to invest in the long-term infrastructure 
development and job creation in Indian Country by ensuring 
these priority health care projects including PIMC Southeast 
ACC are fully funded and completed so that other pressing needs 
across Indian Country can be addressed. The PIMC central health 
facility now in existence was completed in 1970 and was 
designed as a central inpatient and outpatient facility 
primarily for tribes in Arizona, Utah and Nevada based on the 
high population of Native Americans in the area. It was 
designed to serve a user population with an approximate need of 
40,000 outpatient visits per year but that need has since 
swelled to over 250,000 outpatient visits per year to that 
facility. Expansion of the PIMC has been a priority for IHS 
since 1989, 20 years ago, when the PIMC first appeared on the 
IHS priority list. After several years of discussion and 
consultation, in 2002 Phoenix-area tribal leaders and IHS 
agreed to a master plan to create satellite ambulatory care 
facilities in order to improve health care access for tribal 
members living on and off reservation. From this hub and spoke 
health care service delivery concept, the Southwest and 
Southeast Ambulatory Care Centers were born, and after 15 years 
the amended IHS priority list broke out the southwest, 
southeast and northeast ACC satellite components of the PIMC 
system.
    The bottom line is that the need for addressing the strain 
at the PIMC central facility has been an identified priority at 
IHS for 20 years. The satellite ambulatory care center concept 
was developed due to discussions with staff with this very same 
subcommittee. The community is committed to being shovel-ready 
and feels strongly that full funding and completion of PIMC 
Southeast should be at the very top of the subcommittee's 
priorities for new health care facility construction, which 
would allow IHS to make efforts to address the long-term 
project of PIMC replacement in smaller, more manageable 
increments. The Southeast ACC once constructed will be the 
second PIMC health care facility on trust land within the 
community's reservation. The total value of the land being 
contributed by the community is $20 million, which is the land 
value. It indicates the community's commitment to the 
importance of these projects. The Southeast ACC facility will 
be capable of providing upwards of 120,000 outpatient visits 
for all eligible federally recognized tribal members in the 
greater Phoenix area which includes 21 tribes in Arizona, which 
could translate to about 1 million users, plus the tribes in 
Nevada and Utah and any other enrolled member of a federally 
recognized tribe who may reside in or visit the Phoenix area. 
The Southeast ACC project will create permanent high-quality 
health care jobs through staffing for the facility and 
temporary jobs during construction. The project is estimated to 
employ 322 new full-time staff positions. The average 
construction workforce will be between 75 and 100 people for 
the estimated two-year construction period.
    The community has a successful track record in constructing 
health care facilities on time and within budget. The 
community's primary mission at the end of construction is to 
continue to provide high-quality and accessible health care to 
the patients we serve. Securing funding of the $67.7 million 
for construction of the Southeast ACC is the community's 
primary concern at this time. This will be a step toward 
fulfilling IHS's 20-year promise to replace the PIMC. The 
Southeast ACC is a critical piece that will help meet the 
health care needs of Native Americans.
    That is my testimony. I appreciate your time. Thank you.
    [The statement of Myron Schurz follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.063
    
    [GRAPHIC] [TIFF OMITTED] T0064B.064
    
    [GRAPHIC] [TIFF OMITTED] T0064B.065
    
    [GRAPHIC] [TIFF OMITTED] T0064B.066
    
    Mr. Hinchey. We very much appreciate your testimony and the 
focus of attention that you bring on this issue. I also have 
been told that you just missed it last year in the 
appropriations bill, that there were two, as you mentioned, and 
unfortunately, you were number three. Well, we will see what 
happens this time around, and I am sure that it is going to get 
a lot of attention. So we thank you very, very much. We have 
some votes on in the House now. The voting is just about over 
so we are going to have to run over there. Thank you for your 
testimony.
    Mr. Schurz. Thank you very much.
    Mr. Hinchey. The recess is on now until 1:30. Be back here 
at 1:30.
                              ----------                              

    Mr. Dicks. We will now begin this afternoon's session of 
our second day of public witness testimony. Thank you all for 
being here today and for sharing your experiences and concerns 
with us.
    I would like to remind our witnesses that we have many 
speakers scheduled to appear today. To ensure that we are able 
to accommodate everyone, I ask that each witness respect the 5-
minute time limit. A yellow light will flash with 1 minute 
remaining of your time in order to give you the opportunity to 
wrap up your statement, and of course, your entire statement 
will be put in the record. When the red light comes on, then 
your time has expired. Your prepared statement will, of course, 
as I said, be put in the record.
    Our first witness is Virgil Seymour, Council Member of the 
Confederated Tribes of the Colville Reservation in the great 
State of Washington. Virgil, nice to have you here.
                              ----------                              

                                          Thursday, March 26, 2009.

            CONFEDERATED TRIBES OF THE COLVILLE RESERVATION


                                WITNESS

VIRGIL SEYMOUR
    Mr. Seymour. I would like to thank the Chair, Mr. Dicks, 
and Mr. Simpson, for allowing me to come here and testify on 
the appraisals for Indian trust land. My name is Virgil 
Seymour. I am an elected official out of the Inchelium District 
on the Colville Indian Reservation.
    The Colville Indian Reservation is comprised of 12 
different smaller bands that come from Canada and other places 
across eastern Washington. We have 1.4 million acres. We have a 
membership of over 9,300, at least half of which live on or 
near the reservation.
    What I want to talk about is appraisals for Indian trust 
land, and right now with two bureaucracies, one being OST and 
the other being the BIA, we have a backlog of sometimes up to 
10 years of land sales or, you know, acquisitions. We have a 
lot of people that are getting up in their ages, and they would 
like to sell some of their land back to us and keep it in trust 
status, but because of the BIA trust responsibility, every sale 
has to have an appraisal, and it has to be approved by the BIA.
    Mr. Dicks. Well, we got to do something legislatively to 
fix this. This is an impossible situation.
    Voice. Does the BIA do that appraisal?
    Mr. Seymour. No. They request it to OST, and OST does the 
RFP for appraisal, and through those two systems it has taken, 
you know, we got a backlog of I am guessing of up to 10 years, 
and in that time some of the people actually die off, and their 
land adds to our fractionated troubles. And then also some of 
the people get fed up with the system, and they take their land 
out of trust and then sell it on the open market, which adds to 
our checker boarding problem.
    So, you know, just with the two bureaucracies each blaming 
each other for some of the inconsistencies, it has become quite 
a problem.
    In our written testimony we have some suggested report 
language. The whole reason why I am here is the backlog that 
this problem creates.
    I guess with that I think you guys----
    Mr. Dicks. Well, we had a lawyer in yesterday that went 
into this from Seattle University on this very subject, and we 
understand this is a very complicated matter. Now, remember, 
the Authorization Committee normally is the one who has to take 
the lead on this, because this would require changes in 
existing law, but we will pass this along to them because they 
are the ones that ultimately are going to have to, if there is 
going to be a settlement of the whole thing, they are going to 
have to do it. But we appreciate your coming, and we will take 
a look at this language that you have presented.
    Mr. Seymour. Well, with that I would like to thank you for 
this opportunity, and if you do have any more questions, I 
would be happy to answer.
    Mr. Dicks. No. Thank you very much. We appreciate it.
    Mr. Seymour. Thank you.
    [The statement of Virgil Seymour follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.067
    
    [GRAPHIC] [TIFF OMITTED] T0064B.068
    
    [GRAPHIC] [TIFF OMITTED] T0064B.069
    
    Mr. Dicks. Now we are going to have from the Makah Tribe 
Timothy J. Greene, Treasurer of the Makah Tribal Council. 
Welcome.
                              ----------                              

                                          Thursday, March 26, 2009.

                          MAKAH TRIBAL COUNCIL


                                WITNESS

TIMOTHY J. GREENE
    Mr. Greene. Thank you, Mr. Chairman.
    Mr. Dicks. Glad to have you here.
    Mr. Greene. Glad to be here. All right. Mr. Chairman, first 
and foremost I would like to thank you for this opportunity and 
all the work that you have done for Indian Country and 
honorable committee members, thank you for allowing us this 
time. My name is Timothy Greene. I am the treasurer for the 
Makah Tribal Council. I am accompanied with Council Member 
Nathan Tyler, and we would like to testify today on four 
priority issues.
    First is increased contract support cost funding from the 
Indian Health Service for the administration of our health 
services. Number two is replacement of our decrepit jail with a 
new 911 public safety complex.
    Three, enabling our Office of Marine Affairs to expand its 
oil pollution and response coordination efforts with federal 
and Washington State governments for the benefit of both our 
community and other tribes. And four, closing the Warm House 
Beach open dump.
    First, contract support costs. In 2006, the Makah Tribal 
Council assumed the administration of all our direct healthcare 
services through a self-governance compact agreement with IHS. 
We signed that agreement with the understanding that in the 
next few years we would receive significant contract support 
cost funding, but that has not happened. The Makah Tribe 
currently receives the lowest CSC funding level of any tribe in 
the United States. Nationally, the CSC shortfall in fiscal year 
2010 will be about 200 million. While our situation is most 
extreme, many other tribes face significant CSC shortfalls. 
This shortfall flies in the face of a recent unanimous Supreme 
Court decision mandating full CSC funding. It also violates the 
letter and spirit of the Indian Self-Determination Act.
    We need full contract support costs to help us secure 
private capital for a replacement clinic facility, located far 
above the tsunami danger on our remote reservation. We urge you 
to increase the amount of CSC funding providing for self-
governance health programs and to ensure that IHS treats all 
tribes fairly with regard to the distribution of CSC funding.
    Secondly, the Makah 911 public safety complex. The current 
Neah Bay Jail was built in 1972, in the tsunami flood plain. As 
your staff who visited the jail can attest it is woefully 
deficient and totally out of compliance with BIA standards. We 
failed the BIA audit in 2001, and in independent audit in 2004, 
and since then the facility's problems have grown even worse. 
The jail structure has been compromised by years of damage 
caused by inmates, and the results are evident in recent escape 
of an inmate who was able to break through the deteriorating 
brick wall of one of the security cells.
    Clearly the public safety needs of our community deserve 
better than this. The Makah Tribe proposes to build a new 911 
public safety complex out of the tsunami flood plain at a cost 
of approximately $6.6 million. It would house all our public 
safety services and enable the Makah Tribe to improve public 
safety for the wellbeing of our people.
    Thirdly, the Office of Marine Affairs. Tuesday marked the 
20th anniversary of the Exxon Valdez oil spill. Over 3 million 
gallons of oil have been spilled off the Washington coast in 
our treaty area since the early 1970s because of the Strait of 
Juan de Fuca is among the busiest waterways in the world. The 
Makah Tribal Council has been actively involved In spill 
prevention and response issues for over 20 years.
    In order to protect our treaty resources, recognizing 
Makah's leadership in spill prevention and response, Coast 
Guard District 13 and EPA Region 10 invited Makah to 
participate in the Regional Response Team Northwest Area 
Committee. As a formal voting member this past year, through 
our participation on this committee, the Makah Tribal Council 
will continue a tribal annex to the northwest area oil spill 
plan. Makah proposes to work with federal and state agencies to 
further develop a tribal coordination and consultation policy 
and a federal and state tribal oil pollution memorandum of 
agreement. We would like to develop the MOA into a regional 
tribal oil spill response program through the Puget Sound 
Partnership that will involve and benefit many other tribes.
    And lastly, closing the Warm House Beach open dump. The 
Makah Tribal Council has identified closing this dump as a 
public health and safety priority. It was established and has 
been used by federal agencies for many years. Chemical 
contaminants associated with the dump have been detected and 
surface water and sediments of creeks downstream of the dump 
and in shellfish and fish taken from beaches nearby. The tribe 
has spent approximately $1 million to contain the dump wastes 
and mitigate these damages.
    In 1994, the EPA mandated that open dumps be closed, but 
sufficient funding has not been provided for the tribe to close 
the dump. In order to close the dump the tribe has designed a 
transfer station and a resource recovery facility and is 
prepared to construct these facilities if they are able to 
secure federal funding.
    Thank you, again, Mr. Chairman and committee members on 
behalf of the Makah Tribal Council and our community members. I 
want to invite you to visit us as soon and as often as you can. 
You are always welcome on our shores. Thank you.
    [The statement of Timothy J. Greene follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.070
    
    [GRAPHIC] [TIFF OMITTED] T0064B.071
    
    [GRAPHIC] [TIFF OMITTED] T0064B.072
    
    [GRAPHIC] [TIFF OMITTED] T0064B.073
    
    Mr. Dicks. Well, just for my colleagues here, I have been 
going up to Neah Bay since about the early 1950s, and it is one 
of the most beautiful places. It is the northwest corner of the 
lower 48 states. You have the Strait of Juan de Fuca on one 
side, the Pacific Ocean on the other side, and a few miles back 
near Waadah Island is Neah Bay, and when I was a child we used 
to go out with a five-horse Sea King and a 16 foot wooden boat, 
and we would go, it would take us a half hour. Now we go by 
there in about 3 minutes. We would fish at Waadah Island, but 
if it was a really perfect day, we might go down to I think it 
is the garbage dump you are talking about. It is the next point 
down.
    Mr. Greene. That is correct. Yeah. There is a good fishing 
hole off of that point.
    Mr. Dicks. Yes. There was a very good fishing hole out 
there. But it is just one of the greatest places to fish in the 
country, and I appreciate our friendship.
    David M. Gipp, President, United Tribes Technical College. 
Welcome.
                              ----------                              

                                          Thursday, March 26, 2009.

                    UNITED TRIBES TECHNICAL COLLEGE


                                WITNESS

DAVID M. GIPP
    Mr. Gipp. Thank you, Mr. Chairman. With me today is 
Chairwoman Myra Pearson, Chairwoman of the Spirit Lake Tribe 
and also our Board Chairman for our tribal leaders in North and 
South Dakota. So I thank her for being with us.
    I have just as an addition for the members of the 
committee, a copy of our newsletter, Mr. Chairman, that I will 
leave with you at your leisure, if you wish. A newsletter which 
highlights our students and some of the activities that we 
engage in at United Tribes. We have been in business for over 
40 years now and we are celebrating our 40th anniversary in 
providing education to I think close to 13,000 different 
American Indians throughout this period of time.
    In 1969, we took over a military fort called Fort Abraham 
Lincoln in Bismarck, North Dakota, that was closed up, and we 
began operation in providing technical education to Indian 
families and to adults and to children. And I always say that 
it is a good case of the Indians taking over the fort, in this 
case for peaceful and educational purposes, and we have done it 
very well, and we have a 94 percent placement rate, 80 percent 
retention, and we do well with our graduates, and we also have 
early childhood services for our children, the children of our 
adult families that attend there.
    Now, this past year we served close to over 1,000 different 
adults and about 400 children that are on this 105-acre campus. 
We have been----
    Mr. Dicks. Threatened by this flooding?
    Mr. Gipp. Well, we are sitting on high ground, fortunately, 
but we have taken in about 20 different Indian families that 
live along the river in Bismarck, North Dakota, and some of 
them are students, some of them are resident to the area there, 
and so we are trying to do our best to help out with this 
crisis that is ongoing as you have heard about.
    Mr. Chairman, I would like to just emphasize that in the 40 
years that we have been in existence, and one of the articles 
in the newsletter is that we are being requested in the current 
budget by the President to be put into the budget, and we 
appreciate that. I especially commend you and members of this 
committee and the House for restoring us each year, because for 
the past 8 years we have been wiped out by the previous 
Administration and now we are being included in that budget. 
And I think rightfully so in that we serve some of the poorest 
Native Americans in the country. Some of our tribes have up to 
76 percent unemployment rates of the employable workforce. And 
so we think we do justice to what we do in a very good and 
positive way.
    Our request speaks to about $5.5 million in a request for 
continued operations for our college, which is about 1\1/2\ 
million over the current fiscal year 2009 level. We also are 
requesting 5 million of a 10.9 million need for a new math and 
technology center, which will be located on our south campus, 
which we have begun construction on already, to expand serving 
our population from 1,000 to 2,000 to upwards of 5,000 Native 
Americans because of the great growth of our population across 
the land.
    Third, we are asking for about $3.5 million towards a 
Northern Plains Tribal Law Enforcement Center. You know full 
well the disparities of law enforcement and the need for more 
law enforcement officers throughout Indian Country, and this is 
a role that we think we can do. We have been doing limited law 
enforcement training for the past 39 of the 40 years.
    And fourth, we are asking that the Bureau of Indian Affairs 
and Bureau of Indian Education place more emphasis on funding 
and administrative support for job training and vocational 
technical education. Their request is at about $8.8 million 
with an additional 2 million for adult education for a total of 
$10 million plus.
    You know, in 1970, the level being spent on adult 
vocational training was around $60 million, and today it is at 
$10.9 million. So you see the lack of emphasis by the Bureau of 
Indian Affairs on training and education.
    Mr. Dicks. Are you eligible for any of the Department of 
Labor programs?
    Mr. Gipp. We are for some limited funds over there. We 
receive a small grant to assist those natives that are not on 
the reservation.
    Mr. Dicks. What about Perkins?
    Mr. Gipp. We do receive Carl Perkins money through the Carl 
Perkins Section 117 portion of the Department of Education. Mr. 
Chairman, that is about 50 percent of our budget by the way. 
So----
    Mr. Dicks. So that is a good program for you.
    Mr. Gipp. It is a good program, and they are of great 
value. We have excellent results. I have good data on all of 
these programs, Mr. Chairman.
    In summary, I would just like to note that we range 
everything from law enforcement to licensed practical nursing 
to the standard trades to tribal environmental science to, as I 
mentioned, the issue of law enforcement needs and the need to 
try to emphasize those kinds of things, as well as public 
health issues that we do in our training in medical records and 
those kinds of things. And we anticipate expanding those 
efforts as we grow and as we look at the needs of each of our 
reservations and tribal communities across the country.
    Mr. Chairman, that is kind of a summary of what I would 
have. The only other areas I can think of are areas of 
business, nutrition, computer information technology, and 
online education, the five degrees that we provide online 
across the country.
    Mr. Dicks. Well, I will tell you Congressman Pomeroy and 
Senator Dorgan for sure have been major advocates for this, and 
you know, this is one of those situations where this was not 
earmarked before but now you are pretty confident that it is 
going to be in the President's budget request.
    Mr. Gipp. It is in the President's budget request, and it 
is also a new title called Title 5 under the Tribal College 
Law. So it is provided by law in terms of, you know, the issues 
that clearly designate it as a part of both law and priority. 
Yes, Mr. Chairman.
    Mr. Dicks. Okay. Good. Thank you.
    Mr. Gipp. Thank you, sir. We appreciate it.
    [The statement of David M. Gipp follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.074
    
    [GRAPHIC] [TIFF OMITTED] T0064B.075
    
    [GRAPHIC] [TIFF OMITTED] T0064B.076
    
    [GRAPHIC] [TIFF OMITTED] T0064B.077
    
    Mr. Dicks. Yes. Mr. Olver.
    Mr. Olver. How large is your student body?
    Mr. Gipp. Our student body is about 1,023 officially.
    Mr. Olver. What is the proportion of that that comes from 
the Dakotas?
    Mr. Gipp. I would say about 70 percent come from North and 
South Dakota.
    Mr. Olver. Okay.
    Mr. Gipp. The rest come throughout the country. Our range 
of different tribes will go from a low of 22 up to 70 different 
tribes depending on what part of the year you are talking 
about.
    Mr. Olver. And where do you get the rest of the money if 
you are asking here for 3\1/2\ million for the law enforcement 
resource and training center?
    Mr. Gipp. Well, we are----
    Mr. Olver. What about the rest of the other 33? You are 
only asking for 10 percent of that.
    Mr. Gipp. Well, what we are doing, sir, is we are 
partnering up with the State of North Dakota with the capital, 
the city of Bismarck, and with the county and with the state 
academy to begin to do an organized consortium effort. So we 
hope to share resources, and obviously we will have to raise 
more private and federal money, but this is the beginning of 
that effort is what it boils down to.
    Mr. Dicks. What is your total budget?
    Mr. Gipp. Our total budget, operating budget is about 8.1 
million.
    Mr. Dicks. Okay.
    Mr. Olver. Thank you, Mr. Chairman.
    Mr. Dicks. Anything else?
    Well, thank you very much. We appreciate your good work and 
your good intelligence about the budget. We are even more 
impressed with that.
    Mr. Gipp. Thank you, sir. We appreciate it very much.
    Mr. Dicks. Thank you.
    Now we are going to have Quinton Roman Nose, President, 
Tribal Education Departments of the National Assembly. Quinton, 
welcome.
                              ----------                              

                                          Thursday, March 26, 2009.

             TRIBAL EDUCATION DEPARTMENTS NATIONAL ASSEMBLY

                                WITNESS

QUINTON ROMAN NOSE
    Mr. Roman Nose. Thank you.
    Mr. Dicks. We will put your entire statement in the record, 
and you have 5 minutes to summarize.
    Mr. Roman Nose. Thank you, Chairman. Thank you for inviting 
TEDNA to the table. On behalf of the Tribal Education 
Departments National Assembly, my name is Quinton Roman Nose. I 
am currently employed as the Education Director for the 
Cheyenne-Arapaho Tribes.
    TEDNA is a member-based, non-profit organization that 
represents tribal education departments and Indian educators 
across the United States. Today we are respectfully requesting 
$2 million for TED appropriations from the Department of 
Interior fiscal year 2010 budget. Other organizations such as 
NCAI and NIA also have submitted requests on our behalf for $5 
million.
    I would like to tell you that TED's appropriations are a 
Department of Interior concern not only because the successful 
education of Indians is a harder trust responsibility, but it 
is also the tribes' responsibility of each individual tribe.
    I have got a lot of statistics to tell you, but basically, 
you know, there is a number of reports that show Native 
American statistics. Probably the number one glaring is that 
our high school dropout rate is really high among all the 
minority groups. Native Americans are actually the minority of 
the minority in both terms of numbers and achievement. Less 
than a century ago Congress funded state education departments. 
A good majority of federal funds go to providing operations of 
state education agencies. No such funding support has been 
directed to TEDs, even though TEDs are critical for providing 
services such as what the state education departments can do, 
and they are reluctant to undertake such endeavors such as 
tribal languages, cultures, protecting tribal sovereignty over 
education.
    However, the solution to removing obstacles has already 
been studied. Consensus has already been reached among the 
major Indian educational organizations including federal state 
partners, appropriating TED funding to empower tribes to play a 
meaningful role in Indian education. Congress has already 
envisioned tribal control over education. It has actually 
authorized tribal education departments. Tribal education 
departments, TED, coordinate education programs, develop, 
enforce tribal education codes, policies, standards, provide 
support services, and also technical assistance to schools and 
other programs.
    Congress authorized TED appropriations in two separate 
laws. In 1988, it was through the Bureau of Indian Affairs. In 
1994, Congress appropriated funds through the Department of 
Education. The amounts we seek for TEDs are relatively small in 
the context of the enormity of the federal budget. TEDs serve 
thousands of tribal students nationwide in BIA, tribal, and 
public schools. TEDs work on reservations, urban areas, and 
rural areas.
    They have positive impact on early childhood, K to 12, 
higher education, and adult education. Currently TEDs operate 
on very small budgets. Most TEDs do not have funds for 
sufficient operations and staff to conduct education research 
and planning or to develop childhood education initiatives and 
materials like curricula, teacher training, and trend programs.
    I could give you several examples but for my particular 
tribal education department not only do we provide scholarship 
and other programs, but we also produce some books on our 
tribal history for curriculum. It provides clothing assistance 
to students ages 3 to 18. We also offer money to pay for fees 
such as ACT and SAT college prep workshops and other endeavors.
    Because Congress believes in the ability of TEDs to meet 
the educational needs of Indian students, we humbly request 
that this subcommittee complete the journey Congress began in 
1988, by making this a historical first-time federal 
appropriation of $2 million to TEDs. Or if you go by the 
request of the other national organizations, NCAI and NIA, they 
are requesting $5 million.
    On a personal note----
    Mr. Dicks. Let me ask you something. Is there also funding 
in the Department of Education?
    Mr. Roman Nose. It has been authorized, never been 
appropriated.
    Mr. Dicks. For either interior or education?
    Mr. Roman Nose. Never.
    Mr. Dicks. All right. We will check into this.
    Mr. Roman Nose. On a personal note then in the late 1800s 
my great-grandfather, Henry Roman Nose, was a Cheyenne warrior 
who was captured, taken as a prisoner, went with Captain Pratt 
to Hampton Institute and later they established Carlisle Indian 
School. That type of education policy for Native Americans was 
such a historic event, I think by funding tribal education 
departments we could do a positive impact on the future of 
Indian education. As our current President has said, the future 
belongs to the nation that best educates its citizens. We would 
like to be part of that effort to educate our own citizens.
    Thank you.
    [The statement of Quinton Roman Nose follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.078
    
    [GRAPHIC] [TIFF OMITTED] T0064B.079
    
    [GRAPHIC] [TIFF OMITTED] T0064B.080
    
    [GRAPHIC] [TIFF OMITTED] T0064B.081
    
    Mr. Dicks. All right. Any other discussions? Any other 
questions?
    Mr. Olver. Mr. Chairman, if I may. You are a from the Wind 
River Reservation. Is that----
    Mr. Roman Nose. I am Cheyenne, and I am a member of the 
Cheyenne-Arapaho in Oklahoma.
    Mr. Olver. In Oklahoma.
    Mr. Roman Nose. Right. It is the same tribe. Northern 
Arapaho in Wyoming. Right.
    Mr. Olver. Okay.
    Mr. Roman Nose. We also have northern Cheyennes.
    Mr. Olver. But you are representing the whole of the TEDs, 
the national TEDS?
    Mr. Roman Nose. Actually, there is a possible 560 tribal 
education departments could be established.
    Mr. Olver. Yes.
    Mr. Roman Nose. But currently only about 150 of them 
currently have some form of an education department.
    Mr. Olver. Okay. Thank you.
    Mr. Roman Nose. So basically tribal education departments 
will serve the same function as a state education department 
for its particular jurisdiction.
    Mr. Olver. Thank you, Mr. Chairman.
    Mr. Dicks. Okay. Thank you very much. We appreciate it.
    Mr. Roman Nose. Thank you.
    Mr. Dicks. Next we are going to hear from Patty Brown-
Schwalenberg, Executive Director, Chugach Regional Resource 
Commission. Welcome.
                              ----------                              

                                          Thursday, March 26, 2009.

                 CHUGACH REGIONAL RESOURCES COMMISSION

                                WITNESS

PATTY BROWN-SCHWALENBERG
    Ms. Brown-Schwalenberg. Thank you. Good afternoon. As you 
said my name is Patty Brown-Schwalenberg, Executive Director of 
the Chugach Regional Resources Commission. I would like to 
thank you for the opportunity to testify here today. It has 
been a few years actually, so I really appreciate that.
    I am here on behalf of the Chugach Regional Resources 
Commission to request the subcommittee restore $350,000 in 
recurring base that we have out of the BIA trust natural 
resources budget and an additional 150,000 to support the 
Alluptic Shellfish Hatchery.
    We have been funded by the BIA in the base for 16 years, 
and the past 3 or 4 years we were taken out of the budget and 
had to come back to Congress to ask to restore the funding. And 
so we were under 638 contract, and so the BIA did not fund us 
in 2007, so we had to enter into litigation to get our funding. 
So we have been funded in 2007, they signed a 3-year contract 
for 2008, through 2010, but they are not putting us in the 
budget, and so we still are having to basically fight for our 
money every year. So we are hoping that the subcommittee can 
see their way clear to restore that funding.
    Some of the things that we have been working on over the 
past 16 years are all-community-based projects and some of the 
key ones that we are currently working on is Alaska king crab 
research to try to restore the populations in the Gulf of 
Alaska. So our shellfish hatchery, which is the only shellfish 
hatchery in the state, has been able to successfully culture 
king crabs, and now we are in the next phase of the research to 
try to see if actually we can release them into the ocean and 
see if they can survive and propagate. So that is pretty 
exciting project. The commercial crab fisherman, and you know, 
industry is behind it. The University of Alaska is behind it, 
and since we are the only shellfish hatchery in the state, we 
are the only ones that can conduct that research. So that is 
one of the things that we do at the hatchery, but we are also 
culturing goeducks, mussels, clam, oysters, purple hendrox 
scallops, and we just started sea cucumbers. So some pretty 
exciting stuff going on up there.
    We are also a member of the Migratory Bird Co-Management 
Council, so we help set the regulations for the subsistence 
take of migratory birds and either eggs in the springtime, and 
the other major project that we have going is we have developed 
a natural resource management curriculum based on the 
traditional knowledge and philosophies and management 
strategies of the tribes. And so we have partnered with NOAA as 
well as University of Alaska Fairbanks. Those classes have all 
been accredited. University of Alaska Fairbanks has put them 
into their course catalog now, and so it is not only open to 
the members of the Chugach Region but statewide or whoever, you 
know, wants to enroll at UAF.
    And the next step in that direction is we found that there 
is not much out there in the way of reading material and 
traditional knowledge from a tribal point of view, and so we 
are currently working on developing a university-level textbook 
to go along with those courses. And those courses are all able 
to be used towards an Associate's Degree or a Bachelor's Degree 
if the student so chooses.
    And we are also working with the science department across 
lists, some of the classes that we had developed, and the main 
one they are interested in is called traditional ecology. So we 
have been pretty busy working with that. And also we have 
Ameri-culture projects in the villages and a fish hatchery, and 
we just started a business development program helping people 
in the community start their own businesses or work with the 
tribes on making their businesses more successful. And we have 
just applied for CDFI through the Department of Treasury for 
the Community Development Financial Institution so that we can 
bring more economic opportunities to the communities.
    So that is about it. I, again, just to wrap it up that the 
BIA is legally and contractually obligated to fund our base 
operation, so we are respectfully asking Congress to add 
$500,000 to the Natural Resource Program so that our programs--
--
    Mr. Dicks. Are you talking to Congressman Young on this?
    Ms. Brown-Schwalenberg. Yes. Young, Murkowski, and Begich, 
and they are all----
    Mr. Dicks. Senators.
    Ms. Brown-Schwalenberg. Yeah. Two senators and our one 
congressman.
    Mr. Dicks. Yes.
    Ms. Brown-Schwalenberg. They are behind it. Congressman 
Young is quite aware of our programs. He has been supportive of 
us for the past 16 years, so I would like to thank you for the 
opportunity to testify, and if you have any questions, I would 
be happy to answer them.
    [The statement of Patty Brown-Schwalenberg follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.082
    
    [GRAPHIC] [TIFF OMITTED] T0064B.083
    
    [GRAPHIC] [TIFF OMITTED] T0064B.084
    
    [GRAPHIC] [TIFF OMITTED] T0064B.085
    
    Mr. Dicks. Any questions? Thank you. Appreciate it.
    Ms. Brown-Schwalenberg. Thank you very much.
    Mr. Dicks. Dr. Monty Roessel, Superintendent, the Rough 
Rock Community School, Navajo Nation, Arizona. Welcome.
                              ----------                              

                                        Thursday, March 26, 2009.  

                      ROUGH ROCK COMMUNITY SCHOOL


                                WITNESS

MONTY ROESSEL
    Mr. Roessel. Thank you. Good afternoon.
    Mr. Dicks. We will put your entire statement in the record, 
and you have 5 minutes to summarize.
    Mr. Roessel. Thank you, Mr. Chairman, and members of the 
committee for this invitation to speak before you. My name is 
Charles Monty Roessel, and I am a Navajo from Round Rock, 
Arizona.
    For the past 8 years I have been superintendent of Rough 
Rock Community School located in the northeast part of Arizona 
on the Navajo Nation. We are an accredited kindergarten through 
twelfth grade grant school operated under the Tribally-
Controlled School Act. Our enrollment is approximately 450 
students from throughout the reservation, with \1/3\ living in 
dorms.
    Rough Rock was started in 1966, as the first tribally-
controlled school in the country. For more than 40 years Rough 
Rock has, as Saint Paul said, ``fought the good fight.'' A 
fight to bring Navajo history, language, and culture into the 
classroom alongside a rigorous academic program. Our philosophy 
is as simple as it is unique. Navajo children will achieve 
their greatest successes academically and personally if they 
are proud of who they are and they learn who they are.
    Our early school leaders' vision of Navajo education was an 
example of strength amid adversity and a blending of passion 
with pragmatism. Research has proven these early leaders as 
prophets.
    I want to highlight two areas in my testimony today; 
educational funding and transportation costs. Study after study 
has shown that one of the most significant factors regarding 
the student achievement gap is related to teacher quality. Yet 
our school is at a disadvantage when compared to public 
schools. A non-Navajo school of comparable size to Rough Rock 
pays their teachers nearly $5,000 more in salary and is able to 
pay bonuses averaging more than 7,000. How can we compete? We 
cannot, and our children suffer.
    I urge the committee to fund innovative programs to help 
recruit highly-qualified teachers to Indian schools. Of course, 
an obvious way to increase teacher pay is to increase the 
funding for the Indian School Equalization Program. But that 
brings up another issue.
    I cannot believe that my Navajo forbearers negotiated the 
treaty of 1868, with the U.S. Government, believing that the 
federal obligation to educate all Navajos would come down to a 
mere formula. President Obama challenged us all to a new era of 
responsibility with nearly \2/3\ of BIA schools not making AYP. 
I question the results of this formula, meeting our 
responsibility to educating Navajo children.
    The broader policy question is how to address the 
discrepancy of education funding of Indian children on Indian 
lands between public schools and grant and contract schools. 
There needs to be a system that allows BIA-funded schools to 
have access to money that takes into account the lack of a 
local tax base to supplement its education budget. Reservation 
schools have impact aid, but Rough Rock, a grant school, cannot 
even access these monies, yet we are on the very same Navajo 
reservation lands that cannot be taxed. This inequity must be 
viewed through the over-arching federal policy of local control 
of Indian education.
    We understand that in these difficult economic times we are 
all expected to do more with less. Unfortunately, our students 
have already experienced this. A good example is student 
transportation. It is one of the most neglected areas of Indian 
education, not only from the perspective of inadequate funding 
but also because it is a huge hidden cost non-reservation 
residents rarely see or appreciate. The BIA schools in Arizona 
get nearly $1 less per mile, and our miles are on dirt roads. 
Our transportation budget at Rough Rock is $150,000 in the red 
before one child even boards the bus for the beginning of a 
school year. Our students already endure long bus rides, many 
more than 2 hours one way. Little did they know that in order 
to get to school it would cost them their quality of education. 
I urge the committee to increase transportation funding for BIA 
schools.
    In conclusion, we clearly recognize that we are being held 
to the same accountability measures as our public school 
counterparts. This is not a discussion of need versus want but 
need that is a proven necessity. If we are holding districts 
and schools accountable for what students should know and be 
able to do, then we must provide the resources to enable 
schools to meet those standards. The new era of responsibility 
begins with change in the goal of funding Indian education from 
one of distribution to one of adequate funding for a quality 
education.
    Thank you, Mr. Chairman.
    [The statement of Monty Roessel follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.086
    
    [GRAPHIC] [TIFF OMITTED] T0064B.087
    
    [GRAPHIC] [TIFF OMITTED] T0064B.088
    
    [GRAPHIC] [TIFF OMITTED] T0064B.089
    
    Mr. Dicks. Any questions?
    Mr. Olver. Yes, Mr. Chairman.
    Mr. Dicks. Yes, Mr. Olver.
    Mr. Olver. Just one thought. I happen to chair the 
Subcommittee on Transportation, which funds, I think, the roads 
on the reservations, what roads there are that are paved or get 
any funding. So I should be hearing from you also.
    Mr. Roessel. You will.
    Mr. Olver. I was going to ask you how many miles, you said 
2 hours, but if it is all dirt roads, it is probably not that 
many miles. It might be only a 30-mile radius around your 
school or something like that that you are working from. Really 
bad.
    Mr. Roessel. Yeah. That is the case. The miles are not as 
long but going as much up and down as it is going forward.
    Mr. Dicks. I also think the reauthorization of the Highway 
Trust Fund is important for you all to look at, too.
    Mr. Olver. Yeah.
    Mr. Dicks. Thank you.
    Mr. Roessel. Thank you, Mr. Chairman.
    Mr. Dicks. Appreciate it very much.
    Testimony of Shawn E. Yanity, Chairman and Fisheries 
Manager of the Stillaguamish Tribe of Indians. Welcome.
                              ----------                              

                                          Thursday, March 26, 2009.

                          STILLAGUAMISH TRIBE


                                WITNESS

SHAWN E. YANITY
    Mr. Yanity. Thank you, Mr. Chairman.
    Mr. Dicks. Yes. Nice to have you here.
    Mr. Yanity. Good seeing you again.
    Mr. Dicks. Yes.
    Mr. Yanity. I want to thank the Chairman and the committee 
members for the opportunity for the Stillaguamish Tribe to 
provide testimony. My name is Shawn Yanity. I am the Chairman 
and Fisheries Manager for the Stillaguamish Tribe. We are a 
small tribe of 205 members. We are located in Arlington, 
Washington.
    We have also depended upon the river and the wildlife and 
the salmon and the natural resources to sustain our health and 
our cultural wellbeing, the quality of life of our family 
members and our tribe. We are here to request an increase of 
$563,000 annually spread between five programs; rice 
protection, hatchery operations, hatchery maintenance, 
Stillaguamish smolt trap, and wildlife management.
    At current funding levels we will not recover the 
Stillaguamish North Fork chinook. They will not go extinct, but 
we are not going to be able to recover them. Our South Fork 
chinook are a different story. Their numbers are so low that we 
could lose them.
    The Stillaguamish Tribe would also like to thank the 
committee for all the support that we have received over the 
years and respectfully request that you continue that support 
at or above current levels.
    We are now involved in all kinds of areas of fisheries 
management. We oversee a lot of construction of very aggressive 
projects and ambitious restoration projects to restore habitat 
along our North Fork Stillaguamish River. We also review and 
enforce local state and federal regulations protecting critical 
wildlife habitat, including elk and mountain goat. Since 1988, 
our tribe made the decision not to harvest chinook off the 
North Fork, even ceremonial. Losing those opportunities even 
for ceremonial fisheries is letting go of our culture, letting 
go of our traditions honoring that gift that the Creator had 
given us to provide our health for our family and honor that 
gift of the chinook salmon. We have not participated in salmon 
ceremonies. So it is very crucial the work that we do here, and 
that work also plays a key role----
    Mr. Dicks. You have a hatchery?
    Mr. Yanity. Yes, we do.
    Mr. Dicks. Yes.
    Mr. Yanity. And we produce roughly 300,000 chinook, and our 
hatchery operates different than most hatcheries. We collect 
good stock off the spawning grounds, raise them at the 
hatchery, and then when they return, we collect them again.
    Mr. Dicks. So that is the closest thing to a wild fish----
    Mr. Yanity. Yes, sir.
    Mr. Dicks [continuing]. That you can get.
    Mr. Yanity. Yeah. And our stock is an indicator stock, so 
it plays a key role in the north of falcon process negotiations 
with Canada and Alaska on their fisheries, and those impacts 
that our fish have on any catch determines a lot of the fishing 
schedules and catch inside Puget Sound. So if our stocks are 
elevated to a higher level, that helps not only our tribe with 
opportunities of harvest but also supports Department of Fish 
and Wildlife of Washington State opportunities for catch for 
other species inside Puget Sound.
    With this $563,000 annual increase will help implement some 
of the PSP's Puget Sound Partnership's Action Agenda in 
developing restoration and protection projects. We will be able 
to monitor populations and make sure that we are reaching 
recovering benchmarks not only in salmon goals but also our elk 
and mountain goat.
    With the current cutbacks in Department of Fish and 
Wildlife of Washington, that budget cutback falls back on our 
tribe to continue the work that we have to do, and we still 
remain the lead in the management and recovery activities in 
our watershed. NOAA's policy is that no run be extinct. 
Extinction is not an option, but under current funding levels 
our South Fork chinook are running less than 200 and as low as 
60 fish annually in the past 5 years. The only option we have 
without funding is they will go extinct.
    In closing, we would like to thank you again for this 
opportunity to be here and also ask that you continue the 
support with the North West Indian Fish Commission, who all 
tribes in western Washington rely on for policy analysis, 
statisticians, fish health specialists. They play a key role in 
a lot of work that we do in preserving and protecting our 
heritage and our chinook salmon on the North and South Fork.
    Thank you.
    [The statement of Shawn E. Yanity follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.090
    
    [GRAPHIC] [TIFF OMITTED] T0064B.091
    
    [GRAPHIC] [TIFF OMITTED] T0064B.092
    
    Mr. Dicks. Good. Well, I know I talked to Congressman 
Larson and mentioned that you had been in to see him, and we 
will take a serious look at this and see what we can do.
    Mr. Yanity. Well, thank you, and you know, everyone here is 
welcome to come and see our small trap in operation and what we 
do on the Stillaguamish River that is so crucial to not only 
our river but also Puget Sound and ocean fisheries.
    Mr. Dicks. Well, we appreciate that.
    Mr. Yanity. Thank you.
    Mr. Dicks. Any other questions? Thank you.
    The Honorable Larry Romanelli, Ogema Little River Band of 
Ottawa Indians.
                              ----------                              

                                        Thursday, March 26, 2009.  

        TRIBAL OGEMA OF THE LITTLE RIVER BAND OF OTTAWA INDIANS


                                WITNESS

LARRY ROMANELLI
    Mr. Romanelli. Good afternoon, and thank you for allowing 
me to speak to you this afternoon.
    Mr. Dicks. Yes. We will put your statement in the record, 
and you have 5 minutes to summarize.
    Mr. Romanelli. Thank you. My name is Larry Romanelli. I am 
the elected Ogema of the Little River Band of Ottawa Indians.
    On September 21, 1994, Public Law 103-324 was enacted, and 
that was reaffirming our federal recognition. When we were 
recognized, our citizen rolls were approximately 500. They are 
now about 4,000. Our tribe administers a clinic that includes 
family physician, a registered nurse, and a laboratory. We also 
have a community health resource staff, nurses, diabetic 
specialists who make home visits across the nine-county area. 
We provide outpatient substance abuse treatment services as 
well as preventative initiatives, along with additional mental 
health services. And for care that goes beyond our provider 
capacity, we administer an elaborate contract healthcare 
program under which we collaborate with local private 
providers.
    In this program alone we employ about 38 people from 
several disciplines. In addition, we also maintain an 
environmental health program and a range of other services.
    Recently our tribe proudly signed a new agreement with the 
Indian Health Service under Title 5 of the Indian Self-
Determination Act. This new agreement moves us further along in 
our quest for greater self-determination and self-governance by 
acknowledging our significantly-enhanced independence in a 
manner in which our tribe provides healthcare for our people.
    IHS has not honored its bargain with us. Specifically, it 
has failed to pay the contract support costs that IHS itself 
calculates that we have been owed. In its 2007 shortfall report 
the IHS admits that it underpaid us by nearly $70,000, an 
amount that has only gone up in the 2 years since. For us 
$70,000 is a whole nursing program or an additional substance 
abuse counselor in our understaffed behavioral health 
department, or it could be used to buy a year's worth of 
vaccine and medical supplies necessary to operate our clinic.
    IHS provides only $1.4 million for our program services, 
the services we currently offer. It actually cost the tribe 
over $4.2 million in 2007. I cannot think of a single 
contractor we work with that would provide the service for \1/
3\ of the actual cost to do the work. The commitment of the 
United States to provide healthcare for American Indians is not 
being met.
    But there is yet more. BIA shortfall report for 2007 shows 
that the BIA failed to pay $220,000 in contract support costs. 
Our total BIA contract is only $2.3 million, supporting several 
tribal functions including public safety, family services, 
education, governance, and natural resources. Two hundred and 
twenty thousand dollars would enable us to expand education and 
training programs to prepare our students for the types of jobs 
that are currently in demand and will be on the cutting edge of 
the nation's future. We could expand our economic development 
through diversification of enterprise ventures that could meet 
the needs of the current economic recovery.
    In short, $220,000 would provide the people of my Nation 
economic stability and employment security in a populace that 
critically needs the help to attain the standard of living most 
Americans enjoy.
    There are some reasons why I asked to be permitted to 
testify today. We understand that economic times are tough for 
everyone. We ourselves have just cut back our employee hours 
from 40 hours a week to 32. We all have to pull together. So I 
come here today to ask that Congress direct the IHS and the BIA 
to finally honor their contract with our tribe and their 
contracts with all tribes by fully paying the contract support 
cost to which we are entitled and by adding the necessary 
appropriations to finally get these sums paid.
    Second, I am here to ask that Congress address the severe 
funding disparities that continue to leave tribes in our IHS, 
Bamegy area severely under-funded relative to other areas. The 
Bamegy area has the lowest life expectancy of all IHS areas. 
Life expectancy is 65.3 years of age, when in the United States 
it is 76.5. The Bamechi area leads all IHS areas in cancer 
rates, 225 per 100,000, as compared to the U.S. of 125 per 
100,000. The Bamegy area leads Indian Country nearly every 
significant statistic except the level of funding to address 
our issues. We receive 37 percent.
    It is time to create a fund to address severe disparities 
that exist between IHS areas. Such a fund would restore equity 
among tribes. Perhaps it is time to evaluate the level of per 
cap expenditures for contract health services area to area and 
dedicate more funding to raise the LNF of those areas less 
likely to have access to large, directly-serviced IHS 
facilities that provide direct healthcare services.
    In a study conducted by the California Rural Indian Health 
Board published in Medical Science, a Peer Review Journal, 
found that for every ten points improvement in the IHS funding, 
there was a 12 percent decrease in ambulatory care preventable 
hospitalizations.
    I want to thank you for the opportunity to speak to you 
today.
    [The statement of Larry Romanelli follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.093
    
    [GRAPHIC] [TIFF OMITTED] T0064B.094
    
    [GRAPHIC] [TIFF OMITTED] T0064B.095
    
    [GRAPHIC] [TIFF OMITTED] T0064B.096
    
    Mr. Dicks. Okay. Any other questions? Thank you very much.
    Mr. Romanelli. Thank you very much. Have a nice afternoon.
    Mr. Dicks. Meghan Kelly, Federal Liaison for Chairman 
Darwin, Joe McCoy.
    Congressman Young, we will call you up next.
    Mr. Young. Okay. I want to actually ask Mr. Chairman if I 
could introduce the next young lady who is going to testify.
    Mr. Dicks. Okay. Fine.
    Mr. Young. She can go ahead.
    Mr. Dicks. Yes. Thank you very much. We appreciate that.
    Go ahead, Meghan.
                              ----------                              

                                        Thursday, March 26, 2009.  

              SAULT SAINTE MARIE TRIBE OF CHIPPEWA INDIANS


                                WITNESS

MEGHAN KELLY
    Ms. Kelly. My name is Meghan Kelly, and I am the Federal 
Liaison for the Sault Sainte Marie Tribe of Chippewa Indians. 
As a member of the tribe and at the request of my Chairman, Joe 
McCoy, I am here to speak on behalf of the tribe, and as always 
my tribe and I want to work in partnership with you.
    I will break it down into different areas. For example, on 
housing, the Sault Sainte Marie Tribe has operated a Housing 
Improvement Program for 22 years. It has become a crucial 
component in our housing program. As you know, the Housing 
Improvement Program serves tribal families who are ineligible 
for HUD Housing Programs and home mortgages but who live in 
substandard, unsafe, and unsanitary housing. No other federal 
program is available to meet their needs. It is the most 
underprivileged of people who qualify for the Tribal HIP 
Program. For these reasons I urge you to restore the BIA HIP 
Program to full fiscal year 2006 funding levels. The program is 
absolutely critical to our tribe as well as many tribes 
throughout the country.
    As far as education is concerned, on behalf of the----
    Mr. Dicks. I just make one point. Last year the 
Administration cut out the Housing Improvement Program. This 
committee on a bipartisan basis put it back in. So I just 
wanted to make sure you were aware of that.
    Ms. Kelly. We appreciate that. We are looking for funding 
to go back to 2006 levels, if possible, and we truly do 
appreciate what you have done.
    Mr. Dicks. Well, yes, and I think we are going to get a 
better budget from the new Administration. So we will see what 
they send out.
    Ms. Kelly. Excellent. I will tell the tribe.
    On behalf of the tribe I urge your continued commitment to 
education by providing even greater funding resources for the 
Indian Education Programs. JOM grants are the foundation upon 
which our tribes are able to offer programs designed to meet 
the needs of many of our tribal members attending public 
schools. JOM grants provide tribes the means in which to 
provide more level playing fields for our children. Among other 
things JOM pays for eyeglasses, school supplies, culturally-
based tutoring.
    The tribe urges Congress to lift the JOM funding freeze and 
to allow funding to be based upon population and other formula-
driven measures. Moreover, we urge Congress to fully restore 
JOM funding the fiscal year 2006 level of 24 million.
    As far as Head Start is concerned, additional funding is 
also needed. Previous years' budgets have left Head Start 
funding levels flat and below inflation rates. This year the 
Senate has proposed an increase, but this will not account for 
inflation increases. Joining the National Indian Education 
Association the tribe urges Congress to appropriate an amount 
exceeding the inflation rate, which will enable Head Start 
recovery.
    As far as the Anishinaabemowin language, this is very 
critical to the very essence of my tribe. Currently the Esther 
Martinez Act is under-funded, and the Sault Sainte Marie Tribe 
recommends a $13.5 million increase in funding for the Esther 
Martinez Act in 2010.
    Going to healthcare, as well as other tribes throughout the 
United States, the Sault Sainte Marie Tribe of Chippewa was 
pleased to note the President's proposed increase of over $4 
billion for the Indian Health Service. Indian Country is facing 
a healthcare crisis, and the people on the reservations are 
literally dying for lack of care. Regarding the Bamegy area 
statistics as I heard my predecessor comment upon, the Sault 
Sainte Marie Tribe is currently funded at just a 36 percent 
level of need. That means 64 percent of the need is completely 
unfunded by Indian Health Service dollars.
    For contract health services, we are following in line with 
the National Health Board and requesting $110 million. This 
amount, although it will not meet the total need, will enable 
tribes to purchase some minimum healthcare.
    Going to contract support costs, these are also under-
funded, and the Sault Sainte Marie Tribe seeks adequate funding 
for the program at a minimum of 144 million for 2010. The tribe 
recommends an additional 15 million for behavioral health 
service grants, for American Indians and Alaskan Natives.
    As far as environment is concerned, tribal governments have 
significant needs in regard to environmental quality and 
protection, and due to a number of factors they often do not 
have enough money to take care of this. We are requesting a 
68.3 million increase for GAP Program, the 67.2 million for the 
Tribal Clean Water and Drinking Water State Revolving Funds, 
SRFs, 25 million for targeted watershed grants, restoration of 
BIA water resources, and water rights programs to the 2003, 
funding levels, and 3 million for the BIA Invasive Species Act.
    In closing, I know that we are asking for a lot of money 
during a time in which the United States Government is facing 
an economic crisis and an unemployment rate of 8 percent. We 
are aware that some people argue that tribes just like state 
governments need to seek less funding and tighten our belts. We 
would like to point out, however, that the tribes have been 
underserved, under-funded, and inadequately treated for over 
100 years. That even prior to this recession the average 
unemployment rate on reservations has been over 50 percent. We 
respectfully remind Congress that our people have been and 
continue to be dying for lack of adequate healthcare. Our young 
people are killing themselves in record numbers, and our 
infrastructure is in shambles, and our schools are inadequate. 
We have gone without for too long to be asked to tighten our 
belts anymore.
    [The statement of Meghan Kelly follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.097
    
    [GRAPHIC] [TIFF OMITTED] T0064B.098
    
    [GRAPHIC] [TIFF OMITTED] T0064B.099
    
    [GRAPHIC] [TIFF OMITTED] T0064B.100
    
    Mr. Dicks. Thank you.
    Ms. Kelly. Thank you.
    Mr. Dicks. Any other questions? We appreciate your 
testimony.
    Ms. Kelly. Thank you.
    Mr. Dicks. We are now going to go to Gloria O'Neill, 
President and CEO of Cook Inlet Tribal Council, and Congressman 
Young will introduce her.
    Mr. Young. Mr. Chairman, I thank you, and I----
    Mr. Dicks. Why do you not pull the mike over?
    Mr. Young. One thing, Mr. Chairman, I thank you for 
allowing me to do this, but I also would like to compliment 
you. This is a very important task you have. The American 
Indian, Alaska Native are dear to my heart, and we have made 
great strides, and I would like to continue that, and under 
your leadership I hope that will occur.
    But it is my pleasure to introduce Gloria O'Neill. She is 
the President and CEO of Cook Inlet Tribal Council. She has 
been the President and CEO of CITC, the organization and their 
budget from $8 million to $46 million and less than 70 
employees to 300 staff and 50 programs.
    And I want to stress the 50 programs. This is an actual 
great success story, and Gloria has driven this thing all the 
way, where she provides healthcare and many other programs to 
not only the villages outside of Anchorage, it is just not for 
Anchorage, but for the whole region, including all the other 
different tribes other than just the Cook Inlet organization.
    And so she is a graduate of the University of Alaska. That 
is an example of what can happen with a little education and a 
lot of drive, great personality and good looks, what you can do 
in this program.
    So with that I would like to introduce Gloria O'Neill.
    Mr. Dicks. Thank you.
                              ----------                              

                                          Thursday, March 26, 2009.

                       COOK INLET TRIBAL COUNCIL


                                WITNESS

GLORIA O'NEILL
    Ms. O'Neill. Thank you, Congressman Young. Congressman Don 
Young, Congressman for all of Alaska. We really appreciate your 
support and commitment.
    Chairman Dicks and members of the subcommittee, I am 
grateful for the opportunity to speak before you today. My 
name, again, is Gloria O'Neill, and I serve as the President 
and CEO of Cook Inlet Tribal Council, CITC.
    CITC is an Alaskan Native Tribal organization that serves 
as the primary education and workforce development center for 
Native people in Anchorage. We accomplish our mission through 
building human capacity by partnering with individuals to 
establish and achieve both educational and employment goals 
that result in lasting, positive change for themselves, their 
families, and their communities.
    Our program serves south central Alaska, Anchorage, and the 
surrounding area; an Alaska Native, an American Indian 
population of 40,000 or 40 percent of the Native population of 
the State. Anchorage is the fourth largest Native community in 
the Nation.
    CITC receives 9.3 million in interior funding each year. 
This represents approximately 20 percent of our annual budget. 
Our programs address many of the social, economic, and 
educational challenges faced by Native people. For example, 
Alaskan Native students are twice as likely to drop out as 
their non-Native peers. Thirty-three percent of Alaska's 
unemployed are Alaskan Natives, and almost 20 percent of Native 
people have incomes below the federal poverty line, nearly 
three times the rate of non-Native people.
    In addition, Native people find it increasingly difficult 
to make a living in rural Alaska due to the high cost of energy 
and food and are moving to Anchorage at an accelerated rate. 
Fifty-nine percent of CITC's participants have been in 
Anchorage for 5 years or less.
    As we respond to the many challenges and needs of our 
growing population, CITC ensures wise community investment of 
government dollars. Our model is one of partnership, 
creativity, and leverage. Here are a few ways in which we can 
effectively build upon our partnership with the Department of 
Interior.
    Education. Tribal organizations in Alaska do not receive 
Bureau of Education funding for the operation of schools. 
However, with the support of BIA Johnson O'Malley Funding, our 
educational programs operate a first of its kind partnership 
model within the Anchorage School District. During the school 
year we provide 1,000 Native students with core content 
instruction such as English, math, and science classes. The 
classes cover basic to advanced subjects. For example, calculus 
and chemistry. Our purpose is to increase overall academic 
achievement while decreasing the dropout rate of Native 
students. External evaluation indicates student involvement in 
our programs is positively correlated with improved academic 
performance, including reduced absence, higher GPA, and greater 
rate for graduation.
    Employment. As with our approach to education, we fully 
leverage various funding sources with our BIA Job Placement and 
Training funding, BIA Welfare Assistance, and Temporary 
Assistance for Needy Families, TANF, to create a comprehensive 
program that promotes self-sufficiency. Between 2004, and 2008, 
CITC's Employment Training Program served 17,345 Native people. 
We place 1,200 people in unsubsidized jobs each year in 
industries across the State. CITC has transferred TANF and 
Welfare Assistance from entitlement-based programs to programs 
that foster personal responsibility. Our participants must 
develop a plan of action outlining their responsibility to 
participate in various job readiness training needed to get a 
job. Because of this approach I am proud to say that over the 
past 4 years CITC has moved 859 families from Welfare to work.
    As part of our intentional investment strategy of federal 
funds, one of the most important tools contributing to the 
model of partnership and leverage is Public Law 102-477, 
administered from DOI since 1992, 477 allows organizations such 
as CITC the ability to consolidate funding streams from DOI, 
HHS, and Department of Labor into a single employment and 
training program. The law enables tribal organizations to plan 
accordingly to meet their community needs, minimize 
administrative duplicity, and maximize outcomes while adhering 
to the strict accountability standards.
    As a result, nationally the 477 Program achieved the 
highest OMB part rating in Indian Affairs. Unfortunately, 
though, it is not in the direct purview of your committee. We 
understand DOI and HHS are seeking to terminate HHS 
participation in the transfer of funds within the 477 Program. 
To my understanding there has been no tribal consultation 
regarding this change in policy.
    I urge this subcommittee to ask the Secretary of Interior 
and his staff consult with tribal organizations and tribes and 
HHS----
    Mr. Dicks. Who is taking the initiative on this? Do you 
know?
    Ms. O'Neill. Who is taking the initiative in consulting 
with the----
    Mr. Dicks. No. I mean, is it the Interior trying to do this 
or----
    Ms. O'Neill. Interior is. Yes. BIA.
    Mr. Dicks. Okay.
    Ms. O'Neill. To continue and strengthen the 477 Program, 
each year CITC, like many organizations, is prevented from 
assisting many participants to self-sufficiency due to 
inadequate BIA funding. I would urge the subcommittee to 
increase the funding of the following Indian Affairs programs 
that are vital to our participants' success, job placement and 
training, Welfare assistance, higher education, and Johnson 
O'Malley.
    Thank you for allowing me to present to you today, and do 
you have any questions?
    [The statement of Gloria O'Neill follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.101
    
    [GRAPHIC] [TIFF OMITTED] T0064B.102
    
    [GRAPHIC] [TIFF OMITTED] T0064B.103
    
    [GRAPHIC] [TIFF OMITTED] T0064B.104
    
    Mr. Dicks. Well, I think that is a very impressive 
statement, and the record you have achieved I think is 
commendable. And how many people did you say went from Welfare 
to work?
    Ms. O'Neill. In the last 4 years about 859 families.
    Mr. Dicks. Of your clients.
    Ms. O'Neill. Yeah. And that does not include all of the 
other Alaskan Natives and American Indian folks that we work 
with in placing them in jobs. That is just Welfare families.
    Mr. Dicks. Now, how do you work this with the state? I 
mean, do you have an arrangement with the State of Alaska?
    Ms. O'Neill. We do. We have a close partnership. We have a 
contract that actually matches our 477 grant with TMF funds, 
and we decided, oh, about 4-1/2 years ago now that it was 
important for us to take the program over. We made an 
intentional shift in our mission so that we move from more of 
an entitlement-based approach to self-sufficiency, and we felt 
that if we operated the program, we could build a comprehensive 
support system so that when people came into our offices, that 
we would ensure that they knew what their responsibility was, 
and they could participate in their own lives and go out and 
find a job. We believe that it is the clearest path to self-
determination.
    Mr. Dicks. Good. I think that is an outstanding program.
    Anybody else want to ask any questions?
    Ms. O'Neill. The other piece of information that was in my 
testimony is a dashboard, and we felt that it is very important 
that we have outcomes in all of our programs. So this is just 
some of our employment training programs, and this is how we 
really manage what those outcomes are, and if we need to make 
significant changes in programs, then what we will do is we 
will look at what the data is telling us, and we will respond 
right away.
    Mr. Dicks. How big is your staff?
    Ms. O'Neill. We have about 300 staff people now.
    Mr. Dicks. Three hundred staff.
    Ms. O'Neill. Yeah.
    Mr. Dicks. With all that work. I mean, you have to have at 
least that. All right. Well, thank you very much. We appreciate 
you being here.
    Ms. O'Neill. Thank you.
    Mr. Dicks. Mr. Young, good to have you here.
    Deloris Pigsley, Tribal Council Chairman, Confederated 
Tribe of Siletz Indians. Welcome.
                              ----------                              

                                          Thursday, March 26, 2009.

                              SILETZ TRIBE

                                WITNESS

DELORIS PIGSLEY
    Ms. Pigsley. Thank you. Thank you for giving me this 
opportunity.
    Mr. Dicks. Thank you for being patient.
    Ms. Pigsley. I am the Tribal Chairman for the Confederated 
Tribes of Siletz Indians of Oregon, and we are located on the 
Oregon coast about 2 hours southwest of Portland.
    Mr. Dicks. That is a beautiful area.
    Ms. Pigsley. It is, and we have about 4,500 tribal members 
that we provide services to.
    There are many reasons for me to be here today to testify, 
however, our most important priority is our tribal members' 
health and education. For too long healthcare has been ignored. 
For years the only healthcare dollars that came to us were by 
way of Indian Health Service. We had people on deferred surgery 
lists for 2 and 3 years. That would mean if you need a hip or a 
knee replacement, rotator cuff surgery, shoulder or neck 
repair, you waited until the end of the year to see if there 
was any money left over. And if there was not money left over, 
you stayed on that deferred surgery list for another year and 
perhaps 2 years.
    Because of the tribe's cost-saving measures, we were able 
to address some of these needs. It was not until the tribes 
could bill at Medicare rates that we actually started catching 
up on some of these deferred surgeries, and it helped to clear 
up some of our deferred surgeries, but we still have a list 
that has accumulated about $300,000 in costs that we have not 
totally caught up with.
    It is important that Congress honor the promise to provide 
healthcare to our people. In the northwest we have no Indian 
hospitals. We pay contract healthcare funds for every visit to 
the hospital and every trip to specialist outside of our 
clinic. We diligently watch our healthcare dollars. This year 
we are building a new clinic with a $2 million ambulatory grant 
from Indian Health Service. The balance is from tribal funds.
    If we had waited for Indian Health Service to build our 
first clinic, we would still be waiting on the long list of 
priorities. The new clinic is a necessity as we have grown out 
of our current clinic.
    We support the President's request of an increase of 418 
million for 2010. While the President's request is adequate to 
cover mandatory costs, an additional 51.7 million is needed to 
fully cover contract support costs.
    Our tribe's second highest priority is education. We are a 
second tier, self-governance tribe. Funding for education 
programs is at the same level it was in 1995, for higher 
education. In 1995, we had 32 students that were in higher 
institutions. Today we have 169 students while still receiving 
the same funding level. While this is a good problem to have, 
it has put a tremendous responsibility on tribal assets. If we 
did not have Chinook Winds Casino Resort, we would still only 
be funding 32 students, but as a result of the revenues from 
the casino, we are able to fund every student that wants to go 
to college.
    Indian education has been seriously under-funded for years. 
Head Start and JOM dollars have declined over the past 14 
years. Even though we see amounts that have raised over the 
years, the tribe supplements all of these programs, and we 
provide Head Start Programs in Portland, Salem, Eugene, and 
Siletz. And we have never received any of the years and I have 
been Chairman for 22 years, we have never received our full 
contract support dollars.
    Please honor the commitment to cover all contract support 
costs as provided for in our indirect cost proposals. Our tribe 
solely supports the National Congress of American Indians 2010, 
budget request, and I would be happy to answer any questions.
    [The statement of Deloris Pigsley follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.105
    
    [GRAPHIC] [TIFF OMITTED] T0064B.106
    
    [GRAPHIC] [TIFF OMITTED] T0064B.107
    
    [GRAPHIC] [TIFF OMITTED] T0064B.108
    
    Mr. Dicks. Anybody have a question?
    Well, we appreciate the good work you are doing. How do you 
help subsidize all these programs?
    Ms. Pigsley. Casino revenues.
    Mr. Dicks. Because you are right on the coast?
    Ms. Pigsley. Well, yes. Because we have been operating the 
casino successfully, it always is a problem addressing all of 
the needs of the tribe, but education and healthcare are at the 
top of our priorities. And while I have to throw in something 
about Tamal Indian School, I live a mile from Tamal Indian 
School, and I actually grew up there. My parents worked there, 
and we lived on campus. They used to be a school of 900 
students strong and a very successful school with vocational 
training and high school diplomas and they have been severely 
under-funded for many years, and somebody mentioned earlier 
that the formula that is used to support schools is out of date 
and out of time. And it is important because off-reservation 
schools are needed and are important, and they need to be 
funded adequately. We need to be raising students that do not 
have an opportunity on the reservation, they need to be given 
the same opportunity as the rest of the Indians in this 
country.
    Mr. Dicks. All right. Thank you very much.
    Ms. Pigsley. Thank you.
    Mr. Dicks. Appreciate your testimony.
    Homer Mandoka, Vice Chairman. Welcome.
                              ----------                              

                                          Thursday, March 26, 2009.

                 NOTTAWASEPPI HURON BAND OF POTAWATOMI


                                WITNESS

HOMER MANDOKA
    Mr. Mandoka. Good afternoon, Mr. Chairman, and subcommittee 
members. My name is Homer Austin Mandoka. I am the Vice 
Chairman for the Nottawaseppi Huron Band of the Potawatomi 
Indians. I have served on the Tribal Council since 2002. I am 
also a police officer. I am honored to present the Huron Band's 
testimony concerning fiscal year 2010, budget for the Bureau of 
Indian Affairs.
    The Huron Band urges the committee to ensure that future 
law enforcement funding is allocated in a manner which 
addressed the glaring shortages of public safety officers in 
BIA District 1, and that the public safety needs of the 
Michigan Indian Tribes is not overlooked.
    Thank you for adding $25 million to the 2009 appropriation 
for BIA law enforcement. The Huron Band was federally 
recognized in 1995. Since that date the United States has 
accepted 200 acres of lands into trust for our tribe in our 
ancestral homeland of Calhoun County, Michigan. Our goal of 
having these lands taken into trust by the Federal Government 
is to provide our constituents adequate healthcare, 
opportunities for educational advancement, health and 
affordable housing, jobs, and economic growth. We are committed 
to strengthening the tribal government and reaffirm the 
government-to-government relationship with the Huron Band 
enjoined with the United States more than 7 generations ago.
    Since that recognition we have undertaken a 14-year journey 
to provide opportunity and self-sufficiency for our members. In 
this short time we have accomplished a great deal in building 
the governmental and social infrastructure to provide the tribe 
a solid foundation for our future. After building a strong 
tribal system, codes, and laws over the last 14 years, we have 
built or rehabilitated 19 homes on our Pine Creek trust land, 
restored 60 acres of wetlands and trails, developed Invasive 
Species Containment Program, built a multi-disciplinary health 
clinic, and a tribal community and education center.
    A critical cornerstone of the tribal government's efforts 
is the establishment of a justice and public safety system to 
protect and serve our visitors, businesses, and our residents 
of our reservation.
    In 2006, our membership approved a constitutionally-based 
court system, and we have appointed a tribal court judge and an 
administrator. We have adopted tribal criminal and civil 
procedure codes as well as a penal code. We are serious. The 
Tribal Council wants to protect and serve its community. The 
tribe realizes that public safety issues involve cooperative 
partnerships with state and local governments. As such, we have 
implemented a public safety and deputization agreement with the 
relevant local government. Even with these agreements because 
Pine Creek Indian Reservation is located 25 miles from any 
urban population center, there are limited patrols, and the 
response times to the reservation are nearly 40 minutes.
    As a 22-year police veteran I can tell you the single most 
important ingredient for law enforcement success is response 
time. The tribe does not have the resources to provide the 
level of police protection our community deserves, but working 
together with federal, state, and local agencies we can protect 
and serve them within minutes. Most recently, the tribe hired a 
director of law enforcement to begin the process of building a 
tribal police department. The Tribal Council committed its 
funding from a very limited resource. In the past 3 months we 
have adopted an ordinance to establish and grant authority to a 
tribal police department, authorized department policies and 
procedures, purchased liability insurance, and swore in our 
first police director. We are serious.
    Our cost for action. The tribe needs additional resources 
to fully support our police department. The tribe receives 
$199,439 from the Bureau of Indian Affairs to support all of 
our government functions. While we appreciate this funding, the 
most basic needs of tribal government administration, let alone 
any component of law enforcement, is under-funded. The tribes 
recognized 1 year before us received in excess of $1 million or 
more. As we understand it, the rationale for setting the base 
was that the tribes would develop and have land taken in trust 
and then the BIA would increase their funding level. 
Unfortunately, this has not come to pass.
    The tribe estimates it will require $2.8 million to start 
up and equip a fully-staffed police department. Ongoing 
operational costs are estimated at $1.5 million. The tribe is 
particularly concerned because the BIA area that covered law 
enforcement District 1 also covers the Great Plains, where the 
crime rates are high, and law enforcement officers are limited. 
The tribe will never see any benefit from increased law 
enforcement funding because we cannot compare to the statistics 
of the Great Plains and its tribes.
    Nevertheless, our communities have tribes and in our 
community in the last year we have encountered the rape of a 
child, witness intimidation, weapons violation, illegal drugs, 
domestic violence, Internet porn piracy, and several incidents 
of theft. In this day and time it takes a great amount of 
courage for any government official to enforce the laws of the 
land that it lives in, but we affirm safety as a cornerstone of 
government. As a tribal elected official, police officer, 
husband, and father, I want to protect and serve our tribe.
    We urge the committee to direct the BIA to guarantee the 
tribes in Michigan receive an immediate allocation of any 
proposed increases for law enforcement.
    Thank you for your time.
    [The statement of Homer Mandoka follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.109
    
    [GRAPHIC] [TIFF OMITTED] T0064B.110
    
    Mr. Dicks. Thank you. Any other questions? Thank you very 
much.
    Robert Benavides, Governor of the Pueblo.
                              ----------                              

                                          Thursday, March 26, 2009.

                            PUEBLO OF ISLETA


                                WITNESS

ROBERT BENAVIDES
    Mr. Benavides. Good afternoon.
    Mr. Dicks. Welcome. Thank you for your patience.
    Mr. Benavides. Mr. Chairman, committee members, it is an 
honor to be before you today. On my left is former Governor 
Sefarino Ante, and also Councilman Vernell.
    Mr. Dicks. Thank you.
    Mr. Benavides. My name is Robert Benavides. I am the 
Governor of the Pueblo of Isleta. Isleta is located centrally 
in the Rio Grande Valley, 13 miles south of Albuquerque with a 
land area of 211,000 acres and over 323 square miles, and it is 
one of the largest Pueblos in New Mexico. Currently there are 
approximately 4,000 tribal members living in the Pueblo. The 
median age of the Pueblo is 31, with the median family income 
of below $30,000.
    Thus, we have a young population, many of whom are in or on 
the verge of poverty, which is why the Pueblo is focused on 
developing solid programs, infrastructure, and institutions 
that will be able to meet the needs of our members and 
community as well into the future.
    The Pueblo of Isleta is hopeful that the Administration's 
first budget will recognize the growing and significant needs 
of Indian Country. With the exception of certain law 
enforcement programs, funding for travel programs in the last 2 
decades has remained essentially flat, and in many instances 
has actually gone down because of the across-the-board 
rescissions in programs such as education, healthcare, social 
services, and natural resources.
    The Pueblo's priorities in the area of infrastructure, law 
enforcement, natural resources, healthcare, and contract 
support costs with regard to infrastructure we are very 
encouraged by the President proposal to increase the level of 
funding for both the Clean Water and Safe Drinking Water 
Revolving Loan Funds. At the Pueblo we are in desperate need of 
replacing 15,000 linear feet of asbestos concrete water mains 
that provide water to the 400 households in our main village. 
We cannot imagine anywhere else in America where it would be 
tolerated that children and elders would have to drink water 
from asbestos-lined water mains. We would urge Congress to 
support the President's funding request.
    With regard to law enforcement, I am a former law 
enforcement officer, and I can tell you that public safety and 
justice needs remain a permanent concern for most tribal 
leaders. We strongly support your repeated efforts to increase 
tribal law enforcement funding. We would also like to thank the 
subcommittee for its focus in fiscal year 2009, on addressing 
violence against women in Indian Country. As you well know, 
Indian women are victims of violences at rates that are 
significantly higher than those of the rest of the population. 
In the last 2 decades the Federal Government has not dedicated 
any new financial resources to the protection and preservation 
of federal protected trust resources.
    Whether it is tribal land, timber, or water, the Pueblo 
Isleta believes it is time for the Federal Government to 
reinvest in the resources to ensure that they are enhanced and 
protected for the future.
    With regard to the Indian Health Service, I join my fellow 
leaders today in calling for Congress to make a real investment 
in Health Services programs. Keep up and pay costs and 
inflation is simply not enough.
    Finally, I would like to join in calling for full funding 
for contract support costs. If the committee fully funded 
contract support costs, you would be providing a significant 
increase to virtually every tribe in the country. This is a 
tide that will float all boats.
    Thank you for your time and support of Indian Country.
    [The statement of Robert Benavides follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.111
    
    [GRAPHIC] [TIFF OMITTED] T0064B.112
    
    [GRAPHIC] [TIFF OMITTED] T0064B.113
    
    [GRAPHIC] [TIFF OMITTED] T0064B.114
    
    Mr. Moran [presiding]. Thank you very much, Governor.
    Mr. Simpson, any questions? Mr. Cole? I guess you covered 
it all in your statement. Thank you very much for taking the 
time and preparing that comprehensive statement. We appreciate 
it, Governor. Thanks very much.
    Next we are going to hear from Donald Rodger, Chief Donald 
Rodger of the Catawba Indian Nation.
    Chief, nice to hear from you. You can proceed with your 
statement. If you want to summarize, that would be just fine 
with us.
                              ----------                              

                                        Thursday, March 26, 2009.  

                         CATAWBA INDIAN NATION


                                WITNESS

DONALD RODGER
    Mr. Rodger. Yes, sir. I am going to summarize my testimony 
with some brief comments, somewhat brief, I suppose. Mr. Vice 
Chairman, thank you for having me here and allowing me to speak 
and Ranking Member Simpson, I appreciate the opportunity and 
members of the committee. On behalf of----
    Mr. Moran. Mr. Cole is a real activist on behalf of Native 
Americans as well.
    Mr. Rodger. Sure. Appreciate that. On behalf of the Catawba 
Indian Nation, which is the only federally-recognized tribe in 
the State of South Carolina, I want to thank you for this 
opportunity to testify before the House Interior Appropriations 
Subcommittee.
    It has been many years since a Catawba leader has testified 
before the Congress, making my appearance a historic moment in 
the history of our two nations. Notably during the 
Revolutionary War the Catawba Nation stood with the American 
colonists in their struggle for independence. Catawba scouts 
accompanied then General George Washington on many of his 
campaigns. Ever since the Catawbas have always answered the 
call of country, and we will continue to do so. We still have 
young men from our tribe that are fighting in Iraq and from 
every major war and battle this country has been in, the 
Catawbas have participated.
    Regrettably in 1959, Congress terminated the tribe's 
federal recognition and liquidated the tribe's 3,434 acre 
reservation. After a long struggle and only after the tribe 
threatened to evoke its treaty rights, the 225 square miles of 
South Carolina, did Congress pass and restore in 1993, the 
trust relationship, but this act had the effect of settling the 
Catawba land claims on terms favorable to the State of South 
Carolina. Today our reservation is only approximately 1,000 
acres.
    I am here today to urge the House Appropriations Committee 
to invest federal dollars in programs that support economic 
development for smaller tribes that have limited resources, 
very limited resources. The Catawba Indian Nation is one of a 
handful of tribes that do not enjoy the reigns of sovereign 
powers possessed by most Indian tribes. Under the terms of our 
Recognition Act that we possess, what I would term second-class 
travel sovereignty.
    For example, the state government has enormous civil and 
criminal jurisdiction on our lands far in excess of that 
commonly accorded the states over other tribes. Additionally, 
we are excluded from the Indian Gaming Regulatory Act. Instead 
our Recognition Act limits the tribe to two bingo halls, 
neither of which has been in operation since South Carolina 
adopted a lottery. Our Recognition Act does refer to the policy 
of the United States to promote tribal self-determination and 
economic self-sufficiency. And it is about fulfilling this 
promise of support for economic self-sufficiency that I appear 
before you today.
    Although we believe that the Catawba should have the same 
rights as other tribes, until Congress corrects this, we are 
focusing our efforts on ways to develop a diverse economy 
within the rights we currently possess. We ask that in your 
funding determinations you expand support for economic 
development programs that specifically support tribal economic 
development such as the Office of Indian Energy and Economic 
Development of the Bureau of Indian Affairs.
    For our part we have four small grassroots-oriented 
requests. First, a little over $98,000 to purchase equipment 
and supplies for a tribal company that will provide canoe trips 
along the Catawba River.
    Second, $100,000 to provide micro loans of up to $25,000 
for the establishment of small businesses on the reservation 
that have developed and approved business plans.
    Third, $99,000 to establish a Catawba welcome center in our 
old BIA building. It is a building that has been sitting there 
since the 1940s that is no longer owned by the tribe 
whatsoever, and this would provide a venue to educate the 
community on Catawba life and showcase our renowned pottery, 
our beadwork, and basket weaving.
    And fourth, $132,000 for a feasibility study and business 
plan for a full-service convenience store.
    I would also like to interject here, if I could, a few 
extra comments beyond this. Our tribe is small. We only have 
about 2,700 tribal members, and we desperately need some 
economic development for our tribe to survive. We do receive 
Bureau of Indian Affairs funding each year, but that was taken 
away in 2003, due to the fact of some issues that the tribe had 
with audits and things, but it was restored in October of 2007.
    And with that we have an economic development department 
that has run through those funds that have helped create quite 
a few opportunities for us. Hope to come to fruition here soon.
    I do want to thank you all for the opportunity to speak 
before you today, and on behalf of our people, the Catawba 
Indian Nation.
    [The statement of Donald Rodger follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.115
    
    [GRAPHIC] [TIFF OMITTED] T0064B.116
    
    [GRAPHIC] [TIFF OMITTED] T0064B.117
    
    [GRAPHIC] [TIFF OMITTED] T0064B.118
    
    Mr. Moran. Thank you, Chief.
    Mr. Simpson. Mr. Chairman.
    Mr. Moran. Please, Mr. Simpson.
    Mr. Simpson. Why did the tribe in '59, unrecognize----
    Mr. Rodger. Well, traditionally during the termination era, 
that was the termination era of the United States Congress came 
out with, out of the government. There was about 105 tribes 
that were terminated in 1958, through 1960. The Catawbas were 
one of those, and they had a division of assets, and the 3,400-
acre tract of reservation, some of it was given to tribal 
members as an assignment. Some of it was sold off and left them 
with that 720-acre tract that we have now, and then the tribe 
purchased some new property that has been put in federal trust 
status in 1996. So we are a little over 1,000 acres.
    Mr. Moran. But you have been denied any opportunity for 
economic growth in the state.
    Mr. Rodger. Yes, sir.
    Mr. Moran. And that is your problem.
    Mr. Rodger. Yes, sir.
    Mr. Moran. So what you are asking for is some opportunity 
to be able to develop some small businesses and get some 
employment growth here.
    Mr. Rodger. Yes, sir. Sure do. We need some assistance. Our 
poverty level as you see in my testimony is double the State of 
South Carolina, which right now our unemployment level on the 
reservation is about 26 percent, which is still, you know, a 
pretty good percentage there, and we need opportunities for our 
people to go to work and the ability to create income for the 
tribe.
    Mr. Moran. And your tribe provided scouting for George 
Washington?
    Mr. Rodger. Yes, sir. Sure did.
    Mr. Moran. Against the British?
    Mr. Rodger. Sure did.
    Mr. Moran. Mr. Cole.
    Mr. Cole. Thank you. My tribe fought for the British. We 
should get together and have a debate who made the right 
decision. I think we both might be disappointed.
    I am serious about this, though. You put your finger on a 
real problem and dealt with this, some, when I was on natural 
resources. We have a lot of tribes that were terminated. This 
is actually, we always think that all this stuff is 19th 
century, but we are talking about the policy of the United 
States Government when everybody's living memory sitting at 
this table except one, and so this is not a new thing.
    But if the condition, and we see this again and again as 
tribes to get recognized and are eligible for federal benefits, 
which frankly they are entitled to, they end up having to 
barter away part of their sovereignty. It is usually the state 
delegation that will not move for recognition of the tribe----
    Mr. Rodger. Yes, sir.
    Mr. Cole [continuing]. Without--I do not know if that is 
what happened with you, but that is what----
    Mr. Rodger. Yes, sir.
    Mr. Cole [continuing]. I have seen happen again and again 
and again. And this idea that you have to give up part of your 
sovereignty to get some of it is really incredibly offensive.
    Mr. Rodger. Yes, sir. I agree.
    Mr. Cole. And unfair. But, you know, at least we are one 
step back.
    You outlined some specific things that could be done, but 
my guess is, again, if you are like most tribes that do not 
have access to a lot of capital----
    Mr. Rodger. No, sir.
    Mr. Cole [continuing]. Have you thought more broadly about 
whether or not there could be some sort of, I do not know, 
almost a bank-like exercise in the BIA that became a focal 
point of recapitalization of tribes, because that is what 
gaming has effectively done in a lot of tribes. They basically 
have given them the ability to get money, and then you see how 
their businesses start----
    Mr. Rodger. Yes, sir.
    Mr. Cole [continuing]. And so this lady a moment ago said 
that Oregon tribe, you know, if they did not have a casino, 
they would not have as many kids in college. They are literally 
replacing revenue that ought to be coming from someplace else 
from their tribal enterprise, but if you cannot do that, 
whether it is gaming or something else, you are in a real world 
of hurt.
    Mr. Rodger. We are, sir, and we have the ability to have 
two bingo facilities, but the state enacted the lottery, which 
really reduced that for us because we only have class one 
bingo, which is the dauber bingo.
    Mr. Cole. It is state run?
    Mr. Rodger. Yes, sir, and the state actually violated, I 
consider violated our federal agreement because they changed 
the bingo laws I think about three different times.
    Mr. Cole. Without the consultation?
    Mr. Rodger. Yes, sir. Without the consultation of the 
tribe. And so, you know, that is something that we may look 
forward to in the future is, you know, trying to see if we can 
change that to see if we can have the ability to do some 
gaming. The State of South Carolina is very conservative as you 
all know.
    Mr. Cole. So is the State of Oklahoma.
    Mr. Rodger. Well, they do fairly well.
    Mr. Cole. That is right.
    Mr. Rodger. And I think that one other issue, and I just 
throw this out there, part of the settlement agreement and just 
by way of information is that the tribe also at the last hour 
of this settlement agreement with the gun to the head if I can 
say that, agreed to actually have to pay for our kids to go to 
public school. We have to pay an out-of-county fee for our kids 
to go to public school. We currently owe the local school 
district about $2.5 million for that, and it is a sad 
situation, but the state really overran that agreement because 
of the taxation that has never taken place on federal----
    Mr. Moran. That is in lieu of property taxes?
    Mr. Rodger. Yes, sir. And the tribe never paid property 
tax.
    Mr. Moran. Well, how can you do that? I mean, you are a 
sovereign entity. I do not think the Federal Government pays 
the State of South Carolina property taxes for military 
installations all over Charleston. I will guarantee you.
    Mr. Rodger. No, sir. And it was a big issue, and I have 
actually tried to negotiate with the local school district to 
get that reduced or somewhat forgiven, because we have no 
economic development. There is no way for us to pay for it.
    Mr. Cole. That is amazing.
    Mr. Moran. That is questionable. I do not know how you 
could get away with that.
    Mr. Rodger. Well, it has been tried. Actually, it was tried 
in front of the State Supreme Court whether we had to pay it or 
not, and they agreed, of course, because it is the State 
Supreme Court----
    Mr. Moran. Well, I would say what is this doing in a state 
court anyway?
    Mr. Rodger. Yeah.
    Mr. Moran. Why is it not in federal court?
    Mr. Cole. That is right.
    Mr. Rodger. Yes, sir. I believe, and I use this word, I 
guess an attorney word, which I am not an attorney, but the 
process, the tribe was under duress. It was either they sign 
this, or it was in the 12th hour, and they could not get 
anything after the fact. So they signed quite a bit of their 
rights away.
    You know, I have consulted the Bureau of Indian Affairs 
about a police department, but because the state has 
jurisdiction on the reservation we cannot get Bureau funding 
for police.
    Mr. Moran. That was a condition of recognition then----
    Mr. Rodger. Yes.
    Mr. Moran [continuing]. That you mentioned?
    Mr. Rodger. Yes, sir.
    Mr. Moran. Has anybody at the BIA talked to you about 
whether or not this levying of state taxes on your land is 
legal? I mean, there anybody you can talk to there?
    Mr. Rodger. Well, there is no levying of taxes. It is just 
in the settlement agreement that we agreed to pay for our kids 
to go to public school.
    Mr. Cole. Oh. So that is another part of the original 
agreement.
    Mr. Rodger. Yeah, and, you know, I think that my charge 
here is to hopefully readdress that and make some changes to 
that federal agreement, because it takes away a lot of our 
rights. And our children were ridiculed for that. Some of the 
children were actually, if I can say, discriminated against 
because that debt is out there. I met with school district 
officials, and I know that is a whole different issue. That is 
an Indian education issue, but it is a part of that agreement 
that was signed and we really need to have some change in it.
    So that was something----
    Mr. Cole. Is there any mechanism whereby that agreement can 
be revisited, or is this strictly a discussion between you and 
the state officials in South Carolina?
    Mr. Rodger. Well, we tried to discuss with the state 
officials, and the officials are so afraid of gaming coming in 
to the state that the governor of South Carolina will not even 
talk to me. He will not even address me at all because of that 
issue, and it is quite sad.
    Mr. Cole. Well, you could set that issue aside, though, and 
talk about this taxation issue.
    Mr. Rodger. Oh, yes, sir.
    Mr. Cole. Would they not meet with you on that?
    Mr. Rodger. And actually, I have tried to procure a meeting 
with him many times, and he is afraid it is going to end up in 
gaming, so he will not even meet with me. Now, the lieutenant 
governor has. I met with him and discussed these issues with 
him, and he is aware of those situations, and our state senator 
has now come to the point where he is admitting that the reason 
for those fees was to pay back what the state put into the $50 
million settlement of 1993, about $10 or $12 million.
    Well, the state has already made, when the tribe had a 
bingo, made about $9 million off of the fees that we had to pay 
them to operate the bingo.
    Mr. Cole. What has happened, out of curiosity, you said 
your original, when you were terminated, you had about 3,500 
acres, 3,400 acres, and some of that was put in individual 
allotments. I assume almost all of it.
    Do the tribal members still hold that, or is that sort of--
--
    Mr. Rodger. Some do but they were deeded as individual 
pieces.
    Mr. Cole. Yeah.
    Mr. Rodger. So they pay taxes on it now.
    Mr. Cole. Right.
    Mr. Rodger. It is an individual piece. Some of the tribal 
members still have the original piece.
    Mr. Cole. I was just curious if you even know. I mean, 
frankly, my family holds the last of our allotment land. Our 
tribe was very opposed to what happened to your tribe.
    Mr. Rodger. Yes, sir.
    Mr. Cole. It happened to us about 60 or 70 years before 
you, and the argument was, and it, indeed, turned out to be 
true, that, you know, we had enough Chickasaws to lot the land 
out to, but then it was probably even worse in your case, 
systematically looted from them individually in the court 
system and what have you.
    So, you know, a lot of that land, somebody may get it for a 
generation but the minute it is sold, it is gone. So is it 
mostly tribal members who still hold----
    Mr. Rodger. No. Some of that property has already been sold 
off some years ago. That is what is happening with that. There 
is some trust property that is held in trust by a church 
organization for the tribe, benefit of the tribe, about 100 
acres, 125 acres as a matter of fact.
    Mr. Cole. And I am sorry. I do not know the location of the 
tribe within South Carolina. Where are you at?
    Mr. Rodger. It is about 30 minutes south of Charlotte, 
North Carolina.
    Mr. Cole. Okay.
    Mr. Rodger. So we are in South Carolina. If anybody has 
ever been to South Carolina, about 7 miles east of Rock Hill. 
So just south----
    Mr. Moran. What Congressional district is it?
    Mr. Rodger. John Spratt.
    Mr. Moran. Mr. Spratt.
    Mr. Rodger. Yes, sir. He is very helpful to us. Has been. A 
wonderful individual to work with and so he is very aware of 
our situations, and he was a part of the settlement agreement 
and the committee that helped create that document. The 
unfortunate thing is just, we have a very particular state 
senator who helped procure that document as well that tailored 
it to the state. And it was, like I said, the 12th hour, and 
the tribe had to either sign it as is or give up their rights. 
And so now I think my tenure here as being elected chief of the 
Catawba Indian Nation is to try to correct that.
    Mr. Moran. Tom, if you have any ideas, I would like to help 
you.
    Mr. Cole. I would love to sit and visit with you about 
this, because, again, it is such a microcosm of what is 
happening a lot of places, and it is tough because the politics 
are tough. I mean, frankly, we have been able, just to be 
candid, Mr. Chairman, to reassert some of our position in our 
state, largely because there are a lot of us, and so, you know, 
even big tribes in Oklahoma underwent the same termination 
experience that the Catawbas did and basically ceased to exist 
for 25 or 30 years as corporate entities. They were kept alive 
in churches and what have you, and then frankly the Recognition 
Act in the middle '70s let some of them come back. Well, they 
have all come back now. But they were big, and it was much 
easier. I mean, you have an enormous challenge because you are 
little. You are sort of surrounded by hostility. I do not mean 
that in a personal sense but in terms, a sovereign sense I do.
    Mr. Rodger. That is right. You know, I guess my heart 
becomes tender about the history of the tribe, because they 
fought so much for the rights of the people that surrounded 
them. I remember, just another piece of history, I had a great 
uncle who fought in World War II who was not even considered a 
citizen in this country because the State of South Carolina did 
not recognize citizens of Native Americans in the State until 
1944.
    So until 1960, it was illegal to marry a white person.
    Mr. Cole. Uh-huh.
    Mr. Rodger. 1966, our kids were fully integrated into an 
all black school from the reservation school. So our history is 
what it is, but I think that I am here hopefully in my job to 
create the rights and protect the rights of our people and ask 
for assistance from Congress in many different ways. And that 
may be readdressing that settlement agreement to correct those 
actions, to make it what it should be.
    So I would appreciate support on that as well.
    Mr. Cole. None of us have constituents obviously in South 
Carolina but we are struck by this and just speaking for 
myself, if you come up with anything----
    Mr. Moran. Is 8A contracting open to you guys in any way 
or----
    Mr. Rodger. It is. We have not applied for it because we 
are so small----
    Mr. Moran. Yes.
    Mr. Rodger [continuing]. And the tribe really got into I 
say a fickle with the Bureau because they did not properly do 
the audits according to the directives. And so the Bureau 
funding was rescinded back to the Bureau of Indian Affairs in 
2003.
    Mr. Cole. They did not have the personnel?
    Mr. Rodger. Did not have the right personnel in place. The 
tribe, you know, when we were re-recognized, the leadership 
went to hiring the relatives rather than hiring the qualified 
individuals, and so we have since changed that. Our Bureau 
funds were brought back in 2007.
    Mr. Cole. Let us see. We are not supposed to belabor 
these----
    Mr. Rodger. Yes, sir. I understand.
    Mr. Cole. No. You know, we have had 100, you know, tribes 
and varying problems and so on, but I think you have hit a 
respondent chord here, and maybe our staff can give some 
thought to it and the three members who listened to this I 
think would be receptive if you could come up with something. 
Okay? Let us see if we cannot do the right thing. It sounds 
like they have gotten the short end of the stick for a long 
time.
    Mr. Rodger. Yes, sir. Thank you very much.
    Mr. Cole. Thank you, Chief, for taking the time.
    Mr. Moran. Thank you. Appreciate it.
    Mr. Rodger. Thank you all very much.
    Mr. Cole. Thank you. You cover a whole lot of history, do 
you not? It is not comforting history either.
    Mr. Moran. No, it is not. It is very hard history.
    All right. Our last witness is Roman Bitsuie, the Executive 
Director of the Navajo Hopi Land Commission Office of the 
Navajo Nation. So thank you for coming. You have got the last 
word here. Good afternoon.
                              ----------                              

                                        Thursday, March 26, 2009.  

                   NAVAJO HOPI LAND COMMISSION OFFICE


                                WITNESS

ROMAN BITSUIE
    Mr. Bitsuie. Good afternoon. It is an honor to make this 
appearance before the subcommittee. My name is Roman Bitsuie. I 
am the Executive Director of the Navajo Hopi Land Commission 
Office, Navajo Nation. I thank you for this opportunity to 
provide testimony on what is one of the most vexing matters in 
modern federal union policy and a true tragedy for the Navajo 
Nation.
    I am the Executive Director of the Navajo Hopi Land 
Commission Office, an entity of the Navajo Nation. I have spent 
my entire adult life working to resolve the Navajo Hopi land 
dispute and the Bennett Freeze. Every day Navajo tribal members 
come into my office to tell me of the hardships that they have 
suffered because of the Relocation Law or the Bennett Freeze.
    I would like to, again, bring to the attention of the 
committee the need for the additional resources to address the 
human toll of the federal forced relocation of thousands of 
Navajo families as well as Bennett Freeze. These needs will 
increase in the near future as the Office of Navajo Hopi Indian 
Relocation processes the claim of up to 1,000 new applicants 
who may be eligible to receive relocation and housing benefits.
    I also want to report on two positive developments which 
offer real hope for a brighter future for these families. The 
development of a renewable energy resources for the benefit of 
those affected by the Relocation Law and the lifting of the 
Bennett Freeze. The harsh impact of the federal action that 
created these two issues will be with the Navajo Nation for 
many more generations. For the first time, however, I have some 
good news to report.
    Although I will, again, bring to the attention of the 
committee the need for additional resources to address the 
human toll that the forced relocation of thousands of Navajo 
families as well as the Bennett Freeze, I also want to report 
on two positive developments which offer real hope for a 
brighter future for these families.
    First, the Navajo Nation has begun development of Paragon 
Resources Ranch in New Mexico. These lands were provided to the 
Navajo Nation as part of the Relocation Law. The Navajo Hopi 
Land Commission Office is developing large-scale renewable 
energy generating capacity on these lands. As a matter of 
federal law, the net income from the use of these lands will go 
exclusively towards addressing the adverse impact of the 
Federal Relocation Law, creating a viable new source of funds 
that will be available to address the ongoing harsh impacts of 
the Relocation Law and the various construction freezes.
    The Paragon Ranch lands have highly-favorable 
characteristics for large-scale concentrating solar generating 
capacity. As a part of phase one development we have already 
completed initial assessment and will use with three large 
solar companies.
    We ask that this committee help us to help ourselves by 
providing $1.5 million for phase two of this project out of the 
budget of the Office of Navajo Hopi Indian Relocation, which 
should be an increase overall for this purpose.
    The second piece of good news is that all of the key legal 
issues between the two tribes, Navajo and Hopi, have been fully 
resolved, leading to after more than 40 years, the lifting of 
the federal-imposed Bennett Freeze in the western portion of 
the Navajo Nation, which has had no significant development for 
more than 40 years. As a result of this construction freeze, 
the Bennett Freeze Navajos have become the poorest of the poor. 
In 2006, after a settlement agreement was reached between the 
Navajo and the Hopi, the freeze was lifted, with most of the 
area having been found to belong to the Navajo Nation. For 
thousands of the Navajo families who live there this means that 
the freeze served no real purpose other than to bring them 
misery and hardship.
    We ask that the committee support the lifting of the 
Bennett Freeze through steps of the Rehabilitation Program for 
the Bennett Freeze area with a first-year funding level of $10 
million out of the BIA resources.
    In conclusion, I urge the committee to live up to its 
responsibility to the many people adversely affected by the 
land dispute and the Bennett Freeze in a way that is fair and 
humane and not let the costly mistake of the past force 
decision today that results in an even greater human toll. The 
Navajo Nation is willing and open to working with the committee 
to identify the most effective and practical ways of moving 
forward.
    I thank the committee for this opportunity to provide 
testimony on this matter. Thank you.
    [The statement of Roman Bitsuie follows:]

    [GRAPHIC] [TIFF OMITTED] T0064B.119
    
    [GRAPHIC] [TIFF OMITTED] T0064B.120
    
    [GRAPHIC] [TIFF OMITTED] T0064B.121
    
    [GRAPHIC] [TIFF OMITTED] T0064B.122
    
    Mr. Moran. Thank you very much. Mr. Simpson.
    Mr. Simpson. No questions.
    Mr. Moran. Mr. Cole.
    Mr. Cole. Yeah. Just quickly. Could you give me a little 
bit more information? What is the nature of the renewable 
energy site? It is probably in here and I just have not spotted 
it. What kind of renewable energy?
    Mr. Bitsuie. Well, we are looking at the solar and then the 
possibility of wind energy. We are looking at concentrating 
solar.
    Mr. Cole. Do we have the great capacity to be able to move 
and sell the energy? Can you hook up, so to speak, pretty 
quickly and transport it if it is feasible?
    Mr. Bitsuie. Well, the Navajo Nation Council has approved a 
Power Transmission Grid that would increase the capacity.
    Mr. Cole. Have you had any discussions with potential 
private partners in here that would help capitalize this and 
then help you market the energy?
    Mr. Bitsuie. The companies that we have been working with 
have been talking to a public service company in New Mexico as 
well as the company or the transmission in Colorado as well as 
Utah.
    Mr. Cole. So they are pretty excited about the 
possibilities?
    Mr. Bitsuie. They are pretty excited about the 
possibilities.
    Mr. Cole. That is great.
    Mr. Moran. But you need the 1\1/2\ million kind of seed 
money to get the phase two going?
    Mr. Bitsuie. That is correct. That would be more assessment 
to get--we received $300,000 a couple years ago, and we put the 
mechanism in place, and with this new money we would increase 
the work that needs to be done in terms of the feasibility and 
so forth.
    Mr. Cole. One other question if I may. I am not familiar 
too much with this Bennett Freeze. Can you just quickly give me 
the background on the dispute between the Hopis and the 
Navajos?
    Mr. Bitsuie. Well, there is two Navajo Hopi land disputes. 
One is the 1882, and the other one is the 1934, Boundary Act. 
In the 1882, Executive Order reservation when the government 
carved up a piece of property for the Hopi and such other 
Indians. That went into some determination through the federal 
courts and then ultimately by Congress that required the 
relocation of people from those lands that became other tribes' 
land.
    In the Bennett Freeze, when Congress identified the Navajo 
Reservation within the State of Arizona back in 1934, the 1934 
Boundary Act, it mentioned for the Navajo and such other Indian 
as the Secretary of Interior located thereon. And it is because 
of that ambiguity in the language that the courts had to make a 
determination, then ultimately the determinations were made. 
Some lands were identified to become Hopi, and then the Navajo 
and Hopi entered into a treaty with the Paiutes that carved up 
a piece of property for them as well.
    So while this was going on from 1966, then Commissioner 
Robert Bennett placed a freeze on any development within that 
region, and it has been under construction freeze for 1966, to 
2006.
    Mr. Cole. And, again, what was the size of the area we are 
talking about?
    Mr. Bitsuie. The size of the Bennett Freeze is 1.5 million 
acres.
    Mr. Moran. Excuse me.
    Mr. Cole. Go ahead, Mr. Chairman.
    Mr. Moran. So could the Administration simply by Executive 
Order lift that freeze? Does it require legislation?
    Mr. Bitsuie. Well, it required legislation for both tribes 
to litigate in courts in terms of, you know, how that land 
would be determined because in the Congressional it said for 
the Navajo and such other Indian. So the court would have to 
make some determinations.
    Mr. Moran. So the reason for the freeze is that you not add 
value to the land until there is a determination as to who has 
title to it?
    Mr. Bitsuie. That is correct.
    Mr. Moran. So you have to determine which tribe, and that 
has yet to be determined, I guess?
    Mr. Bitsuie. Well, it is----
    Mr. Moran. The dispute.
    Mr. Bitsuie. The agreement has been reached between Navajo 
and the Hopi in 2006, so since then there has been some 
development but with not much going on in that region as of 
today.
    Mr. Moran. And there is going to be real development or the 
potential is to be fulfilled, you are all probably going to 
have to agree and have some consistency. Well, I mean, I get 
some sense of what the problem is, but it sounds like somebody 
needs to take some initiative to get this going. That is crazy 
if you have got that much land set aside, and you can not do 
anything with it.
    Mr. Bitsuie. Yeah. The court has made a determination where 
62,000 acres of that land is now Hopi. So that is all 
determined by the court as well.
    Mr. Moran. That is a small amount of land.
    Mr. Bitsuie. Yeah, but the 1.4 million, or the balance of 
that amount minus that amount of acreage, is all Navajo. What 
we are asking in this request is for the Bureau of Indian 
Affairs to receive some funding to redress some of those 
rehabilitation areas within that region. And it is mostly 
housing, you know, for the most part. We have performed a study 
that was funded by the Bureau of Indian Affairs, which 
determined that in this region to recover for this 40 years it 
is going to take about $4.8 billion.
    And so this year, you know, we are just making the request 
for $10 million, and hopefully there will be a comprehensive 
approach with members of Congress, you know, that would follow.
    Mr. Cole. This whole issue of force, this predates this 
freeze, of forced relocations is really interesting. We have 
the Ponca Indians in Oklahoma largely because in the late 1870s 
the Federal Government mis-drew the lines between the Sioux, 
who were relatively war-like, and the Poncas, who were pretty 
peaceful, and put the Poncas on Sioux land. They decided it was 
a whole lot easier just to move the Poncas than fight the 
Sioux. And so it is actually quite a remarkable story because 
the court decision that declares finally Native Americans as 
human beings for the first time, comes out of that case. It is 
called Trial of Standing Bear. He had to go to court to prove 
he was a human being to address a non-American citizen.
    But, again they are not back on the Niobrara River in 
Nebraska. Most of the tribe is in Oklahoma. There is actually 
two branches now. But, anyway, thank you very much. Compelling 
testimony.
    Mr. Moran. Thank you, Mr. Cole. Mr. Simpson.
    Thank you very much, sir, and we appreciate, again, your 
taking the time to share this with us. It is fascinating.
    The subcommittee stands in recess.
                                          Thursday, April 23, 2009.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


                            PUBLIC WITNESSES

                     Opening Statement of Mr. Dicks

    Mr. Dicks. The Committee will come to order. Mr. Simpson 
will be here in just a few minutes, but we want to try to stay 
on schedule today.
    I want to welcome all of our witnesses this morning to the 
third of four days of public witness testimony. Today we will 
hear from a variety of witnesses representing many natural 
resource, environment, cultural and public health 
organizations. Next week we will continue with a second session 
devoted to these same topics.
    As members know, the right of the public to petition the 
Committee is provided by the first amendment of our 
Constitution. I am glad to host a third year of public witness 
hearings as Chairman of the Subcommittee. I am especially proud 
to be able to sit in front of you today and say that over the 
past 2 years, this committee has worked hard to improve the 
bill and provide increases to vitally important programs. Last 
year's bill alone reflected a 4.8 percent increase above the 
prior year. In that bill, we rejected a number of requested 
cuts to programs that are critical to environmental, social and 
scientific activities. Instead, we choose to invest in programs 
that address global climate change and greenhouse gas 
reduction.
    We continue to protect our public plans and precious open 
spaces and to provide federal support for the arts and 
humanities. We hope to continue these priorities in the fiscal 
year 2010 bill.
    I would like to remind our witnesses that we have many 
speakers scheduled to appear today. To ensure that we are able 
to accommodate everyone, I ask that our witnesses respect the 
5-minute time limit. A yellow light will flash with 1 minute 
remaining of your time in order to give you an opportunity to 
wrap up your statement. When the red light comes on, your time 
is expired. Your prepared statement will of course be published 
in the record along with a transcript of your actual testimony.
    Mr. Dicks. Mr. Simpson, would you like to make an opening 
statement?
    Mr. Simpson. Let's go, Mr. Chairman.
    Mr. Dicks. All right. Our first witness is James D. Taft of 
the Association of State Drinking Water Administrators. Mr. 
Taft. Welcome.
                                          Thursday, April 23, 2009.

           ASSOCIATION OF STATE DRINKING WATER ADMINISTRATORS


                                WITNESS

JAMES D. TAFT
    Mr. Taft. Thank you, Mr. Chairman. I am Jim Taft, the 
Executive Director of the Association of State Drinking Water 
Administrators, and I very much appreciate the opportunity of 
offering testimony this morning.
    ASDWA represents the state drinking water programs in the 
50 states, the five territories, the District of Columbia, and 
the Navajo Nation in their efforts to provide safe drinking 
water to more than 275 million Americans.
    We respectfully request that for fiscal year 2010 the 
Subcommittee appropriate funds for three state drinking water 
programs at levels that ensure appropriate public health 
protection.
    I would like to talk first about the Public Water Supply 
and Supervision Program, or the PWSS program. States have 
accepted primary enforcement responsibility or primacy for 
ensuring compliance with over 90 federal drinking water 
regulations and technical assistance efforts for over 155,000 
public water systems. But state activities go well beyond 
simply ensuring compliance at the tap. They administer very 
challenging, multi-faceted programs, and in recent years, 
states have taken on a prominent role in working with federal 
and local partners to help ensure sufficient water quantity.
    The number of federal regulations continues to grow while 
at the same time federal funding support has been flat or 
declining. State drinking water programs are now engaged in the 
critical phases of implementing a series of new risk-based 
drinking water rules. Those are requirements tailored by states 
to the specific risk posed, and this challenge is playing out 
in the context of the current economic crisis. States have 
often been expected to do more with less and have always 
responded with commitment and ingenuity.
    But state drinking water programs are now in crisis. Simply 
put, insufficient federal support increases the likelihood of 
contamination events that put public health at risk. The fiscal 
year 2009 appropriated level for the PWSS program was $99.1 
million or a bit less than $2 million per state for the entire 
year. Although the '96 amendments authorized the program at 
$100 million annually, that level is now nearly 13 years after 
enactment, woefully inadequate for the enormity of the task. 
States recently identified an annual shortfall of about $360 
million between the available funds and funds needed to 
administer their programs.
    We therefore respectfully request that Congress appropriate 
$200 million for the PWSS program to more appropriately account 
for the recently promulgated federal mandates and the tasks 
faced by states.
    I would like to talk next about the Drinking Water State 
Revolving Loan Fund. I think as you know the primary purpose of 
drinking water SRF is to improve public health by providing 
loans to improve drinking water infrastructure, thus, 
facilitating water system compliance with drinking water 
regulations. The payback on the investment program has been 
exceptional. $8.9 billion in grants since 1997 has been 
leveraged by states into nearly $17 billion in infrastructure 
loans.
    In so doing, states provided assistance to more than 6,000 
projects improving public health protection for over 100 
million Americans. State drinking water programs have also used 
SRF funds to support technical assistance and training needs of 
small drinking water systems. States have also lept into action 
to use the funds provided through the stimulus bill. They are 
striving to maximize the depth and breadth of that funding 
opportunity across all drinking water system sizes and types.
    The SRF program and the President's budget for the past 
several years has been flat lined or decreasing. It was $829 
million for the past two fiscal years. At the same time, EPA's 
most recent need survey indicated that the drinking water 
system needs total about $335 billion over the next 25 years. 
States believe that is a very substantial down payment but 
believe more is needed, and we are very encouraged by the $1.5 
billion in the President's 2010 budget.
    Mr. Dicks. Now, you know that is in there, right?
    Mr. Taft. We know that is in there. And that is a level 
that states strongly support.
    Mr. Dicks. Good.
    Mr. Taft. Well, it was in OMB's initial release.
    Mr. Dicks. Outline.
    Mr. Taft. Outline of the funding levels.
    Mr. Dicks. Even though they said it was subject to change, 
I do not think they will change that.
    Mr. Taft. That would be terrific. That would be great.
    The last program I would like to mention real quickly is 
the State Drinking Water Security Responsibility. Since the 
events of 2001 as well as the more recent events, hurricanes, 
wildfires and floods, states have taken on exceptional measures 
to meet the security and emergency response-related needs of 
the drinking water community. They provided assistance, 
training, information and financial support to their water 
systems and continually work toward integrating security 
considerations into all aspects of their programs.
    The appropriated level in fiscal year 2009 was about $5 
million or a little less than $100,000 per state, and states 
have a tough time understanding why that level has been flat-
funded since 2002. And so we respectfully request $7 million in 
fiscal year 2010 for funding state drinking water security 
initiatives.
    [The statement of James Taft follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.001
    
    [GRAPHIC] [TIFF OMITTED] T0064C.002
    
    [GRAPHIC] [TIFF OMITTED] T0064C.003
    
    [GRAPHIC] [TIFF OMITTED] T0064C.004
    
                         GRANTS FOR RURAL AREAS

    Mr. Dicks. Okay. Let me ask you a question.
    Mr. Taft. Sure.
    Mr. Dicks. I have been concerned. During the Nixon 
administration when Bill Ruckelshaus was administrator of EPA, 
he had $4.5 billion in grant money to local communities. I 
think it was like 80/20.
    Mr. Taft. For the SRF or for capital----
    Mr. Dicks. This is for the Capital Construction Grant 
program.
    Mr. Taft. Construction grants, yes.
    Mr. Dicks. Now, that was done away with, and we now go to 
the revolving funds.
    Mr. Taft. Right.
    Mr. Dicks. What I am finding in rural areas in my district 
is that the local people cannot afford to pay back the loans. 
Now, I know on the Safe Drinking Water we put language in which 
we now have put into the----
    Mr. Taft. Clean Water.
    Mr. Dicks [continuing]. Clean Water Revolving Fund so that 
the administrators can forgive their loans. There is a 
complicated formula that you have to go through.
    Mr. Taft. Right.
    Mr. Dicks. I think we need to go back and have some form of 
grant program or we are never going to get these projects--what 
was your number, $335 billion backlog?
    Mr. Taft. It is the needs survey over 20 years.
    Mr. Dicks. And that does not count----
    Mr. Taft. That is the drinking water. The clean water gap 
is about the same.
    Mr. Dicks. Another 335.
    Mr. Taft. Roughly.
    Mr. Dicks. So that is a $670 billion backlog. And we are 
putting less than $1 billion--I mean, maybe a small amount, 
less than $2 billion--into the revolving funds.
    Mr. Simpson. Is that backlog?
    Mr. Dicks. Now, the previous administration----
    Mr. Simpson. Is that backlog or----
    Mr. Dicks. Yes, that is both for Safe Drinking Water and 
Clean Water.
    Mr. Taft. That is a gap in what is needed over the next 20 
years.
    Mr. Dicks. Over the next 20 years?
    Mr. Taft. Right.
    Mr. Dicks. Okay. We wanted to clarify that. And you know, 
some have said at EPA that the revolving funds as you said have 
enough funds to revolve without any replenishment of funds. I 
assume you strongly disagree with that.
    Mr. Taft. Well, for the reason that you mentioned. The 
Drinking Water Program has a disadvantaged loan program that 
does include a portion being grants, and so therefore, it 
cannot completely revolve a portion of it to help small 
communities. It is more than just a straight loan.
    Mr. Dicks. Is the language that we use in the Safe Drinking 
Water SRF to be able to forgive some communities if they are in 
dire financial shape? That is a positive thing, right?
    Mr. Taft. That is a very positive thing, and states take 
advantage of that.
    Mr. Dicks. All right. And we did that also in the stimulus 
package?
    Mr. Taft. In the stimulus bill, there is a 50 percent 
subsidy requirement that 50 percent of all the funds have to be 
subsidized.
    Mr. Dicks. But I take it you would not object to seeing a 
new grant program like the one we had previously?
    Mr. Taft. Well, a portion of grants----
    Mr. Dicks. It is not taking money away from the revolving 
funds but an outright grant program?
    Mr. Taft. I think for disadvantaged and small systems it 
makes a lot of sense, yes.
    Mr. Dicks. All right. Thank you. Mr. Simpson?
    Mr. Simpson. How much are we spending on trying to meet the 
arsenic rule in small communities? What I find in the small 
communities throughout Idaho, you have, you know, towns of 
1,000 people, and the technology to meet the new standard in 
arsenic is driving them nuts.
    Mr. Taft. Sure.
    Mr. Simpson. They are seeing their water bills go up 300, 
400, 500 percent, and a lot of these are senior citizens on a 
fixed income. Is that part of the $335 billion?
    Mr. Taft. It is a chunk of that. I do not have a figure for 
you. I do not know how much, but we can get that figure. EPA 
would have that as a part of the analysis.
    Mr. Simpson. Are those same issues affecting communities 
throughout the country or is it pretty much regional?
    Mr. Taft. There are about 4,000 communities that have 
arsenic problems, so it is a geographically based contaminate. 
It is a----
    Mr. Simpson. Are all 4,000 in Idaho? I am just curious.
    Mr. Dicks. We have arsenic problems in Washington State.
    Mr. Simpson. You are kidding me.
    Mr. Dicks. We will be together on this one.
    Mr. Taft. The Pacific Northwest, the West, the Southwest, 
even parts of New England have arsenic programs, upper Mid-
West, Michigan has it as well.
    Mr. Dicks. We had a copper smelter in Tacoma, Washington, 
the biggest city in my district that gave off tremendous 
amounts of arsenic that led to acid rain in the Alpine Lakes of 
the Cascade Mountains. And we had communities in an uproar 
about it. We finally closed it down. We are still struggling 
with that, the impacts of that arsenic in yards surrounding 
that factory.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Dicks. Thank you. You did a good job.
    Mr. Taft. Can I take 10 seconds and make one last point?
    Mr. Dicks. Ten seconds.
    Mr. Taft. SRF is an important program, but the one that I 
mentioned up front is especially important to states. The folks 
that I represent are civil servants. You probably will not hear 
from them directly, but it is a critically important program 
that has been pretty significantly underfunded, this PWSS 
program. Thanks for your consideration.
    Mr. Dicks. Thank you. Okay. This is the Public Water System 
Supervision?
    Mr. Taft. Yes, sir.
    Mr. Dicks. Thank you. Mr. Nolan.
    Mr. Nolan. Thank you, Mr. Chair, and good morning----
    Mr. Dicks. We will put your statement in the record and 5 
minutes to summarize.
    Mr. Nolan. Yes, sir. Good morning, Mr. Chair, and Mr. 
Simpson.
    Mr. Dicks. Thank you.
                              ----------                              

                                          Thursday, April 23, 2009.

                       AMERICAN LUNG ASSOCIATION


                                WITNESS

STEPHEN J. NOLAN
    Mr. Nolan. I am Steve Nolan, volunteer chair for the 
American Lung Association which is the oldest voluntary health 
organization in the country with over 300,000 volunteers and 5 
million active donors. I am an attorney in private practice in 
Baltimore, Maryland, and have been a volunteer with the 
American Lung Association for over 10 years.
    Today I would like to discuss with you the critical need 
for increased funding for EPA's clean air program. Any 
discussion of air quality must examine the heavy toll of lung 
disease. Lung disease is a significant health program in the 
United States. Lung disease is the third-leading cause of death 
in the United States, responsible for the death of every one in 
six Americans.
    Nearly all lung diseases are impacted by air pollution. Air 
pollution remains a primary contributor to the burden of 
respiratory disease and healthcare costs in this country.
    The Clean Air Act was proven to be a powerful tool to 
improve the quality of our Nation's air. Emissions have been 
cut dramatically since 1970. However, much remains to be done. 
Millions of Americans live in counties that do not meet current 
Clean Air standards. Our Nation's capital is one of those 
communities. The EPA estimates that in 2007, more than $158 
million Americans lived in areas with unsafe pollution levels.
    The Clean Air Act requires science-based standards that 
protect public health. The EPA is required to review the 
National Ambient Air Quality Standards for ozone, particulate 
matter, sulfur dioxide, nitrous oxide, carbon monoxide and lead 
every 5 years. Historically, the EPA has not met the deadlines 
for these reviews and has been obligated to complete such 
reviews only under court order. In 2006, the EPA failed to 
strengthen the annual standard for fine particles, despite the 
near unanimous recommendation of the Clean Air Scientific 
Advisory Committee.
    Just this past February of this year, the United States 
Court of Appeals ruled that the EPA needed to reconsider the 
scientific evidence sending their 2006 standards back to the 
EPA for corrective action. In 2008, the EPA set national air 
standards for ozone that ignored the unanimous agreement among 
the independent Scientific Advisory Committee of the EPA on the 
need for much more protective new standards.
    EPA has committed to review all the standards and meet 
their statutory deadlines. To accomplish this work and to meet 
the agency's obligations, we recommend a 25 percent increase in 
the Federal Stationary Source Regulation Budget to $33 million.
    Efforts to clean up power plants and other measures to 
implement pollution cleanup have not moved forward in large 
part because of electric utilities and the EPA took steps to 
delay or circumvent the Clean Air Act. In the past, EPA has 
also failed to provide the guidance to states to meet national 
standards. To help implement these standards, we recommend a 25 
percent increase in the Federal Support of Air Quality 
Management Budget to $115 million.
    State and local air pollution control agencies are on the 
front lines in the effort to improve air quality across the 
Nation. One area where states are in need of significant 
resources and attention from this Committee is the Air 
Pollution Monitoring Network. We strongly urge the Committee to 
increase funding for the State and Tribal Assistance Grant, 
known as the STAG program, to $270 million.
    The American Lung Association thanks this Committee for 
funding $300 million for diesel emission retrofits in the 
American Recovery and Investment Act. We support the funding of 
full authorization as set forth in the Diesel Emission 
Reduction Act of 2005 at $200 million per year for fiscal year 
2010.
    Any hearing on clean air must also address healthy indoor 
air and asthma. We thank the Committee for its support of the 
Asthma Program at EPA. Nearly $23 million Americans suffer from 
asthma. Mr. Chairman, we strongly urge the Committee to fund 
the Asthma Program for fiscal year 2010 by at least $26 
million.
    On behalf of the American Lung Association, thank you, Mr. 
Chairman and Mr. Simpson.
    [The statement of Stephen Nolan follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.005
    
    [GRAPHIC] [TIFF OMITTED] T0064C.006
    
    [GRAPHIC] [TIFF OMITTED] T0064C.007
    
    [GRAPHIC] [TIFF OMITTED] T0064C.008
    
    Mr. Dicks. Well, thank you for your statement, and we 
appreciate your good work.
    Mr. Nolan. Oh.
    Mr. Dicks. That is all right. You are okay.
    Mr. Nolan. I knew you have my----
    Mr. Dicks. We like to get back on schedule.
    Mr. Nolan. I was looking at all these people.
    Mr. Dicks. As tempted as we are to ask questions.
    Mr. Simpson. Whatever you want, you got it.
    Mr. Dicks. And thanks for being a volunteer.
    Mr. Nolan. I am used to the Court of Appeals and that red 
light.
    The Clerk. You did a good job. I noticed that.
    Mr. Dicks. William H. Rom, American Thoracic Society. 
Welcome.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

                       AMERICAN THORACIC SOCIETY


                                WITNESS

WILLIAM N. ROM
    Dr. Rom. Thank you, Mr. Chairman and Mr. Simpson. My name 
is William Nicholas Rom, MD, MPH. I am a Professor of Medicine 
and Environmental Medicine at New York University and Director 
of the Chest Service at Belleview Hospital in New York.
    I am representing the American Thoracic Society, 17,000 
members strong, physicians in pulmonary and critical care 
medicine. We are very interested in respiratory disease and air 
pollution because this affects our patients with asthma, COPD, 
cardiovascular disease, acute lung injury, pneumonia, and so on 
and so forth.
    The EPA has had tremendous success with its NAAQS and 
standards setting process with PM, for example. The costs of 
meeting the PM<INF>10</INF> and PM<INF>2.5</INF> standards have 
been a fraction of what the benefits have been. The OMB in 2007 
estimated that benefits were $63 billion to $430 billion, 
savings from emergency room and hospitalizations, for patients 
exposed to PM. The cost to implant these regulations were $25 
to $28 billion, anywhere from a 2\1/2\-to-1 or 17-to-1 benefit-
to-cost ration.
    Acid rain, one of your great successes for EPA, cost $3 
billion and produced $120 billion in benefits as estimated by 
OMB. Yet, one in 10 Americans live in areas that consistently 
violate EPA standards for ozone on PM, and one-third live in 
areas where ozone still violates these standards, like Boise, 
Tacoma, places like that.
    Mr. Dicks. You just picked out a couple of them. I 
appreciate that.
    Dr. Rom. My mother grew up in Kent, just outside of your 
district, so they ran the Berlin Brothers Grocery.
    Mr. Dicks. DC is in the deal, too. What is the name of the 
grocery?
    Dr. Rom. Berlin Brothers Grocery in Kent. And then I grew 
up building the latrines on Lake Ozette and Low Divide in 
Olympic National Park.
    Mr. Dicks. Did you ever know Dr. Doherty who did the----
    Dr. Rom. Jack Doherty from Vashon Island?
    Mr. Dicks. No, Richard Doherty from Washington State 
University. He did the Ozette Dig, their big tribal historical 
site there.
    Dr. Rom. My next trip.
    Mr. Dicks. Short answers.
    Dr. Rom. Four comments on the EPA programs. First, the air 
program. It has been flat-lined at $78 million since 1998. This 
program funds all the PM research. There were seven PM centers 
at Harvard, Hopkins----
    Mr. Dicks. What is PM, again?
    Dr. Rom. Particulate matter. Rochester, UC Davis and USC 
and the sixth and seventh were NYU, my university, and 
University of Washington, your university. Since they flat-
lined the budget, two schools did not make the last cut. They 
were yours, University of Washington, and mine. And now in the 
next cut, they are going to lose one more. So the air program 
needs at least $20 million more to keep up the good work that 
they are doing.
    Mr. Dicks. Which program is that?
    Dr. Rom. This is the air program within the Office of 
Research and Develop, ORD. ORD is about $530 million and '78 is 
the Air Program. They also have to handle the SO<INF>X</INF> 
and NO<INF>X</INF> research which is coming up for new 
standards, and they have to revisit ozone and PMs since those 
have been remanded back to EPA to reevaluate the standard.
    The standard setting is a lot of work for EPA to do. We in 
the academic community depend on their funds to do the research 
so that they can make good standards. We have found effects in 
50 part-per-billion range of ozone, yet the standard was 84 and 
it only got reduced to 75, yet we recommended 60 which still 
higher than we find health effects.
    The next thing is we need to correlate the air pollution 
levels by EPA monitors to the health effects we find, and we 
are finding health effects among people who live along roads, 
traffic areas, and there are very few monitors related to 
traffic, both PM and the NO<INF>X</INF> and the ozone along 
these high-traffic areas. And furthermore, schools and low- and 
moderate-income housing are built along roads so that there are 
disproportionate effects on children and the elderly.
    In addition, along the roadways there are effects now found 
from ultra fines, the very small particles, even smaller than 
the PM<INF>2.5</INF>, and these are not measured at all. And we 
need to measure these so we can go forward.
    Dr. Rom. Lastly, the EPA has the challenge of global 
climate change, and they need----
    Mr. Dicks. Tell us about your work with the European 
Respiratory Society on climate change.
    Dr. Rom. We work together with them and had a major meeting 
in Europe last year to produce a paper on the health effects of 
climate change, primarily related to heat events, but heat 
events are correlated with high ozone and high PM. So you get 
not only the heat problems but you get air pollution, and you 
have increased mortality from pulmonary----
    Mr. Dicks. So climate change causes----
    Dr. Rom. Heat waves and morality related to those events. 
There were roughly 30,000 deaths in '03 in Europe due to a heat 
wave that went from Italy across France.
    Mr. Dicks. All right.
    Dr. Rom. And last April I visited----
    Mr. Dicks. Do you have an executive summary of that report 
or is there something you could send our Committee?
    Dr. Rom. Yes, we will send that to you.
    Mr. Dicks. I would like to have that.
    Dr. Rom. And I brought with me, Global Warming, A Challenge 
to all ATS Members that you can have. Ozone, A Malady for All 
Ages, and Small Particles With Big Effects on PM. And they are 
just one page, so you can read them quickly. I will send more.
    [The statement of William Rom follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.009
    
    [GRAPHIC] [TIFF OMITTED] T0064C.010
    
    [GRAPHIC] [TIFF OMITTED] T0064C.011
    
    Mr. Dicks. We like that. All right. Thank you, sir. You did 
a good job. Mr. Simpson, do you have any questions?
    Mr. Simpson. No.
    Mr. Dicks. All right. Kateri Callahan, President of the 
Alliance to Save Energy on the EPA Energy Star Program.
    Ms. Callahan. Good morning. It is actually Kateri Callahan.
    Mr. Dicks. Kateri. Excuse me.
    Ms. Callahan. It is American Indian, so it is a little 
different.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

                        ALLIANCE TO SAVE ENERGY


                                WITNESS

KATERI CALLAHAN
    Ms. Callahan. Thank you for the opportunity to be here. I 
represent the Alliance to Save Energy which is a non-government 
organization that for 30 years has been working to advance 
energy efficiency as really, the cheapest, quickest, cleanest 
way to extend our energy supplies and to tackle global climate 
change.
    We are fortunate we were founded by sitting members of 
Congress, and we still enjoy leadership by members of Congress 
on our Board of Directors, and two of your colleagues, Mr. 
Israel and Mr. Wamp are both on our board. And so we are 
delighted to be here.
    I am here today to testify on behalf of one of the most 
successful ever partnership programs in the United States, the 
Energy Star Program. We are going to ask for a doubling in the 
budget, from $50 million to $100 million, and I know there are 
budget constraints, but we have 20 years-plus of showing that 
putting money into Energy Star actually is a proven way to pump 
money back into the economy. EPA estimates that every federal 
dollar that we spend on Energy Star results in $75 in avoided 
energy costs. And since its inception, the Energy Star program 
has driven $55 billion of investment into new climate-friendly 
technologies.
    In 2007 alone, American businesses and consumers saved $16 
billion, and we avoided electricity use equivalent to about 5 
percent of our annual consumption. And that translates not just 
in big dollar savings but also, importantly, into big emissions 
savings. We avoided the emissions equivalent of taking about 27 
million cars off the road. So it is a very, very significant 
program.
    It is a partnership program, so it involves lots of people, 
over 9,000 partners, over 1,700 manufacturing groups, almost 
1,000 retail partners representing thousands of store fronts as 
well as building owners, operators, utilities, state and local 
governments. And notwithstanding all the success of this 
program, there are vast opportunities to do more and to get 
greater savings.
    In my written testimony I detailed the following 
programmatic areas that I am just going to highlight where we 
think the added funding that we are asking for will help this 
already-successful program to do even more.
    Let's start with the home performance with Energy Star 
Program where we would like to see another $12.5 million. That 
program is to retrofit homes, insulate air duct work mostly 
around the envelope, and on average it is proven to save about 
20 percent for homeowners who make these improvements. Right 
now, due to the limited funds, it is only available in about a 
dozen different cities around the United States. With 
additional funding, we can open this program up and make it 
available to more folks that really need this kind of savings 
in their homes right now.
    We would also like to see $10 million added to expanding a 
program that actually rates building energy use. Right now EPA 
has systems for about 60 percent of the commercial office 
building space, but we could do more with that and cover 100 
percent of the types of buildings that are out there. This is 
going to be really critical because as cities, municipalities, 
institutions begin to make efficiency improvements with the 
American Recovery and Reinvestment Act money, they need these 
kind of tools to understand what can best be done in a building 
to get it to be the most efficient.
    We would also like to see $20 million go in particularly to 
development and implementation and to expand the outreach to 
state and local governments primarily. Again, when you start 
looking at the funds, there is about $26 billion in the 
American Reinvestment and Recovery Act that is going to go to 
energy efficiency programs. It is going to be largely used by 
state and local governments and by institutions, people that 
have not been doing a lot of energy efficiency work right now. 
So we want that money to be well-spent. We think that bringing 
the technical expertise, building the networks that EPA already 
has, bringing their best practices forward is a way to get that 
money invested and well-spent. Lastly----
    Mr. Dicks. Energy got most of this money.
    Ms. Callahan. That is right.
    Mr. Dicks. Could they actually use EPA----
    Ms. Callahan. They do, actually.
    Mr. Dicks [continuing]. This Energy Star program?
    Ms. Callahan. They do, and since 1996, DoE has been 
working, sometimes well, sometimes not so well, with EPA on the 
Energy Star program.
    Mr. Dicks. I would expect that they would be working better 
now.
    Ms. Callahan. They are working much better now. And also, 
the way that the money flows through the state energy offices, 
those energy offices are already networked in with EPA and 
working with them regularly. So there is a system. We just need 
to get the resources and build up the capability at EPA. But it 
is there. It is the best. It is a weak infrastructure given 
this significant amount of money that is being poured into the 
pipeline, but it is the best infrastructure system we have. And 
I think it can be ramped up more quickly than anything else.
    So I think that really sums up. In the Reinvestment Act 
there is $300 million that is given to states for Energy Star 
rebate programs. Again $3.1 billion to states to do energy 
efficiency, renewable energy projects, $3.2 billion to 
municipalities. So giving this, what I consider to be 
relatively modest sums of money to EPA to help get all this 
bigger pot of money spent wisely is very, very effective and 
good use of government funds.
    Thank you for your time.
    [The statement of Kateri Callahan follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.012
    
    [GRAPHIC] [TIFF OMITTED] T0064C.013
    
    [GRAPHIC] [TIFF OMITTED] T0064C.014
    
    [GRAPHIC] [TIFF OMITTED] T0064C.015
    
    Mr. Dicks. Thank you. Any questions? All right. Timothy 
Regan, President of Emissions Control Technology Association. 
Welcome.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

                EMISSIONS CONTROL TECHNOLOGY ASSOCIATION


                                WITNESS

TIMOTHY J. REGAN
    Mr. Regan. Good morning, Mr. Chairman. Thanks very much.
    First of all, my principal purpose here is to thank you and 
to thank the other members of the Committee and to thank the 
staff and the group for making the EPA's Diesel Emission 
Reduction Program work. It has been a success, and quite 
frankly, without your leadership, it would be a bust and it is 
not.
    Mr. Dicks. Glad to hear that.
    Mr. Regan. My name is Tim Regan. I am the President of 
Emissions Control Technology Association. I represent all the 
people that develop the technology and manufacture the products 
to clean up diesel emissions. The funding history of this 
program really dates to fiscal year 2003 when this Subcommittee 
took the lead and appropriated $5 million for the first program 
in this area called the Clean School Bus USA Program which has 
been a success, and that has been built up over time under the 
Diesel Emissions Reduction Program and it sort of peaked out 
during the recovery plan when you were kind enough to 
appropriate $300 million for the program.
    You took the leadership, you recognized the opportunity to 
achieve three noble causes. One, save jobs, two, improve human 
health, and three, make a down payment on global warming. That 
was really terrific, and I got to tell you that our people, the 
firms that I represent as well as the workers in our plants, 
really appreciate your commitment and your leadership on this.
    We also want to commend EPA. They have done a terrific job 
implementing the plan. They have been very prudent and very 
quick. They have already distributed money out to the states, 
$88 million. They have issued the notice to get applications in 
to administer the federal program, $156 million, and they are 
going to get responses by the 28th, that is next week, of 
April. So we expect the funds to be out the door by June. So 
this is really good news. It is good news at all kinds of 
levels. But we appreciate all the leadership and the 
aggressiveness with which they have administered this program.
    My second purpose today is to ask, and you know, I am going 
to ask you for full funding of the program in fiscal year 2010, 
and full funding is $200 million which is the level of the 
authorization. Now the obvious question is, you know, why 
should you be so generous to the Diesel Emissions Reduction 
Program? Good question, particularly when you are under all 
kinds of demands from other programs that are also worthy. I 
think there are six reasons.
    First of all, it will save jobs. Our industry sells into 
the auto market and into the truck market, and you know what is 
going on there. So the unemployment in our industry is seven 
times the national average.
    Secondly, it will improve human health. As we know, diesel 
exhaust is a serious threat to human health, probably the worst 
threat to human health right now, airborne threat to human 
health.
    And it also will make a down payment on global warming. 
Recent science is showing that black carbon from diesel exhaust 
is a very potent global warming agent. So to the extent we can 
reduce diesel emissions through diesel retrofits, we can make a 
down payment on the global warming problem.
    Third, DERA has proven to be very cost-effective. It has 
got a 13-to-1 payback.
    Fourth, it has got a broad base of support. In fact, we 
have folks that have endorsed the program over and over and 
over again over the years from Idaho and Washington State and 
from Ohio. In fact, DERA was originally sponsored by Senator 
Voinovich from Ohio. It has got a tremendous bipartisan 
support. It passed in the Senate by 92 to 1. And finally, it 
has been underfunded and over-subscribed. Even with all your 
generosity, we have got $600 million of authorization and about 
just a little over $400 million of appropriations. And the 
program has always had more requests than can possibly be 
funded. In fiscal year 2008, the program had about $140 million 
of requests and they only had $27.6 million to spend.
    So with all that, I want to first of all thank you for your 
generosity and for your leadership. I know budgets are tight. I 
appreciate anything you can do to approach full funding. How 
was that, quick enough?
    [The statement of Timothy Regan follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.016
    
    [GRAPHIC] [TIFF OMITTED] T0064C.017
    
    [GRAPHIC] [TIFF OMITTED] T0064C.018
    
    [GRAPHIC] [TIFF OMITTED] T0064C.019
    
    Mr. Dicks. We think this is a very good program, and our 
Committee has been very supportive up to this point, and we are 
going to have to wait and see what the President's budget is. 
But we will do the best we can. Mr. Simpson?
    Mr. Simpson. Exactly.
    Mr. Regan. Great. Thank you very much.
    Mr. Dicks. Thank you, Tim. Bill Imbergamo. I know Bill. 
Here he is. President of the American Forest and Paper 
Association.
    Mr. Imbergamo. Yes, sir. Thank you. Not president yet, 
Director of Forest Policy.
    Mr. Dicks. There are a lot of presidents here.
    Mr. Imbergamo. Yes.
                              ----------                              

                                        Thursday, April 23, 2009.  

                  AMERICAN FOREST & PAPER ASSOCIATION


                                WITNESS

BILL IMBERGAMO
    Mr. Imbergamo. Thank you, Mr. Chairman and Ranking Member 
Simpson and other members of the Subcommittee. I appreciate the 
opportunity to be here, and I also would like to thank you for 
your leadership in the stimulus and the funding that you have 
been able to provide in the stimulus legislation and the fiscal 
year 2009 supplemental bill that did a lot of funding for the 
Hazardous Fuels Reduction Program and also paid back some of 
the trust fund programs like--and Vananburg that have been 
rated by fire problems in previous years.
    AF&PA is the national trade association of the wood, paper 
and forest land industry. We employ approximately a million 
people are among the top 10 manufacturing employers in 48 
states. Unfortunately, the economic crisis has hit our industry 
a lot harder than others, and we are below a million employees 
now. We have lost 250,000 jobs or about 19 percent of our 
workforce since 2006. According to the Department of Commerce, 
the U.S. lumber production has dropped by 29 percent, imports 
have dropped by 44 percent, and you know, if you look around 
our industry, it certainly feels worse than that.
    Many actions are needed to restore the economic health of 
our industry and to preserve the remaining jobs. You have 
control over what the forest service does to help in that 
regard, and in doing so we would make the following 
recommendations.
    First, increase funding for the National Forest Products 
Program. The National Forests can play a key role in times of 
economic distress in supporting the local wood-using industry, 
and in doing so they support the ability to manage forests on 
all lands. When you lose the logging infrastructure, you lose 
the ability to add value to private timberlands and that adds 
for the pressure for conversion.
    We would like to see the Timber Sale Program be better 
integrated with the Hazardous Fuels Program and see increases 
in both of those. We are recommending a $16 million increase 
for the forest products line item, and we appreciate the 
language that this Subcommittee has included directing the 
agency to allocate the funds to regions with the most 
capability to actually meet program targets. We would urge you 
to include similar language in this year's bill.
    As I noted, we also in the past have urged the Subcommittee 
to get the Forest Service to reduce their overhead costs. Fully 
one-third of Forest Service funding for land management does 
not make it to the field. It gets absorbed in overhead in the 
Washington office. Just reducing overhead costs by 25 percent 
will put another $30 million in the field in the Forest 
Products Program alone.
    Hazardous fuels, as I mentioned, we would like to see 
better integration. We would like to see an 8 percent increase 
of $28 million, and we would urge the Subcommittee to be direct 
as possible in instructing the agency to undertake these 
treatments in forested stands using mechanical treatments that 
produce usable wood fiber for the local industry. We continue 
to be concerned about their focus on acres treated as the sole 
metric for accomplishment in this program. That tends to 
incentivize the treatment of low-priority acres repeatedly 
rather than treated forested stands. Authorities like the 
Healthy Forest Restoration Act can actually help you turn the 
corner on the fire situation and produce wood fiber at the same 
time.
    The fire program, obviously, this Subcommittee spent a lot 
of time on this year. We are pleased with your leadership on 
this, and we appreciate both of your roles as original co-
sponsors of the FLAME Act. As both of you have noted, it is not 
a perfect solution, but it is a step in the right direction. We 
simply have to do something. The agency basically loses all 
management capability around the first of June every year, 
first of July every year when fires break out.
    Private lands are also critically important, and the Forest 
Service has a smaller role on private lands, but we are urging 
continued funding for several programs, Cooperative Forest 
Health, Cooperative Fire Assistance, Forest Legacy Roads, the 
Forest Stewardship Program, and the Forest Legacy Program in 
particular. These programs help private landowners deal with 
problems that they are not equipped to handle on their own, 
insects, disease, and the pressure to convert forest to things 
that are beyond the capability of small, private landowners to 
deal with. And these lands are critically important, both for 
wildlife habitat and as a source of raw material for our 
industry.
    Mr. Dicks. Any suggestions on how to deal with forest 
fires? This is one of the biggest problems we face.
    Mr. Imbergamo. Yeah, well, and some of it is probably 
beyond the control of management as climate change is certainly 
a contributor. But you know, we have seen fire problems not be 
as bad on state lands that are fairly close by to the National 
Forests. And you know, it has to do a lot with a lack of 
management and the history of suppression. I mean, you just 
simply have more stems per acre than the rainfall can support, 
and you know, unfortunately a lot of it is very low-volume 
material, and you have got to find a way of making those two 
programs, Hazardous Fuels and Timber, work together to help 
cover some of the costs.
    Mr. Dicks. You know, in the '90s, forest firefighting, 
suppression, was 13 percent of the budget. Now it is 49 
percent.
    Mr. Imbergamo. Right. And the fires have become more 
complex because development has encroached on the forest. You 
tend to involve aerial resources on more incidents than you 
used to. What used to be a remote fire is now threatening 
subdivisions. So that is a complex problem.
    Lastly, I just briefly note the Forest Service Research 
Program, particularly Forest Inventory and Analysis. We and a 
great deal of the rest of the forestry community are supporting 
full funding of that program, $73 million. This is the Nation's 
forest census. It is key to having good data for understanding 
the potential of forests, to contribute to bioenergy and also 
understand the impact of climate change on forests. And lastly, 
the Agenda 2020 program which is a technology program that 
involves major universities, my industry, and the Forest 
Service and DoE, particularly nanotechnology and forest 
productivity research.
    So, sorry for the sprint, but appreciate the opportunity.
    [The statement of Bill Imbergamo follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.020
    
    [GRAPHIC] [TIFF OMITTED] T0064C.021
    
    [GRAPHIC] [TIFF OMITTED] T0064C.022
    
    [GRAPHIC] [TIFF OMITTED] T0064C.023
    
    Mr. Dicks. Well, you did a good job. Thank you very much.

                     QUESTION ABOUT OVERHEAD COSTS

    Mr. Imbergamo. Thank you, sir.
    Mr. Dicks. Any questions? Mr. LaTourette?
    Mr. LaTourette. Your observation about the overhead 25 
percent, a lot of people talk about fat overhead. Can you just 
expound on that? Do you think they are wasting 25 percent?
    Mr. Imbergamo. I am not going to say that. I think they 
have a lot of complex management structures. The Forest Service 
historically has been a field agency, and the strength is at 
the forest level. The complexity of the financial management of 
the agency has grown. We have not seen the savings from the 
creation of the Albuquerque Service Center that were promised, 
to put it mildly. It is hard to say what would cause it to turn 
around other than firm direction from the Subcommittee, 
possibly a cap on the amount of money that can be used for 
overhead.
    Mr. LaTourette. Well, that kind of stuff makes me nervous 
because it costs what it costs. But if you have some specific 
observations about the overhead of this particular agency, if 
you can forward those in writing to the Committee, I would 
appreciate it.
    Mr. Imbergamo. Yes, sir.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Dicks. Thank you. All right. Next we are going to have 
Jeff Corwin, Defenders of Wildlife, and the host of Animal 
Planet. Thank you for being here.
                              ----------                              

                                        Thursday, April 23, 2009.  

                         DEFENDERS OF WILDLIFE


                                WITNESS

JEFF CORWIN
    Mr. Corwin. Thank you very much. Mr. Chairman, Mr. Simpson, 
Mr. LaTourette, it is an honor to be able to appear before you 
today. I am Jeff Corwin, and I am here on behalf of Defenders 
of Wildlife.
    For more than 7 decades, Defenders has been in the front 
lines of conservation fighting to protect our Nation's wildlife 
habitat and natural resources. I am very proud to be one of 1 
million members of this incredibly important organization.
    For nearly 14 years I have worked as a wildlife biologist, 
producer and host for a dozen of television series ranging from 
networks from Discovery and Animal Planet to NBC. Presently I 
am working on a documentary and a book with MSNBC called 100 
Heartbeats. We are traveling around the world documenting our 
planet's most endangered species, some of which are within 100 
individuals away from extinction. So we are looking at this and 
also looking at the heroes of conservation trying to save these 
life forms.
    Over the years, my work has allowed me to witness some of 
nature's most awe-inspiring spectacles. We have traveled next 
to a thundering herd of wildebeests, within a million animals 
strong. Just 2 weeks ago we helped liberate a California condor 
that was recovering from lead poisoning. And we have witnessed 
the discovery of new species which for me as a biologist is 
pretty remarkable to see something new be discovered. On our 
programs in HD you can actually see species that are now 
extinct in the wild that I have held in my hands and I have 
talked about that no longer exist.
    The adventures that I have had to tell the stories of our 
planet's wildlife have been exhilarating and humbling, but more 
importantly, they have allowed me to see first hand the impact 
that we are having on this amazing planet and the diverse 
creatures that share it with us. In 2007, while co-hosting 
Planet in Peril for CNN, we featured a Cambodian rain forest 
that had been rendered eerily silent, nearly every creature 
gone, as a result of unsustainable exploitation. Just last 
spring I was in the arctic filming the iconic polar bear whose 
habitat was literally melting away before our cameras. Before 
that, I traveled around the world documenting the plight of our 
planet's amphibians. There are 6,000 amphibians on our planet 
today. It is estimated that we will lose half of them because 
of a deadly fungus called chytrid. And of course, amphibians 
are considered to be the ultimate indicators of the 
environment's health. Unnatural extinction of life on earth 
today has reached such a catastrophic state that we may be 
losing a species every 20 minutes, and this extinction is 
basically the result of a perfect storm fueled by habitat loss, 
environmental degradation, species exploitation, and of course, 
climate change.
    As for climate change, you do not have to go to the ends of 
the earth to discover its devastating impact on wildlife. In 
the Rocky Mountains, for example, there is this very 
fascinating charismatic rodent, a mammal, called a pica, and 
this creature only lives at high altitudes. And it is on the 
brink of extinction. The reason why is that the pica can only 
survive in temperatures less than 75 degrees. So with nowhere 
else to go, the pica could be one of the first species in our 
country to become extinct because of climate change. And this 
is just one example of many of the wild species, ranging from 
migrating water fowl to wolverines which are at the risk of 
extinction due to climate change.
    Mr. Chairman, I was filming in Washington recently, and one 
of the stories we wanted to look at are wolverines. This is a 
creature that can drive a grizzly bear off to kill but it 
cannot survive climate change.
    Beyond wildlife, commercial fisheries including salmon, 
shrimp, oysters, essentially our entire seafood industry are in 
grave jeopardy. Mr. Chairman, I worry deeply about what kind of 
world awaits my two young daughters if we fail to address these 
threats. The sad fact is that despite our efforts, our children 
will inherit a world that will be in a state of ecological 
crisis. Your leadership in the last Congress in creating and 
funding the National Climate Change and Wildlife Science Center 
at the U.S. Geological Survey is an important commitment to 
this serious issue, and I urge you to continue the support 
which will foster a national strategy to combat the impact of 
global warming.
    But this is only the start. I am here today to ask you to 
commit 5 percent of the revenue from the new global warming 
cap-and-trade legislation to safeguard our natural resources 
from the devastating impact of global warming. These are 
exhilarating and challenging times that we live in, and we are 
truly depending upon you for the leadership, resources, and 
guidance to ensure that we meet these challenges head on. Thank 
you very much.
    [The statement of Jeff Corwin follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.024
    
    [GRAPHIC] [TIFF OMITTED] T0064C.025
    
    [GRAPHIC] [TIFF OMITTED] T0064C.026
    
                       DISCUSSION ON OCEAN ISSUES

    Mr. Dicks. Well, thank you very much. I appreciate your 
statement, and we are very concerned about this. You mentioned 
the impact on the oceans. Ocean acidification I think is one of 
the most serious issues, too much CO<INF>2</INF> getting into 
the ocean, making it more acidic and affecting coral and 
shells, anything with a shell on it, in a very negative way. 
And we are fortunate, the new administrator of NOAA, Jane 
Luchenko, is an expert on this. I have been talking to her 
about it.
    But this is one of the most immediate threats.
    Mr. Corwin. In addition, the rising sea levels and warming 
seas, coral bleaching is a huge problem. We have corals dying 
through many of our tropical seas.
    Mr. Dicks. And it gets through the whole food chain at some 
point, too. You know, the whole phytoplankton.
    Mr. Corwin. Absolutely.
    Mr. Dicks. All these different things.
    Mr. Corwin. Just yesterday I was filming the North American 
red wolf. There are only 100 animals of these left. That is it, 
only 100 red wolves living in North America.
    Mr. Dicks. And we have the captive breeding program in 
Tacoma.
    Mr. Corwin. Absolutely.
    Mr. Dicks. And we have been working with Congressman Shuler 
on it, and you know, we have reintroduced them in North 
Carolina.

                       IMPACTS OF CLIMATE CHANGE

    Mr. Corwin. But where they live in North Carolina which is 
the Alligator River National Wildlife Refuge, I mean, is at 
very high risk because of rising sea levels.
    Mr. Dicks. And we had hearings before our Committee. We 
brought in all the federal land agencies. Every one of them 
testified about various things they see already, especially 
drought, bug infestation, rising seas. This could have an 
incredible effect on the Everglades, first of all. And you 
know, think of all the people who live in New York and other 
cities right on the ocean, like Seattle, Washington, for 
example. It is going to affect everybody.
    Mr. Corwin. And you go north to Alaska, it is very 
interesting, which we have documented, is that for example, 
birds have a particular way they migrate. So migratory birds 
are going to Alaska, they have gone these incredible journeys, 
the insects that they feed upon are recovering to temperature 
change. So the insects are emerging before their predators can 
arrive to feed. That is just sort of one example of how the 
links connect.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. I think you said it all.
    Mr. Dicks. Mr. LaTourette.
    Mr. LaTourette. Can you just spell chytrid for me?
    Mr. Corwin. The term is chytridiomycosis, but you can call 
it chytrid.
    Mr. LaTourette. I will tell you what, just do chytrid for 
me.
    Mr. Corwin. It is c-h-y-t-r-i-d. It is a devastating 
fungus. You know, amphibians are so important. We use them in 
medicine, they are indicators of environmental health, and I 
literally just filmed a few months ago a species of frog and we 
picked it up. It was very small. And we looked at it, and I 
said to the guys working with me, so what do you think is the 
big deal about this? And he looked at me and said, it is the 
last one.
    Mr. Dicks. Thanks. Mr. Chandler.
    Mr. Chandler. Mr. Chairman, I just want to say that the 
whole thing is just mind-boggling. There is no shortage of 
places where you find problems. The list of problems is 
extremely long. The thing that worries me as much as any is the 
threat to the plankton from ocean acidification. That is an 
incredible problem, but it is just one of a very, very, very 
long list. And I thank you for sharing your information.
    Mr. Corwin. Thank you very much.
    Mr. Dicks. All right. Next we are going to have Ashley 
Judd, a very famous actress but also a leader on environmental 
issues also testifying on behalf of Defenders. We are very glad 
to have you here. I still remember you in Double Jeopardy which 
was filmed partly in Washington State, using the Washington 
State Ferry System and the San Juan Islands. It was a very 
scary movie.
    Ms. Judd. I hope you are frightened now.
    Mr. Dicks. I am frightened.
    Mr. Chandler. Mr. Chairman----
    Mr. Dicks. I also want to note, Mr. Chandler and Mr. 
LaTourette arrived at the appropriate time.
    Mr. Chandler. There is one other very, very important thing 
to know, though, is where Ms. Judd is from.
    Mr. Dicks. It has got to be Kentucky.
    Mr. Chandler. You got it.
    Mr. Dicks. Whereabouts in Kentucky?
    Mr. Chandler. Ashland.
    Mr. Dicks. That is wonderful.
    Ms. Judd. Well, I am sure----
    Mr. Dicks. We are not going to count that on your time, 
either.
    Ms. Judd [continuing]. That Congressman Chandler arrived 
slightly tardy because you were doing something clever and 
magnificent to bring green collar jobs to eastern Kentucky and 
to fight mountaintop removal coal mining.
    Mr. Dicks. Well, he is our leader on that.
    Ms. Judd. So your timing is impeccable.
    Mr. Dicks. He has taken me out there to give me a first-
hand briefing on that subject.
    Ms. Judd. Good. Good. I would love to chat with the water 
guy because we certainly have a lot of water damage in eastern 
Kentucky related to that travesty, and that is for another 
hearing and another committee.
                              ----------                              --
--------

                                        Thursday, April 23, 2009.  

                         DEFENDERS OF WILDLIFE


                                WITNESS

ASHLEY JUDD
    Ms. Judd. Mr. Chairman, thank you very much, Ranking 
Member, and members of the Subcommittee. I am very delighted to 
have the opportunity to testify before you this morning, and as 
has been stated, I am Ashley Judd. I am an actor as well as a 
very strong conservation advocate, also appearing as Jeff did 
on behalf of Defenders of Wildlife with whom I am very pleased 
to be associated. And I have heard you all are a clever bunch, 
and so I assume you have deduced I am not a scientist, and I do 
not pretend to be an expert on these matters. But I am, 
however, an American who is profoundly grateful for our vast 
and varied land and very concerned by the direction in which we 
are headed.
    I have on my bucket list to visit every single National 
Park, and I am well on my way to achieving that goal. I also 
dream of hiking the whole of the Appalachian Trail, all 2,000-
plus miles, and I am very committed to improving conservation 
on our own farm in America in Tennessee as well as in Scotland. 
My husband happens to be Scottish. My favorite time spent alone 
with him in knee-to-waist deep in creek beds working on stream 
mitigation projects, and I think I have more pictures of us 
bent over than I do of us standing up straight. And I also know 
more about 17th century Scottish agricultural irrigation and 
drainage than I ever thought possible. So hopefully that 
demonstrates, too, that I am very serious about the natural 
habitats on our farm and restoring them the best I can.
    A short list of my recent projects includes, and this is 
just winter '08 and '09 alone, planting over 1,000 native 
species trees, including two biodiverse orchards. I have just 
started two beehives to help offset colony collapse in our area 
which has already cost the Tennessee area tens of millions of 
dollars in revenue, not to mention the very dangerous shortfall 
of agricultural products. And we take great care and concern 
and love in creating ideal conditions for wildlife.
    So I have had the great good fortune as was noted to be 
raised in eastern Kentucky in particular as well as in 
Tennessee and California, states that are blessed with stunning 
diverse and productive landscapes. And those landscapes, 
especially the mountains, have absolutely shaped my values. And 
I am deeply disturbed that in an era of global warming, 
evidence of which we experience on our own farm and have for 
quite a few years now, future generations of Americans while 
our population continues to increase, will have fewer resources 
upon which to draw, and as a result, their opportunity shall be 
less than ours.
    Some folks would have us believe that protecting the 
environment is a luxury, a luxury that should be put aside in 
these tough economic times. However, I believe that is patently 
false as well as short-sighted. Certainly none of us here today 
would consider clean water or air a luxury or abundant 
fisheries, healthy forests and safe places to call home a 
luxury. And as President Obama himself has said, with smart 
policies, we can grow our economy today and preserve the 
environment for ourselves, our children, and our grandchildren. 
And I really am very excited in particular about the green 
collar job corps that has been started and is being headed by 
the great and good Van Jones.
    I thank this Committee for the steps you have taken to date 
to address the impacts of global warming on our Nation, 
particularly by the formation of the Federal Global Warming 
Science Center that will direct the new Administration to 
develop a comprehensive national strategy to save wildlife and 
natural resources during this era of global climate change.
    Adequately addressing what is the greatest conservation 
challenge of our time will require long-term investments that 
can only be realized through a new, dedicated funding strategy, 
which is why I am here on Capitol Hill today to call upon 
Congress to dedicate 5 percent of the revenue from the new 
global warming cap-and-trade legislation to fund and to 
safeguard wildlife and ecosystem restoration and preservation 
from a warming world. And Mr. Chairman, I thank you very much 
for your support on this issue.
    We will all need to work together to address the 
overwhelming and disturbing impacts of global warming on 
wildlife and our incalculably invaluable, say that three times, 
precious national heritage. That means the Federal Government 
will naturally have to work hand in hand with the states, 
tribes, and others to ensure that there will be appropriate 
funding resources for states and tribal wildlife grant 
programs.
    In addition to being a very proud hillbilly, I am part 
native. I walked in and I thought the creator had that just for 
me, definitely from the Pacific Northwest, and empowering my 
ancestral tribe and others as well as the states will certainly 
allow us to do a better job of protecting and preserving our 
proud conservation heritage, what we call in the evangelical 
Christian community, creation care.
    In closing, I ask you to commit 5 percent of the revenue 
from new global warming cap-and-trade legislation to fund 
safeguard wildlife and ecosystem resilience from a warming 
world. I simply cannot imagine anything more important that we 
could leave to future generations. This is a terribly important 
legacy. Thank you, Mr. Chairman.
    [The statement of Ashley Judd follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.027
    
    [GRAPHIC] [TIFF OMITTED] T0064C.028
    
                   POTENTIAL CAP-AND-TRADE DISCUSSION

    Mr. Dicks. Well, thank you, and I appreciate your support 
for our efforts at the U.S. Geological Survey. Defenders has 
played a role in helping us with that. The 5 percent--you know, 
we have been talking to the Administration about that, and I 
hope we can work with the leadership in the House of 
Representatives and the Senate to put that into place. Now, we 
are going to need a lot of support to get that done. But I 
think it is justified. And as I said, we have had hearings 
already and as you said about your farm, all the public lands 
are seeing impacts of global warming already. I think it is the 
biggest challenge we have ever faced.
    Another person from Tennessee, my classmate, Al Gore, has 
done great work on this, and all of us from that class I think 
believe this is a real threat to the planet.
    So we have to get this under control. It is going to be, I 
think, the biggest challenge we have ever faced. So, Mr. 
Simpson?
    Mr. Simpson. I just say the 5 percent probably is not as 
problematic as the cap-and-trade legislation itself. That is 
the real issue, and that will be obviously hotly debated, 
whether it is the right approach to take to address a problem 
we all realize is a problem. I do not think anybody with a 
right mind denies that there are global warming issues. The 
debate about what we can do, what we should do, et cetera, is 
really the debate that is going on and how we address it.
    So I appreciate your statement, and thanks for being here 
today.
    Ms. Judd. Thank you, and I appreciate hearing you say that 
about the 5 percent because annual appropriations and their 
unpredictability and wild fluctuations----
    Mr. Simpson. You mean we are unpredictable?
    Mr. Dicks. Stability changes with Administrations, okay? We 
have been hard hit, you know. Interior has been cut by 16 
percent, EPA by 29 percent, Forest Service by 35 percent.
    Mr. Simpson. Should I say during the past administration?
    Mr. Dicks. He always brings this up to me. Over the last 8 
years, okay?
    Mr. Simpson. But I love him bringing it up. I do not deny 
the reality.
    Mr. Dicks. Any other questions? Mr. Chandler.
    Mr. Chandler. I just want to thank you, Ashley, for using 
your time and your fame for an issue as crucial as this. I am 
glad that you feel that way, and I thank you.
    Ms. Judd. I like to work on behalf of exploited creatures, 
whether they are disempowered girls and women abroad or the 
wild things and ecosystems here at home.
    Mr. Chandler. I am afraid we may all be in that category 
soon.
    Ms. Judd. Thank you very much.
    Mr. Dicks. Mr. LaTourette.
    Mr. LaTourette. No.
    Mr. Dicks. Thank you very much. I appreciate it. All right. 
Ramona Trovato, Chair of the Children's Environmental Health 
Network.
    Ms. Trovato. Yes, thank you. Good morning.
    Mr. Dicks. Welcome.
    Ms. Trovato. Thanks.
                              ----------                              

                                          Thursday, April 23, 2009.

                CHILDREN'S ENVIRONMENTAL HEALTH NETWORK


                                WITNESS

E. RAMONA TROVATO
    Ms. Trovato. Thank you for the opportunity to testify this 
morning. I am interested in the fiscal year 2010 appropriations 
for the U.S. EPA. I am Ramona Trovato. I am a volunteer, Board 
Chair, of the Children's Environmental Health Network, and I 
was formerly the Director of the Office of Children's Health 
Protection at EPA.
    The Children's Environmental Health Network is requesting 
funding to support U.S. EPA's efforts to protect and promote 
children's health by reducing their exposure to environmental 
hazards. The network is a national organization whose mission 
is to promote a healthy environment and to protect the fetus 
and child from environmental health hazards.
    The world in which today's children live has changed 
tremendously from that of previous generations. EPA estimates 
that there are more than 83,000 industrial chemicals currently 
produced or imported into the United States. Every day children 
are exposed to a mix of chemicals, most of them untested for 
their effects on developing systems.
    We ask you to fund the following key programs and offices 
in order to protect kids. The Office of Children's Health 
Protection is the leader within the U.S. EPA and is a catalyst 
across the Federal Government. Funding for the Office of 
Children's Health Protection has fallen from a high of $6 
million down to around $3 million. We strongly urge the 
Committee to provide additional resources to the office 
dedicated to kids' health.
    The Children's Environmental Health Research Centers of 
Excellence play a key role in providing the scientific basis 
for understanding the environmental hazards and their affect on 
children. Unfortunately, almost all of the existing 12 centers 
are operating on no-cost extensions. We urge the Committee to 
appropriate at least $15 million for EPA's share of funding to 
match the NIEHS contribution to fund these centers. The 
University of Washington has one of these centers in Seattle 
studying ag pesticide effects on farm children.
    The National Children's Study is a landmark longitudinal 
cohort study that will form the basis of child health guidance, 
interventions and policy for generations to come. There are 
many study centers. One is in Bear Lake County, Idaho, and one 
is in Grant County. The network urges the Committee to fund EPA 
for its support of the National Children's Study which is led 
by HHS. We are suggesting $1 million to help EPA play a role in 
this very important study.
    There are Pediatric Environmental Health Specialty Units in 
each of the 10 federal regions. They provide quality medical 
consultation to healthcare professionals, parents, caregivers, 
patients, and communities about environmental health issues. 
Most physicians and healthcare providers are not trained on 
environmental health issues, and this gives all of them a place 
to turn and experts to consult.
    Last year the Pediatric Environmental Health Specialty 
Units received only $120,000 each. We urge you to raise that to 
$200,000 per center.
    Finally, I would like to talk about schools and child care 
centers. They are absolutely critical, and it is absolutely 
critical to children's achievement to be in a healthy 
environment. Twenty percent of the U.S. population, that is 
about 54 million children and 7 million adults, go to school 
every day. Thirteen million preschoolers, our youngest kids, 60 
percent of them, are in child care. Unfortunately, many of the 
Nation's public and private K through 12 schools have 
environmental conditions that can harm children's health, 
undermine attendance, achievement and productivity. No data at 
all exists on the conditions in child care centers. The last 
time a study was done was in 1996 by GAO, and they are the ones 
who identified this problem.
    We urge the Committee to appropriate $10 million to EPA 
under the Healthy Schools Provisions of the High Performance 
Green Buildings Act. This statute authorizes EPA to create 
federal guidelines on school siting and school environmental 
health programs, as well as authorizing an important study of 
the impacts of green schools on the health of children and 
communities. The U.S. EPA programs will be vital in helping the 
Department of Education in ensuring that schools will be made 
healthier as they are renovated and modernized with stimulus 
funds. Sometimes you can renovate and modernize and become more 
energy efficient and become less healthy, and EPA's expertise 
in this area would be very helpful to the Department of 
Education in making sure schools are healthier places.
    Millions of preschoolers enter child care----
    Mr. Dicks. Are there standards for that?
    Ms. Trovato. There are not.
    Mr. Dicks. No standards by EPA?
    Ms. Trovato. No standards for healthy schools, no. And OSHA 
does not apply.
    Mr. Dicks. Should there be?
    Ms. Trovato. I think there should be. And OSHA does not 
apply in schools. OSHA only applies if your job is to use a 
hazardous chemical, so teachers and children are typically not 
covered by OSHA, either.
    Millions of preschoolers enter childcare as early as six 
weeks of age and can be in child care for more than 40 hours 
per week. Yet, little is known about the environmental health 
status of our child care centers. We ask the Committee to 
direct EPA to report on their activities with child care 
centers and to assess the need to protect children from 
environmental hazards in child care centers.
    In conclusion, investments in programs that protect and 
promote children's health will be repaid by healthier children 
with brighter futures, an outcome we can all support.
    Mr. Dicks. We had a problem with trailers----
    Ms. Trovato. We do.
    Mr. Dicks [continuing]. That have--what is the material? 
Formaldehyde.
    Ms. Trovato. Formaldehyde or off-gassing.
    Mr. Dicks. Is formaldehyde a problem with these schools, 
too? Because some of them, they use, what do they call them?
    The Clerk. Temporaries.
    Mr. Dicks. Temporaries.
    Ms. Trovato. Yes, the temporaries are a problem, and the 
school facilities are a problem themselves because there are 
chemicals that are used to clean the school. And you can use 
green chemicals, but we do not often do that. There is the 
pesticides used within the schools, and typically schools are 
sprayed every week or every other week, regardless of whether 
there is a pest problem.
    Mr. Dicks. And there are some people who have a special 
sensitivity.
    Ms. Trovato. There are. There definitely are.
    Mr. Dicks. You know, maybe 95 percent of the people can be 
in that room and not have an impact, but the 5 percent that do, 
and sometimes this could be----
    Ms. Trovato. Very serious.
    Mr. Dicks [continuing]. Very serious.
    Ms. Trovato. Very serious. And in addition, there is just 
leaky roofs can be a serious problem because the roofs leak, 
the tiles get wet and it grows mold.
    Mr. Dicks. And mold.
    Ms. Trovato. People are allergic to mold. So in some 
cases----
    Mr. Dicks. Do any states have good programs?
    Ms. Trovato. Yes, a number of states have very active 
programs. Minnesota has a really good program, New York State 
has some good programs, Maryland has implemented a healthy 
school, green schools, program. Most of these programs focus on 
green cleaning or building green schools. The difficulty comes 
when you want to renovate or modernize existing schools that 
have problems. That is where there is not a lot of money, and 
it is costly to do it. But that is where most of the kids are 
in school is in these existing buildings. And so we would like 
to see some help given, some money given, to EPA so they can 
work on the environmental health issues. The Department of 
Education's expertise is in education. EPA's expertise along 
with the Centers for Disease Control is in the area of 
environmental health. And that is where a lot of these issues 
are coming to the fore, is in those area. So this money that 
has been authorized to EPA, if you could appropriate it, it 
will make a big difference in helping to figure out how to 
build green schools, how to site schools, and to give greater 
information on how to make schools healthier.
    EPA does have a Healthy Schools Program, and Tools for 
Schools and Healthy Seat which are used by a number of states, 
but there are about 23 states right now that have one type or 
another program to make a school healthier. And they are very 
different from state to state.
    Mr. Dicks. And there are no federal standards?
    Ms. Trovato. There are no federal standards. There are 
none.
    So what we are asking you is to provide resources to EPA to 
protect kids, and secondly to direct EPA to make sure that all 
of its activities and programs, and everybody who has testified 
before you today has come forward with worthy requests, and any 
number of them would protect kids. It is just that it would be 
great if you could EPA to actually have all those programs 
specifically consider and protect children because that is not 
always the case. In fact, the only law where children are 
absolutely required to be considered is the Food Quality 
Protection Act. And under the Safe Drinking Water Act, they are 
considered as a subpopulation. But other than that, they are 
not specifically considered as a life stage and important. So 
there are regs, guidelines, science policies, assessments and 
research, and if EPA could consider them kids in all of those, 
it would be a great step forward. Thank you so much. I really 
appreciate the time.
    [The statement of Ramona Trovato follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.029
    
    [GRAPHIC] [TIFF OMITTED] T0064C.030
    
    [GRAPHIC] [TIFF OMITTED] T0064C.031
    
    [GRAPHIC] [TIFF OMITTED] T0064C.032
    
    Mr. Dicks. Are there any questions?
    Mr. Simpson. It seems if we just declared kids a hazardous 
substance----
    Ms. Trovato. Oh, my goodness. Sometimes they are, are they 
not?
    Mr. Simpson. Yes, EPA could take care of that and OSHA and 
everybody else. I just want you to know that it was not because 
your testimony that our room emptied.
    Ms. Trovato. I know. It was terrible to have to follow two 
luminaries.
    Mr. Simpson. You did a fine job.
    Ms. Trovato. Thank you very much.
    Mr. Dicks. You did well.
    Ms. Trovato. Thanks. Bye-bye. Thank you.
    Mr. Dicks. Dr. Craig M. Schiffries, Director for Geoscience 
Policy, Geological Society of America.
                              ----------                              

                                          Thursday, April 23, 2009.

                     GEOLOGICAL SOCIETY OF AMERICA


                                WITNESS

CRAIG M. SCHIFFRIES
    Mr. Schiffries. Mr. Chairman, Ranking Member Simpson, and 
members of the Subcommittee, thank you for the opportunity to 
testify today. My name is Craig Schiffries. I am the Director 
of Geoscience Policy for the Geological Society of America.
    The Geological Society of America urges Congress to 
appropriate $1.3 billion for the U.S. Geological Survey in 
fiscal year 2010. The USGS is one of the Nation's premiere 
science agencies. It addresses many of the Nation's greatest 
challenges including energy and mineral resources, climate 
change, water resources, and natural hazards. The new for USGS 
science and information in these and other areas has increased 
dramatically as its budget has stagnated in real dollars for 
more than a decade.
    The USGS is a unique combination of biological, 
geographical, geological and hydrological programs that enable 
it to address the interdisciplinary research challenges that 
are beyond the capabilities of most other organizations. The 
need for USGS science and information have never been greater. 
Quite simply, the USGS benefits every American every day. The 
Geological Society of America supports strong and growing 
investments in the U.S. Geological Survey.
    As you know, science and technology are engines of economic 
prosperity, environmental quality, and national security. The 
earth sciences are critical components of the overall science 
and technology enterprise, and the USGS is a cornerstone of the 
earth science enterprise.
    It is critically important to significantly increase 
funding for the USGS to meet challenges posed by human 
interactions with earth's natural systems in order to help 
sustain these natural systems and the economy. Additional 
investments in the USGS are necessary to address many of the 
Nation's greatest challenges, and today I would like to focus 
on just four examples, first, natural hazards; second, energy 
and mineral resources; third, water resources; and fourth, 
climate change.
    Natural hazards such as earthquakes, tsunamis, volcanic 
eruptions, floods, and droughts remain a major cause of 
fatalities and economic loss. The USGS provides an improved 
scientific understanding of geologic hazards that will reduce 
future losses through better forecasts of their occurrence and 
magnitude. Ongoing volcanic activity in Alaska and ongoing 
flooding in North Dakota illustrate the value of robust natural 
hazards monitoring systems and the need for increased federal 
investments in the USGS. Alaska and the Pacific Northwest need 
volcano hazard monitoring provided by the USGS just as surely 
as the Gulf Coast needs hurricane monitoring provided by other 
federal agencies. More than 36 states----
    Mr. Dicks. And interestingly, we still are not there in 
terms of having all the equipment in place that USGS has 
suggested.
    Mr. Schiffries. That is absolutely correct. A volcano 
erupted explosively on March 22 of this year, and it has had a 
series of explosive events that have sent volcanic ash more 
than 50,000 feet into the air. More than 20,000 passengers 
travel through the airspace affected by the volcano. The USGS 
provided advance warning of this explosive volcanism. Interior 
Secretary Salazar said the USGS was able to accurately forecast 
this event and prevent the endangerment of people and places 
that otherwise would have occurred. When the Redoubt volcano 
erupted in 1989, a Boeing 747 aircraft flew through a cloud of 
volcanic ash and lost power to all four engines. After 
plummeting more than 14,000, the crew restarted the engines and 
safely landed the plane. The volcanic ash caused more than $80 
million in damage to the plane but no lives were lost. 
Improvements in USGS volcano hazard monitoring since that time 
have dramatically reduced that risk.
    As you know, the ongoing floods in North Dakota and 
surrounding areas led President Obama to sign major disaster 
declaration for North Dakota on Mach 24 of this year. Flood 
waters had exceed 40 feet in Fargo and may exceed records 
levels in nearby areas. Stream gauge networks operated by the 
USGS are essential for issuing flood warnings. Although other 
agencies might issue the warnings, the warnings are based on 
USGS stream gauge data.
    Energy and mineral resources are critical to the function 
of society and to national security and have positive impact on 
local, national, and international economies and our quality of 
life. These resources are often costly and difficult to find, 
and new generations of geoscientists need the tools and 
expertise to discover them. In addition, management of their 
extraction, use, and residue disposal requires a scientific 
approach that will maximize the derived benefits and minimize 
the negative affects. The USGS provides improved scientific 
understanding of these resources that will allow for their 
better management and utilization while at the same time 
considering economic and environmental issues.
    The availability and quality of surface water and ground 
water are vital to the well-being to both society and 
ecosystems. Greater scientific understand of these critical 
resources is necessary to ensure adequate and safe water 
resources in the future. The USGS is the lead agency in 
understanding the quantity and quality of the Nation's fresh 
water resources. Forecasting the outcomes of human interactions 
with earth's natural systems, including climate change, is 
limited by an incomplete understanding of geologic and 
environmental processes. Improved understanding of these 
processes in earth's history can increase confidence in the 
ability to predict future states and enhance the prospects for 
mitigating or reversing adverse impacts for the planet and its 
inhabitants. The USGS complements other federal agencies in 
conducting research on climate change and provides unique 
perspective based on evidence from deep time that is gained by 
studying the geologic record.
    The USGS should be included as a component of broader 
initiatives to increase overall public investments in science 
and technology. For example, implementation of the America 
Competes Act, which authorizes a doubling of the budgets of key 
science agencies in about seven years, should encompass the 
U.S. Geological Survey.
    President Obama has not submitted his fiscal year 2010 
budget request for the U.S. Geological Survey, and therefore we 
are unable to comment on the specifics of his budget proposal 
at this time. But the 2010 budget request comes at a critical 
juncture in the history of the USGS. From 1996 to 2008, funding 
for the USGS declined by 1 percent while total federal funding 
for R&D increased by 54 percent in real dollars. The decline in 
funding for the USGS during this time period would have been 
greater if Congress had not repeatedly restored proposed budget 
cuts. The USGS budget declined in real dollars for six 
consecutive years from fiscal year 2003 to 2008. In real terms, 
funding for the USGS is at its lowest level since 1997, the 
year after the National Biological Service was integrated into 
the U.S. Geological Survey.
    The Geological Society of America joins with the USGS 
coalition and other organizations in recommending an 
appropriation of $1.3 billion for the USGS fiscal year 2010. 
This budget would enable the USGS to address a growing backlog 
of science needs that has resulted from stagnant real budgets 
for more than a decade, accelerate the timetable for deployment 
of critical projects, and launch science initiatives that 
address new challenges.
    Mr. Chairman, the Geological Society of America is grateful 
to you and the Subcommittee for your past leadership in 
increasing the budget for the U.S. Geological Survey. We are 
grateful to the Subcommittee for its leadership in providing 
$140 million in stimulus funds for the USGS, and we urge you to 
appropriate $1.3 billion for the USGS in fiscal year 2010. 
Thank you for your consideration of our request.
    [The statement of Craig Schiffries follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.033
    
    [GRAPHIC] [TIFF OMITTED] T0064C.034
    
    [GRAPHIC] [TIFF OMITTED] T0064C.035
    
    [GRAPHIC] [TIFF OMITTED] T0064C.036
    
    Mr. Dicks. Thank you for your testimony. Mr. Simpson.
    Mr. Simpson. Thank you.
    Mr. Dicks. Thank you. Mr. LaTourette. All right. Thank you 
very much. Alan Front, Senior Vice President, The Trust for 
Public Lands. Alan, you have been up there waiting patiently. 
Thank you.
    Mr. Front. Not patiently. This has been inspiring so far.
    Mr. Dicks. Well, it has been.
    Mr. Front. It really has been.
    Mr. Dicks. It has been a good day.
    Mr. Front. Another great hearing, Mr. Chairman.
    Mr. Dicks. Thank you.
    Mr. Front. And it will not surprise you that I am here to 
thank you, Mr. Chairman, Mr. Simpson, Mr. LaTourette, other 
members of the Subcommittee, to express my real deep and 
sincere thanks for what you have done, what you have been able 
to do in the fiscal year 2009 bill and previously to invest in 
land conservation and public lands and to express my hope as 
well that I will be able next year to offer my even deeper and 
more sincere appreciation for some----
    Mr. Dicks. So it is what have we done for you lately, Alan?
    Mr. Front. You put it crassly, Mr. Chairman, but----
    Mr. Dicks. I know you guys have a very short memory.
    Mr. Front. We have a long memory and real deep----
    Mr. Dicks. A long memory----
    Mr. Front [continuing]. Great appreciation, truly. And this 
is about numbers, but of course, it is more than a numbers game 
when we talk about what Secretary Salazar terms our treasured 
landscapes. It is about natural and recreational, cultural 
landscapes, the fabric of America, the places that people care 
about that reflect the spirit of this nation and the priorities 
of its communities. It is about not just the cold numbers, but 
it is about wetland protection, it is about upland protection, 
park lands and forest lands that people care about that 
actually provide real solutions to climate change in terms of 
both adaptation and carbon sequestration. Fourteen percent of 
the carbon that is churned out in America is recaptured by 
America's forests.
    And so there is a many-tentacled benefit to the land 
conservation you have been investing in, again, with, honestly 
Mr. Chairman, real appreciation.
    Mr. Dicks. Thank you.

                                          Thursday, April 23, 2009.

                       THE TRUST FOR PUBLIC LAND


                                WITNESS

ALAN FRONT
    Mr. Front. My written statement details some numbers and 
some reasons behind those numbers. I will sum them up briefly 
here. This year we respectfully request increases as will the 
Administration we believe and as will a number of witnesses who 
will follow me, increases in several conservation programs. 
Specifically, The Trust for Public Land asks you to consider a 
$325 million investment side of the Federal Land and Water 
Conservation Fund; $125 million--
    Mr. Dicks. Three hundred twenty-five?
    Mr. Front. Three hundred twenty-five for the federal side 
of the funds, sir; $125 million for the state side of the Land 
and Water Conservation Fund; $125 million each for the Forest 
Legacy Program and for the Cooperative and Endangered Species 
Account under the Fish and Wildlife Service; $85 million for 
the State and Tribal Wildlife Grant Program; $50 million for 
the North American Wetland Conservation Account; and in what 
will seem like a small cherry on top of that conservation 
funding sundae, at least $10 million to kick off the new 
Community Forest and Open Space Conservation Program that was 
authorized in last year's Farm Bill.
    Taken together, that sounds like a laundry list and an 
awful lot of money, but it actually is I think directionally 
consistent with what we will see coming from the Administration 
in its request when they do their detailed budget in a couple 
of weeks. It also is extremely consonant, it rhymes like eggs, 
with figures that this Subcommittee has been able with your 
leadership to generate in past years. And in fact, it is a 
relatively modest investment, almost a short sheet investment, 
compared, Mr. Chairman, to what you were able to craft a decade 
ago in what then was officially termed the Conservation 
Spending Category and which outside of these hallowed halls is 
rudely called CARA Light, a phrase that I promised I would 
never utter in this room, so I apologize.
    There is a lot that has changed over these last 10 years 
since you crafted that watershed agreement, Mr. Chairman. For 
starters, I had aged gracelessly while you and Mr. Simpson and 
Mr. LaTourette seem to have stayed preternaturally young and 
handsome. It is a mystery.
    Mr. LaTourette. Now he is playing to us.
    Mr. Front. I think it is the magic of the Committee room. 
But more to the point, real estate values have spiraled upwards 
while public funding has been more and more constrained. And 
so, Mr. Simpson, as I know as we worked together on the 
Potlatch Forest Legacy Project a few years ago, finding those 
dollars has gotten harder and harder. As a result, The Trust 
for Public Land, many of your colleagues here in the room and 
not at the witness table today have done everything we can with 
our own resources to create windows of opportunity to secure 
the most crucial and the most critically threatened landscapes 
to the extent that we can with private resources until this 
Subcommittee has been able to respond, and respond you have. In 
each of the last couple of years, there has been a modest but 
very meaningful recommitment and additional investment in 
conservation funding in a few of the key programs, including 
the federal side of the Land and Water Conservation Fund.
    And did I mention that we are extremely grateful? Our 
gratitude continues there.
    Mr. Dicks. Thank you.
    Mr. Front. And it has allowed us to do----
    Mr. Dicks. Hopefully it is going to be in the President's 
budget request.
    Mr. Front. And again, we believe it will be. But even 
looking back over our shoulders for a moment, what you did in 
fiscal year 2009 is allowing us to tie together the two 
disparate pieces of the Virgin Islands National Park at Maho 
Bay which you had the----
    Mr. Dicks. Right.
    Mr. Front [continuing]. Pleasure of visiting. It is 
allowing us to secure the last missing pieces of Congaree Swamp 
National Park in South Carolina, the Cape Cod National Seashore 
in Massachusetts. We are buying up critical inholdings in the 
National Forests in Wisconsin and in Montana finishing some of 
the last inholdings in the New World Mine area, those mining 
claims the Clinton Administration started off on 15 years ago. 
And in your own district, Mr. Chairman, and in your own state, 
working on critical conservation priorities including in 
Washington the western entrance to Mt. Rainier which I know you 
are very aware of, and the checkerboard lands in the Cascades 
we are working on with Plum Creek.
    So again, the investments have made a big difference, but 
there is an enormous backlog. Recognizing that backlog, 
Secretary Salazar and the President have really taken a look at 
investing, and what we have heard from them is that, again, 
they are looking to fully fund the Land and Water Fund by 2014, 
that there will be meaningful reinvestments this year, that 
they are not going to stop at $900 million but would like to 
see billions inflation adjusted put in to land conservation, 
and that is something we certainly support.
    Last but not least, this is an unusual time because after a 
decade of spiraling real estate appreciation, real estate 
values are flat or down at this point. That is allowing us to 
take advantage of some new opportunities, opportunities that 
Mr. LaTourette is very well aware of, and we appreciate your 
support, sir. At the Cuyahoga Valley National Park in Ohio, but 
all across America there are places that we can conserve right 
now that we could not have had access to just a few years ago 
because values are down and there is an opportunity as 
development is at bay to take advantage of those opportunity 
moments and get while the getting is good.
    Conservation has always been a now-or-never affair. It is 
more now and it is more never than it has been in the past 
because of the backlog, because of those opportunities, and 
because of the groundswell of support, Secretary Salazar's 
commitment, people across the country voting to tax themselves 
just last November in the middle of economic distress, tax 
themselves $8 billion to pay for open spaces state by state. We 
are very much appreciating what this Subcommittee has done over 
the past few years and are hoping that you will be able if not 
to match that $8 million commitment on the part of state-by-
state voters, at least to provide the kind of meaningful 
increases that the Secretary and others are talking about at 
this hearing that we know that you believe in.
    [The statement of Alan Front follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.037
    
    [GRAPHIC] [TIFF OMITTED] T0064C.038
    
    [GRAPHIC] [TIFF OMITTED] T0064C.039
    
    [GRAPHIC] [TIFF OMITTED] T0064C.040
    
    Mr. Dicks. Thank you very much. Any questions? Mr. 
LaTourette?

                     CUYAHOGA VALLEY NATIONAL PARK

    Mr. LaTourette. I just want to thank you for the work that 
you did, that your organization did, with Chairman Regula on 
the former Coliseum, and as a result of that, you have not only 
preserved green space forever in Richfield, Ohio, but the 
Cavaliers got to move downtown and LeBron James is winning. But 
yesterday was member's day to come and chat with the Chairman 
about things that are important. Since you brought it up, could 
you just tell the Chairman how important it is to preserve the 
Blossom Music Center property and add it to the Cuyahoga Valley 
National Park?
    Mr. Front. I would be delighted. Thank you, Mr. LaTourette. 
This year available for the first time ever is substantial 
acreage, nearly 600 acres, in the most visited part of the 
seventh-most visited national park in the United States, the 
Cuyahoga Valley National Park. It was a labor of love of Mr. 
Regula's as was the Coliseum, and I know these are labors of 
love for others who care about Ohio's natural spaces and about 
community open space as it reaches national priority in places 
like the Cuyahoga. The Cleveland Orchestra has owned this 
property for years. They actually run sort of the equivalent of 
Wolf Trap Midwest at the Blossom Music Center, but the acreage 
around the music center itself is imminently developable. It 
hosts fish species that are found nowhere else in the National 
Park. The species is a special concern in the state. It has 
seven small watersheds that are critically important for water 
protection and habitat protection, the largest contiguous block 
of unprotected forest in the Cuyahoga Valley National Park, and 
the orchestra was faced with a choice. They can sell it for 
conservation or they can sell it for the development of 
hundreds of houses. Their preference is to come to all of us, 
and The Trust for Public Land and the orchestra have agreed to 
work together with wonderful support from the Ohio delegation 
to try to bring this into public hands. But the window is 
short.
    Mr. Dicks. What are we talking about?
    Mr. Front. We are appraising it right now. This year we are 
hoping for $4 or $5 million to kick it off. The whole thing 
will be likely doable for less than $10 million, and when we 
have those appraisal numbers, we will be sharing them with 
staff.
    Mr. Dicks. Okay.
    Mr. Front. But we need to get started this year, and we 
would very much appreciate anything you can do.
    Mr. Dicks. Well, Mr. Regula was the former Chairman, and we 
appreciate Mr. LaTourette's leadership on this. I think we also 
know that the Cleveland Orchestra is having some difficult 
times.
    Mr. LaTourette. Yes, so I have heard.
    Mr. Dicks. And so that is important to us, too, in our 
responsibility with the National Endowment for the Arts. Maybe 
we can help them. Maybe we can take some of the stimulus money 
and use it for this.
    Mr. Dicks. We can strike that from the record on Mr. 
Simpson's behalf.
    Mr. LaTourette. You know, my friend from Idaho probably 
does not like music.
    Mr. Front. I am so glad to be at the table for this 
discussion.
    Mr. LaTourette. Cleveland at one time was the philanthropic 
center of the United States with families like the Carnegies 
and the Severances and the Rockefellers and the Gunns.
    Mr. Dicks. Rockefellers?
    Mr. LaTourette. And I will tell you that the Cleveland 
Orchestra is internationally recognized. I am happy to 
introduce you to that.
    Mr. Dicks. We will have to all go to Cuyahoga. All right. 
Thank you.
    Mr. Front. Thank you. Jim Lighthizer, Civil War 
Preservation Trust. How are you doing, Jim?
    Mr. Lighthizer. Fine, Mr. Chairman, and you?
    Mr. Dicks. Good we are holding up. We are holding up.
    Mr. Lighthizer. My friend, Mr. Front, is a tough act to 
follow. What did he say, your preternatural aging? I can barely 
pronounce it much less know what it means. I presume it was 
good because he was shameless in everything else he said. Mr. 
Chairman, members of the Committee, and by the way, Mr. 
LaTourette, I was born and raised in your district, Ashtabula, 
Ohio.
    Mr. LaTourette. That is right. Tell Mr. Simpson that is 
okay, though.
    Mr. Lighthizer. It is okay, there. And by the way, I am 
going to resent your comments about the orchestra. But I 
digress, sir.
                              ----------                              

                                          Thursday, April 23, 2009.

                      CIVIL WAR PRESERVATION TRUST


                                WITNESS

JIM LIGHTHIZER
    Mr. Lighthizer. I have the good fortune to be President of 
something called the Civil War Preservation Trust, and it is 
the largest, the only national organization that is devoted 
exclusively to the preservation of Civil War battlefield sites 
in America, and we work off a book that was compiled by a group 
of historians who were commissioned by the United States 
Congress in 1993. They did something called the Civil War Sites 
Advisory Commission, and they published a book. And for 11 
years we have enjoyed a partnership with the United States 
Congress and the funding came from the Congress, not from any 
administration. The money coming from the Land and Water 
Conservation Fund, where we match or any group that wants to 
because it goes to the Interior Department, 50/50. It is a one-
to-one match. And with it we buy land that is in that book, 
that is defined in that book. So it is really important 
history. We do it for a variety of reasons. Absolutely first 
and foremost it is our heritage. The Civil War, by almost 
anybody's definition, defined this country as it is today. And 
the issues were decided on the battlefield, they were not 
decided in Congress or any other building or any other 
organization--on the battlefield.
    Mr. Dicks. Unfortunately.
    Mr. Lighthizer. Unfortunately, yes, at a cost of 2 percent 
of all the people alive during the Civil War, 624,000, almost 
all young men around the country who paid a terrific price for 
it, but it settled two issues, slavery and secession which made 
America what it is today, certainly.
    And we are the only national organization but we are also, 
even including the United States Government, like the Park 
Service, we do more than they do. In fact, we have done in the 
last 5 years some three times more land, 25,000 acres in the 
last 11 years with the partnership of the Congress, but at the 
same time, we have watched about 100,000 acres disappear to 
pavement, to development. We only have about 5 or 10 years left 
and then we will be done, the issue will be defined one way or 
the other, paved or saved. And what we are asking the Congress 
to consider, we are authorized now, we were reauthorized a 
month or so ago, for $10 million. We would ask the Committee to 
favorably consider that. I will say, and I believe the Chairman 
is aware of this, that we lost $5 million that the Congress had 
previously appropriated because while the House in September of 
last year passed our reauthorization, it got jammed up in the 
Senate. As you know, a lot of land bills did, and $5.1 million, 
money that we had committed to spending through land contracts 
from willing sellers, I might add, went back to the Treasury. 
And we are asking the Committee to at the least consider not 
only our baseline funding which has been traditionally about $4 
million, to add that $5 million back in so we can get on with 
saving this land.
    As Alan Front said, we are in a special time. I mean, the 
only good news about this recession we are in is that land 
prices are flat. And it gives us a chance to get while the 
getting is good, so to speak.
    The other thing I would like to make a comment about----
    Mr. Dicks. Let me ask you a question.
    Mr. Lighthizer. Yes, sir.
    Mr. Dicks. What is--I mean, how much do you expect to do in 
totality? Have you thought about that?
    Mr. Lighthizer. Oh, sure we have. You know, if you look at 
the universe, Mr. Chairman, the universe is 200,000, 300,000 
acres. That is not going to happen. It is not going to happen 
because we lose about eight or 10 times as much land every 
year, and that land is defined. I do not have the exact number 
for you, but it is about 300,000 acres. That land is defined. 
But we lose about probably 10-to-1 every year. In other words, 
in the last 11 years, we have saved about 25,000. We lost well 
over 100,000.
    Mr. Dicks. Now, who manages these acres?
    Mr. Lighthizer. We end up taking title to it. We would like 
to hand it off, either to a state park, sometimes a National 
Park if they expand their boundary. And by the way, if we sell 
it, and sometimes we give it to the National Park Service, we 
have done that----
    Mr. Dicks. You work out arrangements. If they want to take 
it----
    Mr. Lighthizer. Yes, but only what we have in it. We do not 
mark it up.
    Mr. Dicks. No, I understand that.
    Mr. Lighthizer. But some other reasons for the gentleman to 
consider, it is not just heritage preservation, which is the 
reason I would do it, but I mean, it defines communities. Who 
would have ever heard of Gettysburg, Pennsylvania, if it had 
not been for that battle? But it also places like Iuka, 
Mississippi, Middle Springs, Kentucky, Richmond, Kentucky, 
Parker's Crossroads, Tennessee, that means not only community 
identity, it means tourism, it means quality of life, open 
space, ecology, a place for the critters to live.
    Mr. Dicks. Another question.
    Mr. Lighthizer. Yes, sir.
    Mr. Dicks. Do you have a priority list----
    Mr. Lighthizer. Absolutely.
    Mr. Dicks [continuing]. That you kind of set, this is our 
highest priority----
    Mr. Lighthizer. Yes, sir.
    Mr. Dicks [continuing]. And then you go down a list and try 
to pick the ones that have the most historic significance or 
whatever criteria you use?
    Mr. Lighthizer. Historic significance and also willing 
sellers. We are the highest bidder or we do not get the 
property. If they do not want to sell it, we do not get the 
property. So that is a crucial consideration.
    Mr. Dicks. That is in the legislation?
    Mr. Lighthizer. Yes, sir. Yes, sir, absolutely it is in the 
legislation. The other thing, you have to remember something, 
these are outdoor classrooms. They are preserved forever, and 
the future generations, no matter what the political fad is of 
the day, students can still go there and learn what really 
happened. And that is our heritage. Those are our values. So 
outdoor classrooms is a very important part of it.
    Mr. Dicks. Well, you have strong support in the Congress. I 
have had a number of members talk to me. I am sure Mr. Simpson 
has, too, about how important they feel this is, and we will do 
our best. We will look, you know, to evaluate this and we will 
try to work with you.
    Mr. Lighthizer. Thank you very much, Mr. Chairman.
    Mr. Dicks. Thank you.
    Mr. Lighthizer. Thank you for what you all have done for us 
in the past.
    [The statement of James Lighthizer follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.041
    
    [GRAPHIC] [TIFF OMITTED] T0064C.042
    
    [GRAPHIC] [TIFF OMITTED] T0064C.043
    
    [GRAPHIC] [TIFF OMITTED] T0064C.044
    
    Mr. Dicks. Michael Anderson, Senior Resource Analyst, The 
Wilderness Society and also a member of the SWAT Team from the 
State of Washington.
                              ----------                              

                                        Thursday, April 23, 2009.  

                         THE WILDERNESS SOCIETY


                                WITNESS

MICHAEL ANDERSON
    Mr. Anderson. Yes. Thank you, Congressman Dicks, and 
members of the Committee. Before turning to the issue of the 
Forest Service roads system in particular, I would like to say 
some general thoughts regarding The Wilderness Society's views 
on appropriations for the coming fiscal year.
    First, we want to join in the commending of the 
Subcommittee for the leadership it has shown the last couple 
years to first the budget reductions for federal land 
management agencies in the prior years. We are now urging 
Congress to provide the additional funding that we think is 
needed for the federal land agencies to both understand and 
deal with the challenges of climate change for our federal 
public lands. We believe that funding to protect and restore 
these lands will help to reduce the impacts of increased 
flooding and wildfire, support healthy fisheries and wildlife 
populations and aid in carbon sequestration and storage.
    I just want to second the testimony from The Trust for 
Public Lands regarding the importance of the Land and Water 
Conservation Fund for this purpose. We are losing thousands of 
acres of open space and important habitats each day, and the 
LWCF is an important tool, including opportunities such as 
riparian habitats adjacent to the Wild Sky Wilderness in 
Washington State and important bird habitat along the New 
Hampshire/Maine border in Umbagog National Wildlife Refuge.
    Also, we support the increased funding for the forest 
legacy program for preserving working forest lands. We think 
these are very important for purposes of carbon sequestration 
in particular, and most of these funds are now covered by non-
federal sources for acquisition of 1.7 million acres to date.
    In terms of the agencies in general, we think that they do 
face serious challenges in dealing with the harmful impacts of 
climate change, and the parks, the refuges, other federal 
public lands are going to be increasingly important as 
strongholds for fish and wildlife species to survive the future 
of climate change.
    I also wanted to endorse the testimony from the American 
Forest and Paper Association regarding the need for legislation 
to provide additional funding for the fire suppression needs in 
the future and to prevent the practice of borrowing of funds 
from other important federal land management agency programs, 
including the Legacy Road Program that I am going to turn to 
now.
    Yes, The Wilderness Society and our colleagues at the 
Washington Watershed Restoration Initiative and many other 
organizations around the country are very grateful for this 
Subcommittee's leadership in creating the Forest Service Legacy 
Roads and Trails Remediation Program two years ago and for 
providing $40 million in the first year and $50 million in this 
current fiscal year.
    Mr. Dicks. The one thing we have to do, when the highway 
trust fund comes back up, the Forest Service has not been 
included in that, you know. The Park Service is and other 
agencies are, but the Forest Service is not. I just think, you 
know, you could use it for this purpose, and we could then 
enhance the resources that we have. There is only so much we 
can do with appropriated funds, but I think if we could work 
this with the reauthorization of the Highway Trust Fund. I 
think the Forest Service----
    Mr. Anderson. The Forest Service believes in----
    Mr. Dicks. You know, in using it in this context.
    Mr. Anderson. Yes, the Forest Service believes it is 
important to have stability in this kind of a program so that 
they can have the staffing and not have it seen as an annual 
add-on program. So we would certainly agree with that.
    Mr. Dicks. Right. Well, we hope the new Administration will 
have it in.
    Mr. Anderson. The results of the Legacy Roads Program has 
been particularly impressive in the Pacific Northwest Region as 
documented in the Forest Service's first Accomplishment Report.
    Mr. Dicks. I saw that.
    Mr. Anderson. Very good. And in the Skokomish River 
Watershed in the last year in the Olympic National Forest we 
have seen very impressive improvements in the watershed health 
and the Forest Service's ability to deal with their highest 
priority, road decommissioning and storm-proofing needs just in 
the last year. However, the first two years the Legacy Roads 
Program is only beginning to scratch the surface of the 
enormous problem posed by deteriorating Forest Service roads 
across the Nation. In Washington State alone there is 
approximately a $300 million backlog of deferred road 
maintenance and remediation needs. Nationwide the size of that 
backlog is estimated at $10 billion. We are pleased to see a--
--
    Mr. Dicks. There was an agreement reached between the 
Forest Service and the State of Washington, Region 6, which I 
had nothing to do with where they agreed to fix this. And even 
with this program, I mean, we have only made a modest step 
toward actually dealing with the comprehensiveness of this 
problem.
    Mr. Anderson. Yes, erosion from those Forest Service roads 
is a serious non-point source pollution problem for a lot of 
the states, and we are concerned it is only going to increase 
as with climate change the intensity of those winter storms is 
going to really worsen the problem if we do not deal with that 
storm-proofing and decommissioning of these roads.
    So I would just say in the fiscal year 2010, I think the 
Forest Service should be using the Legacy Road Funds to first 
complete the road analysis work and to identify road 
remediation needs for future funding; second, to work 
collaboratively to prioritize watersheds like we are doing in 
the Skokomish; and third, to focus on decommissioning and 
storm-proofing of unneeded roads to address the challenge of 
climate change.
    In conclusion, I would just like to say from The Wilderness 
Society that we again commend the efforts of this Subcommittee 
to reverse the years of underfunding and neglect of federal 
land conservation stewardship and begin addressing the impacts 
of climate change.
    [The statement of Michael Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.045
    
    [GRAPHIC] [TIFF OMITTED] T0064C.046
    
    [GRAPHIC] [TIFF OMITTED] T0064C.047
    
    [GRAPHIC] [TIFF OMITTED] T0064C.048
    
    Mr. Dicks. Well, we are glad you noticed.
    Mr. Anderson. Yes, we all do.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. Thank you.
    Mr. Dicks. Thank you. Appreciate your being here. George 
Leonard. George, welcome back.
    Mr. Leonard. Thank you, sir.
    Mr. Dicks. We always miss your wise counsel, and we are 
glad you here today.
    Mr. Leonard. Thank you, Mr. Chairman. It is great to see 
you sitting in that center seat----
    Mr. Dicks. Thank you.
    Mr. Leonard [continuing]. Leading that Committee.
    Mr. Dicks. It only took 30 years, you know. But we are glad 
to be here.
    Mr. Simpson. You do not want to have a debate about this, 
do you?
    Mr. Dicks. I think I am going to win this one. Go right 
ahead.
                              ----------                              

                                          Thursday, April 23, 2009.

            NATIONAL ASSOCIATION OF FOREST SERVICE RETIREES


                                WITNESS

GEORGE LEONARD
    Mr. Leonard. First, I would like to join the other people 
in thanking you for the effort by this Committee to fund viable 
programs for the Forest Service in light of the clearly 
inadequate budget submissions that you had received over the 
recent years. Proper funding of the land management agencies, 
and I am particularly interested in the Forest Service, is 
absolutely essential if we are going to protect the natural 
resources of this Nation and respond to issues like climate 
change.
    We believe our national forests and grasslands should be 
managed so that they are an asset to the Nation and 
particularly to those small, independent communities in and 
around them that are so dependent on them for jobs, for clean 
environment, and for the tourist benefits that they get with 
them. Unfortunately, given the levels of funding that have been 
there in the last decade or more, those forests often represent 
more of a liability than an asset to some of these small 
communities.
    As been noted, the current method of funding for fire 
suppression simply has to be changed. It is not rational to 
finance suppression of fires at the expense of the other 
ongoing programs of the agencies.
    Mr. Dicks. Completely agree with you.
    Mr. Leonard. Whether it is a special account set up by the 
FLAME Act or some other mechanism, the level of funding has to 
be adequate to do the job. The 10-year average simply does not 
work when you have continuing increase, and we are recommending 
that you go to a 5-year average but then adjust that 5-year 
average for the observed trend in costs. Right now----
    Mr. Dicks. Is it not CBO that requires us to do 10 years?
    Mr. Leonard. The FLAME Act moves it to a 5-year period.
    Mr. Dicks. Oh, good.
    Mr. Leonard. But even there, you know, the most recent 
period now is 2008, and we are talking about the 2010 budget. 
Well, if we use the 5-year average as of 2008, we are really 
talking about the cost of suppression back in 2005 or 2006 as 
the basis for funding for 2010. Well, it is not going to work. 
You are going to be short of money.
    Mr. Dicks. You say here that we should increase by $10 
million preparedness to fund ten additional, interregional hot 
shot crews. What would that do for us?
    Mr. Leonard. Well, 98 percent of the fires we get small. We 
get about 2 percent of fires with escape.
    Mr. Dicks. Mega fires?
    Mr. Leonard. The big fires. Those account for about 85 
percent of the cost. In fact, 20 or 30 fires account for about 
85 percent of the cost. Obviously, if you can reduce the number 
of those mega fires, that is the best way to cut your costs of 
suppression. And one of the real problems that has occurred 
over the last decade or more is the number of crews that are 
available for rapid reinforcement of the initial attack crews 
has decreased. The Snake River crews are not available. The 
Southwest Indian Crews are not as available as they used to be. 
So, you know, when we had the Yellowstone fires, we could put 
almost 2,000 crews on the fire line.
    Mr. Dicks. How many people----
    Mr. Leonard. Today there is about----
    Mr. Dicks [continuing]. Are in a crew?
    Mr. Leonard. Twenty.
    Mr. Dicks. So this would be like 200 more people?
    Mr. Leonard. Yes, right, 200 more trained crews that could 
be moved around the country so that they are quickly available 
to be on there on the second or third shift on a fire while it 
is still at a size when you can do something about it.
    Mr. Simpson. That brings up the whole debate that we have 
been having within the Committee, and I do not have an answer. 
I do not know. When we look at our forest practices of the past 
and try and put these fires out when they are small. Obviously 
we have got huge amounts of fuel out there. How are you going 
to reduce the fuel out there? I understand around communities 
and stuff, but we are not going to essentially go out and thin 
all these forests throughout this country. They are too vast 
and too huge. So fire has got to be part of fuel reduction, is 
it not?
    Mr. Leonard. Fire has to be a part of the fuels reduction, 
but I think it is important that unplanned, uncontrolled fires 
are not part of the solution.
    Mr. Dicks. Right.
    Mr. Leonard. Carefully planned and controlled fires are a 
part of the solution. And you know, the problem is that if you 
burn a hillside and kill 50, 60 percent of the trees on that, 
that becomes a worse fire problem in the future than it was the 
day it burned. Any experienced forester or fireman will tell 
you that the worst place to fight fire is in an old fire where 
you have got standing snags, brush, and the trees start falling 
down, jackstrawed across the thing, you cannot build a line 
through it, you cannot fight the fire.
    Mr. Dicks. That is why some people think we ought to go out 
and do salvage logging in some of these fire areas.
    Mr. Leonard. Well, there is no question about that. You 
know, a fire area that has been carefully salvaged and 
replanted has reduced fire area. A fire area that is not 
treated after it has burned, that does not solve the problem.
    Which brings me to another point. We are seriously 
concerned about the growing backlog of reforestation needs on 
the National Forest. If you recall, Mr. Chairman, back in the 
'70s, this Committee put a lot of pressure on those of us who 
were testifying on this side to eliminate the backlog, and we 
did. But unfortunately, that backlog is growing again because 
we have failed to keep a reforestation program that is 
commensurate with the losses that we are getting. Some people 
say, well, you are not selling as much timber off the National 
Forests so reforestation is not as important. But from the 
standpoint of wildlife habitat, from the standpoint of 
watershed stability, from the standpoint of carbon 
sequestration, you know, a big, growing forest is just a heck 
of a lot more----
    Mr. Dicks. Carbon.
    Mr. Leonard [continuing]. Carbon than a brush field out 
there. And we need to get on----
    Mr. Simpson. Or than an old growth forest.
    Mr. Leonard. A growing forest is the best way to sequester. 
In terms of your question, Mr. Simpson, about the issue of can 
we solve the problem by thinning, the efforts by this Committee 
to deal with the fuel buildup have been very important. They 
are very important to individual communities that are trying to 
create a fire-safe environment. But in the long term, we are 
not going to solve our problem unless we start to capture the 
economic values that are out there. On just the roaded portion. 
Just stay away from the issues over unroaded areas and 
wilderness and whatnot. On just the roaded portions of the 
National Forest, we are growing about 4 billion cubic feet of 
wood a year.
    I did a back-of-the-envelope calculation a few years ago, 
and that 4 billion cubic feet is equivalent to about 750 
million gallons of gasoline. We are adding 750 million gallons 
worth of gasoline to our forest every year. Well, no wonder we 
have a fire problem. On the other hand, that is the answer or 
part of the answer because all of that material has potential 
uses for conventional wood products but also for energy 
production. And if we were to only capture a fraction of that, 
we could make significantly more headway in reducing our fire 
problems and make them manageable.
    And putting stands into a condition where we can then use 
prescribed burns, under burns and whatnot, because the fuel 
loading is such that you will not destroy everything that is 
there.
    Mr. Dicks. Does the Forest Service still have nurseries to 
get the trees or do we have to go buy them in the private----
    Mr. Leonard. Well, no, the Forest Service has a number of 
nurseries, less than we had when we were in the big timber era, 
but they still have nurseries. This Committee will have to work 
with the agency to begin to rebuild the capacity to do----
    Mr. Dicks. To do reforestation.
    Mr. Leonard [continuing]. Reforestation. They can do more 
than they are currently funded for, but to get on top of the 
problem, they need to rebuild a program in that general area.
    One thing that I did not mention in my prepared testimony 
that had been referred to recently here this morning, there are 
some good opportunities to save critical wildlife habitat, to 
get access to recreation facilities, and simply to reduce the 
cost of management through properly planned land acquisition. 
So we would urge increased funding for the Forest Service 
within the Land and Water Conservation Fund.
    Mr. Dicks. Do you think the front office in DC has gotten 
too big? Should we cut it back a little bit?
    Mr. Leonard. I think there are some----
    Mr. Dicks. I mean, it seems to me that the Forest Service 
used to be out in the field. Do we have too much bureaucracy?
    Mr. Leonard. You know, one of the problems is that, you 
know, such things as appeals, when I first came to the 
Washington office, I handled all the appeals that were of 
timber sales for those that came to the Washington office. Now 
they have to have a dozen people doing that same kind of work 
because the things are more complex.
    Mr. Dicks. Shall we bring you back, George?
    Mr. Leonard. Well, if you would let me write the same kind 
of letters I used to write. You know, it used to be that we had 
very simple appeal regulation, and I would look at the thing 
and said, well, all this is people just do not want to cut 
trees there. They are not citing any logical reason, so I would 
give them a one-page letter and say thank you for----
    Mr. Dicks. Your views.
    Mr. Leonard [continuing]. Your views but we disagree and we 
are going ahead. Well, that is not the way you can respond 
anymore, and it takes people to do that. And then there is just 
an awful lot of things. One of the problems is the agency has 
been on a downward trend for almost 20 years.
    Mr. Dicks. Yes, I know.
    Mr. Leonard. First we begin to cut back on the engineering 
program, then the timber program in the last few years. I think 
any organization that is having an overall reduction is going 
to have problems with the overhead aspect of the thing.
    Mr. Dicks. Yes.
    Mr. Leonard. And if we can get the agency stabilized, begin 
to rebuild it, it will be easier to get the overhead issue 
under control.
    Mr. Dicks. Okay.
    Mr. Leonard. I think retirees in general have been 
uncomfortable with the centralization of fiscal personnel 
issues in there. But on the other hand, you could not ask the 
agency to have the reductions of personnel that they have had 
and keep everything business as usual. They are beginning to 
get some benefits, I think, from the centralization of 
finances. They still got a long ways to go in the personnel 
issues and whatnot.
    But there are opportunities to reduce overhead at all 
levels of the organization, and I hate to see just arbitrary 
rules stuck out there.
    Mr. Dicks. No, I understand what you mean.
    Mr. Leonard. But rational----
    Mr. Dicks. Maybe you would work it out with us.
    Mr. Leonard. Rational pushes, pressure on the agency to do 
it would make sense.
    Mr. Dicks. Okay. Thank you so much.
    Mr. Leonard. Thank you.
    Mr. Dicks. We appreciate your long experience and 
professionalism.
    [The statement of George Leonard follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.049
    
    [GRAPHIC] [TIFF OMITTED] T0064C.050
    
    [GRAPHIC] [TIFF OMITTED] T0064C.051
    
    [GRAPHIC] [TIFF OMITTED] T0064C.052
    
    Mr. Dicks. William Durkin, Friends of Rachel Carson 
National Wildlife Refuge? I am sorry, we are running a little 
behind here.
    Mr. Durkin. That is quite all right.
    Mr. Dicks. We will put your entire statement in the record, 
and you may summarize.
    Mr. Durkin. Right.
    Mr. Dicks. Proceed whatever way you want, though.
    Mr. Durkin. Thanks, I did.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

           FRIENDS OF RACHEL CARSON NATIONAL WILDLIFE REFUGE


                                WITNESS

WILLIAM G. DURKIN
    Mr. Durkin. Mr. Chairman, honorable members of the 
Subcommittee, I am Bill Durkin, President of the Friends of 
Rachel Carson National Wildlife Refuge in Maine. Happy belated 
Earth Day to you.
    Mr. Dicks. Thank you.
    Mr. Durkin. First off, I would like to thank my wife for 
allowing me to break away from our vacation in Florida for 24 
hours to come here today to present testimony for the National 
Wildlife System.
    Chairman Dicks, I praise your leadership for the recent 
fiscal year 2009 budget process. I would also like to 
compliment Maine's freshman Congresswoman Chellie Pingree for 
her working partnership with the Friends' goals for fiscal year 
2010. We look forward to her insight and energy on future 
projects in the years to come.
    I have been a member of the Friends of Rachel Carson 
National Wildlife Refuge for the past 19 years. The group was 
founded in 1987. We are a small group of about 200 members. 
This time of the year all the letters go out to Congress asking 
for support of the refuge. I have given numerous written 
statements over the years, but this morning is the first in 
front of the Subcommittee. I thank you for your consideration.
    Basically it is in three parts. Number one, we are 
requesting an overall funding level of $514 million for the 
operations and maintenance budget of the National Wildlife 
Refuge System managed by the U.S. Fish and Wildlife Service. 
All the refuges are in dire need of staffing and upkeep. 
Refugees provide unparalleled opportunities to hunt, fish, 
watch wildlife and educate children about the environment. 
Without increased funding for refuges, wildlife conservation 
and public recreational opportunities will be jeopardized.
    Number two, I also respectfully request a substantial 
increase in overall funding for the Land and Water Conservation 
Funds, specifically urging the Subcommittee to provide $325 
million for the federal LWCF in fiscal year 2010 to the fiscal 
year 2010 Interior and Environment Appropriations Bill. I 
applaud the LWCF funding opportunities provided by this 
Committee in fiscal year 2009, and we are most thankful for the 
Obama Administration budget, recognizing the importance of 
these programs by proposing significant increases for fiscal 
year 2010 and setting a goal to achieve full funding of the 
LWCF for the next 5 years. The Land and Water Conservation Fund 
should be fully funded at $900 million annually at the 
Congressional authorized level.
    And number three, this is about our refuge, we ask your 
support for the acquisition of the 110-acre Timber Point 
property at the Friends of Rachel Carson National Wildlife 
Refuge in Biddeford and Kennebunkport, Maine. An appropriation 
of $3.5 million from the Land and Water Conservation Fund to be 
matched by an equal amount of prior funds is needed to protect 
this exceptional coastal property. The Rachel Carson National 
Wildlife Refuge is named in honor of one of the Nation's 
foremost and forward-thinking biologist. After arriving in 
Maine in 1946 as an aquatic biologist for the U.S. Fish and 
Wildlife Service, Rachel Carson became entranced with Maine's 
coastal habitat leading her to write the international 
bestseller, The Sea Around Us.
    This landmark study led Rachel Carson to become an advocate 
on behalf of the Nation's vast coastal habitat and the wildlife 
that depends upon it. The refuge that bears her name is 
dedicated to the permanent protection of the salt marshes and 
estuaries of the southern Maine coast. Located in the Little 
River Division of the refuge on the Biddeford/Kennebunkport 
town line, Timber Point is comprised of a large peninsula and 
small island that is effectively connected to the peninsula at 
low tide. All told, the property includes over 2.25 miles of 
undeveloped coastline, an enormous amount for southern Maine. 
Unlike much of the state's southern coastal areas, Timber 
Point's coastline is mostly rocky making it an ideal location 
for eider nesting and wintering purple sandpipers. The Timber 
Point peninsula hugs the mainland offering both rocky 
oceanfront shore line and sheltered sandy cove. Wintering black 
ducks and common eider, as well as assorted waterfowl and 
migratory shorebirds, feed and roost along the shoreline where 
eagles and ospreys frequently nest in the forest habitat. In 
addition, the rocky offshore habitat serves as a productive 
lobster nursery, a vital economic industry in Maine.
    The refuge is unique in the fact that its acquisition zone 
and land division ownership is distributed over 11 different 
towns, villages, and cities, therefore creating an uncommon 
municipal partnerships with the Federal Government acting 
through the local refuge headquarters in Wells, Maine. In the 
Timber Point initiative, we have working partnerships with the 
Town of Kennebunkport, the City of Biddeford, its mayor and its 
Conservation Commission, the Kennebunkport Conservation Trust, 
National and Maine Audubon, the National Wildlife Refuge 
Association, The Trust for Public Land, to name a few. The 
importance of the community involvement and cooperation is 
crucial to the success of this urgent project. Available for 
immediate acquisition from a single willing landowner in fiscal 
year 2010, the 110-acre Timber Point tract is one of the last 
large, undeveloped properties along the 50-mile coastline from 
Kittery to Cape Elizabeth which is all in southern Maine and a 
longstanding priority of the refuge. It is being offered to the 
U.S. Fish and Wildlife Service at a significant discount 
through the generosity of the landowner and support of the 
local community.
    In summary, with a $3.5 million appropriation for the 
Timber Point Project, the regional collaboration between the 
public and private sector will only enhance Governor Baldacci's 
Quality of Place Initiative that he put forth last year. This 
would be a fantastic story for protecting crucial habitat for 
the wildlife at Rachel Carson National Wildlife Refuge.
    And thank you.
    [The statement of Bill Durkin follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.053
    
    [GRAPHIC] [TIFF OMITTED] T0064C.054
    
    [GRAPHIC] [TIFF OMITTED] T0064C.055
    
    [GRAPHIC] [TIFF OMITTED] T0064C.056
    
    Mr. Dicks. Thank you for a good statement.
    Mr. Durkin. Thank you.
    Mr. Dicks. Thank you very much. Tom Martin, President of 
the American Forest Foundation.
    Mr. Martin. Thank you, Mr. Chairman.
    Mr. Dicks. Hi, Tom.
    Mr. Martin. How are you?
    Mr. Dicks. Good.
    Mr. Martin. It is a beautiful morning. At the risk of 
currying favor with the Chairman here, I spent last weekend on 
the coast of the Olympic Peninsula.
    Mr. Dicks. Wonderful. Did you get to the Hoh river?
    Mr. Martin. I did not get the Hoh. I was down right on the 
shore at Taylor Point right off Third Beach. Absolutely 
gorgeous. The tide pools were full.
    Mr. Dicks. Good.
    Mr. Martin. Mr. Simpson, I look forward to getting to your 
district as well, too.
    Mr. Simpson. Have you ever been to Idaho?
    Mr. Martin. You bet. You bet. But the weather was----
    Mr. Simpson. That is God's country there.
    Mr. Martin. That is what I hear.

                                          Thursday, April 23, 2009.

                       AMERICAN FOREST FOUNDATION


                                WITNESS

TOM MARTIN
    Mr. Martin. Well, I am here to talk about two things, but 
first I want to thank you guys. Terrific support on the 
stimulus package. That investment in the health of rural 
communities is really important. We are looking to build on 
that in this budget, and there are two areas I would like to 
talk about that are really important to the American Forest 
Foundation and that is how do we provide the web of support for 
both private investment and volunteer support for sustainable 
healthy forests and for a sustainable future through 
environmental education for our kids? Those are the two areas I 
would like to talk to you about.
    AFF as you probably know represents the 263 million acres 
of private family forests that are owned across this country. 
We also represent the 30,000 teachers that every year receive 
professional development through our Project Learning Tree 
Program. Both of those private efforts that receive large 
amounts of private support, and even more impressively, are run 
by volunteers across this country really are an important 
foundation to the kind of sustainable future I think we all 
want.
    So what are the things that we can do to support these 
efforts? I would like to touch on just a few of them here. 
First, the Forest Stewardship Program, you know, for many 
landowners, my sister and I actually own a couple of hundred 
acres in northern Wisconsin, and it was through that program we 
received some assistance in our planning that forest. Many new 
forest owners receive their first information about how do you 
manage this land sustainably through that program? So we hope 
that this program will be fully funded this year. Our hope is 
it is at least the $45 million level.
    Forest Legacy Program we have heard a lot about this 
morning. I am not going to go on further about that, but just a 
key tool to keep those lands that are really at greatest risk 
of conversion that we have got to keep in forest type there.
    Forest Inventory and analysis, you cannot make good policy 
without good data, and that is one of the things that we need 
an enduring commitment to so we do not see this choppiness of 
data over time. So again, we hope that that will be fully 
funded at the $73 million level.
    Forest health management, you know, one of the things that 
has not received the attention it should it seems to me is the 
invasives that are in so many of our forests. It seems like 
every week we find a new one that has just targeted that tree 
species we thought was going to be healthy, and so I think 
there as well as the well-documented fire issues are very 
important.
    And finally, the Community Forest and Open Space initiative 
in the Farm Bill. Again, we think that is an opportunity to 
create support for the kinds of sustainable forestry we want.
    In the Fish and Wildlife Service budget, the Endangered 
Species Conservation Fund is a terrific way to get private 
landowners and working forests to provide that habitat for 
endangered and threatened species, and 93 percent of the 
habitat and the figures that I have seen for those species are 
on private lands. And so this is----
    Mr. Dicks. What was that number?
    Mr. Martin. Ninety-three percent.
    Mr. Dicks. Ninety-three percent on private land?
    Mr. Martin. Yes. The final area, the other part of the 
sustainability question is obviously we got to manage the lands 
well now for the future, but we got to prepare our kids for the 
future. In the EPA budget, there is the only environmental 
education program that is a line item in the budget that has 
been authorized for years at $14 million. Our hope is that is 
fully funded. One of the things that we think is really 
important is the way they leverage investments in teacher 
professional development. There is lots of curriculum out 
there. Getting teachers to understand how to deliver that in 
ways that develop the outcomes we want for kids but also gives 
them the long-term ability to assess environmental choices, 
their environmental futures, we think is really important. We 
need to teach these kids how to think about the environment, 
not necessarily what to think.
    So I think those two types of investment will really 
leverage volunteer hours and private investment in things that 
this Committee has been wonderful at supporting up to this 
point.
    [The statement of Tom Martin follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.057
    
    [GRAPHIC] [TIFF OMITTED] T0064C.058
    
    [GRAPHIC] [TIFF OMITTED] T0064C.059
    
    [GRAPHIC] [TIFF OMITTED] T0064C.060
    
    Mr. Dicks. Where is your headquarters?
    Mr. Martin. Here in DC.
    Mr. Dicks. DC?
    Mr. Martin. Yes.
    Mr. Dicks. Okay. Thank you very much. That was a very good 
statement. I enjoyed it.
    Mr. Martin. Right.
    Mr. Dicks. Thank you. Tom Kiernan, National Parks 
Conservation Association. Hey, Tom, how are you? Welcome.
    Mr. Kiernan. I am doing well.

                                          Thursday, April 23, 2009.

                NATIONAL PARKS CONSERVATION ASSOCIATION


                                WITNESS

THOMAS C. KIERNAN
    Mr. Kiernan. Thank you for having me, Mr. Chairman, and 
Ranking Member----
    Mr. Dicks. I have seen your good work.
    Mr. Kiernan. Thank you very much. Actually, that was going 
to be my first point. I wanted to thank you and the Committee 
for the great support over the last couple of years of 
enhancing the investments in the National Parks. We are already 
seeing some increased rangers out in the parks over the last 
year or two and the stimulus funding. I had the good fortune of 
being with Secretary Salazar yesterday as he announced that 
roughly 800 projects for the $750 million stimulus. And those 
are some great projects and thank this Committee and Congress 
for that investment in the parks.
    That is the good news. The challenging news, the financial 
challenges to the parks have been built up over decades. We 
have got, as you well know, and as the Secretary spoke about 
yesterday, a $9 billion maintenance backlog in the parks, we 
have got an annual operating shortfall, we have got a shortfall 
in the land acquisition needs, roughly about $2 billion of 
priority inholdings from willing sellers that need to be 
purchased.
    So what we are asking of the Committee is to continue the 
momentum of increases in the National Parks Service budget, 
especially as we are approaching the centennial. It is our hope 
that we can address this Congress, this Administration can 
address the funding needs of the parks so at the centennial we 
have a park system that is appropriately funded and truly, 
deeply inspirational to this country and to all the visitors to 
the country.
    We also see a unique opportunity this year with the Ken 
Burns film, a 12-hour, six-part series this fall that will be 
shown. Different estimates, 30, 40, 50 million Americans will 
be watching that in September and then they will show it again 
in January. We anticipate----
    Mr. Dicks. Are they going to show it in a series like an 
hour or two hours?
    Mr. Kiernan. It will be over a two-week period. It will be 
six episodes of two hours each.
    Mr. Dicks. Okay.
    Mr. Kiernan. Three one week, three the next, a total of 12 
hours. They will show it the end of September and then again--
--
    Mr. Dicks. Is it going to be on public television?
    Mr. Kiernan. On public television. They are doing premieres 
throughout the country. There will probably be a premiere out 
in----
    Mr. Dicks. He was just out in Seattle.
    Mr. Kiernan. Exactly. Yes.
    Mr. Dicks. At Benaroya Hall. They had a huge crowd.
    Mr. Kiernan. Exactly, and we are seeing that all over the 
country, many of them 2,000 people coming, and there will be an 
event in Central Park. We are expecting tens of thousands of 
Americans coming to see that film. So we anticipate that will 
both catalyze a dialogue, kind of a falling back in love with 
the National Parks this coming year. And we anticipate 
significant increase in visitation this year to the parks.
    Mr. Dicks. Visitation is down, though, right? It is about 
12 million down?
    Mr. Kiernan. Our understanding from the Park Service, 
visitation actually did come down, and it has been more flat 
the last year or two, but it very much varies by park. Some 
parks are going up, some have been down. We do anticipate this 
catalyzing, increasing the visitation to the parks.
    We also have the Second Century Commission, a commission of 
leading Americans, co-chaired by Howard Baker and Senator 
Bennett Johnston. We will be putting out a report, a vision for 
the second 100 years of our National Parks. Between Burns' film 
and that Commission we see this year as a wonderful dialogue 
with the American public about the vision of the National Parks 
and believe that continuing your funding increases so the Park 
Service is able to accommodate and educate and inspire those 
visitors, those increased visitors this coming year. We see 
this year as a really important year to continue your funding 
increases.
    To be specific, I did have four areas that I wanted to 
provide some numbers for. On the operating budget side, as you 
well know there has been a calculated $750 million annual 
funding shortfall that frankly we are working to recalculate 
that is coming down because of the investments of this 
Committee. We hope the Committee would continue the precedent 
that you have set with additional funding of $100 million plus 
the fixed costs, and we believe that is roughly in line with 
what the Administration is planning on doing. So I hope you 
would continue $100 million increase in the operating budget 
plus the fixed cost, and that is on the operations budget.
    On land acquisition, there is a $2 billion backlog of 
inholdings or priority inholdings inside the parks, and we hope 
that you would provide $125 million for the National Park 
Service within LWCF.
    Third area is on the construction side. We got, as 
Secretary Salazar was talking yesterday and you well know, a $9 
billion maintenance backlog, and we are hoping that the--well, 
we know that the $750 million stimulus will help bring that 
down, and we will be providing some thoughts and numbers to you 
in the future about what we recommend the construction number 
to be. But given the $750, and we just that and want to think 
through the right number for your consideration on 
construction.
    Lastly on the centennial challenge, this Committee has been 
great in providing the $25 million kind of seed funding, and we 
hope you would continue doing that this coming year----
    Mr. Dicks. How does the authorization look?
    Mr. Kiernan. Great point. We have been working with the 
authorizers. We believe Mr. Grijalva is in the process of or 
considering putting that bill back out there, NPCA, and our 
allies in the parks community will be working very hard.
    Mr. Dicks. What about the other body?
    Mr. Kiernan. That would be the Senate. We are in 
discussions over there with, on the appropriations side, 
Feinstein and Alexander. We will be working there as well.
    We have had discussions with Senator Bingaman.
    Mr. Dicks. Bingaman is the person.
    Mr. Kiernan. And we will keep working that. But I hope that 
this Committee would provide the continuing seed funding, and 
we will keep working that.
    So thank you very much.
    [The statement of Tom Kiernan follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.061
    
    [GRAPHIC] [TIFF OMITTED] T0064C.062
    
    [GRAPHIC] [TIFF OMITTED] T0064C.063
    
    [GRAPHIC] [TIFF OMITTED] T0064C.064
    
    Mr. Dicks. What about the new Administration? Are they 
going to embrace this?
    Mr. Kiernan. Yes, it appears, as you may recall, Secretary 
Salazar was one of the lead co-sponsors on the Senate side for 
the Centennial Challenge. So we anticipate his continued 
support and his support for this entire program leading up to 
the centennial. We are much looking forward, continuing to work 
with this Committee heading toward the centennial.
    Mr. Dicks. As you know, it was $100 million. We are going 
to add on $100 million for 10 years. $100 million in a new 
authorization to be matched by $100 million each year from the 
private sector. So getting the authorizers to do their part has 
so far been the sticking point.
    Mr. Kiernan. And we will keep working that with them.
    Mr. Dicks. Yeah.
    Mr. Kiernan. Great.
    Mr. Dicks. All right, Tom. Good work.
    Mr. Kiernan. Thank you.
    Mr. Dicks. Thank you very much. Jeff Trandahl, Executive 
Director of the National Fish and Wildlife Foundation. Hi, 
Jeff. Welcome back.
    Mr. Trandahl. Very, very good. Let me start out and say 
thanks to the staff here and the members. You have done three--
--
    Mr. Dicks. Do not forget the members.
    Mr. Trandahl. Yes, do not forget the members. But I will 
tell you, the staff is here every day.
    The Clerk. And night.
    Mr. Trandahl. And the fact that you guys----
    Mr. Dicks. And night.
    Mr. Trandahl. Yes, is not that the truth? You have done 3 
years' worth of work here on just the first 6 months of the 
year. So it is pretty amazing.
                              ----------                              

                                          Thursday, April 23, 2009.

                 NATIONAL FISH AND WILDLIFE ASSOCIATION


                                WITNESS

JEFF TRANDAHL
    Mr. Trandahl. As everybody has said, the stimulus has been 
quite a phenomenal opportunity for conservation, and at the 
same time wrapping up the omnibus and being able to protect the 
numbers that you guys were able to protect for the community 
has been quite inspiring. And we are all working through this 
fiscal year to pull things together.
    As we look forward to fiscal year 2010, I can go back and 
report that you know, as an entity created by you to go out and 
to leverage the federal seed monies, other conservation monies, 
as well as try and bring in other agencies beyond the interior 
agencies, we have been highly successful. Fiscal year 2008 we 
were able to leverage in $3.5 for every federal dollar we were 
able to bring through. That means hundreds of projects being 
able to be funded across the country. Mr. Dicks, you would be 
interested that from here I am going to leave and I am going to 
go meet with Chair Rosa DeLauro to talk about getting USDA even 
more highly leveraged into the program.
    Mr. Dicks. I mentioned this to her, too.
    Mr. Trandahl. And I appreciate that, and I will bring that 
up again today because the idea here is to get as many agencies 
into this common grant-making pool, leverage it as high as we 
can go with private dollars and have as great an impact as we 
can in conservation.
    The thing here is you guys have been the leader. The 
federal priorities are our priorities as we get out there and 
put things on the ground. The numbers you are going to look at 
this year are strikingly similar as in years past. The Fish and 
Wildlife Service Agency was making a request of $10 million. It 
was reduced to $7.5, so we are asking again to go back to the 
$10 million level there; $3 million for the Washington State 
Salmon Program, $5 million from the Forest Service, and $5 
million from BLM which was eliminated from their requests this 
year. EPA we do not get a direct appropriations, but as you are 
very familiar, we do a lot of work in the estuaries. We have a 
very large program in the Chesapeake Bay, up in the Great 
Lakes, and hopefully we are going to see a dramatic expansion 
of the Great Lakes, knock on wood. But then again Puget Sound 
and San Francisco Bay are the areas we have been focusing in 
the last couple of years to really expand in.
    So with that being said, I know you are behind schedule. I 
am here to answer any questions, and you have plenty of 
testimony and plenty of numbers.
    [The statement of Jeff Trandahl follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.065
    
    [GRAPHIC] [TIFF OMITTED] T0064C.066
    
    [GRAPHIC] [TIFF OMITTED] T0064C.067
    
    [GRAPHIC] [TIFF OMITTED] T0064C.068
    
    Mr. Dicks. Well, we appreciate what you guys do, and I tell 
you, you have made a real difference out in the State of 
Washington. There is no question about it in my mind. I was 
somewhat skeptical years ago, but I have been completely 
convinced by everybody out there that this has been just one of 
the best operations in helping on a lot of things that might 
not happen but for your foundation. Mr. Simpson.
    Mr. Simpson. Thanks for what you do.
    Mr. Trandahl. Absolutely.
    Mr. Dicks. Yes, we will stay in touch.
    Mr. Trandahl. You bet. Okay. Desiree Sorenson-Groves, 
National Wildlife Refuge Association. Welcome. I am sorry we 
are behind but----
    Ms. Sorenson. That is all right.
    Mr. Trandahl [continuing]. It has been good testimony, 
though.
    Ms. Sorenson. It is very interesting. You know, I tried to 
bring you guys some Blue Goose martinis, but it was morning I 
figured I better not.
                              ----------                              

                                          Thursday, April 23, 2009.

                  NATIONAL WILDLIFE REFUGE ASSOCIATION


                                WITNESS

DESIREE SORENSON-GROVES
    Ms. Sorenson. So you will never believe that I am going to 
start out by thanking you guys, amazingly enough. But 
literally, you know, your support for fiscal year 2008, fiscal 
year 2009, and the stimulus is literally making all the 
difference on the ground for refuges. I am here representing 
the National Wildlife Refuge Association and about 190 
affiliate friends groups around the Nation.
    After the funding hike in 2003 which kind of coincided with 
the refuge centennial, refuge funding deteriorated very sharply 
and resulted in strategic downsizing which was the loss of over 
350 positions nationwide. That is about 10 percent of the 
workforce. And if refuges had not received increases in '08 and 
'09, we would have lost 250 more positions by now. So that is a 
pretty big deal. Thankfully those downsizing plans are now on 
the shelf, but without inflationary increases every year, they 
could be dusted off at any time.
    The Refuge System needs at least $15 million annually just 
to do those fixed costs.
    Mr. Dicks. An increase of $15 million?
    Ms. Sorenson. Yes. Yes, just to deal with inflationary 
costs. So we are urging you to do $514 million for the Refuge 
System for fiscal year 2010 for operations and maintenance. 
That is about a $51.2 million increase. That would allow the 
service to ramp up inventory and monitoring for climate change 
issues, large-scale invasive projects such as Spartina 
eradication like what they have done at Willapa, begin 
restoration projects and kind of inventory what they have at 
the new Pacific Monuments. Those are the kinds of things we are 
looking at.
    Today you guys just heard from Bill Durkin, President of 
the Friends of Rachel Carson, and next Tuesday you are going to 
hear from three more friends groups who will be coming in. And 
interestingly, these folks come in on their own dime to come 
and talk to you guys about what is going on at their local 
refuges, but as dedicated as they are, they really cannot do it 
by themselves. They are doing 20 percent of the work on refuges 
already.
    Mr. Dicks. Volunteers?
    Ms. Sorenson. Yes, but we would like you to allocate----
    Mr. Dicks. How many refuges do we have where we have no 
staff at all?
    Ms. Sorenson. About a third. There is 540 refuges.
    Mr. Dicks. And then somebody just goes through the area 
and----
    Ms. Sorenson. Yes, they are complexed under other refuges, 
so we have, you know, one refuge that is kind of, you know, a 
stay-strong refuge or it gets more visitation, has a big 
friends group, and then you have staff there that try to 
oversee other refuges. There are some of those that probably 
would never need to be staffed because they are small or 
because they have endangered species or whatever. They would 
not have the staff on them, but there are certainly numerous 
refuges that do need staff on them because----
    Mr. Dicks. How many of the 200 would you say needed staff?
    Ms. Sorenson. It is hard to say.
    Mr. Dicks. Why do you not give us a----
    Ms. Sorenson. Probably at least half.
    Mr. Dicks. At least half?
    Ms. Sorenson. At least half.
    Mr. Dicks. So you think 100 of the ones that are not 
staffed should be staffed? Okay.
    Ms. Sorenson. Yes.
    Mr. Dicks. Go right ahead.
    Ms. Sorenson. We are asking for $5 million for volunteer 
community partnerships. This would allow the service to 
actually hire more staff to oversee volunteers, and in case in 
point, I wanted to show you guys. This is Baron Horiuchi. He is 
from Hakalau Forest National Wildlife Refuge in the big island 
of Hawaii. He was the Refugee Employee of the Year. He is the 
only horticulturalist in the Fish and Wildlife Service. He 
manages volunteers on the refuge, hundreds of them every month, 
but that is not his expertise. He is the only horticulturalist 
in the Fish and Wildlife Service. His expertise is plants, not 
just any plants but plants that are listed as extinct that he 
has found out in the wild and is now propagating it in a dog 
kennel that he has turned into a greenhouse. That is where you 
see him there. He propagates mint species, specifically, that 
are perfectly suited to endemic Hawaiian birds. And after 
touring his dog kennel greenhouse, you know, I would do 
anything for this man and I said, you know, what can I advocate 
for for you to help you do your job? You know, do you need a 
new greenhouse, do you need special tools or whatever, and he 
said, no, his dog kennel is just fine. What he needs is an 
additional staff to oversee all

  
the volunteers who want to work at this refuge so that he can 
devote his time to saving these dying plants.
    [The statement of Desiree Sorenson-Groves follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.069
    
    [GRAPHIC] [TIFF OMITTED] T0064C.070
    
    [GRAPHIC] [TIFF OMITTED] T0064C.071
    
    [GRAPHIC] [TIFF OMITTED] T0064C.072
    
    Mr. Dicks. What refuge is he at again?
    Ms. Sorenson. Hakalau Forest.
    Mr. Dicks. Okay.
    Ms. Sorenson. It is a pretty cool refuge up in the 
highlands, high altitudes of Hawaii. It is pretty neat. And he 
taught me the real way to say Hawaii which is Hawaii.
    Mr. Dicks. Hawaii.
    Ms. Sorenson. Yes. Because the Refuge System is very good 
at partnerships and works really well with others, we encourage 
you guys to fully fund the Partners for Fish and Wildlife which 
is a program authorized at $75 million, and authorized at 
level, it would probably return about $300 million in 
conservation. And that protects refuge buffers, corridors, 
because refuges are just too small to do it by themselves. They 
depend on the integrity of the health of surrounding lands and 
waters.
    And getting to that, the Land and Water Conservation Fund, 
which is obviously a high priority for all of us, we are urging 
an allocation of $100 million for the Refuge System, 
specifically within that. There are projects ready to go 
nationwide, places like Sylvia O. Conte in New England or, you 
know, Blackwater.
    Mr. Dicks. There is somebody that goes to the Fish and 
Wildlife Service through another fund.
    Ms. Sorenson. Oh, mig birds, the duck stamp.
    Mr. Dicks. Duck stamp. Yes, okay.
    Ms. Sorenson. And that does----
    Mr. Dicks. How much does that produce per year?
    Ms. Sorenson. I want to say 40. 34.
    Mr. Dicks. $34 million.
    Ms. Sorenson. Four was in there some place. And definitely, 
you know, just because it is for ducks does not mean it 
protects just habitat for ducks.
    Mr. Dicks. No, I understand.
    Ms. Sorenson. It is one of the coolest programs that the 
Federal Government I think personally has ever come up with. I 
am not a duck hunter, but I buy duck stamps every year and I 
give them as gifts.
    So $100 million can seem like a lot obviously at this time, 
but consider this. If Congress appropriated eight times that 
amount every year, it would take over 20 years within 
acquisition boundaries of the Refuge System. So that is kind of 
where they are.
    I did want to say we did also ask for $100 million in 
construction for the Refuge System. That is another thing that 
is a lot of times overlooked. It is in a separate account, but 
that would do for energy efficiencies, occasionally new 
construction, but also does large-scale habitat restoration 
projects, kind of like the Nisqually Refuge in Washington is a 
perfect example of that thing, Wetlands Restoration or the Salt 
Pond in California.
    Mr. Dicks. So that is pretty much it.
    You guys are doing a good job. You know, you have made a 
difference because the testimony we received several years ago 
in these hearings resulted in us making a major increase in the 
Refuge System, and Ron Kind and the Refuge Caucus have been big 
advocates for the Refuge System. And I believe it is the right 
thing to do. And it was interesting. After we made the big 
increase, the Administration, the next year, did not take it 
out.
    Ms. Sorenson. That is right.
    Mr. Dicks. It was left in. And I had talked to Secretary 
Kempthorne. I think he played a significant role.
    Ms. Sorenson. He actually really did. We found out that a 
little bit late, but he really went to bat for refuges.
    Mr. Dicks. Yes. I told him, parks are important but so are 
the fish and wildlife refuges.
    Ms. Sorenson. That is right.
    Mr. Dicks. And he understood that. Thank you.
    Ms. Sorenson. Thank you.
    Mr. Dicks. Okay, Tom Cassidy, The Nature Conservancy. Thank 
you, Tom----
    Mr. Cassidy. Thank you, Mr. Chairman----
    Mr. Dicks [continuing]. For your good work.
    Mr. Cassidy. Mr. Simpson. Thank you for being here so late 
in the morning.
    Mr. Dicks. Well, it has been a good hearing, I think.

                                          Thursday, April 23, 2009.

                         THE NATURE CONSERVANCY


                                WITNESS

THOMAS J. CASSIDY JR.
    Mr. Cassidy. Well, I appreciate this opportunity to present 
The Conservancy's funding recommendations. My name is Tom 
Cassidy. Is this on?
    Mr. Dicks. Push the button. If it turns red, then you are 
okay.
    Mr. Cassidy. Okay. My name is Tom Cassidy. I am Director of 
Federal Programs at The Conservancy. My oral testimony will 
highlight six of the key programs that are described in my 
written testimony.
    First, climate change. The Conservancy appreciates the 
Chairman's leadership in highlighting the need for increased 
investments in climate change science, particularly through the 
National Global Warming and Wildlife Science Center. We support 
a robust increase in funding for programs that will guide the 
science-based investments necessary to meet the critical needs 
of fish and wildlife adaptation in a world whose climate is 
changing. We also welcome the President's commitment to address 
this global environmental challenge.
    Second, Land and Water Conservation Fund. Thank you for 
your leadership in restoring funding to the Nation's premiere 
land conservation program. We are gratified by the President's 
commitment to fully fund the LWCF and look forwards to working 
with Secretary Salazar and the Committee to secure the funding 
necessary to protect our Nation's treasured landscapes.
    Mr. Dicks. What do you think they mean by that? What is 
your interpretation of that?
    Mr. Cassidy. Well----
    Mr. Dicks. The treasured landscapes.
    Mr. Cassidy. The Secretary has spoken of a moon shot for 
land conservation. He is certainly looking to his experience 
with GoCo. I do not think we are going to see a national 
lottery as they do in Colorado, but one thing that the 
Secretary has mentioned is that, you know, in 1978 when LWCF 
was reauthorized at a $900 million funding level, if you 
inflation index that, we are talking about $3.4 billion.
    Mr. Dicks. Right.
    Mr. Cassidy. So they are talking big, and they are still 
developing that.
    Mr. Dicks. Right, so they do not have a proposal.
    Mr. Cassidy. Not yet. Well, there is lots of----
    Mr. Dicks. We just have kind of a description of this----
    Mr. Cassidy. Description and----
    Mr. Dicks. We protected a lot of the Nation's treasured 
landscapes.
    Mr. Cassidy. Yes, you have.
    Mr. Dicks. I mean, is this going to take it beyond that or 
are there other treasured landscapes that we have not 
protected?
    Mr. Cassidy. There are probably treasured landscapes that 
could probably use more investments such as some of our LWCF 
requests this year.
    Mr. Dicks. Okay. I got you. Well, I have heard him speak 
about this, and I just wanted to get your take on it.
    Mr. Cassidy. Our take is positive and it is still being I 
think developed.
    Mr. Dicks. Okay.
    Mr. Cassidy. And we hope to have a role in that in the 
months ahead. WE also support a funding level of $325 million 
for a federal LWCF. This year, we will be meeting with staff on 
29 projects including Washington's Turnbull National Wildlife 
Refuge, Idaho's Henry's Lake ACEC and continuing large-scale 
projects in New England, Silvio O. Conte National Fish and 
Wildlife Refuge and also Montana's Blackfoot River watershed. 
We are also supporting projects in Wisconsin's Chequamegon-
Nicolet National Forest and West Virginia's Monongahela 
National Forest.
    Forest Legacy. We support there as well the $125 million 
for this program and are proposing 13 projects including the 
Northern Cumberlands project, the largest conservation deal in 
Tennessee since the creation of the Great Smoky Mountains 
National Park. Other priority projects include New York's 
Follensby Lake and Virginia's Chowan River Headwaters.
    The fourth area is fire, and here we appreciate the 
Subcommittee's continued attention to the problem of ever-
increasing cost to wildfire suppression, due in part to 
continued residential growth in forested and fire-prone areas, 
coupled with a lengthening fire season in a warmer climate. We 
have recommendations in three areas. First, thank you, Mr. 
Chairman, for requesting the Administration to include in its 
budget $40 million for the recently enacted Forest Landscape 
Restoration Act. We enthusiastically support your request and 
look to work with the Committees in both bodies to secure that 
funding.
    Second, my written testimony details specific funding 
investments that help address the problem you well appreciate, 
getting ahead of the curve on fuels treatments to avoid the 
inevitable expense of ever-increasing suppression costs.
    And third, we support the President's recommended reserve 
fund for fire suppression or creation of a FLAME fund for mega 
fires in conjunction with strong cost management and 
accountability.
    Fourth, like others we support an increase to $125 million 
for the Cooperative Endangered Species Conservation Fund. 
Earlier this week Secretary Salazar announced the fiscal year 
2009 program grants including several land acquisition projects 
in Washington, Kentucky, Oklahoma, and California. We were 
pleased in fiscal year 2008 to work on a Recovery Land 
Acquisition Program with Idaho Department of Fish and Game for 
grizzly bear recovery.
    In international conservation, we support the International 
Conservation Budget which calls for $15 million for the Fish 
and Wildlife Service Multinational Species Conservation Fund 
and increased funding for other Fish and Wildlife Service and 
Forest Service international programs. Mr. Chairman, I would 
like to depart briefly from my written comment simply to extend 
a sincere appreciation and thanks to Debbie Weatherly for all 
of her years of service to this Subcommittee and all of those 
besides you on your side of the table to all of us over here to 
support all of the work that we are all involved with. We will 
all miss her and will look forward to working with her and she 
and Glenn go onto their next stage of their lives.
    Mr. Dicks. Well, we agree with you. Debbie was one of our 
very best staffers for a long period of time, was an invaluable 
resource on both sides of the aisle. And Mike Stephens, too, 
has also done a great job for this Committee as well.
    Mr. Cassidy. Yes. Thank you.
    Mr. Dicks. All right. Thank you. Thank you very much.
    [The statement of Thomas Cassidy follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.073
    
    [GRAPHIC] [TIFF OMITTED] T0064C.074
    
    [GRAPHIC] [TIFF OMITTED] T0064C.075
    
    [GRAPHIC] [TIFF OMITTED] T0064C.076
    
    Mr. Dicks. Leah MacSwords, President of the National 
Association of State Foresters. Good to see you again.
    Ms. MacSwords. Nice to see you. It is a little warmer this 
time when I was here last.
    Mr. Dicks. It is.
    Ms. MacSwords. Do I thank the Committee for that, too?
    Mr. Dicks. Well, it looks pretty good out there.
    Ms. MacSwords. If you all did that, that is great.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

                NATIONAL ASSOCIATION OF STATE FORESTERS


                                WITNESS

LEAH MACSWORDS
    Ms. MacSwords. I am Leah MacSwords. I am the President of 
the National Association of State Foresters. I am also the 
director of the Kentucky Division of Forestry and Kentucky 
State Foresters, and I want to thank you, Chairman Dicks, and 
you, Ranking Member Simpson, members of the Committee, for 
allowing me to appear today on behalf of the National 
Association of State Foresters.
    Our state foresters are a strategic national resource that 
provide a host of important benefits to the public, and I will 
highlight NASF's key priority areas for Interior appropriations 
which center on the U.S. Forest Service state and private 
forestry programs.
    The total NASF recommendation for state and private 
forestry is $335 million representing a 26 percent increase 
over the 2009 enacted levels. We offer specific funding 
recommendations for our top five priority programs, State Fire 
Assistance, Cooperative Forest Health Management, Forest 
Stewardship, Urban and Community Forestry, and Forest Inventory 
and Analysis. Federal investment in these programs multiplies 
public forestry benefits by leveraging in-kind contributions 
through cost-share programs with matching funds from states. 
State foresters rely on strong, active partnerships with public 
land managers, private landowners, local governments, tribal 
nations, industry, and conservation organizations to address 
threats to forest and ensure forest health and sustainability.
    The Wildland Fire Management Program is a good example of 
how these cooperative relationships serve the public and the 
landscape. Our national wildfire situation has become 
increasingly expensive and complex with more people living in 
fire-prone areas, larger and more frequent wildfires, a change 
in climate, and unhealthy landscapes due to insects and 
disease.
    The State Fire Assistance Program is the fundamental 
federal assistance mechanism that states and local fire 
departments use to prepare for and respond to wildfires on non-
federal land.
    Our recommendations for State Fire Assistance 
appropriations are $45 million for cooperative fire protection 
and $70 million for wildland fire management. These funding 
levels will help address the mitigation and preparedness 
backlog in communities at risk from wildfire and continue the 
fuel reduction work on non-federal lands that is essential for 
a landscape approach to wildland fire management.
    Mr. Dicks. What did you think of George Leonard's idea of 
having 10 hot shot teams, addition?
    Ms. MacSwords. Well, what he is talking about with the hot 
shot teams deals with primarily fires on federal land.
    Mr. Dicks. Right.
    Ms. MacSwords. Our concern is dealing with those fires on 
the non-federal land. Of course, if you can keep----
    Mr. Dicks. Can they help? Would those people help you or do 
they just stay on federal lands?
    Ms. MacSwords. They stay primarily on federal land unless 
the state requests federal assistance. Of course, there is a 
cost to that, and typically states can fight fire cheaper than 
bringing in federal crews to assist us. So we try to use our 
cooperative grants for those.
    Mr. Dicks. Except in California. Right? Does not the state 
pay a little bit more than----
    Ms. MacSwords. Yes, they do.
    Mr. Dicks. Which is a problem.
    Ms. MacSwords. I can only say that in Kentucky I do not pay 
that much.
    Mr. Simpson. It depends on your perspective.
    Mr. Dicks. It depends on what you said. Go right ahead.
    Ms. MacSwords. Wildfire is well-recognized as a growing 
expense, but forest pests also cause the American public to 
lose billions of dollars in forest and tree benefits each year. 
The Cooperative Forest Health Management Program provides 
funding assistance to maintain healthy, productive ecosystems 
and minimize impacts from insects, diseases, and other emerging 
threats that jeopardize forests throughout the country. The 
program funds the highest priority, prevention and suppression 
of various threats such as emerald ash bore, pine beetles, and 
sudden oak death.
    The Forest Health Management Program needs money to expand 
its early detection project which ultimately reduces the cost 
of future response efforts and forest damage. In Cooperative 
Forest Health, NASF recommends $53 million for state and 
private forestry and $13 million for wildland fire management.
    Another threat to our forest resources is the impact of 
changing climate. The Forest Stewardship Program will play an 
increasing important role in helping millions of family forest 
owners prepare their forests for the impacts and opportunities 
created by climate change. Forest Stewardship provides 
ownerships with the technical information necessary to 
encourage long-term stewardship and sustainability of their 
forest at a time when climate change adds new complexities to 
their management. Technical assistance ensures that landowners 
can implement adaptation practices that provide habitat and 
migration corridors and improve the ability of forests to 
sequester and store carbon. NASF recommends increasing Forest 
Stewardship Program funding to $45 million for fiscal year 
2010.
    The trees and forests in our cities and towns provide 
essential green infrastructure to 226 million taxpayers, a 
robust Urban and Community Forestry Program addresses a range 
of national priorities from job creation to energy savings. 
Strategically placed urban tree cover cleans the air and helps 
cities meet air quality standards by absorbing harmful 
pollutants and greenhouse gases. Urban forests also----
    Mr. Dicks. Is there not also a problem within species, like 
various invasives in these urban trees?
    Ms. MacSwords. There is a problem with invasives not only 
on the trees in the urban areas but in the rural areas as well, 
and that is in some part a connection to the change in climate 
as you see more and more species moving into areas where they--
--
    Mr. Dicks. Ivy, for example.
    Ms. MacSwords. Certain types of ivy. They get planted in 
the urban areas because people think they look pretty and they 
spread and cause a problem in the urban areas and then 
eventually in the rural areas.
    Mr. Dicks. Yes.
    Ms. MacSwords. Urban forests can also generate a 
significant amount of wood waste that can be converted to 
renewable energy or alternative fuels. The urban program 
provides information and assistance to communities through 
state foresters that encourage cooperative efforts to plant, 
protect, maintain, and use wood from trees in urban areas. NASF 
strongly urges Congress to increase urban and community 
forestry funding to $36 million. Expanding funding for the 
program will help city forests adapt to and mitigate climate 
change consistent with the Farm Bill's Statewide Assessment of 
Forest Resources and Strategy Requirements.
    The Forest Inventory and Analysis Program managed by the 
research arm of the Forest Service is the Nation's only 
comprehensive inventory system for assessing the health and 
sustainability of the Nation's forests all across ownerships. 
As we pursue energy independence and climate mitigation goals, 
states will rely on FIA data to provide information about woody 
biomass availability and carbon sequestration in our forests. 
With the growth of renewable energy and carbon markets, FIA 
will serve as a valuable role in determining how forest 
resources can contribute to an improved environment while 
fostering economic development. NASF recommends that the FIA 
program be funded at a minimum of $73 million for fiscal year 
2010 with $68 million through Forest and Rangeland Research and 
$5 million through state and private forestry.
    We look forward to working with the leaders in Congress to 
improve the forest resource nationwide and to further all our 
collective priorities. So if you have any other questions, 
gentlemen?
    [The statement of Leah MacSwords follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.077
    
    [GRAPHIC] [TIFF OMITTED] T0064C.078
    
    [GRAPHIC] [TIFF OMITTED] T0064C.079
    
    [GRAPHIC] [TIFF OMITTED] T0064C.080
    
    Mr. Dicks. Thank you for a good statement. All right. 
Pauline Yu, Vice President of National Humanities Alliance. 
Welcome.
    Ms. Yu. Thank you.
    Mr. Dicks. Good to see you.
    Ms. Yu. Good to see you. With a last name beginning with Y, 
I am used to coming sort of at the end of the line, but thanks 
for your patience. Mr. Chairman and Ranking Member Simpson----
    Mr. Dicks. Thank you for your patience.
    Ms. Yu. You have quite a lot of fortitude, too.

                                          Thursday, April 23, 2009.

                      NATIONAL HUMANITIES ALLIANCE


                                WITNESS

PAULINE YU
    Ms. Yu. Thank you for this opportunity to testify is 
support of the National Endowment for the Humanities. I am 
Pauline Yu, President of the American Council of Learned 
Societies which is the preeminent, private organization in 
support of the humanities in the United States, a federation of 
70 member organizations supporting research in the humanities 
and social sciences.
    I speak to you today as Vice President of the National 
Humanities Alliance which is a coalition of 102 nonprofit 
humanities organizations that represent teachers and scholars 
who rely on NEH grants to maintain a strong national 
infrastructure for research and teaching in the humanities.
    Your Subcommittee exercises extraordinary stewardship of 
our Nation's natural resources, and we have heard a lot this 
morning about how important that is. I would like to shift to 
the other large area of responsibility we have for our cultural 
resources which also require urgent conservation and renewal, 
especially now. If our global climate is changing, then so 
certainly is that of our finances, and humanities institutions 
across the country are reducing staff and cutting programs like 
everyone else to cope with shrinking revenues and battered 
endowments.
    We urge the Subcommittee to provide NEH with at least $230 
million in fiscal year 2010 which would include an increase of 
$50 million for competitive grant programs at the national 
level and $25 million for operating grants to the states' 
humanities councils.
    This may sound like a large request. Relatively I do not 
think it is. Certainly even compared to what NEH was funded at 
15 years ago it is not. In constant dollars, the NEH budget in 
1994 would have been $258 million, and I think it is clearly 
merited when you consider what is at stake.
    In today's knowledge-based economy, study of the humanities 
imparts what all Americans need, reading, writing, language 
proficiency, critical thinking, moral reasoning, effective 
communication, historical knowledge, civic awareness, and 
cultural literacy.
    The knowledge that humanities scholarship provides is 
essential to our understanding of our heritage as citizens of 
the United States and to our obligations as custodians of this 
planet.
    Colleges, universities, historical societies, museums, 
foundations, and state humanities counsels are all partners in 
that effort. And indeed, the ability of NEH grants to leverage 
significant non-federal funds makes some strikingly efficient 
expenditures. But only the NEH has the national responsibility 
to assure that the value and opportunities the humanities 
provide are widely available to all Americans. NEH grants 
reflect the breadth of NEH's mission. Congressman Dicks, in 
Tacoma, for example, NEH has helped the Washington State 
Historical Society create new museum space and exhibits for 
school groups and tourists and other visitors on the region's 
history. From the early record of the Chinook people and the 
Russian frontier settlements in the Pacific Northwest to the 
development of nuclear energy on the Columbia River. And three 
crucial NEH grants to the University of Puget Sound were 
instrumental in really expanding and bolstering the liberal 
arts curriculum there.
    Congressman Sensenbrenner----
    Mr. Dicks. Good work.
    Ms. Yu. Very good work, and we need more of it. In Idaho an 
NEH grant to the Mountain Home Historical Museum is supporting 
preservation assessment and training to collect and maintain 
agricultural mining and ranching artifacts as well as maps and 
county records documenting the history of the west.
    But the humanities confront an opportunity gap. For many 
years, the NEH has not had the resources sufficient to carry 
out its vital responsibilities. Last year only 16 percent of 
competitive peer reviewed project proposals were funded 
compared to a 26 percent acceptance rate for merit-reviewed 
projects at the National Science Foundation which has a similar 
responsibility to its field.
    Mr. Dicks. Yes, and they just got a huge increase in the 
stimulus package.
    Ms. Yu. And that is why we need one right now. We estimate 
that at least $40 million will be required just to help close 
this opportunity gap. We are especially concerned about funding 
for humanities research where less than 9 percent of proposals 
were funded. In fact, last year NEH awarded less than half the 
number of research fellowships that it was able to give in 
1994, and believe me, there are many more people applying for 
these fellowships. This drop in funding has a huge impact 
because so many other things depend on it. All other endowment 
programs like those concerned with teaching, publications, and 
public outreach ultimately depend upon the expertise and 
knowledge that results from the research of scholars.
    Another question that you might ask is how can the Congress 
measure the endowment's success? Well, new funding would allow 
the NEH to collect and analyze data on the fields it serves. 
This is a function that its original, authorizing legislation 
required but its current budget does not allow.
    And finally----
    Mr. Dicks. Now say that again? What would it do?
    Ms. Yu. It would allow, give NEH, the capacity to actually 
collect data on what it does.
    Mr. Dicks. To evaluate?
    Ms. Yu. And so it would help----
    Mr. Dicks. That is why we do not do well in science either. 
You know, we do all these things and we very rarely go out and 
have a good monitoring and assessment program.
    Ms. Yu. That is exactly----
    Mr. Dicks [continuing]. Whether it has worked or not.
    Ms. Yu. Well, we need that information in the humanities, 
too, and I think we would all benefit from it.
    And finally, in this recession, we are at serious risk of 
losing the next generation of scholars and educators who can 
help us understand who we are and who we can aspire to be. NEH 
is the only federal research agency that does not have funding 
to support graduate students. Therefore, we request new funding 
for that purpose.
    So can we afford to invest in the humanities? Can we afford 
not to. The humanities are about the values humans create. They 
require their students to scrutinize, understand, and question 
value. Is that not worthwhile? In the financial pages every day 
we see the cost of not doing so. And if I may close on a 
personal note, I think as a daughter of immigrants from China 
and a student of Chinese literature, I know something about 
what happens when a country almost forgets the humanities. And 
I think we lose our cultural memory and our cultural moorings 
at our peril. Congressman Dicks, as someone who won the Sidney 
Yates Award last year for your service to the humanities, I 
know you understand that and I know you do, too. Congressman 
Simpson, I thank you for your very strong support of NEH 
recently and your consideration of this request.
    Mr. Dicks. I like your quote from John Hope Franklin, a 
leading U.S. historian who passed away at the age of 94 who 
stated, ``I want to be out there on the firing line, helping, 
directing or doing something to try to make this a better 
world, a better place to live.''
    Ms. Yu. No one could have said it better than he did.
    Mr. Dicks. Thank you.
    Ms. Yu. Thank you.
    [The statement of Pauline Yu follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.081
    
    [GRAPHIC] [TIFF OMITTED] T0064C.082
    
    [GRAPHIC] [TIFF OMITTED] T0064C.083
    
    [GRAPHIC] [TIFF OMITTED] T0064C.084
    
    Mr. Dicks. All right. Marc Johnson, Federation of State 
Humanities Councils. Marc, welcome.
    Mr. Johnson. Mr. Chairman, great pleasure----
    Mr. Dicks. I am sorry we for keeping you for so long, but I 
thought the hearing--it is hard to cut people off, you know.
    Mr. Johnson. I appreciate that and I suspect the welcome 
words were the last witness. Great pleasure to be with you, Mr. 
Chairman.
    Mr. Dicks. Thank you for being here.

                                          Thursday, April 23, 2009.

                FEDERATION OF STATE HUMANITIES COUNCILS


                                WITNESS

MARC JOHNSON
    Mr. Johnson. I am here representing the 56 state and 
territorial humanities councils. We consider them the 
neighborhood face of the humanities. The councils operate in 
all states and virtually every county in the United States. 
They are neighborhood and community organizations that interact 
and support other community organizations, schools, libraries, 
museums, historical sites, community centers, retirement homes, 
et cetera. It is a particular pleasure for me to be here with 
my Congressman, Mr. Simpson. I am from Boise, Idaho, Mr. 
Chairman.
    Mr. Dicks. Very delighted to have him as the Ranking 
Member.
    Mr. Johnson. And he is a good friend. We go back a long 
way. When he was the Speaker of the Idaho House of 
Representatives and I served as Chief of Staff to then-Governor 
Cecil Andrews, and if you need a good story from those days 
some time, Mr. Chairman, let me know. I may be the source for 
that. And I bring you greetings from a former secretary.
    Mr. Dicks. I remember Cecil at first when he was the 
Secretary of the Interior.
    Mr. Johnson. He knew I was going to be here today, and he 
instructed me in that special way to bring you his very best 
regards.
    Mr. Dicks. Well, good. I am glad to hear that.
    Mr. Johnson. The state councils----
    Mr. Dicks. He once said, and this will not count on your 
time, that I played football without a helmet.
    Mr. Simpson. I think he said some things like that amount 
me, too. Well, Cecil and I are very good friends.
    Mr. Dicks. Well, this is just aside. I had put a little 
amendment in that overrode something that he was trying to do, 
as governor. And we still have a problem with this nuclear 
waste issue. But we worked it out.
    Mr. Johnson. I remember that----
    Mr. Dicks. But he and I have always been good friends, and 
he was an extraordinary Secretary of Interior.
    Mr. Johnson. Well, thank you, and seriously he did extend 
his very best regards.
    Mr. Dicks. Thank you.
    Mr. Johnson. The humanities are about the American 
experience. They are about our history and our culture, where 
we have been and where we are going as a people. The state 
councils this year are respectfully requesting a $25 million 
increase in the federal-state partnership line of the endowment 
budget in order to meet the community needs and provide support 
to local cultural organizations. That $25 million would 
translate into roughly a $.5 million increase for the state 
councils. That would allow councils to expand the free 
programming that they provide for individuals and local 
cultural and educational institutions, for teacher and student 
resources, for civic engagement all across the country. Mr. 
Chairman, my written testimony highlights a number of council 
programs including some in the great State of Washington that 
could be doubled or tripled almost immediately with an infusion 
of additional resources.
    I would like to just mention two from Idaho. We are 
particularly pleased with the Idaho Council sponsorship of the 
Smithsonian Museum on Main Street program. Right now as 
Congressman Simpson would appreciate, the Council has teamed up 
with the Salmon Valley Business Innovation Center to bring a 
museum-quality Smithsonian-quality exhibit to Salmon, Idaho. 
Mike you would agree with me that Salmon is not exactly on the 
main road to anywhere, and it is unlikely that those kinds of 
exhibits would be available in a place like Salmon or Lava Hot 
Springs without the support of the Idaho Humanities Council.
    We are also particularly pleased and supportive of the 
teacher institutes that many councils do across the country. 
The Idaho Institutes typically attract 40 or 50 teachers. They 
are often in mid-career. For a residential experience on a 
college campus during the summertime, diving deep into the 
subject of American history or literature, the presidency of 
Abraham Lincoln or the Constitution, this year the Idaho 
Council is sponsoring a terrific institute on the history of 
the Supreme Court and what it means to our culture and to all 
of our citizens.
    Mr. Dicks. Do you bring teachers in?
    Mr. Johnson. We bring teachers in.
    Mr. Dicks. I think that is a tremendous----
    Mr. Johnson. It is a highly----
    Mr. Dicks. I know that the National Endowment has done 
that, too.
    Mr. Johnson. It is a highly competitive deal. Typically we 
can support 40 or 50 teachers, but they are exposed to world-
class scholars. We are going to be able to attract some of the 
great scholars of the Supreme Court this summer to Idaho for 
that institute. The teachers create their own curriculum 
materials out of those experiences, and part of the requirement 
is that they share that widely with their colleagues across the 
state.
    So I would just express my appreciation to this Committee 
and particularly to you, Mr. Chairman, for your long and 
diligent support of the humanities. I think you would agree 
that our founders, Jefferson and Madison among others, believed 
strongly that an informed, engaged, inquisitive population was 
absolutely the foundation of an engaged and appropriately 
engaged democracy, and it is really the foundation of the 
strength of our country. And that is what the humanities are 
all about, strengthening and perfecting our great democracy.
    Tremendous pleasure for me to be here this morning, and 
thank you, Mr. Chairman.
    [The statement of Marc Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.085
    
    [GRAPHIC] [TIFF OMITTED] T0064C.086
    
    [GRAPHIC] [TIFF OMITTED] T0064C.087
    
    [GRAPHIC] [TIFF OMITTED] T0064C.088
    
    Mr. Dicks. Are you a candidate?
    Mr. Johnson. Am I a candidate?
    Mr. Dicks. Yes. Who is going to be the next chairman?
    Mr. Johnson. I wish I had that Ph.D. I would have aspired 
to that position. I do not know. I hear lots of rumors. We were 
discussing it this morning. I do not know that I have any 
particular solid information.
    Mr. Dicks. Well, maybe I will give you a call and we can 
talk off line.
    Mr. Johnson. I would love that opportunity any time.
    Mr. Dicks. All right. Mike.
    Mr. Simpson. Thank you, Mr. Chairman, and thank you, Marc, 
for being here today. You have always done a great job in Idaho 
whether in this capacity or other capacities, and we have had a 
great working relationship over the years. But you are 
absolutely right. These types of things that are in Salmon, 
Idaho, it is a Smithsonian exhibit on fences and----
    Mr. Dicks. It is just wonderful.
    Mr. Simpson [continuing]. And the implication and the 
effect those have had, particularly in the west and so forth. 
Salmon, if you have never been there, is a place you got to 
want to go there because it is a long ways from anywhere. One 
of the most important thing humanities does, the National 
Endowment for the Arts, those other things is get this stuff 
out to people in rural America who would not otherwise have the 
opportunity to experience it. You do some great work. Thanks 
for all you do.
    Mr. Johnson. I appreciate it very much. Thank you.
    Mr. Dicks. And keep us informed, and we will work with you 
on the humanities. I try to bring both the endowments back to 
the same level, try to make increases.
    Mr. Johnson. You have done a terrific job in that regard. 
We very much appreciate it.
    Mr. Dicks. And you know, it is all about trying to do it in 
a way that is sustainable in terms of a bipartisan coalition in 
the House, and that is very important to me because we worked 
hard over the years to build this coalition back after we had 
all the concerns, never about the humanities, mostly about the 
arts. But we try to do this in stages. And we realize we are 
not where we used to be, but we are also facing some very 
difficult budget realities.
    Mr. Johnson. Absolutely, and I would be the first to 
acknowledge you made a great leap with the omnibus bill to get 
back to where we would like to be.
    Mr. Dicks. Yes, thank you.
    Mr. Johnson. Thank you, sir. Thank you, Mike.
                                         Wednesday, April 28, 2009.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


                            PUBLIC WITNESSES

                     Opening Statement of Mr. Dicks

    Mr. Dicks. I want to welcome all of our witnesses this 
morning to the final of four days of public witness testimony 
on the fiscal year 2010 budget. Today, we will hear from a 
variety of witnesses, representing many natural resources and 
environmental organizations.
    As members know, the right of the public to petition the 
committee is provided by the First Amendment of our 
Constitution, and I am glad to host a third year of public 
witness hearings as chairman of this subcommittee. I am 
especially proud to be able to sit here in front of you today 
and say that, over the past two years, this committee has 
worked hard to improve the bill, and provide increases to 
vitally important programs. Last year's bill alone reflected a 
4.8 percent increase above the prior bill.
    In that bill, we rejected a number of requested cuts to 
programs that are critical to environmental, social, and 
scientific activities. Instead, we choose to invest in programs 
that address global climate change and greenhouse gas 
reduction. We continued to protect our public lands and 
precious open spaces, and to provide federal support for the 
arts and humanities. We hope to continue these priorities in 
the Financial Year 2010 bill.
    I would like to remind our witnesses that we have many 
speakers scheduled to appear today. To ensure that we are able 
to accommodate everyone, I ask that our witnesses respect the 
five minute time limit. A yellow light will flash with one 
minute remaining of your time, in order to give you the 
opportunity to wrap up your statement. When the red light comes 
on, your time has expired. Your prepared statement, of course, 
will be published in the record, along with the transcript of 
your actual testimony.
    Mr. Dicks. Mr. Simpson, would you like to make an opening 
statement?
    Mr. Simpson. Let us go.
    Mr. Dicks. All right. Our first witness is Bill Chandler, 
of the Marine Conservation Biology Institute. Mr. Chandler, 
please.
    Mr. Chandler. Thank you, sir. Good morning, Mr. Chairman, 
Mr. Simpson.
    Mr. Dicks. Yes, good to see you again.
    Mr. Chandler. Good to see you again, sir.
    Mr. Dicks. All right.
                              ----------                              

                                           Tuesday, April 28, 2009.

                 MARINE CONSERVATION BIOLOGY INSTITUTE


                                WITNESS

BILL CHANDLER
    Mr. Chandler. My testimony today will focus on the funding 
needs of the newly created Marine Monuments in the Central 
Pacific.
    Mr. Chairman, as you know, in January, President Bush 
designated three marine monuments in the Central Pacific, using 
his powers under the Antiquities Act, and management 
responsibility for these areas has been assigned to the 
Secretary of the Interior. The monuments cover approximately 
192,000 square miles of Earth, and include ten island areas, 
ranging from the Northern Marianas in the West to Palmyra Atoll 
in the East, to Rose Atoll down in the South in American Samoa. 
Although many of the included islands already were national 
wildlife refuges, President Bush vastly expanded the services 
management domain by wrapping these islands in a 50 nautical 
mile boundary.
    But because the designations were unforeseen, the 
Department's 2009 and 2010 budgets did not include funds for 
the new areas. Consequently, the Department has a lot of work 
to do now, ranging from developing three management plans by 
2011, issuing regulations, coordinating with other government 
entities, promoting scientific research, and they are even 
required to set up an Advisory Council in the Northern 
Marianas.
    Manning the frontlines, of course, to do all this work is 
the Honolulu office of the Fish and Wildlife Service, Region 
One. Like many services offices, the Honolulu office has 
suffered significant staff reductions in the past few years, 
and many management tasks have been deferred or postponed 
indefinitely. The Honolulu office also is confronted with the 
costly enterprise of moving people, researchers, staff, 
supplies, from Honolulu vast distances to get to these islands, 
either by plane or by ship. Now that our Nation has recognized 
the remarkable coral reefs of the Central Pacific, I believe a 
new infusion of resources is warranted to enable the Service to 
deal with its responsibilities.
    Meanwhile, even prior to the monuments' designations, there 
has been a pressing need to remove two shipwrecks from the 
islands, one at Kingman Reef and one at Palmyra. As the steel 
in these vessels corrodes, dissolved iron spurs growth of a 
coralimorph, an anemone-like organism which smothers and 
destroys the natural coral reef. Residual fuel leakages from 
these two ships are also accelerating the growth of a blue-
green algae, which also covers and smothers the coral 
ecosystem.
    Mr. Dicks. How big an area?
    Mr. Chandler. Well, at Palmyra, 250 acres of reef have now 
been smothered by the coralimorph.
    Mr. Dicks. What about ocean acidification?
    Mr. Chandler. Well, it is a problem throughout the ocean, 
Mr. Chairman, as you know.
    Mr. Dicks. What about here?
    Mr. Chandler. Well, here, we do not have any recent reports 
about damage from ocean acidification yet, as far as I know, in 
these locations.
    Mr. Dicks. Well, I can tell you----
    Mr. Chandler. And they are more resilient.
    Mr. Dicks. I can tell you, there can be, especially if 
there is algae involved, we have the same problem with dead 
zones in the Hood Canal.
    Mr. Chandler. Right. Right.
    Mr. Dicks. In my district. The ocean acidification can make 
these situations worse.
    Mr. Chandler. Absolutely. It stresses the corals, and makes 
them----
    Mr. Dicks. Right.
    Mr. Chandler [continuing]. To all sorts of diseases and 
stressors.
    Mr. Dicks. Right. Go ahead.
    Mr. Chandler. So, the destruction is going to continue at 
Palmyra, Mr. Chairman, until the wreck is removed. So, MCBI 
recommends the addition of $8.77 million to the 2010 Refuge 
System budget to provide for the following. First of all, we 
need a manager for each monument, a planner to coordinate the 
preparation of the management plans and associated expenses. 
The Service would like to outfit and operate a vessel to enable 
them to reach the refuges on a regular basis, which they are 
not able to do now. And they have been negotiating with the 
Navy to get that vessel at no charge, but it will have to be 
retrofitted. And finally, we need to remove the wrecks from the 
two islands.
    At this point, I would like to inform the committee that 
new information has come to me regarding the cost of the wreck 
removal. The original estimate we received was about $1.5 
million. That has now gone to $10 million, and the increase has 
to do with the difficulty of getting the large Palmyra wreck 
out of the coral reef without damaging the reef itself. It is 
now in very shallow water, and it is going to have to be cut 
out instead of floated out and sunken.
    I do understand that a stimulus grant proposal has been 
submitted to NOAA by a marine salvage firm, with a price tag of 
$10 million on it, but I cannot speak to the probability of 
that grant request funding. We are going to keep track of it, 
though.
    While the cost is higher----
    Mr. Dicks. NOAA got quite a bit of money for ecosystem 
restoration. I would think this would be an ideal----
    Mr. Chandler. Should be enough----
    Mr. Dicks. Have you talked to anybody down there?
    Mr. Chandler. We have not talked directly to NOAA, because 
they are considering this proposal now, so we do not, you know, 
we do not want to unduly interfere in that process of the grant 
consideration, but they are considering it.
    Mr. Dicks. Why not?
    Mr. Chandler. Why not? Well, I mean, we can call them, Mr. 
Chairman, and get back to you.
    Mr. Dicks. We might call them too. Everybody else is 
calling them.
    Mr. Chandler. We would love to see them.
    Mr. Dicks. Everybody else is calling them.
    Mr. Chandler. We would love to see them get the $10 
million, and the Fish and Wildlife Service in Honolulu has been 
cooperating with that, with NOAA.
    Mr. Dicks. Okay.
    Mr. Chandler. With the NOAA. So, the fact remains that the 
reefs are being damaged. Those wrecks need to come out. There 
are very few pristine reefs like Kingman and Palmyra left in 
the world, and I would hope that the committee would look 
favorably upon their removal.
    That concludes my testimony, Mr. Chairman, and I will be 
happy to answer any questions.
    [The statement of Bill Chandler follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.089
    
    [GRAPHIC] [TIFF OMITTED] T0064C.090
    
    [GRAPHIC] [TIFF OMITTED] T0064C.091
    
    [GRAPHIC] [TIFF OMITTED] T0064C.092
    
    Mr. Dicks. Well, I think the statement is very 
comprehensive. I appreciate the good work you guys have done. 
We will look into this, and see what we can do.
    Mr. Chandler. Thank you, Mr. Chairman.
    Mr. Dicks. Right. Thank you.
    Mr. Simpson. Is the $10 million needed all at one time?
    Mr. Chandler. Presumably so. I mean, at least it has to be 
committed. I do not know how the contract reads, Mr. Simpson, 
so I would look into that and get back to you, though. 
Certainly will do that.
    Mr. Dicks. Darin Schroeder, American Bird Conservancy, 
welcome.
                              ----------                              

                                           Tuesday, April 28, 2009.

                       AMERICAN BIRD CONSERVANCY


                                WITNESS

DARIN SCHROEDER
    Mr. Schroeder. Thank you, Mr. Chairman, and thank you, 
Ranking Member Simpson, for the opportunity to speak to you 
today about the increase, the need to increase funding to a 
Federal Grants Program that has proven very effective in 
maintaining healthy and abundant bird populations here in the 
United States. It is the U.S. Fish and Wildlife Service's 
Neotropical Migratory Bird Conservation Act Grants Program, 
which is a mouthful, so I will just refer to it as the NMBCA.
    First of all, I would like to thank you for your past 
support of this program. In the time I have before you today, I 
would like to focus on how the increase of this program to its 
full authorization of $6.5 million, which is just $1.75 million 
above last year's appropriations level, would benefit the 
songbirds that are soon to arrive back from the wintering 
grounds, and to the backyards and birdfeeders of millions of 
anxiously awaiting Americans.
    Now, as members of this subcommittee know well, America is 
blessed with a spectacular abundance and rich diversity of 
birds, with more than 800 species inhabiting the mainland, and 
in Hawaii and the surrounding oceans. So, it is easy to 
understand why 75 million Americans engage in the sport of bird 
watching, and how this activity generates over $45 billion to 
our economy every year.
    Unfortunately, the U.S. Fish and Wildlife Service's new 
report, State of the Birds, tells us that many of our bird 
species are in decline, and some are threatened with 
extinction. For example, Eastern meadowlarks, historically 
found in great abundance in our prairies, have dropped 70 
percent over the past 30 years. The Northern bobwhite quail has 
similarly lost 70 percent of its population, and the rusty 
blackbird has lost a staggering 99 percent. Hawaii, the 
'akikiki and 'akeke'e, have undergone severe population 
declines, which has prompted ABC, my organization, to petition 
for their listing under the ESA.
    American Bird Conservancy's own report, Saving Migratory 
Birds Future Generations, the Success of the Neotropical 
Migratory Bird Conservation Act, has found that out of the 341 
species the Act protects, 127 are in decline. If these trends 
continue----
    Mr. Dicks. What is the reason for the decline?
    Mr. Schroeder. Well, the major reason is habitat loss, and 
this grants program is targeted to address that very 
effectively. If these trends continue, Mr. Chairman, Americans 
may never be able to see the bright blue cerulean warbler, 
which is very typical in Congressman Mollohan's district, the 
Bell's vireo, or the black-chinned sparrow.
    This downward spiral in some populations can be seen all 
throughout the country. Here in Washington, D.C., for example, 
an annual census of the birds of Rock Creek Park that started 
in the 1940s found that the number of migratory songbirds there 
has dropped 70 percent over the past half-century, and three 
species of warbler no longer breed there at all.
    And as I mentioned, the mean declines are pretty well 
established by the U.S. Fish and Wildlife Service's report, and 
the largest is the loss of breeding habitat throughout the 
country and in the Northern Hemisphere. Resource extraction and 
growing human populations have resulted in more development and 
land conversion, and suburban sprawl has essentially limited 
the amount of extent, large, unbroken habitat for native birds.
    And the second reason, of course, is from habitat 
degradation from the ecologically unsustainable land uses, such 
as clear cutting trees, or the destruction of grasslands to 
create farmland. Deforestation, especially in Latin America, is 
accelerating at an alarming rate, driven by the needs of the 
rapidly expanding human population, which has tripled from 1950 
to 2000.
    Now, to address these two problems, habitat loss and 
degradation, both of which are expanding ever increasingly 
south of our border, ABC respectfully requests that you act to 
help mitigate their impact by improving the appropriation level 
for the Neotropical Migratory Conservation Act Grants Program.
    As the subcommittee knows, the NMBCA supports partnership 
programs in the United States, Canada, Latin America, and the 
Caribbean, to conserve migratory birds on their wintering 
grounds, where 350 species, including some of the most 
endangered birds in North America spend their winters. Projects 
include activities that benefit bird populations, such as 
habitat restoration, research and monitoring, law enforcement, 
outreach and education. My organization's report found that the 
grant program has established a proven track record of 
reversing habitat loss and advancing conservation strategies 
for the broad range of neotropical birds that populate America 
and the Western Hemisphere.
    The public/private partnership, along with the 
international collaboration they provide, are proving 
themselves to be an integral resource to preserving vulnerable 
bird populations. From 2002 to 2007, grant money has gone out 
to 44 U.S. States, 34 countries, and funded 225 projects, 
impacting almost 3 million acres of critical bird habitat.
    ABC strongly believes that expanding this program is 
essential to achieving conservation goals critical to our 
environment and our economy. Just as importantly, this federal 
program is a good value to taxpayers, leveraging over $4 in 
partner contributions for every $1 that we spend.
    In conclusion, Mr. Chairman, let me just say that America 
faces a serious challenge to reverse the decline of many of our 
bird species, but it is possible. Since birds are sensitive 
indicators of how we are protecting our environment as a whole, 
this decline signals a crisis the Congress must act now to 
reverse. If these reports tell us anything, it is that when we 
apply ourselves by investing in conservation, we can save 
imperiled wildlife, protect habitats, and solve the multiple 
threats at the root of this problem.
    And that concludes my remarks, Mr. Chairman.
    [The statement of Darin Schroeder follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.093
    
    [GRAPHIC] [TIFF OMITTED] T0064C.094
    
    [GRAPHIC] [TIFF OMITTED] T0064C.095
    
    Mr. Dicks. What about reforestation?
    Mr. Schroeder. Reforestation is a critical component, and 
it is happening under the Neotropical Migratory Bird 
Conservation Act.
    Mr. Dicks. Okay. Mr. Simpson. Thank you. Nicole 
Whittington-Evans, Friends of Alaska National Wildlife Refuges. 
Good morning.
    Ms. Whittington-Evans. Good morning, Mr. Chairman. Do I 
need to push anything here? Okay.
    Mr. Dicks. I think as long as that button is on----
    Ms. Whittington-Evans. It does not appear to----
    Mr. Dicks. It looks--you are good. We hear you.
                              ----------                              

                                           Tuesday, April 28, 2009.

              FRIENDS OF ALASKA NATIONAL WILDLIFE REFUGES


                                WITNESS

NICOLE WHITTINGTON-EVANS
    Ms. Whittington-Evans. Okay. Thank you very much for this 
opportunity to testify today. My name is Nicole Whittington-
Evans, and I am here with the Friends of Alaska National 
Wildlife Refuges, regarding the fiscal year 2010 Appropriations 
for the National Wildlife Refuge System.
    We urge adoption of a funding level of $514 million for the 
fiscal year 2010 for the National Wildlife Refuge System, the 
amount advocated by the Care Group and the House National 
Wildlife Refuge Caucus. This funding level will help to address 
recent reductions of staffing and programs, and will put the 
system on the path to reach adequate baseline funding of $765 
million annually by fiscal year 2013.
    The Alaska Friends is a nonprofit group composed of 
individuals who reside in Alaska and the contiguous United 
States. We work on a volunteer basis to assist the Fish and 
Wildlife Service to accomplish their mission and goals for the 
16 Alaska National Wildlife Refuges. Alaska Friends volunteers 
have worked on programs such as removing invasive species in 
many refuges, rural education and science camps in remote 
villages, educational outreach to the public, and many other 
projects.
    Alaska's refuges encompass more than 77 million acres, and 
comprise approximately 83 percent of the lands in the National 
Wildlife Refuge System, but they receive approximately 12 
percent of the total budget for the Refuge System. As of 
January 2009, the Refuge System's operations backlog for Alaska 
projects totaled $272 million. Alaska's wildlife refuges have 
special management and budgetary needs, due to their size, 
remoteness, and inclusion of rural villages in many cases. They 
are unique in all of the Refuge System.
    This is clearly illustrated by the Alaska Maritime Refuge, 
spread out along most of Alaska's 47,000 miles of coastline. 
The Maritime Refuge includes some 2,500 islands, pinnacles, 
active volcanoes, and headlands that are home to 40 million 
seabirds, which is 80 percent of all seabirds in North America, 
and significant populations of marine mammals, including fur 
seals, otters, whales, and Steller sea lions. Traveling east to 
west across the Refuge is approximately the same distance as a 
trip from the Atlantic Coast of Georgia to the Pacific Coast of 
California, and logistically, much more complex and expensive. 
The Service's 120 foot research vessel, the Tiglax, travels up 
to 22,000 nautical miles in a single year, to support 
management activities for this Refuge.
    Management of this and other Alaska refuges is challenging, 
costly, and yet, vitally important. Alaska's refuges are 
uniquely situated to contribute information and expertise 
regarding major national and worldwide problems, such as 
climate change and the transmission of avian influenza, among 
others, and any reductions in budgets can have severe effects 
on their management capability, and long-lasting impacts on 
wildlife and habitat that play a central role in the biological 
health of not only the Refuge System, but of the entire 
continent.
    In recent years, budget reductions have strained Alaska's 
refuge resources. Downsizing has resulted in the elimination of 
29 positions between the fiscal year 2005 and 2007, including 
assistant managers, education specialists, and biologist. We 
need to turn this around, so that conservation efforts, 
enjoyment of refuges, and important refuge programs, such as 
rural job and education opportunities vital to many Alaskan 
rural villages and subsistence activities will not be further 
compromised or eliminated.
    More than 1.3 million visitors and residents engage in 
activities on Alaska refuges annually. The contribution of 
refuges to local economies is illustrated by the Kenai Refuge, 
where every $1 spent by the Refuge produces almost $15 in local 
recreational expenditures, and over $12 million in local tax 
revenues. Finally, the Alaska Friends is strongly opposed to a 
provision included in the 2009 Public Lands Omnibus Bill, that 
may result in a land exchange for a road through the Izembek 
National Wildlife Refuge.
    Alaska's refuges face many threats, including another 
proposed land exchange that would facilitate oil and gas 
development in the Yukon Flats Refuge. We have worked hard to 
oppose both of these proposals, and we urge this committee to 
move forward with caution when dealing with appropriating funds 
for these issues, and other issues facing refuges in Alaska.
    We thank you for your efforts in the past to increase 
budgets for the National Wildlife Refuge System, and we 
strongly encourage you, and recommend you to adopt the $514 
million appropriation for the Refuge System.
    Thank you very much for this opportunity to testify.
    [The statement of Nicole Whittington-Evans follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.096
    
    [GRAPHIC] [TIFF OMITTED] T0064C.097
    
    [GRAPHIC] [TIFF OMITTED] T0064C.098
    
    [GRAPHIC] [TIFF OMITTED] T0064C.099
    
    Mr. Dicks. Well, we appreciate your testimony. Homer is in 
Southeastern Alaska, right?
    Ms. Whittington-Evans. No, Homer is basically South Central 
Alaska.
    Mr. Dicks. South Central.
    Ms. Whittington-Evans. Yeah.
    Mr. Dicks. Well, I----
    Ms. Whittington-Evans. Alaska Maritime's headquarters are 
in Homer, but the refuge itself has some islands in Southeast 
Alaska.
    Mr. Dicks. Southeast Alaska.
    Ms. Whittington-Evans. Yeah. And all across the Aleutian 
chain, and up all over.
    Mr. Dicks. We will certainly, we appreciate how important 
Alaska is in this situation. Mr. Simpson.
    Mr. Simpson. No.
    Mr. Dicks. Thank you.
    Ms. Whittington-Evans. Thank you very much.
    Mr. Dicks. Thanks.
    Ms. Whittington-Evan. Okay. Bye bye.
    Mr. Dicks. And we are committed to increasing the funding 
for the Fish and Wildlife Service.
    Ms. Whittington-Evans. Thank you.
    Mr. Dicks. Bruce Stein, National Wildlife Federation.

                                           Tuesday, April 28, 2009.

                      NATIONAL WILDLIFE FEDERATION


                                WITNESS

BRUCE STEIN
    Mr. Stein. Good morning, Mr. Chairman, Ranking Member 
Simpson. Thank you for the opportunity to testify on behalf of 
the National Wildlife Federation and our four million members 
and supporters.
    My written testimony details NWF's specific funding 
recommendations for agencies under the subcommittee's purview, 
but what I would like to focus on today is the need for strong 
federal action to safeguard our wildlife and natural ecosystems 
in the face of the unprecedented threat from global warming.
    Climate change is now putting more than a century of 
conservation achievement at risk here in the United States as 
well as around the world, and addressing both the underlying 
causes of global warming and its impacts on our natural world, 
is quite simply the conservation challenge of our time.
    Addressing this challenge will require a strong commitment 
from the Federal Government, as well as unprecedented levels of 
coordination among federal, state, and private entities. The 
President's detailed budget request has not yet been released, 
but we are heartened by what was revealed in the February 
budget summary.
    We strongly endorse the President's commitment to 
meaningfully reduce emissions of global warming pollution, and 
are particularly supportive of the $130 million in additional 
funding included in the Department of the Interior budget to 
assess and respond to the impact of climate change on wildlife.
    I would like to focus my remarks on three areas when NWF 
sees federal action as critical for positioning the Nation to 
address the growing impacts of climate change. These are 
improved scientific capacity for understanding climate change 
impacts on wildlife; two, development of adaptation strategies 
at federal and state levels; and three, delivery of climate-
smart conservation programs.
    Regarding scientific capacity, NWF commends the 
subcommittee for its leadership in the establishment of a 
National Climate Change and Wildlife Science Center in the U.S. 
Geological Survey. That Center, which NWF fully supports, 
promises to improve understanding of the impacts of global 
warming on fish, wildlife, and plant resources, which will be 
an essential ingredient for developing effective wildlife 
adaptation strategies.
    The subcommittee also recognized the importance to the 
Federal Government of the network of state-based national 
heritage programs. The inventory and monitoring data provided 
by this national network is critical for assessing the impacts 
of climate change on species and ecosystems, and we encourage 
the committee to continue federal support for this important 
public/private partnership.
    Regarding adaptation planning, safeguarding the Nation's 
wildlife and natural resources in the face of climate change 
will require coordination across federal departments and 
agencies. NWF strongly endorses the development of a national 
climate change adaptation strategy. We are encouraged by recent 
adaptation planning efforts underway in agencies such as the 
Fish and Wildlife Service and U.S. Forest Service, but feel 
that a truly national cross-agency approach will be essential 
to respond to this challenge.
    Mr. Dicks. So, you are saying, what you want to see is an 
interagency organization.
    Mr. Stein. That is correct. We have to do this in a 
coordinated fashion. Otherwise----
    Mr. Dicks. Now, USGS, they are the science entity for the 
Department of Interior.
    Mr. Stein. That is correct.
    Mr. Dicks. But we got NOAA. We have other agencies that are 
involved. NASA, I mean, there are a lot of other people 
involved----
    Mr. Stein. That is correct, but the actual conservation 
delivery agencies.
    Mr. Dicks. Is not Carol Browner supposed to be in charge of 
an interagency effort on climate change?
    Mr. Stein. And apparently, CEQ is co-leading an adaptation 
and working group.
    Mr. Dicks. Yeah, CEQ, that would be the normal----
    Mr. Stein. OSTP.
    Mr. Dicks. We sometimes forget about them, because they 
were so unobvious in the last eight years.
    Mr. Simpson. The previous Administration.
    Mr. Dicks. Well, I did not want to ruin your morning. But 
now, we have Ms. Sutley down there, and she is holding some 
meetings, I am told.
    Mr. Stein. Yes, that is our understanding.
    And in fact, Chairman, there was language included in the 
Financial Year 2009 Appropriations Bill, directing the 
Secretary of Interior to begin development of such a strategy. 
We are not sure exactly where that stands at this point, 
because it was included in the U.S. Geological Survey section, 
but obviously, it goes well beyond the USGS.
    Mr. Dicks. Right. There definitely should be an interagency 
effort. I assume that with this Administration, there will be.
    Mr. Stein. We assume that as well, yeah.
    Mr. Dicks. Right.
    Adaption planning must also proceed at the state level, 
where much of the responsibility for resource management and 
conservation delivery resides. Fortunately, state wildlife 
action plans, which this subcommittee has been instrumental in 
supporting, provide an excellent foundation on which to build.
    The National Wildlife Federation has been working with more 
than 15 states to assist them in building climate change into 
their wildlife action plans, and we have found a tremendous 
amount of interest in the states in updating these plans to 
better take climate change into consideration, and develop 
specific management responses.
    We strongly support appropriation of at least $85 million 
to the State Wildlife Grant Program, and additionally, would 
suggest this program is an effective vehicle for delivery of 
the $40 million in state wildlife adaptation assistance 
identified in the President's budget summary.
    Regarding conservation delivery, ensuring the survival of 
the Nation's natural heritage, and the continued functioning of 
our natural ecosystems, will depend on the delivery of climate-
smart conservation programs, and practices on both public and 
private lands and waters.
    NWF believes that many existing federal programs, from land 
acquisition and management to species protection, to private 
landowner incentives and assistance, can serve to deliver on 
the ground conservation in ways that benefit both climate 
adaptation and sequestration, that is carbon mitigation 
objectives. Given the magnitude of projected impacts, however, 
it is clear that natural resource adaptation will require 
vastly greater levels of funding that historically have been 
available for wildlife and natural resource management.
    Accordingly, NWF feels that it is essential that any 
comprehensive climate change legislation enacted by Congress 
must not only reduce greenhouse gas emissions, but also include 
substantial funding to counter and repair the damage of global 
warming, the damage that global warming pollution is having, 
and will continue to have, on our natural ecosystems.
    Investing in healthy natural systems is not only the right 
thing to do for the Nation's wildlife, but is important for 
sustaining a strong economy, for helping protect our 
communities from natural disasters, and for ensuring that 
America's children will continue to enjoy a high quality of 
life.
    Thank you very much for the opportunity to speak with you 
today.
    [The statement of Bruce Stein follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.100
    
    [GRAPHIC] [TIFF OMITTED] T0064C.101
    
    [GRAPHIC] [TIFF OMITTED] T0064C.102
    
    [GRAPHIC] [TIFF OMITTED] T0064C.103
    
    Mr. Dicks. Thank you. This is a very comprehensive 
statement. We--I personally agree with much of this, and you 
have had some good ideas that we will continue to work on.
    Mr. Stein. Great. Thank you.
    Mr. Dicks. Thank you. Mr. Simpson.
    Mr. Simpson. Thank you.
    Mr. Dicks. Gregory Miller, the Outdoor Alliance.
    Mr. Miller. Good morning, Mr. Chairman, Ranking Member 
Simpson. Appreciate it.
    Mr. Dicks. Welcome.

                                           Tuesday, April 28, 2009.

                            OUTDOOR ALLIANCE


                                WITNESS

GREGORY MILLER
    Mr. Miller. I am Greg Miller, President of American Hiking 
Society, and Vice Chair of the Outdoor Alliance, a coalition of 
six outdoor recreation organizations who represent millions of 
Americans who hike, paddle, climb, bike, ski, and snowshoe. We 
are devoted to the conservation and stewardship of our Nation's 
public lands and waters through responsible, human-powered 
outdoor recreation.
    We greatly appreciate the subcommittee's past support for 
trails and recreation, and urge you to support strong 
recreation funding in 2010. My full written testimony has been 
submitted for your record.
    Less than 24 hours ago, I was hiking in the Front Range of 
Colorado, and like millions of Americans, sustainable 
recreation on public lands and waters is a central part of my 
life and that of my family. Outdoor Alliance believes that 
quiet recreation on our Nation's trails and public lands offers 
a lifelong and enjoyable way to deepen one's connections to 
nature, people, and place, and can also motivate people to 
protect the places they love, and preserve them for future 
generations.
    These lands and waters are integral to our national 
identity and economy, and with this in mind, I would like to 
highlight some of the 2010 budget recommendations that we 
believe are critical investments towards the health and 
wellbeing of American society. First recommendation is that the 
primary field of federal land management agencies urgently need 
more recreation staff, field staff. We propose that each agency 
receive funding to hire a minimum of 200 new field staff, such 
as back country rangers or visitor service specialists. We all 
agree that Americans need to get outside and recreate, but 
there are not enough field professionals to provide support and 
interpretation for visitors, especially children and families.
    Second, the world class recreation heritage of our National 
Forest System is truly threatened. Outdoor Alliance is deeply 
concerned that the recreation and trails programs will remain 
underfunded. This would result in devastating program and staff 
reductions, diminished recreation opportunities, and 
exacerbated maintenance backlogs. We therefore seek minimum 
appropriations of $377 million for the Service's recreation, 
heritage, and wilderness programs, $136 million for the Forest 
Service capital improvement and maintenance for trails, and 
$100 million for the Legacy Roads and Trail Remediation 
Program.
    Third, the Bureau of Land Management stewards more than 13 
percent of America's surface, and manages trails in the fastest 
growing states in America. From the soaring heights of the 
Pacific Crest Trail in Oregon to the depths of the Paria River 
Canyon in Utah. These are truly lands in demand. Recreational 
use is increasing by more than 300 percent in some areas, and 
more than 23 million people live within 25 miles of BLM lands.
    It was a proud day for all of us when the Omnibus Public 
Land Management Act was approved by Congress and signed by 
President Obama, and we thank the bilateral support for that. 
However, much work remains to ensure that the national 
landscape conservation system becomes permanent, not just on 
paper, which was an important element of that Act.
    We believe Congress can help in three ways. First, insist 
that BLM create a budget sub-activity for national scenic and 
historic trails, and wild and scenic rivers. Second, to provide 
adequate funding for the national landscape conservation 
system, we are recommending $75 million, which would enable the 
BLM to enhance visitor safety and security, coordinate 
volunteers, and protect resources. Finally, the BLM recreation 
management sub-activity must be adequately funded. For example, 
Agua Fria National Monument, near Phoenix, Arizona, has only 
one developed hiking trail, despite the fact that it is next to 
the second fastest growing city in America. This cannot 
continue.
    Fourth, we support the President's proposed funding levels 
for the National Park Service operations, and request $12 
million for the Rivers, Trails, and Conservation Assistance 
Program. RTCA yields enormous benefits to communities 
nationwide, improving quality of life and close to home 
recreation, and I have just returned from the Denver area, and 
I have had a chance to view some of the RTCA Intermountain 
Region's programs, integrated underserved populations in the 
Greater Denver Area with our recreation opportunities.
    Fifth, the Land and Water Conservation Fund has provided 
for, and continues to protect close to home recreation 
opportunities across America. We support increased LWCF funding 
to the $900 million authorized level over four years, and in 
2010, we request $125 million for stateside, and $325 million 
for the federal program.
    Finally, the National Wildlife Refuge System contains 2,500 
miles of trail, of land and water trails, serving nearly 40 
million visitors annually. We see a disturbing trend in staff 
downsizing and reduction that is not acceptable, and request a 
2010 appropriation of $541 million.
    In closing, the stewards, volunteers, and outdoor 
enthusiasts of the Outdoor Alliance provide extraordinary 
volunteer opportunities and contributions to our public lands. 
However, we could marshal an even greater level of volunteer 
stewardship if only agencies had more staff to help coordinate 
our volunteer contributions on the federal estate.
    For example, American Hiking Society coordinates volunteer 
vacations on National Trails Day, nationally recognized 
programs that engage thousands of volunteers of citizen 
stewards and trail advocates, and we, of course, leverage 
hundreds of thousands of hours of sweat equity that are worth 
millions of dollars.
    While volunteerism is essential to trails and recreation 
infrastructure, volunteers on public lands must not be 
perceived as a panacea to declining agency budgets and staffing 
levels. Congress must invest in trails, rivers, and human 
capital, as they are the true gatekeepers of our Nation's rich 
outdoor heritage.
    On behalf of the Outdoor Alliance, we thank you for your 
attention and considering our testimony.
    [The statement of Gregory Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.104
    
    [GRAPHIC] [TIFF OMITTED] T0064C.105
    
    [GRAPHIC] [TIFF OMITTED] T0064C.106
    
    [GRAPHIC] [TIFF OMITTED] T0064C.107
    
                 NATIONAL LANDSCAPE CONSERVATION SYSTEM

    Mr. Dicks. Well, that is a very good statement. And tell me 
about the National Landscape Conservation System.
    Mr. Miller. Twenty-six million acres, just recently passed 
in terms of the new Act. Permanence, it represents really some 
of the crown jewels of our Nation's public lands, primarily in 
the West. Tremendous opportunities for quiet recreation 
opportunities, as well as, of course, biodiversity 
conservation. I think many people sometimes think of it as sort 
of the second National Park System. We do not look at it quite 
that way, because there are opportunities on the NLCS, under 
BLM management, that perhaps even the National Park System does 
not----
    Mr. Dicks. Secretary Salazar has talked about protecting 
our great landscapes, and I assume this is what he is talking 
about.
    Mr. Miller. This is one of the key elements. This is really 
one of the most significant passages of legislation, in our 
opinion, in many decades, because it is going to provide some 
extraordinary new opportunities to recreate, get out for 
families to refresh themselves in the outdoors, in one of the 
fastest growing parts of our country, which is the West, and 
particularly, the Intermountain West.
    Mr. Dicks. One of the reasons why fire has become such a 
big issue is that in the Forest Service, when money is used up, 
they take money out of the recreation----
    Mr. Miller. Absolutely.
    Mr. Dicks [continuing]. Trails, and that is something we 
are trying to find an answer to. We hope the FLAME Act will 
help.
    Mr. Miller. And we are also very supportive of the FLAME 
Act, though it is not a part of this testimony.
    Mr. Dicks. So, we have to get an answer that is real.
    Mr. Miller. Absolutely.
    Mr. Dicks. My preference would we have FEMA do it. That 
once you exhausted the money, you go to FEMA. FEMA would then 
put the money up, and then you would not have to take money out 
of these accounts. We are going to keep working on this.
    Mr. Miller. Well, we will be very supportive of working 
with the House on this.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. Mr. Chairman, you mentioned the Public Lands 
Bill that passed. It not only had the conservation provision in 
it. It had 2 million acres of wilderness.
    Mr. Miller. That is right. I only highlighted that one in 
BLM.
    Mr. Simpson. And I supported the bill, and still support 
the bill.
    Mr. Miller. And we appreciate that, sir.

                     MOUNTAIN BIKES AND WILDERNESS

    Mr. Simpson. But I notice that you say hike, paddle, climb, 
ski, snowshoe, mountain bike.
    Mr. Miller. Yes, sir. That is correct.
    Mr. Simpson. Mountain bike is not allowed in wilderness 
areas.
    Mr. Miller. That is correct.
    Mr. Simpson. Does this cause you concern, because I am 
working on a wilderness bill, quite frankly, and the kickback I 
get is from some of the mountain bikers.
    Mr. Miller. Sure.
    Mr. Simpson. Because it is going to take out areas that 
they have traditionally used, and there is a bill before 
Congress, that I think they are going to have a hearing on in 
early May, NERIPA, that is, like 23 million acres, essentially 
all the area in the six Western States, that encompasses. Does 
that cause your mountain bikers some heartburn?
    Mr. Miller. Well, in fact, you are underscoring what I 
think is the genesis of our alliance, the Outdoor Alliance, is 
that we felt it was essential to bring the key players and the 
constituents of human-powered outdoor recreation, so that we 
can get on the same page, address some of these thorny key 
issues, and find, of course, common ground. And after the last 
three or so years, the fact that I am here today representing 
both mountain bikers, paddlers, skiers, as well as, of course, 
the 75 million Americans who hike, I think is a strong 
testament to a really collaborative approach, and we are really 
seeking the kind of solutions that will be sustainable for us, 
and so, I, and we appreciate, again, your support here.
    Mr. Simpson. A lot of people do not understand how many 
volunteer hours are out there, maintaining trails and stuff and 
people. We go hiking in the Boulder White Clouds with one of 
these recreation rangers for the Sawtooth National Recreation 
Area every year.
    Mr. Miller. Yes, sir.
    Mr. Simpson. And he has trail crews, and I met several 
people. One of them is a retired person that comes out to 
Idaho, fishes for two weeks, and works on trails for two weeks, 
just volunteers his time.
    Mr. Miller. Those guys get a lot done.
    Mr. Dicks. Well, I thought Mr. Miller's point was well-
taken. We cannot let that become a reason for not having 
adequate staff out there, and I have seen it in my own 
district. Up in the Hoh River, we had one Park Service person, 
you know, and the rest are all volunteers. But if the 
volunteers do not show up, the one person cannot handle all the 
people that are coming out there.
    Mr. Miller. That is right.
    Mr. Simpson. Well, and I will tell you that one of the 
complaints I have from our Forest Service people, and from 
recreation folks is that every year, their budget is just 
decimated by the forest fires.
    Mr. Dicks. Somehow, we have got to solve that problem.
    Mr. Miller. Wholesale redirection of resources that really 
are not serving the best interests of the American public, in 
terms of getting out, becoming healthy, and recreating. Thank 
you.
    Mr. Dicks. Appreciate it.
    Mr. Miller. Appreciate it.

                        HAPPY BIRTHDAY MR. COLE

    Mr. Simpson. Mr. Chairman, before you go on, I just have to 
say that it is time to welcome Mr. Cole, and today happens to 
be his birthday.
    Mr. Dicks. Well, happy birthday.
    Mr. Simpson. We would like to sing Happy Birthday to you, 
but we will not.
    Mr. Dicks. Well, we might.
    Mr. Cole. I would not be 60 without that.
    Mr. Dicks. Sid Yates, when he was 88, used to say oh, to be 
80 again.
    Mr. Miller. Chairman, if I could----
    Mr. Dicks. Sixty sounds pretty good to me.
    Mr. Cole. It could be a lot worse. This is also Saddam 
Hussein's birthday, and I am having a much better day than he 
is. And I now actually have a chance of catching and surpassing 
him, so anyway.
    Mr. Dicks. Okay. Frank Hugelmeyer, Outdoor Industry 
Association. I butchered.
    Mr. Hugelmeyer. You did, Mr. Chairman. Thanks very much.
    Mr. Dicks. Hugelmeyer.
    Mr. Hugelmeyer. Hugelmeyer.
    Mr. Dicks. Hugelmeyer.
    Mr. Hugelmeyer. There you go.
    Mr. Dicks. That is better.
    Mr. Hugelmeyer. Mr. Simpson.
    Mr. Dicks. Frank, you are welcome.
    Mr. Hugelmeyer. It is good to see you again, Mr. Chairman, 
and I would, before I start, I would like to just reiterate 
Greg Miller's great testimony there. We are in full support of 
what he just said as an industry.
    Mr. Dicks. Right.

                                           Tuesday, April 28, 2009.

                      OUTDOOR INDUSTRY ASSOCIATION


                                WITNESS

FRANK HUGELMEYER
    Mr. Hugelmeyer. My name is Frank Hugelmeyer, and I am 
President and CEO of Outdoor Industry Association, and on 
behalf of the entire outdoor recreation industry, I would like 
to thank Chairman Dicks and the committee for giving us the 
opportunity to testify regarding funding levels for programs 
that are vital to the recreation economy and the health of all 
Americans.
    OIA is a national trade group, and we are the title sponsor 
of the world's largest outdoor products trade show. Our members 
include leading manufacturers and retailers of outdoor 
recreation equipments, such as The North Face, Patagonia, 
Columbia Sportswear, Timberland, The Coleman Company, W.L. 
Gore, Eastern Mountain Sports, REI, Cabella's, L.L. Bean, and 
many, many others.
    Active outdoor recreation plays a large and important role 
in our Nation. Three out of four Americans participate in 
popular activities, such as hiking, biking, camping, paddling, 
skiing, hunting, fishing, and wildlife viewing. And 50 percent 
of these citizens use outdoor recreation as their main form of 
exercise. In addition, the industry is a major economic engine 
that generates $289 billion annually in direct retail sales and 
services. We support 6.5 million jobs across the United States. 
We contribute $88 billion in annual state and national tax 
revenue, and overall, we provide $730 billion to the U.S. 
economy each and every year.
    In times of difficult economic hardship, Americans have 
always returned in large numbers to the great outdoors. During 
the Great Depression and in every recession since, we have 
utilized the outdoors as our national place for renewal. In the 
coming years, outdoor gear sales and recreational outings will 
play a significant role in maintaining healthy outdoor 
businesses and strong communities.
    During the first eleven months of the current recession, 
industry-wide outdoor product sales grew an extraordinary 10 
percent, as families returned to camping and cycling, and other 
affordable outdoor activities. At the same time, many state and 
federal lands are seeing a dramatic increase in visitation, and 
a jump in campground reservations for this summer. So, now more 
than ever, it is essential that Congress provide adequate and 
full funding to the public lands on which American families 
recreate and outdoor businesses depend.
    Furthermore, the outdoor industry has long held a goal of 
ensuring every child in America has a trail or park within one 
mile from their home. Many studies show that this type of 
commitment to our Nation's recreation infrastructure would 
easily pay for itself in the resulting reduction in healthcare 
costs, and the increase in the mental wellbeing of our 
children.
    So, the committee can support the American people and the 
outdoor business community in the following ways. First, commit 
to fully funding the Land and Water Conservation Stateside 
Assistance Program, which provides parks and trails close to 
where most Americans live. As more and more Americans settle in 
urban areas, this program has become terribly underfunded. We 
understand a buildup to full funding called for by President 
Obama will take time, and so we ask you to begin by dedicating 
$125 million to the program for fiscal year 2010.
    Second, support U.S. Interior Secretary Ken Salazar's 
efforts to create a holistic national land conservation and 
recreation infrastructure, modeled on the Great Outdoors 
Colorado Program. Since 1994, the Colorado program has awarded 
almost $550 million in grants to more than 2,700 projects 
throughout the State, and while the national concept is still 
in its formative stages, Secretary Salazar has stated his 
desire for a unified initiative that preserves and better 
connects America's open spaces with local communities.
    OIA believes that our national recreation public lands 
infrastructure is equally important to the health and economic 
wellbeing of Americans, as is our transportation, 
telecommunications, and energy infrastructures. As a result, we 
are anxious to work with the Administration and with the 
Congress to create a unified vision that serves Americans where 
they live, and grows healthy outdoor businesses and the jobs 
that they provide.
    To that end, we urge members of this committee to help 
frame and build support for Secretary Salazar's national 
initiative.
    Thank you for the opportunity to testify before the 
committee. And I would be happy to take questions.
    [The statement of Frank Hugelmeyer follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.108
    
    [GRAPHIC] [TIFF OMITTED] T0064C.109
    
    [GRAPHIC] [TIFF OMITTED] T0064C.110
    
    [GRAPHIC] [TIFF OMITTED] T0064C.111
    
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. No questions.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. Thank you.
    Mr. Dicks. Well, thank you. It was a very good statement.
    Mr. Hugelmeyer. Thank you.
    Mr. Dicks. We are going to change the schedule here, just 
briefly. I want to call up Congressman Garrett, and he will 
introduce Marie Springer, Friends of Wallkill River. Welcome.
    Mr. Garrett. Good morning, and I----
    Mr. Dicks. We appreciate your being here. I know you have 
been in a markup, and we are glad you could be here.
    Mr. Garrett. And it is more fun being here than at that 
markup right now.
    Mr. Dicks. We appreciate that.
    Mr. Garrett. You understand that. Thank you for the 
opportunity, for allowing me to introduce Ms. Springer. She is 
a community leader from my district, and she is very familiar 
with the issues and challenges facing Tier Two and Tier Three 
refuges.
    She has worked tirelessly with regard to the Wallkill 
River, the majority of which is in my district. And this refuge 
is one that, as a lot of refuges do, protects hundreds of 
animals, including the bog turtle and the Indiana bat, both of 
which are on the endangered species list, and also, of course, 
provides a lot of environmental and health and biological 
diversity in the Valley. And it is also one which my wife and 
my daughters enjoy using, as well, because it is just a great 
place to go.
    Ms. Springer was recently awarded the 2009 Volunteer of the 
Year Award by the National Wildlife Refuge System, and the 2008 
Environmental Protection Agency Region Two Environmental 
Quality Award. She was also the founder and president of the 
Friends of the Wallkill River, and she has helped not only this 
river and refuge, but also, other refuges across New Jersey and 
the country. In 2008 alone, she has logged more than 2,000 
volunteer hours for the refuge system. Obviously, that is a 
workload equivalent to a full-time employee. In addition, she 
has helped remove invasive species, and assisted with land 
acquisition issues.
    So, preservation of New Jersey's open space, quite 
candidly, is one of my top priorities. It is why I got involved 
in government here on the federal level, and also, why I got 
involved back on the state level as well. And Marie has been an 
ally, someone who we can count on to stand up for safeguarding 
the beautiful natural areas of our community, and I think her 
testimony will be helpful to the committee. I appreciate your 
leadership.
    Mr. Dicks. Well, we want to congratulate you on your 
outstanding work. We appreciate it, and I am sure that you 
realize that we cannot do this just with volunteers. We have, 
as others have stated here today, we have to have a core staff 
for the Fish and Wildlife Service in order to get this done.
    This was one of the things I tried to point out to 
Secretary Kempthorne, that it seemed like the previous 
Administration wanted to do a great deal for the parks, but the 
refuges were kind of left behind. And you know, he and I worked 
together to make sure that we could reverse the downturn in 
employment, and have enough staff, adequate staff. And we are 
still not there, but we are much better than we were just a few 
years ago. But welcome.
    Ms. Springer. Very good. Thank you.
    Mr. Dicks. And appreciate your statement previous years, 
too.
    Ms. Springer. Thank you. It is an honor and a pleasure to 
appear before you again, and I just want to say that I agree 
with everything everybody else said so far.
    Mr. Dicks. Okay. That is quite unusual around here, you 
know.
    Ms. Springer. They are all doing the same work I am.
    Mr. Dicks. Yeah.

                                           Tuesday, April 28, 2009.

                       FRIENDS OF WALLKILL RIVER


                                WITNESS

MARIE SPRINGER
    Ms. Springer. It is the same big happy family. I am 
requesting $514 million for all National Wildlife Refuges, for 
operations and maintenance for Financial Year '10. I would also 
like to request emergency funding now for the United States 
Fish and Wildlife Service and the United States Geological 
Survey, to address the white nose bat syndrome crisis, $2.5 
million. For my own refuge, Wallkill River National Wildlife 
Refuge, I request $3.28 million for land acquisition.
    The United States Fish and Wildlife Service are people we 
have charged with protecting and preserving our most sensitive 
habitats and wildlife. These are the people who monitor and 
manage the wildlife and environment for current and future 
generations of Americans. Today, they face challenges that were 
inconceivable 20 years ago.
    I would like to draw your attention to some very serious 
trends occurring in our environment, the ramifications of which 
are beyond frightening. This is not alarmism. It is the reality 
of globalization. We are seeing plagues of fungi and other 
pathogens, wreaking devastating mortality rates on our 
environment. In the last 1980s, a fungus that caused similar 
mortality among amphibians has now spread over this country, 
South America, Europe, and Africa. In 2006, we saw colony 
collapse among the honeybees. Also in 2006, white nose syndrome 
began in Albany, New York. This flesh-eating fungus has now 
been confirmed as having affected tree and cave-dwelling bats, 
and has spread like wildfire. We are seeing upward of 95 
percent mortality rate, as several species of bats in ten 
states, from New Hampshire to West Virginia. Scientists fear 
extinction of many bats if we cannot stop this within a year.
    I encourage you to attend the U.S. Fish and Wildlife 
Service and USGS briefing on white nose syndrome May 1. The 
U.S. Fish and Wildlife Service and the USGS are the FEMA of the 
environmental world. These agencies----
    Mr. Dicks. Is this going to be here in D.C.?
    Ms. Springer. Yes. Yes.
    Mr. Dicks. Okay.
    Ms. Springer. I have nice packets for you.
    Mr. Dicks. Thank you.
    Ms. Springer. With all the information you need. These 
agencies have been understaffed far too long, and now we are 
seeing the ramifications. We have acted as if the environment 
were a luxury we could ignore. Instead, we are seeing just the 
beginning, pathogens and invasive species that can travel 
anywhere humans do.
    These are the agencies we entrust to research and manage 
invasive species and endangered species. They do not have the 
manpower or the funding even to begin to address these 
catastrophes, spreading beyond control. We are in this 
situation because we undervalued science and how the 
environment affects human quality of life. We know very little 
about these aggressive fungi and pathogens, how long before one 
arrives it wreaks havoc on the human populace. I wrote this 
before, just wanted to.
    We all assume there are omniscient scientists lurking 
somewhere, keeping us all safe, the somebodies, that somebody 
should do something is referring to. They are not hired. We did 
not hire them. We did not see that funding as a wise investment 
in the wellbeing of present and future American people.
    Little brown bats eat more than 500 mosquitoes per hour. 
They live about 30 years, and have only one baby per year. If 
we are able to stop white nose syndrome now, it will take at 
least 100 years for the populations to rebound to previous 
population levels. In the region affected by white nose 
syndrome, there are mosquito-transmitted diseases of West Nile 
virus and Eastern equine encephalitis. Is it our only option to 
cover everything with even more pesticides? What will that do 
to the pollinators? How will the ramifications of 
indiscriminate pesticide use affect human health? Is it a risk 
we can afford to take? These are the questions our scientists 
must address and answer, but we do not now have the scientific 
infrastructure to resolve these issues, or to prepare for or 
prevent future catastrophes. We need greenbacks and green jobs.
    We are seeing 640,000 new unemployment claims in the U.S. 
as of the week of April 18, 2009. We are at a frightening 8.5 
unemployment rate. The U.S. Fish and Wildlife Service currently 
has approximately 2,871 full-time employees. With funding at 
$514 million, it would allow the U.S. Fish and Wildlife Service 
to add 529 employees. That is almost one per refuge. According 
to CARE data, the U.S. Fish and Wildlife Service is 
understaffed by 2,867 personnel.
    We thank you for your consideration of the Land and Water 
Conservation funding request. We are delighted to see the Land 
and Water Conservation Fund Program identified as a top 
priority for Secretary of Interior Ken Salazar.
    We join other groups of the LWCF Coalition in urging 
support for increased overall funding for the Land and Water 
Conservation Fund to meet the needs of the Wallkill River 
National Wildlife Refuge and all refuges in our Nation.
    [The statement of Marie Springer follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.112
    
    [GRAPHIC] [TIFF OMITTED] T0064C.113
    
    [GRAPHIC] [TIFF OMITTED] T0064C.114
    
    [GRAPHIC] [TIFF OMITTED] T0064C.115
    
    Mr. Dicks. Well, thank you. Just one of our priorities is 
to get this thing straightened out. And those numbers are 2,871 
full-time employees, but understaffed by 2,867.
    Ms. Springer. So, about half what they need.
    Mr. Dicks. About, they have about half of what they need.
    Ms. Springer. Yeah. Yeah.
    Mr. Dicks. So, it is going to take a while to do this, but 
we are adding people. We have added money for the refuge 
system. Any other questions?
    Mr. Simpson. Yeah, just out of curiosity, what got you 
started in volunteering? And thank you for all the hours you 
have spent doing this.
    Ms. Springer. I was raised that you must be of service to 
your community. No ifs, ands, or buts about it. I have always 
volunteered. I am a beekeeper, so I moved in the National 
Wildlife Refuge, because I did not want to live around 
pesticides, and then, along came colony collapse, so I became 
very active, volunteering for the USGS doing native bee 
research on National Wildlife Refuges. And once there was de-
staffing, it was such a nightmare that I had no choice but to 
go to battle for all the refuges that are de-staffed, because 
it is just, we have this incredible country full of treasures, 
and each refuge has its own unique magic. But basically, only 
one third are now staffed, fully staffed. Maybe another third 
have maybe one or two staff, and at least a third of them have 
no staff. So, you know. And as you know, the Improvement Act 
says that we need to manage every refuge to meet the 
specifications of the Improvement Act. And right now, we cannot 
do that. We cannot even come close.
    Mr. Simpson. Well, thank you for all the time you have put 
in, and for your service to the Wildlife Refuge System and to 
the country. Thank you, Scott.
    Ms. Springer. Thank you.
    Mr. Dicks. All right. Thank you. Lyle Schellenberg, 
National Utility Contractors Association. Welcome.
    Mr. Simpson. Welcome.
    Mr. Dicks. Put your statement in the record, and you may 
proceed for five minutes.

                                           Tuesday, April 28, 2009.

                NATIONAL UTILITY CONTRACTORS ASSOCIATION


                                WITNESS

LYLE SCHELLENBERG
    Mr. Schellenberg. Chairman Dicks, Ranking Member Simpson, 
Congressman Cole. My name is Lyle Schellenberg. I am President 
of Armadillo Underground, located in Salem, Oregon. We have 15 
employees who work in trenchless excavations to support water, 
sewer, and other infrastructure projects throughout the 
Northwest. In fact, Mr. Chairman, we have a project coming up 
in Ocean Shores.
    I appreciate the opportunity to participate in this hearing 
on behalf of the National Utility Contractors Association, 
which supports the inclusion of $2.4 billion for the EPA's 
Clean Water State Revolving Fund, the SRF, and $1.5 billion for 
the Drinking Water SRF in the fiscal year 2010, Interior and 
Environment Appropriations Measure. These levels are consistent 
with the President's budget, as well as the budget resolutions 
recently passed in both the House and the Senate.
    NUCA is a family of more than 1,250 companies from across 
the Nation that build, repair, and maintain America's 
underground infrastructure. Our members do a significant amount 
of work on public water and wastewater projects. NUCA also 
serves as chair of the Clean Water Council, a coalition of 35 
national organizations representing construction contractors, 
manufacturers, engineers, and labor organizations, all 
committed to ensuring sound environmental infrastructure. For 
your reference, I list the CWC members as attached in my 
written statement.
    Utility contractors have a unique perspective about the 
state of our environmental infrastructure. We work on these 
systems every day, and we see firsthand what happens when they 
fail. What is out of sight and out of mind to most people is 
clearly visible to NUCA members every day, and I can tell you, 
the view from the trenches is not always pretty.
    Mr. Dicks. Explain what that is.
    Mr. Schellenberg. This is a chunk of a water main that has 
so much corrosion inside you are only getting a small amount of 
water through there. You know, it just shows how things.
    Mr. Dicks. Corrosion causes it.
    Mr. Schellenberg. Corrosion. This happens now, not only 
does it decrease your flow, but you have got things like 
firefighting in that, you are just not going to get the water 
through these pipes that you need to get.
    Mr. Simpson. How old is that pipe? Do you know?
    Mr. Schellenberg. I am not sure offhand.
    Mr. Simpson. Just curious. Thank you.
    Mr. Schellenberg. We routinely uncover rotting pipes, 
gaping holes, spill raw sewage into the ground in residential 
neighborhoods. In the Northwest, we pride ourselves on being 
green, but what I see underground is anything but.
    I personally find it unacceptable to continue to find beach 
closings on the Oregon DEQ or the Washington Department of 
Ecology websites due to sewer contamination. A near disaster in 
Portland was avoided a year ago, when a railroad track 
inspection discovered an eight foot diameter sinkhole under the 
main track caused by a collapsed sewer pipe. The railroad shut 
the train traffic. They called my own company in to conduct 
emergency repairs. This is the same track that carries Amtrak's 
passenger train. Needless to say, if a passenger train were to 
fall in a sinkhole, the results would be catastrophic.
    Regardless of what needs estimate you look at, you will 
find that our underground infrastructure is in dire straits. 
Back in 2004, the EPA found America's existing wastewater 
infrastructure needs exceeded $202 billion, and that was five 
years ago. And on the drinking side, the EPA projected a 20 
year drinking water infrastructure need at $334 billion.
    While the need to reinvest in this infrastructure is clear, 
the economic benefits that come with this work are often 
overlooked. Water infrastructure projects help maintain a 
strong economic foundation, by creating jobs, generating 
significant economic activity, and expanding the local tax 
base. Importantly, the jobs offered in this industry are 
quality, high-paying jobs right here in America. These are not 
jobs that can be shipped overseas.
    Speaking from the underground construction industry, 
increasing the federal investment in our underground 
infrastructure is more critical now than ever. National 
statistics indicate the construction industry shed another 
126,000 jobs in March. That marks 21 consecutive months of 
significant job loss in the industry. The unemployment rate for 
construction is now more than 21 percent, and there are nearly 
two million construction workers out of work. My own company 
has been forced to downsize from 25 employees to 15 employees. 
The increased investment in the SRF programs would create tens 
of thousands of jobs, and significantly assist America's 
economic recovery.
    In January, the Clean Water Council released the findings 
of a new study on the job creation and enhanced economic 
activity that comes with funding water and wastewater 
infrastructure projects. The study found that $1 billion 
investment in these projects result in the creation of between 
20,000 and 27,000 jobs, with average earnings of more than 
$50,000. Total national output or demand for products and 
services in all industries is between $2.8 billion and $3.5 
billion, another $1 billion in personal and household income, 
and more than $82 million in state and local tax revenue.
    In both the short and the long term, these fiscal benefits 
ripple through local economies. This morning's USA Today, Mr. 
Chairman, it shows the results of a poll on environmental 
concerns, and topping the list, at 59 percent of the people 
polled, is drinking water pollution.
    In summary, President Obama's fiscal year 2010 budget 
reflects a new understanding of the importance of these 
programs, and the budget proposals in both the House and Senate 
include the same needed increases. This subcommittee has the 
opportunity to take the next imperative step, by providing real 
money, through the appropriations process.
    Therefore, NUCA strongly encourages the subcommittee to 
include $2.4 billion and $1.5 billion to the Clean Water SRF.
    [The statement of Lyle Schellenberg follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.116
    
    [GRAPHIC] [TIFF OMITTED] T0064C.117
    
    [GRAPHIC] [TIFF OMITTED] T0064C.118
    
    [GRAPHIC] [TIFF OMITTED] T0064C.119
    
                       GRANTS VS. REVOLVING FUNDS

    Mr. Dicks. Okay, let me ask you a question. Do you think 
these revolving funds are adequate? I believe there should be 
some money for grants, and we have STAG grants, but that is 
very minimal. I think, you know, when Bill Ruckelshaus was 
Administrator of the EPA, and Richard Nixon was President of 
the United States, there was $4.5 billion in grant money, I 
think it is 80/20. And that has been done away with over the 
years.
    I think, you know, especially for rural areas, how are they 
going to do projects, if they have to pay all this money back? 
I do not see how they are going to get that done.
    Mr. Schellenberg. I do support grant projects, but it seems 
right now, the current system that we have is the State 
Revolving and, as you said----
    Mr. Dicks. But everybody seems to just kind of go along 
with that. Is it adequate?
    Mr. Schellenberg. I do not think it will be----
    Mr. Dicks. You know, we have a $600 billion gap. You add 
those numbers up, it is over $600 billion. And I think the 
number, you know, if you put the Revolving Fund and the Safe 
Drinking Water, it is about $688 billion. And as you say, this 
is a very big priority. Some people have said that putting 
sewers in was like the biggest health breakthrough in the 20th 
century. I am just worried that we have been kind of sold on 
this idea of a revolving fund, and I do not think it is 
adequate to take care of the problem.
    Mr. Schellenberg. I think it is one of the tools that is 
out there. I think we need to look at other things. I think we 
need to look at long-term, some kind of a long-term program, 
whether it is some kind of a trust fund or something, to fund 
our infrastructure. We need to look at all the different 
options that are available.
    Mr. Dicks. Any other questions? Mr. Simpson.
    Mr. Simpson. I would echo what the chairman said. And I 
think one of the problems is that, when you talk about 
infrastructure, most people talk about roads. But there are 
waters, there are sewers. There are dams and locks and rivers, 
all this kind of stuff, harbors.
    It is such a huge problem, and such a huge backlog, that we 
do not know how to get our hands around it, quite frankly, and 
so, we constantly put little amounts of money into, or big 
amounts of money, whatever you want to call it, into these 
various programs, but it does not address the issue. It 
probably does not even keep up with the backlog.
    I have been talking with Earl Blumenauer about, it is time, 
quite frankly, in this country, for another Gallatin 
Commission, such as the one that was around in the 1800s, when 
Thomas Jefferson formed it, to look at the infrastructure of 
this country, and what we need is, I think, an outline of what 
the problem is, and then a plan of how we are going to address 
it. Because right now, it is just a hundred different programs 
of different things, trying to address a myriad of problems 
that are too big for us to grasp.
    Mr. Schellenberg. I agree. I have had several meetings with 
Congressman Blumenauer as well, discussing these issues, and as 
you know, he is looking strongly at, look for long-term 
solutions.
    Mr. Simpson. Yeah, and I have been working with him on 
that.
    Mr. Schellenberg. I appreciate that.
    Mr. Simpson. And hopefully, we will come up with something.
    Mr. Dicks. I want to ask one additional question. We know 
that the fiscal year 2010 request for Clean and Drinking Water 
Revolving Funds will be $3.9 billion. That would be in addition 
of $7.5 billion appropriated in the '09 Omnibus and the 
Recovery Act. Does the construction industry have the 
capability to use that much funding over the course of the next 
few years?
    Mr. Schellenberg. I believe they do.
    Mr. Dicks. I mean, you are under capacity now, correct?
    Mr. Schellenberg. We are way under capacity.
    Mr. Dicks. And specifically, are you confident that the 
equipment required to repair, rehabilitate, and build new water 
and wastewater infrastructure is available to ensure that these 
funds are used effectively?
    Mr. Schellenberg. I believe they are.
    Mr. Dicks. All right. You bring up one of the really big 
problems here. When you have these matching funds and so forth, 
we can appropriate all the money in the world, but if the local 
community cannot come up with the matching funds, it does not 
do them a lot of good.
    Mr. Schellenberg. Right. I mean----
    Mr. Dicks. And somehow, we have got to address that. And 
they have got to pay back these loans. These are loans.
    Mr. Schellenberg. Right.
    Mr. Dicks. And they have to pay it back. If it gets too 
expensive. I have communities in my own district where it is 
going to be like over $100 a month, they are going to have to 
pay back these loans. These are rural areas, poor, rural areas. 
They cannot afford this. So, we made some changes in the Clean 
Water Revolving Fund, so that there could be forgiveness, like 
there is in the Safe Water Drinking Act. So, we have changed 
that. I think that is a major step in the right direction, and 
maybe we will see how that works.
    But I still believe that there are needs, and I think USDA 
has some money, Rural Development has some money for this as 
well. But the idea of not having some grants, to keep those 
rates at a level where they are affordable, means that these 
local communities will never do the projects.
    Mr. Schellenberg. Right.
    Mr. Dicks. Unless EPA beats them up and, you know, forces 
them to do it, which is, maybe the only way we will get some 
action on this thing. But it is a big concern, and I especially 
think in the rural areas, it is very unfair to ask these people 
to have to pay, bear this burden, because we walked away from a 
grant program.
    Mr. Schellenberg. Yeah, we used to have lots of grants, and 
the grants kind of went away, so----
    Mr. Dicks. Yes.
    Mr. Schellenberg. The SRF is what we are left with, you 
know.
    Mr. Dicks. Yeah. Any other questions? Thank you.
    Mr. Schellenberg. Thank you.
    Mr. Dicks. George Lea, the Public Lands Foundation. Thank 
you, Mr. Lea.
    Mr. Lea. Mr. Chairman.
    Mr. Dicks. Nice to have you here.
    Mr. Lea. Nice to see you again.
    Mr. Dicks. Yeah.
                              ----------                              

                                           Tuesday, April 28, 2009.

                        PUBLIC LANDS FOUNDATION


                                WITNESS

GEORGE LEA
    Mr. Lea. I am George Lea, President of the Public Lands 
Foundation. We are an all volunteer national organization of 
retired BLM employees, and as such, we have a unique body of 
knowledge and experience, and expertise in public land 
management. As retirees, we can now offer an objective, non-
bureaucratic view of what is really happening to the public 
lands and suggestions for improvement.
    Mr. Dicks. Does that mean you can tell the truth?
    Mr. Lea. I can tell the truth.
    Mr. Dicks. Okay. Go ahead.
    Mr. Lea. I do not have to feed my babies.
    Mr. Dicks. All right. If you are not worried about your 
jobs, you can tell the truth. You are a retiree.
    Mr. Lea. You bet.
    Mr. Dicks. Still getting your retirement, though, are you 
not?
    Mr. Lea. You bet.
    Mr. Dicks. All right. Good.
    Mr. Lea. Our mission, primary focus is on improving the 
condition of the land and its natural resources, and keeping 
the public lands in public hands. It is significant to note 
that the BLM lands will return more than $6.2 billion to the 
Treasury in receipts in 2009. Yes, that is not a mistake. That 
is $6.2 billion, with 49 percent of the receipts returned 
directly to the states and counties to support roads, schools, 
and other community needs.
    Our statement emphasizes some of the programs we feel that 
should be increased, that needs increased dollars in the fiscal 
year 2010. Let me start with renewable energy production. You 
know, the BLM has been known as an agency that produces AUMs, 
Animal Unit Months of Forage, board feed timber, tons of coal, 
recreation days, but still be known as the agency that produces 
KWs, kilowatt-hours of electricity.
    However, to avoid the train wreck that could prevent 
attaining the country's goal of increased renewable energy 
production, there is an urgent need to complete the energy 
development zoning effort, which requires increased funding and 
manpower. This inventory must precede any accelerated wind and 
solar energy permitting our rights of ways to reduce or 
eliminate the conflicts with other land uses.
    We support the President's goal of energy independence, as 
well as the National Environmental Policy Act.
    However, the Congress needs to understand that there needs 
to be a paradigm shift in the way we do business, if we are to 
meet our energy independence goals. For example, solar energy 
will require 100 percent of the land service being denuded of 
vegetation. BLM will be litigated at every turn with the normal 
EIS process, unless NEPA is modified for renewable and the 
transmission of renewable energy only, by requiring, for 
example, an environmental analysis not on EIS, with a 30 day 
public comment period, and a waiver of any appeal. Otherwise, 
we are going to be here next year, wondering why we have not 
got something done.
    In the case of solar, currently, the Bureau has 220 pending 
solar right of way applications, covering about 1.7 million 
acres of public lands, mostly in California, Nevada, Arizona, 
New Mexico, and Utah. And there is more to come. Perhaps the 
biggest impact of the solar development, farms, is the fact 
that the photovoltaic collectors completely dominate the land. 
In the case of wind, BLM has 243 billion pending wind and 178 
authorized rights of way applications for about 177,000 acres.
    In the case of geothermal, in December of 2008, the Bureau 
published a Record of Decision and approved resource management 
plan amendments for geothermal leasing in the Western States. 
This EIS anticipates the production of 5,500 megawatts of new 
electrical generation capacity from 12 Western States. 
Geothermal is a hot issue for BLM. In Nevada, for example, the 
competitive geothermal leasing sale in August 2008 brought a 
record-breaking $28 million to the Treasury. Half the revenues 
go to the states, a quarter to the counties where the land is 
located, and a quarter goes to the Bureau.
    Bioenergy production, again, the Bureau manages roughly 69 
million acres of forests and woodlands, plus several million 
acres of brush. Maintaining and restoring the health of these 
lands and providing forest products to contribute to the 
biomass energy supply will require increased funding and 
personnel.
    For example, many million acres are being invaded by 
juniper forests, requiring control and elimination efforts, 
producing huge amounts of bioproducts, and requiring a large 
manual and machine force, labor force.
    I would like to bring to the attention of the committee the 
recent Department of Interior Inspector General and the GAO 
report that there is a need to capture millions of U.S. dollar 
receipts from federal oil and gas production leases. This 
effort will require funding and personnel for BLM to verify 
production reported by oil and gas operators to ensure there is 
no underreporting of production of oil and gas.
    Earlier, you had mentioned the firefighting funds. We 
talked about that last year. There continues to be a need to 
provide the Forest Service and the BLM and the Fish and 
Wildlife Service and the Park Service with a separate funding 
for fire costs, so----
    Mr. Dicks. We are working on that.
    Mr. Lea. I appreciate that. In the case of wild horses and 
burros, I am sure the committee is aware of the dilemma that 
the Bureau faces. They currently have roughly 30,000 animals in 
corrals that are fed every day. They have to feed them every 
day until they die of natural causes, and there is about 30,000 
wild horses. And we appreciate the committee's providing 
funding to enable the Bureau to keep the population in balance 
with this habitat.
    However, the Bureau has got to make a decision, either to 
destroy the animals or to sell them without limitation. They 
have the authority to do that, but their policy is to keep the 
animals, that have to be ten years of age, and have been 
offered unsuccessfully for adoption for at least three times 
before they are considered to be destroyed. And I must tell you 
that as far as I know, the Bureau has not destroyed any animals 
since, I think, 1982, despite what you read. And we appreciate, 
as I mentioned, the committee's providing funding to keep the 
animal, wild horse animal production, in line with its habitat, 
and we look for your support when it comes time for the Bureau 
to actually destroy animals.
    Thank you, Mr. Chairman. I hope the comments are useful to 
you.
    [The statement of George Lea follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.120
    
    [GRAPHIC] [TIFF OMITTED] T0064C.121
    
    [GRAPHIC] [TIFF OMITTED] T0064C.122
    
    [GRAPHIC] [TIFF OMITTED] T0064C.123
    
    Mr. Dicks. George, thank you very much. Any questions? 
Thank you. Good to see you.

                       EXECUTIVE BRANCH TESTIMONY

    Mr. Cole. I have one question, Mr. Chairman, if I might, 
real quick.
    Mr. Dicks. Yeah, go ahead Mr. Cole.
    Mr. Cole. First of all, I appreciate very much the fact 
that you are still in retirement, pursuing this work with this 
kind of passion, so thank you very much.
    But I am intrigued, were there things that you really felt 
like you could not come and tell this committee, when you were 
in active service, that you feel like you can now? I mean, what 
were the barriers that kept you, if indeed that was the case, 
from being able to ensure we had your opinion?
    Mr. Lea. Well, as I said earlier, I had to feed my kids. 
That is a concern about following the policy, and repeating, 
you know, the position, the official position of the Department 
as well as the Bureau.
    Mr. Cole. You know, that is just troubling, because 
obviously, we rely on your expertise, and I do not direct this 
at you, but I mean, that always worries when we hear that, 
because we really do, as Members of Congress, really do need to 
know. I mean, you are the experts.
    Mr. Dicks. Sometimes before the Defense Subcommittee, we 
will ask a witness, some General or Admiral, their personal and 
professional opinion, whether they agree with the 
Administration's policy. Over the years, they have been able 
to. Not as much recently, but----
    Mr. Lea. It is still a dangerous economy.
    Mr. Cole. The last eight years. You talking about the last 
eight years?
    Mr. Dicks. It is still a dangerous economy. Just think 
about Shinseki, okay, our new head of the VA.
    Mr. Cole. Yeah, I understand. I understand.
    Mr. Dicks. I mean, there was a man who laid it out. He was 
asked a question. The Senate committee laid it out. And he was 
right, and yet, he was forced out of the government because of 
that. So, I mean, that sends a message down through the ranks, 
you know, about just how candid can you be. And here is one of 
the great, I think one of the greatest generals we have ever 
had, frankly.
    Mr. Simpson. Well, you know, chairman, that is, if you are 
an Administration, you want the employees of that 
Administration singing what the Administration line is. I 
understand that. That is, you do not want to make a decision on 
what you are going to do, and then have everybody going off in 
different directions.
    Mr. Dicks. It is hard.
    Mr. Simpson. So, I understand that, and I find that 
sometimes, I get the best information when I go out and talk to 
the BLM land managers from the state.
    Mr. Dicks. Yeah.
    Mr. Simpson. Or when I go hiking with the guys in the 
Forest Service or something like that. Oftentimes, that is, 
sitting around a campfire is when you get some of the best 
information.
    Mr. Cole. Yeah, we have to find ways to talk to you off the 
record. Last point, and I just want to commend you, too, for 
the strong statement you made about managing, you know, wild 
horses. It is a tough issue. I mean, we all get deluged with 
mail on this, but I could not agree with you more. I mean, the 
humane thing is to not either have more animals than you can 
handle in a given area, or maintain them in the kind of life we 
maintain them. It really is a place where Congress needs to 
have the courage to step up.
    Mr. Lea. I think the Bureau is spending roughly $30 million 
to feed horses, $30 million of the public's money just for hay.
    Mr. Cole. Most of the mail I get on this issue, Mr. 
Chairman, is from people who do not own horses, who have never 
been around horses. I mean, people who care about horses, I 
have a lot of horse country in my district, like seventh in the 
country, in terms of horses in Congressional districts.
    Mr. Dicks. Why do you not adopt----
    Mr. Cole. Well, we are kind of doing our share. But you 
need, you do need to have that tool, and Congress needs to be 
willing to sort of, you know, stand up to the lobbies.
    Mr. Dicks. We have given them the ability to do it.
    Mr. Lea. Given the money.
    Mr. Dicks. But as George says, they just do not do it.
    Mr. Cole. Yeah, but we routinely pass resolutions that tell 
them not to do it, and you know, over the objections of the 
relevant committees, in many cases. So anyway, thank you very 
much.
    Mr. Dicks. Thank you.
    Mr. Lea. Thank you.
    Mr. Dicks. Jay E., is it Leutze?
    Mr. Leutze. Call me Leutze.
    Mr. Dicks. Leutze. The Southern Appalachian Highlands 
Conservancy. Welcome.
                              ----------                              

                                           Tuesday, April 28, 2009.

               SOUTHERN APPALACHIAN HIGHLANDS CONSERVANCY


                                WITNESS

JAY E. LEUTZE
    Mr. Leutze. Thank you very much. It is an honor to appear 
today for several reasons. One reason, the name Leutze appears 
in the House of Representatives stairwell. My ancestor painted 
Westward, the Course of Empire Takes It's Way, which is the 
mural in the House of Representatives stairway, so coming to 
Washington, D.C., it is an honor to, getting the past from my 
Member, and walk up that stairwell, and see what it was all 
about, and it was about creating the country. Really, it is an 
epic painting about moving from East to West, and it is 
something that I think we can all relate to.
    One of the ways I like to start presentations is to talk 
about the land that we are living in as a young Nation, and we 
feel it in the Southern Appalachians as a place that has not 
grown to its full potential, as far as population, which scares 
us an awful lot, because we are under enormous pressure.
    I would like to start my remarks today by referencing the 
$15,413,000 need for three projects that I will discuss as part 
of this project. Those are federal land acquisition projects 
with LWCF requests in at this point.
    I am a trustee for Southern Appalachian Highlands 
Conservancy, which is one of 23 land trusts in the State of 
North Carolina. The land trusts are the partner on the ground 
for the Congress, for the Forest Service, and the other related 
agencies, to do acquisition work, and set aside the land that 
we would all like to leave for future generations, in the form 
of parks, trails, national seashores, BLM land.
    All of this land is acquired by a local partner on the 
ground. The projects that I will bring before you today have 
been decades in the making, with a local land trust. I am a 
volunteer as well. And we have been cultivating landowner 
relationships for decades on one of these properties, that has 
finally led to a successful conclusion, if you can call owning 
a piece of property that is valued at $40 million and having 
substantial loans on it a successful conclusion. That is where 
we stand with the Rocky Fork Project right now.
    LWCF, as you know, was created 44 years ago. It has been 
fully funded at authorized limit one time in the last 44 years. 
I got here a little bit late, because I drove all the way from 
North Carolina this morning. Someone may have already mentioned 
that. What has happened in the absence of LWCF is the State of 
North Carolina and Tennessee have been filling in within the 
federal proclamation boundaries of our National Forest System, 
which is not yet built out. We have the proclamation 
boundaries. We do not bring to Washington most of the projects 
that we do within the Forest Service proclamation boundary 
because it is a hopeless, thankless task.
    Instead, North Carolina, as an example of what several 
states have done, has created a Clean Water Management Trust 
Fund. Last year, North Carolina had more money for land and 
water acquisition and protection than the entire Federal 
Government had in federal LWCF. That makes me proud to be a 
North Carolinian. It makes me question the priorities of the 
Federal Government, frankly. I live next to the Appalachian 
Trail. I have walked it my entire life. I have seen people walk 
it. I have seen what it does in young people's lives. In a 
state where we have very high obesity rates, and kids are 
feeling disconnected from nature, the Appalachian Trail is a 
great resource, and I have dedicated this part of my life to 
acquiring the buffer, and sometimes, the footpath itself.
    The Appalachian Trail is 2,400 miles long. We do not own it 
all. We certainly have not protected all of the buffering lands 
that make it feel like a wilderness experience while you are 
using it. We do not own all of the trail footpath itself, as 
the world's most famous walking path.
    That leads me into the first project I would like to 
discuss. It is called Rocky Fork. It is the Cherokee National 
Forest proclamation boundary. It is boundaried by North 
Carolina as well, Madison County, North Carolina, wraps, around 
one part of the boundary. The Appalachian Trail, 1.2 miles of 
it, there are 16 miles of the Trail left to acquire, 1.2 of 
those miles are on this property. So, as Appalachian Trail 
hikers walk from Georgia to Maine, or Maine to Georgia, or just 
section hike this section, they are walking on a private timber 
company holding. At least until December 15, that was the case.
    Our partner, the Conservation Fund, acquired the property 
for $40 million, December 15, and is now in the process of 
transferring it as appropriations are made available. It is the 
number one ranked project by the United States Forest Service 
for the country. We have enjoyed great success.
    Mr. Dicks. And in water conservation.
    Mr. Leutze. In land and water conservation.
    Mr. Dicks. Yeah.
    Mr. Leutze. In '07, it was the number one funded project, 
in terms of level, with $3.2 million appropriation. We fared 
very well in the '09 Omnibus Spending Package, with $5 million. 
So, the $40 million, roughly, that we need, we have raised $20 
million of it, between private, State of Tennessee, and federal 
funding. We try to leverage all of our projects with private 
money as well, and we have a very generous donor community, but 
when the funds are not forthcoming from either the state or the 
Federal Government, our system breaks down.
    Our system in North Carolina is breaking down very badly 
right now. The Governor just took $100 million out of our 
Landmark Clean Water Management Trust Fund. Some of the 
projects within the proclamation boundary that I would like to 
be federal acquisitions, that we designed as state 
acquisitions, are now in jeopardy. So, that is where we are.
    Rocky Fork will be transferred to the Federal Government. 
It has been leased by the State of Tennessee, to make it open 
for the public for 30 years, and we will keep it open. It is 
open now, under Conservation Fund ownership, and as we transfer 
it to the Federal Government, and a smaller part to the State 
of Tennessee, we will keep it open the entire time for hunting, 
fishing, outdoor recreation. It is a bear preserve.
    And back to your earlier question of an earlier speaker, we 
find the best dollar you can spend for protecting water supply, 
and municipal water supplies, is protecting the water when it 
leaves pristine areas like Rocky Fork. Those are dollars well 
spent, when you keep the water from getting impaired in the 
first place, downstream, that pays off and benefits.
    The two other projects I would like to mention are the King 
Mountain Tract in Uwharrie National Forest. Uwharrie National 
Forest is within a two hour drive of four million Americans. It 
is a poster child for what LWCF should do. It should be 
protecting land where people live and can use it. The Uwharrie 
National Forest has a national recreation trail on it. Part of 
it is on public land. It is under contract. It is being 
purchased. We would like to transfer this property in Uwharrie 
National Forest, 355 acres. We have raised $500,000 in private 
money. The cost to the taxpayer is just a little over $3,000 an 
acre, for what we call the Central Park of North Carolina.
    The other project is the number one Forest Service project 
in the State of North Carolina. It is called Catawba Falls 
Access. This is a perfect example of what has happened in the 
past with the Forest Service. The Forest Service has acquired 
pieces, as we have willing sellers, sometimes, it does not make 
sense until you get the next piece. The Forest Service owns 
Catawba Falls. The public cannot get to Catawba Falls legally, 
so they trespass. Luckily, the land over which they trespass 
has been offered for sale, and Foothills Conservancy in North 
Carolina has purchased it, has an option agreement with the 
Forest Service. They will transfer it immediately once the 
funds are made available. That is $713,000, and the public will 
be able to use a resource that they have already invested in.
    That concludes my remarks. I appreciate your time.
    [The statement of Jay E. Leutze follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.124
    
    [GRAPHIC] [TIFF OMITTED] T0064C.125
    
    [GRAPHIC] [TIFF OMITTED] T0064C.126
    
    [GRAPHIC] [TIFF OMITTED] T0064C.127
    
    Mr. Dicks. Good. That is a good statement.
    Mr. Leutze. Thank you.
    Mr. Dicks. Thank you.
    Mr. Simpson. No questions.
    Mr. Dicks. Gary Werner, Partnership for the National Trails 
System.

                                           Tuesday, April 28, 2009.

               PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM


                                WITNESS

GARY WERNER
    Mr. Werner. Mr. Chairman, thank you for the opportunity to 
speak to you today. My name is Gary Werner, and I am here from 
Madison, Wisconsin, and I am here representing your partners in 
the nonprofit realm, over 30 organizations that support the 
National Scenic and Historic Trails.
    And I have given you materials that were produced for the 
fortieth anniversary of the National Trail System last year, 
and the now out of date National Trail System Map, because I am 
here to thank you for the appropriations that you made last 
year, or for this year, for 2009, a $1 million increase in 
funding for the National Park Service administered trails, and 
another $1 million increase for the BLM administered trails. 
And also, the Land and Water Conservation Funding that you 
provided for the Pacific Crest, Ice Age, Appalachian, and 
Florida National Scenic Trails.
    And I would also like to thank you, as others have 
mentioned this morning, for your support for the Omnibus Public 
Lands Act, the authorization of the National Landscape 
Conservation System for the Bureau of Land Management, but 
also, for the authorization of four new National Scenic and 
Historic Trails, the largest number in thirty years, and those, 
of course, include: the Pacific Northwest National Scenic Trail 
through Washington, Idaho, and Montana; the Arizona National 
Scenic Trail; the New England National Scenic Trail; and the 
Washington-Rochambeau National Historic Trail.
    I am also here to let you know that our partnership remains 
strong. As you know, the National Trail System is conceived as 
a public/private partnership, and for many years, our volunteer 
contributions actually amounted to more than the public 
contributions that Congress was able to appropriate. But I am 
happy to say that for 2008, we provided over 767,000 volunteer 
hours, which amounted to, along with our cash contributions, to 
about $26.4 million of financial benefit for the National 
Trails System. You appropriated about $26 million to the three 
agencies to operate the trails.
    And I want to also, in the longer sense, thank you and this 
committee, and your predecessors, who over the last ten years, 
in a bipartisan way, have brought the public support for the 
trails up to that full partnership level, surpassing what we 
have been able to do in the private sector, and per what has 
been asked before, we believe very strongly in volunteerism, 
but we also believe in the need for having public agency people 
there to support that effort in a true partnership.
    We are asking, in 2010, for continued increased funding for 
operations for the trails, particularly for the four new 
trails. The Forest Service will administer the two in the West, 
and the Park Service will administer the two in the East, and 
we are including operational funding for those.
    We are also, like many of the other organizations that you 
have heard from this morning, in full support of full funding 
for the Land and Water Conservation Fund, and in particular, 
for 2010, the level that we understand the Administration is 
going to be asking. And out of that federal component of the 
Land and Water Conservation funding, we are asking you to 
appropriate $32 million to the Forest Service for, to purchase 
lands for the Pacific Crest, Florida, and Appalachian Trail, 
including that Rocky Fork purchase that was just mentioned in 
the Southern Appalachians, $8.5 million to the Bureau of Land 
Management for funding for the Pacific Crest Continental 
Divide, Lewis and Clark, and Camino Real de Tierra Adentro 
National Trails. And $10 million to the Park Service for the 
Appalachian Trail, the Ice Age Trail, the North Country Trail, 
and the Overmountain Victory Trail.
    Lastly, what we are asking you to do, as you have done 
repeatedly over the years, is provide guidance to the agencies 
in their administration and management of these trails, and I 
have a request for each agency. For the Forest Service, in the 
past, you have directed them to provide a full-time 
Administrator for each of the trails that they administer, and 
that has been very successful for the Pacific Crest, 
Continental Divide, Florida, and Nez Perce Trails. We ask you 
to do the same for the two new trails, the Arizona Trail and 
the Pacific Northwest Trail, to make it clear to the Forest 
Service that these trails deserve the same level of support 
that has been given to the other trails, without taking 
anything away from the other trails.
    Mr. Dicks. What about the other two?
    Mr. Werner. The other two, the Park Service.
    Mr. Dicks. They do it.
    Mr. Werner. They do it, yes.
    Mr. Dicks. They get it.
    Mr. Werner. They get it. Yes.
    Mr. Dicks. All right.
    Mr. Werner. With the Bureau of Land Management, it has 
already been mentioned that, with the establishment of the 
National Landscape Conservation System, the National Scenic and 
Historic Trails are one of the main components of that system. 
We believe that, like the other components, the wilderness 
areas and the conservation areas and monuments, the trails 
should have a separate sub-activity account, so that we all, 
you in your role in Congress, we as citizen-advocates and 
partners, can all have more transparent accountability of the 
Forest Service budgeting.
    Lastly, the Park Service has been, for a number of years, 
hampered by what we think are arbitrary travel ceilings that 
impinge on their ability to, oftentimes, over trails that are 
thousands of miles long, and that span numerous states.
    Mr. Dicks. Yeah, but I do not think we ever said they could 
not travel within the United States. It was international 
travel. It got to be very excessive, at a time when they were 
cutting the budget for the parks. I mean, we could not justify 
that.
    Mr. Werner. Mr. Chairman, respectfully, I think what 
happened is that somebody in the Park Service took guidance 
that you had provided in that realm, and they actually have 
imposed that on their domestic travel as well, and you can 
appreciate that for these kind of public/private partnerships, 
it is the relationship, the working relationship between all of 
the entities.
    Mr. Dicks. We will look into this.
    Mr. Werner. That to give guidance for the Park Service that 
way would be very helpful.
    Mr. Dicks. We will look into it.
    Mr. Werner. Thank you. I appreciate very much your ongoing 
support.
    [The statement of Gary Werner follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.128
    
    [GRAPHIC] [TIFF OMITTED] T0064C.129
    
    [GRAPHIC] [TIFF OMITTED] T0064C.130
    
    [GRAPHIC] [TIFF OMITTED] T0064C.131
    
    Mr. Dicks. We are there. Sybille Klenzendorf. How are you?
    Ms. Klenzendorf. I am great. How are you.
    Mr. Dicks. Welcome.

                                           Tuesday, April 28, 2009.

                          WORLD WILDLIFE FUND


                                WITNESS

SYBILLE KLENZENDORF
    Ms. Klenzendorf. Thank you, Mr. Chairman and Ranking Member 
Simpson, for inviting World Wildlife Fund today to testify.
    On behalf of our 1.2 million members in the United States, 
I would like to take the opportunity to first thank the 
subcommittee for its ongoing support for international 
conservation, and the many important environmental programs 
that complement our work for World Wildlife Fund and other 
conservation organizations.
    World Wildlife Fund is the largest conservation 
organization, privately supported, for over 45 years, with over 
2,000 projects in more than 100 countries. As the subcommittee 
prepares the Financial Year 2010 appropriations, WWF wishes to 
express its strong support for the following programs: the Fish 
and Wildlife Service Multispecies Fund, the Neotropical 
Migratory Bird Conservation Act, the Fish and Wildlife 
Service's International Affairs and Office of Law Enforcement, 
Endangered Species Programs, and the Cooperative Endangered 
Species Funds.
    These programs are urgently needed, and they are extremely 
cost-effective. Over the past 20 years, the Multispecies Funds, 
for example, have provided $60 million for conservation, while 
leveraging more than $140 million in partner contributions. 
These funds help support conservation for species such as the 
endangered elephants, rhinos, tigers, great apes, and marine 
turtles in their native habitats.
    I would like to take a moment to elaborate briefly why 
these programs really help support successes in the field, and 
using the tiger as an example. Tigers in the wild are in dire 
straits right now. We have less than 4,000 remaining in the 
wild, with numbers fast decreasing. However, in areas where we 
have properly financed conservation, we have seen conservation 
successes.
    A prime example is the Russian Far East, where the Siberian 
or the Amur tiger lives. The Amur tiger experienced a major 
decline in the 1990s, after the collapse of the Soviet Union, 
due to heavy poaching that was mainly fueling the tiger bone 
supply in China for traditional medicine. After the opening of 
the Soviet Union, the NGOs and the Russian government, and with 
support of the Rhino-Tiger Act, really invested heavily into 
anti-poaching brigades and saving the Amur tiger from 
extinction. After a survey in 2006, which was also co-financed 
by the Rhino-Tiger Act, we now saw the Amur tiger recover to 
450 animals in the wild. So, it can be done, if it is properly 
financed.
    Similar recoveries have been seen in other populations 
funded through the Multispecies Funds. Last year, the U.S. Fish 
and Wildlife Service received twice as many proposals as it was 
able to fund with the current budget. In support of these 
highly effective public/private partnerships, due to the 
leveraging, WWF requests for the Financial Year 2010 
appropriations, $15 million for the Multispecies Funds, $6.5 
million for the Neotropical Migratory Bird Funds, and $21 
million for the Fish and Wildlife Services International 
Affairs Programs.
    We also are fully supportive of the creation of the two new 
funds, the Great Cats and Rare Canids Act, and the Crane 
Conservation Act. Should these bills become law in Financial 
Year 2010, we would request $1.25 million each to get these new 
programs started.
    While good work has been done to increase tiger 
populations, there is always new threats. The new threat for 
tigers right now is illegal logging, for example. As a key 
consumer of timber from the Russian Far East, the U.S. plays a 
significant role in driving this illegal trade. It can be up to 
70 percent of the harvested volume of timber in the Russian Far 
East.
    The groundbreaking amendment of the Lacey Act in 2008 gives 
Fish and Wildlife Service the power to stop illegal timber 
imports through its Office of Law Enforcement. Fish and 
Wildlife Service has had many successes in reducing illegal 
wildlife trade, but remains seriously under-resourced. In 2008, 
the number of special agents in the Law Enforcement Division 
dropped to its lowest level in 30 years. To overcome these 
budget shortfalls, WWF requests $72.8 million for the Office of 
Law Enforcement for Financial Year 2010.
    Conservation groups such as World Wildlife Fund are part of 
a broad coalition of zoos, sportsmen, private businessmen, and 
animal protection groups that represent millions of Americans. 
Turtles, tigers, endangered species, are strongly valued by the 
American public, and these species play a really important role 
in our lives. Their iconic status is clear from their use as 
symbols in industry, sports, and politics.
    If we want them to remain more than just a mascot on a 
football field or a symbol on a cereal box, we really need to 
do more to protect them in the wild.
    In closing, Mr. Chairman, I would like to reiterate WWF's 
strong backing of these programs, and appreciate the work the 
subcommittee has done, and the increases we have gotten over 
the years for these programs already.
    And I thank you, Ranking Member Simpson, for your time, and 
Mr. Chairman, and I would answer any questions you have.
    [The statement of Sybille Klenzendorf follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.132
    
    [GRAPHIC] [TIFF OMITTED] T0064C.133
    
    [GRAPHIC] [TIFF OMITTED] T0064C.134
    
    [GRAPHIC] [TIFF OMITTED] T0064C.135
    
    Mr. Dicks. Mr. Simpson. Well, we appreciate your work. I 
mean, this is very important, and it is very interesting to 
hear about this situation in Russia. But how is it going 
overall?
    Ms. Klenzendorf. Actually, just today, we have a Russian 
delegation hosted by the International Conservation Caucus, and 
we are discussing with them this issue, especially the effects 
now of the Lacey Act on impacts from Russia. And there are 
changes in the Russian government that are supportive of our 
efforts. For example, we support several listings of tree 
species in the sighties legislation next year in the cob, and 
hopefully, that will help with enforcement, too.
    Mr. Dicks. Okay. Thank you for a very good statement. Laura 
Schweitzer, American Forests. Welcome.
                              ----------                              

                                           Tuesday, April 28, 2009.

                            AMERICAN FORESTS


                                WITNESS

LAURA SCHWEITZER
    Ms. Schweitzer. Mr. Chairman and members of the 
subcommittee, thank you for the opportunity to testify in 
today's public witness hearing on fiscal year 2010 Interior 
Appropriations.
    My name is Laura Schweitzer. I serve as the Director of 
Forest Policy for American Forests. Founded in 1875, American 
Forests is the oldest national citizens' conservation group in 
the U.S. Our work focuses on restoration and enhancement of the 
natural capital of trees and forests. Through partnerships with 
diverse groups and organizations across the country, we aim to 
build understanding, and encourage participation in forest 
conservation policies and projects.
    We believe that to address the challenges facing our 
Nation, we must restore and care for our natural systems, while 
building a stronger, more resilient economy. The American 
Recovery and Reinvestment Act offers a first step towards 
allowing the Forest Service and Bureau of Land Management to 
get this work done while creating jobs.
    The next step is to make long-term investments that will 
help to make the transition towards renewable energy and 
landscape level restoration. Integrated investments in our 
landscapes will continue to foster green jobs, while also 
providing important public benefits, like clean water and 
carbon sequestration for climate change mitigation.
    You have our written testimony on file, covering the sweep 
of programs we are interested in today. Today, I will also 
specifically highlight a few programs within the Forest Service 
State and Private Forestry Division, including the Urban and 
Community Forestry Program, the Community Forests and Open 
Space Conservation Program, and the Economic Action Programs. I 
will also address climate change research that the Department 
of Interior has proposed, as well as funding mechanisms for 
wildfire suppression funding.
    Well-managed urban forests can decrease the energy needed 
to heat and cool buildings, and provide important public 
benefits by keeping air clean and breathable. Urban forests 
also empower citizens, by improving social ties, reducing 
crime, and revitalizing neighborhoods. In recent years, the 
Urban and Community Forestry Program has suffered dramatic 
budgets. For urban forestry projects to occur at a meaningful 
level, and for needed technical and financial assistance to be 
made available to urban communities, we urge $50 million for 
the Urban and Community Forestry Program.
    We are also excited about the Community Forests and Open 
Space Conservation Program, a new program passed as part of the 
2008 Farm Bill. This program would help local governments, 
tribes, and nonprofit organizations to acquire forest areas 
that are economically, culturally, and environmentally critical 
to that locality, and particularly, threatened by development. 
This program is critical, as it would----
    Mr. Dicks. Which program is this again?
    Ms. Schweitzer. This is the Community Forests and Open 
Space Conservation Program. It is a new program, so it is still 
getting finalized within the Forest Service. This program is 
critical, because it would help to provide community benefit, 
while also meeting open space retention goals. We recommend an 
initial appropriation of $12 million for this program.
    This committee has heard us speak before about the Economic 
Action Programs. EAP has been critical to the Forest Service's 
progress in working with rural communities to train skilled 
workers, develop innovative restoration projects, apply 
innovative technologies, and build local businesses that can 
add value to restoration byproducts.
    In past year, this program has been decimated by funding 
reductions, and two years ago, funding was eliminated 
altogether. There is no other program for enterprise, excuse 
me, micro-enterprise development and capacity building within 
forest-dependent communities, and as we face challenges such as 
climate change, it will be more important than ever that we 
equip communities with the resources they will need to 
accomplish landscape level restoration, while adapting to 
climate change. We urge you to consider funding the EAP at $40 
million.
    President Obama's budget highlights indicate that funding 
would be made available to the Department of the Interior for 
research and mitigation activities related to climate change. 
American Forests is pleased to see this emphasis.
    We also, however, strongly encourage that money be 
specifically allocated to examine the inequitable impacts 
climate change may have on natural resource dependent 
communities throughout the U.S. These communities are likely to 
be the hardest hit as climate change affects species 
composition, drought conditions, and wildfire severity. This 
impacts public safety and the livelihoods of those who depend 
upon the natural resource base.
    Finally, as you are well aware, escalating costs of 
wildland fire suppression have had a significant impact on the 
Forest Service and the Department of Interior. The Obama 
Administration has taken an important step towards moving the 
land management agencies away from the disruptive and 
debilitating practice of borrowing for wildland fire 
suppression by including, in their proposed budget, reserve 
funds above and beyond the ten year average amounts provided to 
the Forest Service and the Department of Interior for wildfire 
suppression. This would be in the case that the amounted 
allotted at the ten year average level proves to be 
insufficient.
    We believe that the Administration's proposal will 
complement the recent Congressional actions to address wildland 
fire suppression funding through the passage of the FLAME Act.
    Once again, I would like to thank you for this opportunity 
today to testify. I would be happy to answer any questions you 
have.
    [The statement of Laura Schweitzer follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.136
    
    [GRAPHIC] [TIFF OMITTED] T0064C.137
    
    [GRAPHIC] [TIFF OMITTED] T0064C.138
    
    [GRAPHIC] [TIFF OMITTED] T0064C.139
    
    Mr. Dicks. Well, I noted your concern about rural 
communities. I know Mr. Simpson and I both share that concern 
as well. What would you do? I understand, we are talking about 
adaptation, in terms of wildlife, and what are some of the 
things you would suggest?
    Ms. Schweitzer. Well, it looks as though, in the budget 
highlights, we do not have the full budget yet, so it is going 
to be hard to know. It looks as though there are suggestions in 
place for doing as you suggest. We are looking at how we can 
mitigate for climate change, how we can prepare to help 
communities adapt to climate change for specifically wildlife 
conservation purposes.
    As communities have to adapt to climate change, however, 
they are going to have to look at a variety of other things. 
For instance, forest mix may change. They may be dealing with 
greater drought impacts. This may mean invasive species grow to 
an even larger extent.
    Mr. Dicks. Bug infestations.
    Ms. Schweitzer. Which, in your state, of course----
    Mr. Dicks. Fire.
    Ms. Schweitzer. Precisely, wildfire may become increasingly 
severe, which across the West, has obviously been a major 
problem, would continue to be a problem. I know in the State of 
Washington, invasive species have been a truly devastating 
problem for the State, and so, we could see a greater level of 
invasive species, as areas become more amenable to species that 
previously would not have entered those areas.
    So, the range of issues communities may be faced with, that 
will directly impact their ability to make a living, to live in 
those places safely, is likely to be a greater threat than 
perhaps folks that have more of a secondary relationship with 
their natural resource base.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. I noticed in your statement you said that: 
``While we are pleased by the Administration's increase of $50 
million for the Forest Service for Financial Year 2010, we 
recognize this may not mean increases for every program.'' And 
then, I go through all of the programs that you recommend 
things for. I am curious, do you think we tie the Forest 
Service hands by having so many programs, and trying to fund 
each one of them at a certain level, and not giving them the 
flexibility to do what they think is necessary?
    Ms. Schweitzer. I guess I would turn the question back 
around. I think each of the programs of the Forest Service, 
specifically, I look a lot at state and private forestry 
programs, I think they serve different functions. I guess I 
would turn the question around to some degree, and ask you if 
you would, if what you are suggesting exactly, that we would 
give them more freedom to allocate as they wish. I know through 
some of the statewide assessments, and the revamp of the state 
and private forestry strategy, for allocating funds, that they 
are trying to get at some of the streamlining that I think you 
are referring to. And that will help them to get to a place 
where they can allocate funds appropriately across the board, 
but I think the programs do serve important functions, as they 
are now assembled.
    Mr. Simpson. I appreciate that. It is a question we always 
have. I mean, you know, we give them flexibility, and then we 
complain when they do not use that flexibility the way we want 
them to. And so, we create programs.
    Ms. Schweitzer. Right.
    Mr. Simpson. And that, we put them in stovepipes and 
straitjackets and stuff sometimes.
    Ms. Schweitzer. Certainly.
    Mr. Simpson. And that mix of trying to create something 
that gives them the flexibility to do what they think is right, 
they are the professional land managers.
    Ms. Schweitzer. Precisely.
    Mr. Simpson. With the input from the American people. I 
want them to have that flexibility, but I also want them to be 
held accountable, and I have often wondered during my time in 
both the state legislature and here in Congress, if we do not 
over-appropriate, or if we have too many programs, instead of 
some way that we could say Forest Service, here is your money. 
I mean, obviously, there are going to be, you know, certain 
broad categories. But then, when they come back next year, I 
would like to know exactly how they spent that money, and if 
they addressed the concerns of the American people and of 
Congress. And if not, there would be penalties to pay, you 
know, hold them accountable somehow.
    Ms. Schweitzer. You know, one of the biggest tenets of what 
we advocate for is a strong monitoring presence in, throughout 
of the programs of the Forest Service. I think that they are 
the land managers. Their decision-making abilities are 
generally well-intentioned. They have processes in place for 
strategically trying to allocate resources, as indicated by the 
Congressional appropriation.
    But I think that having a strong monitoring program in 
place as well is absolutely critical, and can help to achieve 
that balance that you are talking about. It is a tricky 
balance, because the American public wants to see a high level 
of transparency in the way money is allocated to agencies, and 
yet, we also want to make sure that they can do their job, and 
that the experts out there can really get to the needs on the 
ground.
    Mr. Simpson. Well, thank you for your testimony. I 
appreciate it.
    Ms. Schweitzer. Sure. Thank you for having me here today.
    Mr. Dicks. Thank you.
    Ms. Schweitzer. Sure. Thank you.
    Mr. Dicks. Cathy Liss, Animal Welfare Institute. Welcome.
                              ----------                              

                                           Tuesday, April 28, 2009.

                        ANIMAL WELFARE INSTITUTE


                                WITNESS

CATHY LISS
    Ms. Liss. Good morning. Thank you very much for the 
opportunity to testify today.
    We respectfully request that the subcommittee provide 
appropriations of $83.1 million for the U.S. Fish and Wildlife 
Service, including in particular, $45 million to increase and 
expand activities of the Office of Law Enforcement. And that 
would be broken down, including $26 million needed for special 
agents, $3.1 million for ports of entry, and $5 million for the 
Clark R. Bavin National Fish and Wildlife Forensic Lab, named 
for the agent from the 1980s who was extremely effective.
    In addition, we support the $4 million for, an additional 
$4 million for the Multinational Species Conservation Fund, and 
certainly, fully support the statement given by World Wildlife 
Fund earlier today on the value and importance of protecting 
these threatened and endangered species. Funds are desperately 
needed to protect, preserve, or cover and manage America's 
wildlife, including threatened and endangered species, as 
required by law.
    The Office of Law Enforcement investigates both domestic 
and international wildlife crimes, and involve transgression of 
over a dozen different federal wildlife and conservation laws. 
And though it is well known that the illegal trade in wildlife 
and their products is third only to the trade in narcotics and 
weapons, in terms of revenue generated globally, and despite 
the fact that the U.S. remains a source of, or destination for 
much of this contraband, the Office of Law Enforcement has 
consistently been underfunded, understaffed, and thus, 
shortchanged in its efforts to combat this illegal trade.
    The Fish and Wildlife Service has cut its Covert Wildlife 
Crimes Unit in half. Given the severity of illegal wildlife 
trade, and its inherent underground nature, covert 
investigations are essential for enforcing wildlife laws and 
capturing, as well as prosecuting, those guilty of wildlife 
crimes. Congress must direct the Secretary of the Interior to 
reinvigorate the Office of Law Enforcement, including its 
Covert Investigations Unit, and provide funding necessary to 
restore the Office of Law Enforcement as the preeminent 
wildlife law enforcement organization in the world.
    Wildlife law enforcement agents perform what is 
consistently ranked as one of the most dangerous jobs, as they 
fulfill their mandate to protect our wildlife heritage. Judging 
by Financial Year '07, Fish and Wildlife Service agents pursued 
over 12,000 separate investigations, resulting in over $14 
million of fines, 32 years of jail time for perpetrators, and 
557 years of probation; 191 Fish and Wildlife Service agents 
were responsible for enforcement of federal wildlife laws 
throughout the entire U.S. This number is 11 fewer than what it 
was in Financial Year 2007, and 16 fewer than it was the 
previous year, on top of which there are 70 agent vacancies. 
Filling these vacancies is essential to protecting wildlife and 
stemming the increasing threat posed by illegal trade.
    And given the events of September 11, 2001, and the 
heightened concerns regarding security of U.S. ports, the value 
of Fish and Wildlife Service inspectors is indisputable. In 
addition to being the first and only line of defense against 
the illegal import of protected wildlife and wildlife products 
into this country, Fish and Wildlife Service inspectors, along 
with their colleagues in the Coast Guard and Homeland Security 
and other agencies involved in port inspections, represent 
America's best hope of intercepting bioterrorism agents, or 
items that may represent a security threat to America. Often, 
contraband is hidden in the body cavity of life, or in their 
transport containers. Who, except Fish and Wildlife Service 
inspectors, are willing to look inside a box containing 
poisonous snakes or other dangerous animals?
    Though it may be hard to see that thwarting an illegal 
shipment of wildlife is as important as thwarting an illegal 
shipment of weapons, wildlife pose much greater risks. 
According to an AP news report, five of six diseases that CDC 
regards as top threats to national security are zoonotic, 
because legal shipments, which amount to 650 animals in the 
last three years, are not screened properly, Americans are left 
vulnerable to virulent disease outbreak that could rival a 
terrorist act.
    Another example of those situations we face is unregulated 
smuggling of parrots, which has not only put pressure on the 
various species, 30 percent of which are already on the brink 
of extinction, but also presents a disease transmission risk to 
the U.S. poultry industry and native U.S. birds. The illegal 
import of parrots into California has been linked to an 
outbreak of Newcastle disease in this state.
    And I would like to speak briefly about the Clark Bavin 
Forensic Lab, which is a key resource used by Fish and Wildlife 
Service agents and inspectors for prosecuting wildlife crimes. 
It uses complex tests and tools to identify wildlife products, 
as to species, to determine their cause. All of these law 
enforcement tools are vitally important. The Bavin Center was 
recognized internationally, and provides support both in the 
United States, as well as to the various member nations of the 
Convention on Trade in Endangered Species.
    And I would close both by saying that we are hoping for 
humane, nonlethal solutions to wild horses and also, to the 
Yellowstone bison, and would encourage language to that effect. 
Wild horses have been arbitrarily removed from over 19 million 
acres, so we believe there is plenty of land, and certainly 
oppose the taxpayer dollars that have been spent by BLM 
rounding up horses that have then sat in these horrendous 
holding pens.
    [The statement of Cathy Liss follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.140
    
    [GRAPHIC] [TIFF OMITTED] T0064C.141
    
    [GRAPHIC] [TIFF OMITTED] T0064C.142
    
    [GRAPHIC] [TIFF OMITTED] T0064C.143
    
    Mr. Dicks. Thank you very much. Mr. Simpson.
    Mr. Simpson. So, you think the limit of 27,000 wild horses 
is just arbitrary?
    Ms. Liss. Yes.
    Mr. Simpson. And is there any limit? I mean, they are 
holding essentially as many as there are wild horses out there.
    Ms. Liss. Agreed, and that is an egregious situation, I 
think, in and of itself, that long ago, the process should have 
been stopped of pulling them off the land, that there are 
populations that can be increased in the wild, and there are 
areas that used to hold wild horses that no longer have wild 
horses, and they should be returned to those lands. That I 
think there does need to be a careful assessment, but I think 
there is no reason that horses have to be killed at this time, 
that there are myriad alternative ways to manage the 
populations.
    Mr. Simpson. Thank you.
    Mr. Dicks. Thank you.
    Ms. Liss. Thank you very much.
    Mr. Dicks. Molly Brown, Friends of Black Bay.
    Ms. Brown. Good morning, Chairman Dicks.
    Mr. Dicks. We do not have your statement.
    Ms. Brown. It is there, sir. I brought it.
    Mr. Dicks. Okay. Well, then, our staff is looking for it, 
but you may proceed.

                                           Tuesday, April 28, 2009.

                          FRIENDS OF BACK BAY


                                WITNESS

MOLLY BROWN
    Ms. Brown. That is okay. I will, okay.
    Good morning. I am Molly Brown, and I am from Virginia 
Beach, Virginia, and I am President of Friends of Back Bay. We 
are a volunteer group that has been working with the Fish and 
Wildlife Service on land----
    Mr. Dicks. Excuse me, I said Black. It is Back Bay.
    Ms. Brown. That is okay, sir. That is okay.
    And I have been testifying before this----
    Mr. Dicks. Right. I remember.
    Ms. Brown. Since 1990, so--and I appreciate all the support 
that this project has been given, and because of the support, 
the project is 78 percent completed. And also, I want to thank 
you for having a second public witness day today, too. I 
appreciate that.
    Mr. Dicks. Good.
    Ms. Brown. We, again, have more willing sellers than money 
available, and we are requesting $1.5 million this year, in 
2010. And also, we are requesting $514 million for the entire 
refuge system for 2010.
    And if you would go to my last page of my testimony, I 
always like to provide you a map to show you exactly where your 
money goes. Sometimes, you probably wonder, and we have worked 
hard to keep you informed on where this money has gone. The 
original Back Bay Refuge was established in 1938, and it is 
located in the southeast corner of Virginia, and it was 
approximately around, almost 5,000 acres.
    But as Virginia Beach was growing, they recognized that 
something needed to be done to protect this, because one thing 
that makes Back Bay unique is the fact that it is probably the 
largest freshwater marsh remaining on the East Coast. So, the 
Fish and Wildlife did the over 6,000 acre expansion, and you 
can see in green everything that has been purchased since 1991, 
and it has formed a buffer to the north and to the west side of 
the Bay, and with this buffer, we have good news, in the fact 
that underwater grasses have increased, and the water quality 
is improving, and this year, we had more ducks and geese than 
we ever had, and that made our hunters very happy. And also, 
the State of Virginia did a study of the fish population, and 
they found 31 species of fish, including 20 inch bass, so that 
made the fishermen very happy.
    And of course, all of this helps the local economy. Our 
properties are listed in priority, and they are color-coded, 
and the first, you can see there are two properties that are, 
the purple and the blue are located down at the southern 
portion on the west side, and that, those properties are very 
important, because before the expansion started, this was a 
creek called Nanny's Creek, and it was very polluted, but 
because of land acquisition in the State of Virginia and the 
City of Virginia Beach working together, that waterway is 
cleaning up, is clearing up. And then, the other is on the east 
side, and then, you can see the red is over on the west side.
    So basically now, what we are doing, we are filling in the 
pieces, and so, we ask for your support for funding, so that we 
can finish this project. 78 percent is a pretty good 
achievement, and we are committed, and we would like to see it 
continue.
    So again, I request $1.5 million for Back Bay, and also, 
$514 million for the U.S. Fish and Wildlife Service and the 
National Wildlife Refuge System.
    Are there any questions?
    [The statement of Molly Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.144
    
    [GRAPHIC] [TIFF OMITTED] T0064C.145
    
    Mr. Dicks. Well, I want to commend you. You have made a lot 
of progress.
    Ms. Brown. Yes, sir. We have. Thanks to you and other 
members of the committee, and Congress as a whole.
    Mr. Dicks. Who is your local Congress person?
    Ms. Brown. Glenn Nye. He is a freshman.
    Mr. Dicks. I know him.
    Ms. Brown. Very nice gentleman.
    Mr. Dicks. How is he? Have you briefed him on this?
    Ms. Brown. Yes, sir, and he has already written a letter in 
support.
    Mr. Dicks. All right. Very good.
    Ms. Brown. For $1.5 million.
    Mr. Dicks. Now, is this under the Land and Water 
Conservation Fund?
    Ms. Brown. Yes, sir. It is.
    And okay. And I always invite you down.
    Mr. Dicks. Yeah.
    Ms. Brown. I would love for you to come down and see us.
    Mr. Dicks. All right. Thank you, Molly.
    Ms. Brown. Thank you, sir. And thank you.
    Mr. Dicks. John Verdon, President, Friends of Pool 9, Upper 
Mississippi River Refuge.
    Mr. Verdon. Yes, thank you.
    Mr. Dicks. And congratulations, you are the friends group 
of the year.
    Mr. Verdon. Yes, we are. Thank you for that.
    Mr. Dicks. Yeah. You should be commended.

                                           Tuesday, April 28, 2009.

           FRIENDS OF POOL 9, UPPER MISSISSIPPI RIVER REFUGE


                                WITNESS

JOHN VERDON
    Mr. Verdon. We started about four or five years ago, and we 
now have 500 members in our volunteer group on the Upper 
Mississippi, and perhaps I should give you a little bit of 
background on the Upper Miss. There are 27 locks and dams, and 
Pool 9 is just above lock and dam number 9, so it is the backup 
water, you might say, above the dam, and our pool is 31 miles 
long and 3 miles wide.
    And of course, I have provided you with the written 
testimony, and so, I am going to move right through some of 
these items. You have heard them repeatedly, that we need the 
increase to $514 million for next year, for fiscal year 2010. 
And I have also stated here that the Upper Miss is 261 miles 
long, and is the most visited national wildlife refuge, with 
3.7 million visitors annually.
    And of course, we have all gone through the situation of 
static funding, and so, you are well aware of the problems with 
staffing, and I mentioned that in here, that the full-time 
equivalents on our refuge are at 30 percent below where they 
should be, 30 to 40 percent.
    Mr. Dicks. How many people do you have?
    Mr. Verdon. We have 39 on our Upper Miss Refuge, and 
according to the CCP that was just completed, we should have 64 
on that refuge. We also have a refuge right next to us, the 
Driftless Area Refuge in northeast Iowa, that is presently 
without a manager and a biologist. And there are three other 
vacancies on the Refuge, caused by the static funding. So, we 
really think it is important to bring that back into line. And 
of course, we would encourage the funding level of $765 million 
by the year 2013.
    Another problem, of course, on the Mississippi, is the 
invasives that are coming in, and we have talked about this 
before, the Asian carp, the zebra mussel, the purple 
loosestrife, the emerald ash borer, and all of these things 
will change the riverine system dramatically. The Asian carp is 
the one that is the high jumping carp, and when boats disturb 
the little population of carp, they jump out of the water, and 
some of these fish are more than 20 pounds, so it could be a 
bad situation.
    Research is critical, and I have mentioned here that our 
invasive dollars on the Upper Miss refuge are zero. We have no 
money funded for that research on the Upper Miss refuge. And 
our manager would like to see at least $250,000 to implement a 
basic research and monitoring program. We do have----
    Mr. Dicks. Has he requested the funds?
    Mr. Verdon. I do not know about that. Yes.
    Mr. Dicks. That might be one thing you want to check out.
    Mr. Verdon. I sure will.
    Mr. Dicks. Has he asked for it?
    Mr. Verdon. That is right.
    Mr. Dicks. You know, there is kind of a process that they 
go through.
    Mr. Verdon. Yes. The Upper Miss, the Upper Midwest 
Environmental Center is at La Crosse, Wisconsin, and of course, 
that is controlled by the USGS, and they are an excellent 
research team.
    Mr. Dicks. Right.
    Mr. Verdon. And I am asking that Suzette Kimball, the 
Director of that agency, have their budget increased by $3 
million annually.
    One of my other concerns, that really has not been 
addressed here today is the concern about volunteerism and the 
education of our young people. I heard an awful lot of comments 
about the needs of all of these different refuges, and 
throughout the world, or throughout the States, and I really 
feel that volunteerism is the way we should be going. And I 
would like to ask you to encourage all the agencies to fund 
dollars for volunteerism, and of course, if we could get our 
agency, the Fish and Wildlife Service, to actually require that 
each of the refuges have people there that would be in charge 
of organizing volunteer groups, it would, I think it would help 
tremendously.
    There are 220 friends groups nationwide, and 549 refuges, 
so we are way short on that, and we need to increase the number 
of friends groups. And along with that, we need to do more for 
education of our youth, because they are going to be the 
stewards of our natural resources in the future.
    And this is an excellent book by Richard Luve, and it is 
The Last Child in the Woods, and we have an activity that is 
called the Mississippi River Adventure Day, where we actually 
take kids out on the River. Last year, we had 185 that went out 
on the River for the day.
    Mr. Dicks. Good for you.
    Mr. Verdon. We pollywogged for clams, had the kids get in 
the water and find clams, and then, we had hatchery specialists 
there to identify the clams for the kids, and even tell them 
this is a male and this is a female. And these are children 5 
to 17 years old. We spent about $2,000 on that day alone, and 
we had eight different sites that these kids attended. So, this 
is the way of the future, and I think we need to do more with 
that.
    Mr. Dicks. We had Richard testify before the committee.
    Mr. Verdon. Oh, you did.
    Mr. Dicks. Yeah, last year, two years ago.
    Mr. Verdon. Wonderful. Wonderful.
    Mr. Dicks. And we are very concerned about this across the 
board, and we have to get younger people involved.
    Mr. Verdon. Right. Right. I have other comment, and I know 
my time has expired, but I have one other comment, and that is 
about the Omnibus Public Lands Management Bill, and I know that 
everyone in wildlife conservation is excited about the Public 
Lands Management Act except, there is one except, and that, of 
course, is the Izembek situation. And I do not know how this 
slipped by, but the Izembek situation should be resolved by 
Secretary Salazar saying that it is not in the public interest. 
It is, instead of improving our wilderness area, this building 
of a road through Izembek is going to be a disaster. And as an 
ex-biology teacher, I taught for 38 years, I know that there 
are some key species in the ecological system that, if this key 
species, if something happens to that key species, all of the 
animals above it and all of the animals below it suffer. And I 
consider this Izembek situation a keystone case. I think there 
is going to be a ripple effect throughout the Nation if this 
area is allowed to be developed, that will certainly be 
disastrous to other refuges and other wildlife areas across the 
Nation, so.
    [The statement of John Verdon follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.146
    
    [GRAPHIC] [TIFF OMITTED] T0064C.147
    
    [GRAPHIC] [TIFF OMITTED] T0064C.148
    
    [GRAPHIC] [TIFF OMITTED] T0064C.149
    
    Mr. Dicks. We will look into that.
    Mr. Verdon. Thank you.
    Mr. Dicks. Thank you very much. Mr. Simpson.
    Mr. Simpson. Thank you. No.
    Mr. Dicks. William Becker, the National Association of 
Clean Air Agencies. And the cleanup hitter today.
    Mr. Becker. I will not take longer than 45 minutes.
    Mr. Dicks. Well, you have got five. We will put the other 
40 in the record.
    Mr. Becker. Thank you, Chairman.
    Mr. Dicks. Go right ahead. You are welcome.

                                           Tuesday, April 28, 2009.

               NATIONAL ASSOCIATION OF CLEAN AIR AGENCIES


                                WITNESS

S. WILLIAM BECKER
    Mr. Becker. Ranking Member Simpson. My name is Bill Becker. 
I am the Executive Director of NACAA, which is the National 
Association of Clean Air Agencies. We are an organization of 
state and local air pollution control agencies in 53 states and 
territories, and about 165 metropolitan areas throughout the 
country.
    These agencies, under the Clean Air Act, are directly 
responsible for protecting the health and welfare of citizens 
in every state in the country. We are recommending that federal 
grants through EPA to state and local agencies be increased by 
$46 million above fiscal year 2009 levels, and as I will 
explain, this is an order of magnitude less than what we need.
    Today, according to EPA, about 40,000 people die each year 
from air pollution. 40,000 people die each year from air 
pollution. That is EPA's estimates, not ours. Tens of millions 
live in areas exceeding the federal health base standards for 
ozone or smog, for lead, for fine particulate, and/or live in 
areas where exposure to toxic air pollution is far above EPA's 
acceptable thresholds. And of course, we are responsible for 
responding to the pervasive welfare effects of their pollution, 
such as haze, that is not only threatening national parks, but 
threatening most areas of the country.
    Our state and local agencies receive grants under sections 
103 and 105 of the Clean Air Act, that are designed to help our 
implementation efforts and mitigate these problems, and we use 
this money to hire personnel, to purchase monitors, and to do a 
lot of different tasks, ranging from developing emissions 
inventories, to adopting regulations, to developing state 
implementation plans, conducting inspections, enforcing against 
noncompliance, permitting sources, and so forth. These grants 
are our lifeblood.
    Over the past decade, the grants to state and local 
agencies have decreased by about one third in purchasing power, 
and it could have been far worse, had it not been for you all 
in Congress, who have restored the recommended very substantial 
cuts in grants to the state agencies. You have restored those 
over the past several years, but still, with the purchasing 
power losses, we have suffered some big problems. Agencies have 
been forced to lay off people, or not fill vacancies. We have 
been forced to shut down existing monitoring systems, 
curtailing operations. Our inspections, our enforcement 
activities have been impaired, and some local air pollution 
control agencies in some areas have, are really on the brink of 
closing down.
    Yesterday, we released the results of a survey, which I 
would be happy to share with you. In fact, I have a third one. 
Sent one yesterday where we asked our agencies to determine the 
resource needs that they have in meeting the Clean Air Act 
requirements. And what we learned was obvious to us, should be 
extremely disconcerting to everyone, and that is, our programs 
are suffering. They are severely underfunded, and it is 
restricting our ability to address important air pollution 
problems, such as controlling toxic air pollution, lead, ozone, 
fine particulate, and emerging issues like greenhouse gases. 
And these shortfalls are literally impairing our ability to 
provide clean, healthy air to tens of millions of people 
throughout the country.
    The survey showed that we could use substantial increases 
in resources for a number of bread and butter activities 
associated with implementing the Clean Air Act. Monitoring, 
modeling, developing emissions inventories, providing small 
business assistance, conducting additional inspections, 
carrying out enforcement activities, developing programs and 
rules, responding to emergencies, updating information 
technology, providing public education and outreach, hiring, 
training personnel, training staff, and permitting minor 
sources, and I can go on.
    Our survey revealed a lot about current funding trends. 
State and local governments supply far more than their fair 
share of the resources for the Nation's clean air program. The 
Clean Air Act authorizes the Federal Government to provide 
grants up to 60 percent of the cost of implementation, and 
state and local agencies are required to provide, to match with 
40 percent. And what is happening in reality is the Federal 
Government is providing not 60 percent, but 25 percent, and 
state and local governments are matching not with 40 percent, 
but with 75 percent, and this level of state and local 
contribution will become increasingly difficult as budgets 
shrink.
    So, what we found, in conclusion, is that we need about 
$1.3 billion annually to run our programs. If the EPA supplied 
its fair share, with Congress adjusted, of 60 percent of the 
$1.3 billion, this would be around $780 million. Today, EPA is 
providing about $220 million. This is over a $550 million 
difference. It would be a little embarrassing to come in today, 
although perhaps, I should have, and say we could use a $550 
million increase above last year's level. You know, we are not 
blind to the economic problems that our country is facing. So, 
what we have said, perhaps to our chagrin, is that we will come 
in with a fraction of that, but we need an increase to help 
stop the bleeding, and we have recommended--
    [The statement of S. William Becker follows:]

    [GRAPHIC] [TIFF OMITTED] T0064C.150
    
    [GRAPHIC] [TIFF OMITTED] T0064C.151
    
    [GRAPHIC] [TIFF OMITTED] T0064C.152
    
    [GRAPHIC] [TIFF OMITTED] T0064C.153
    
                            ISSUE AWARENESS

    Mr. Dicks. You know, I want to say something here.
    Mr. Becker. Please.
    Mr. Dicks. I have been doing this 34 years. The last few 
years, we have had EPA under this committee's jurisdiction. I 
have had very few people ever come to my office and tell us, or 
be concerned about this. In fact, I have told our staff, I am 
somewhat surprised that we do not hear from these entities back 
in the state on clean air.
    My mentor, Senator Magnuson, used to say the squeaky wheel 
gets greased. I would recommend that you have some people come 
in and talk to us from time to time.
    Mr. Becker. Are you saying you do not hear from your own?
    Mr. Dicks. I do not think I have ever had anybody come into 
my office, in 34 years, to talk to me about this.
    Mr. Becker. Really, because I know they have been sending 
letters. I do not know if they have----
    Mr. Dicks. I am just saying.
    Mr. Becker. Okay.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. Yeah, I agree.
    Mr. Dicks. We hear a lot about clean water. We have an 
active group in the House that is doing support for rural water 
development, and you know, I just pass that along, for whatever 
it is worth.
    Mr. Becker. We will make sure that changes, but the only 
comment I would make in concluding is that----
    Mr. Dicks. That does not mean it is not important. I think 
it is very important, but you know, everybody around here 
reacts to what they hear.
    Mr. Becker. And I fully----
    Mr. Dicks. Especially from their constituents.
    Mr. Becker. And I fully understand that. I guess the point 
I would make is if you believe the health and welfare impacts 
that I have shared with you, and----
    Mr. Dicks. I believe them.
    Mr. Becker. And EPA and others will attest to that, there 
are probably few, if any decisions you will be making in your 
responsibilities, with respect, that have such an impact on 
human health and welfare, that this program has, 40,000 people 
dying every year. Many of them are avoidable deaths, that with 
additional resources, will help significantly reduce that. And 
while it is a very important point you are making, that you 
need to hear more squeaking on the wheel, the fact remains that 
people's health and welfare are at stake here. It is 
inexcusable that EPA, that the Federal Government has not 
provided far more resources than they should. They are funding 
other programs, disproportionately in favor of those programs, 
perhaps because there is a squeaky wheel.
    Our job is to identify the problems, and I suppose I have 
to round up some of the state and local officials. I know there 
have been a lot of letters. I do not know if there have been a 
lot of meetings, and that will have to change, obviously. But 
this is a very serious health threat.
    Mr. Dicks. Mr. Simpson. Thank you very much. Appreciate 
your testimony.
    Mr. Becker. Okay. Thank you.
    Mr. Dicks. We are adjourned to our next hearing.

    [GRAPHIC] [TIFF OMITTED] T0064C.154
    
    [GRAPHIC] [TIFF OMITTED] T0064C.155
    
    [GRAPHIC] [TIFF OMITTED] T0064C.156
    
    [GRAPHIC] [TIFF OMITTED] T0064C.157
    
    [GRAPHIC] [TIFF OMITTED] T0064C.158
    
    [GRAPHIC] [TIFF OMITTED] T0064C.159
    
    [GRAPHIC] [TIFF OMITTED] T0064C.160
    
    [GRAPHIC] [TIFF OMITTED] T0064C.161
    
    [GRAPHIC] [TIFF OMITTED] T0064C.162
    
    [GRAPHIC] [TIFF OMITTED] T0064C.163
    
    [GRAPHIC] [TIFF OMITTED] T0064C.164
    
    [GRAPHIC] [TIFF OMITTED] T0064C.165
    
    [GRAPHIC] [TIFF OMITTED] T0064C.166
    
    [GRAPHIC] [TIFF OMITTED] T0064C.167
    
    [GRAPHIC] [TIFF OMITTED] T0064C.168
    
    [GRAPHIC] [TIFF OMITTED] T0064C.169
    
    [GRAPHIC] [TIFF OMITTED] T0064C.170
    
    [GRAPHIC] [TIFF OMITTED] T0064C.171
    
    [GRAPHIC] [TIFF OMITTED] T0064C.172
    
    [GRAPHIC] [TIFF OMITTED] T0064C.173
    
    [GRAPHIC] [TIFF OMITTED] T0064C.174
    
    [GRAPHIC] [TIFF OMITTED] T0064C.175
    
    [GRAPHIC] [TIFF OMITTED] T0064C.176
    
    [GRAPHIC] [TIFF OMITTED] T0064C.177
    
    [GRAPHIC] [TIFF OMITTED] T0064C.178
    
    [GRAPHIC] [TIFF OMITTED] T0064C.179
    
    [GRAPHIC] [TIFF OMITTED] T0064C.180
    
    [GRAPHIC] [TIFF OMITTED] T0064C.181
    
    [GRAPHIC] [TIFF OMITTED] T0064C.182
    
    [GRAPHIC] [TIFF OMITTED] T0064C.183
    
    [GRAPHIC] [TIFF OMITTED] T0064C.184
    
    [GRAPHIC] [TIFF OMITTED] T0064C.185
    
    [GRAPHIC] [TIFF OMITTED] T0064C.186
    
    [GRAPHIC] [TIFF OMITTED] T0064C.187
    
    [GRAPHIC] [TIFF OMITTED] T0064C.188
    
    [GRAPHIC] [TIFF OMITTED] T0064C.189
    
    [GRAPHIC] [TIFF OMITTED] T0064C.190
    
    [GRAPHIC] [TIFF OMITTED] T0064C.191
    
    [GRAPHIC] [TIFF OMITTED] T0064C.192
    
    [GRAPHIC] [TIFF OMITTED] T0064C.193
    
    [GRAPHIC] [TIFF OMITTED] T0064C.194
    
    [GRAPHIC] [TIFF OMITTED] T0064C.195
    
    [GRAPHIC] [TIFF OMITTED] T0064C.196
    
    [GRAPHIC] [TIFF OMITTED] T0064C.197
    
    [GRAPHIC] [TIFF OMITTED] T0064C.198
    
    [GRAPHIC] [TIFF OMITTED] T0064C.199
    
    [GRAPHIC] [TIFF OMITTED] T0064C.200
    
    [GRAPHIC] [TIFF OMITTED] T0064C.201
    
    [GRAPHIC] [TIFF OMITTED] T0064C.202
    
    [GRAPHIC] [TIFF OMITTED] T0064C.203
    
    [GRAPHIC] [TIFF OMITTED] T0064C.204
    
    [GRAPHIC] [TIFF OMITTED] T0064C.205
    
    [GRAPHIC] [TIFF OMITTED] T0064C.206
    
    [GRAPHIC] [TIFF OMITTED] T0064C.207
    
    [GRAPHIC] [TIFF OMITTED] T0064C.208
    
    [GRAPHIC] [TIFF OMITTED] T0064C.209
    
    [GRAPHIC] [TIFF OMITTED] T0064C.210
    
    [GRAPHIC] [TIFF OMITTED] T0064C.211
    
    [GRAPHIC] [TIFF OMITTED] T0064C.212
    
    [GRAPHIC] [TIFF OMITTED] T0064C.213
    
    [GRAPHIC] [TIFF OMITTED] T0064C.214
    
    [GRAPHIC] [TIFF OMITTED] T0064C.215
    
    [GRAPHIC] [TIFF OMITTED] T0064C.216
    
    [GRAPHIC] [TIFF OMITTED] T0064C.217
    
    [GRAPHIC] [TIFF OMITTED] T0064C.218
    
    [GRAPHIC] [TIFF OMITTED] T0064C.219
    
    [GRAPHIC] [TIFF OMITTED] T0064C.220
    
    [GRAPHIC] [TIFF OMITTED] T0064C.221
    
    [GRAPHIC] [TIFF OMITTED] T0064C.222
    
    [GRAPHIC] [TIFF OMITTED] T0064C.223
    
    [GRAPHIC] [TIFF OMITTED] T0064C.224
    
    [GRAPHIC] [TIFF OMITTED] T0064C.225
    
    [GRAPHIC] [TIFF OMITTED] T0064C.226
    
    [GRAPHIC] [TIFF OMITTED] T0064C.227
    
    [GRAPHIC] [TIFF OMITTED] T0064C.228
    
    [GRAPHIC] [TIFF OMITTED] T0064C.229
    
    [GRAPHIC] [TIFF OMITTED] T0064C.230
    
    [GRAPHIC] [TIFF OMITTED] T0064C.231
    
    [GRAPHIC] [TIFF OMITTED] T0064C.232
    
    [GRAPHIC] [TIFF OMITTED] T0064C.233
    
    [GRAPHIC] [TIFF OMITTED] T0064C.234
    
    [GRAPHIC] [TIFF OMITTED] T0064C.235
    
    [GRAPHIC] [TIFF OMITTED] T0064C.236
    
    [GRAPHIC] [TIFF OMITTED] T0064C.237
    
    [GRAPHIC] [TIFF OMITTED] T0064C.238
    
    [GRAPHIC] [TIFF OMITTED] T0064C.239
    
    [GRAPHIC] [TIFF OMITTED] T0064C.240
    
    [GRAPHIC] [TIFF OMITTED] T0064C.241
    
    [GRAPHIC] [TIFF OMITTED] T0064C.242
    
    [GRAPHIC] [TIFF OMITTED] T0064C.243
    
    [GRAPHIC] [TIFF OMITTED] T0064C.244
    
    [GRAPHIC] [TIFF OMITTED] T0064C.245
    
    [GRAPHIC] [TIFF OMITTED] T0064C.246
    
    [GRAPHIC] [TIFF OMITTED] T0064C.247
    
    [GRAPHIC] [TIFF OMITTED] T0064C.248
    
    [GRAPHIC] [TIFF OMITTED] T0064C.249
    
    [GRAPHIC] [TIFF OMITTED] T0064C.250
    
    [GRAPHIC] [TIFF OMITTED] T0064C.251
    
    [GRAPHIC] [TIFF OMITTED] T0064C.252
    
    [GRAPHIC] [TIFF OMITTED] T0064C.253
    
    [GRAPHIC] [TIFF OMITTED] T0064C.254
    
    [GRAPHIC] [TIFF OMITTED] T0064C.255
    
    [GRAPHIC] [TIFF OMITTED] T0064C.256
    
    [GRAPHIC] [TIFF OMITTED] T0064C.257
    
    [GRAPHIC] [TIFF OMITTED] T0064C.258
    
    [GRAPHIC] [TIFF OMITTED] T0064C.259
    
    [GRAPHIC] [TIFF OMITTED] T0064C.260
    
    [GRAPHIC] [TIFF OMITTED] T0064C.261
    
    [GRAPHIC] [TIFF OMITTED] T0064C.262
    
    [GRAPHIC] [TIFF OMITTED] T0064C.263
    
    [GRAPHIC] [TIFF OMITTED] T0064C.264
    
    [GRAPHIC] [TIFF OMITTED] T0064C.265
    
    [GRAPHIC] [TIFF OMITTED] T0064C.266
    
    [GRAPHIC] [TIFF OMITTED] T0064C.267
    
    [GRAPHIC] [TIFF OMITTED] T0064C.268
    
    [GRAPHIC] [TIFF OMITTED] T0064C.269
    
    [GRAPHIC] [TIFF OMITTED] T0064C.270
    
    [GRAPHIC] [TIFF OMITTED] T0064C.271
    
    [GRAPHIC] [TIFF OMITTED] T0064C.272
    
    [GRAPHIC] [TIFF OMITTED] T0064C.273
    
    [GRAPHIC] [TIFF OMITTED] T0064C.274
    
    [GRAPHIC] [TIFF OMITTED] T0064C.275
    
    [GRAPHIC] [TIFF OMITTED] T0064C.276
    
    [GRAPHIC] [TIFF OMITTED] T0064C.277
    
    [GRAPHIC] [TIFF OMITTED] T0064C.278
    
    [GRAPHIC] [TIFF OMITTED] T0064C.279
    
    [GRAPHIC] [TIFF OMITTED] T0064C.280
    
    [GRAPHIC] [TIFF OMITTED] T0064C.281
    
    [GRAPHIC] [TIFF OMITTED] T0064C.282
    
    [GRAPHIC] [TIFF OMITTED] T0064C.283
    
    [GRAPHIC] [TIFF OMITTED] T0064C.284
    
    [GRAPHIC] [TIFF OMITTED] T0064C.285
    
    [GRAPHIC] [TIFF OMITTED] T0064C.286
    
    [GRAPHIC] [TIFF OMITTED] T0064C.287
    
    [GRAPHIC] [TIFF OMITTED] T0064C.288
    
    [GRAPHIC] [TIFF OMITTED] T0064C.289
    
    [GRAPHIC] [TIFF OMITTED] T0064C.290
    
    [GRAPHIC] [TIFF OMITTED] T0064C.291
    
    [GRAPHIC] [TIFF OMITTED] T0064C.292
    
    [GRAPHIC] [TIFF OMITTED] T0064C.293
    
    [GRAPHIC] [TIFF OMITTED] T0064C.294
    
    [GRAPHIC] [TIFF OMITTED] T0064C.295
    
    [GRAPHIC] [TIFF OMITTED] T0064C.296
    
    [GRAPHIC] [TIFF OMITTED] T0064C.297
    
    [GRAPHIC] [TIFF OMITTED] T0064C.298
    
    [GRAPHIC] [TIFF OMITTED] T0064C.299
    
    [GRAPHIC] [TIFF OMITTED] T0064C.300
    
    [GRAPHIC] [TIFF OMITTED] T0064C.301
    
    [GRAPHIC] [TIFF OMITTED] T0064C.302
    
    [GRAPHIC] [TIFF OMITTED] T0064C.303
    
    [GRAPHIC] [TIFF OMITTED] T0064C.304
    
    [GRAPHIC] [TIFF OMITTED] T0064C.305
    
    [GRAPHIC] [TIFF OMITTED] T0064C.306
    
    [GRAPHIC] [TIFF OMITTED] T0064C.307
    
    [GRAPHIC] [TIFF OMITTED] T0064C.308
    
    [GRAPHIC] [TIFF OMITTED] T0064C.309
    
    [GRAPHIC] [TIFF OMITTED] T0064C.310
    
    [GRAPHIC] [TIFF OMITTED] T0064C.311
    
    [GRAPHIC] [TIFF OMITTED] T0064C.312
    
    [GRAPHIC] [TIFF OMITTED] T0064C.313
    
    [GRAPHIC] [TIFF OMITTED] T0064C.314
    
    [GRAPHIC] [TIFF OMITTED] T0064C.315
    
    [GRAPHIC] [TIFF OMITTED] T0064C.316
    
    [GRAPHIC] [TIFF OMITTED] T0064C.317
    
    [GRAPHIC] [TIFF OMITTED] T0064C.318
    
    [GRAPHIC] [TIFF OMITTED] T0064C.319
    
    [GRAPHIC] [TIFF OMITTED] T0064C.320
    
    [GRAPHIC] [TIFF OMITTED] T0064C.321
    
    [GRAPHIC] [TIFF OMITTED] T0064C.322
    
    [GRAPHIC] [TIFF OMITTED] T0064C.323
    
    [GRAPHIC] [TIFF OMITTED] T0064C.324
    
    [GRAPHIC] [TIFF OMITTED] T0064C.325
    
    [GRAPHIC] [TIFF OMITTED] T0064C.326
    
    [GRAPHIC] [TIFF OMITTED] T0064C.327
    
    [GRAPHIC] [TIFF OMITTED] T0064C.328
    
    [GRAPHIC] [TIFF OMITTED] T0064C.329
    
    [GRAPHIC] [TIFF OMITTED] T0064C.331
    
    [GRAPHIC] [TIFF OMITTED] T0064C.332
    
    [GRAPHIC] [TIFF OMITTED] T0064C.333
    
    [GRAPHIC] [TIFF OMITTED] T0064C.334
    
    [GRAPHIC] [TIFF OMITTED] T0064C.335
    
    [GRAPHIC] [TIFF OMITTED] T0064C.336
    
    [GRAPHIC] [TIFF OMITTED] T0064C.337
    
    [GRAPHIC] [TIFF OMITTED] T0064C.338
    
    [GRAPHIC] [TIFF OMITTED] T0064C.339
    
    [GRAPHIC] [TIFF OMITTED] T0064C.340
    
    [GRAPHIC] [TIFF OMITTED] T0064C.341
    
    [GRAPHIC] [TIFF OMITTED] T0064C.342
    
    [GRAPHIC] [TIFF OMITTED] T0064C.343
    
    [GRAPHIC] [TIFF OMITTED] T0064C.344
    
    [GRAPHIC] [TIFF OMITTED] T0064C.345
    
    [GRAPHIC] [TIFF OMITTED] T0064C.346
    
    [GRAPHIC] [TIFF OMITTED] T0064C.347
    
    [GRAPHIC] [TIFF OMITTED] T0064C.348
    
    [GRAPHIC] [TIFF OMITTED] T0064C.349
    
    [GRAPHIC] [TIFF OMITTED] T0064C.350
    
    [GRAPHIC] [TIFF OMITTED] T0064C.351
    
    [GRAPHIC] [TIFF OMITTED] T0064C.352
    
    [GRAPHIC] [TIFF OMITTED] T0064C.353
    
    [GRAPHIC] [TIFF OMITTED] T0064C.354
    
    [GRAPHIC] [TIFF OMITTED] T0064C.355
    
    [GRAPHIC] [TIFF OMITTED] T0064C.356
    
    [GRAPHIC] [TIFF OMITTED] T0064C.357
    
    [GRAPHIC] [TIFF OMITTED] T0064C.358
    
    [GRAPHIC] [TIFF OMITTED] T0064C.359
    
    [GRAPHIC] [TIFF OMITTED] T0064C.360
    
    [GRAPHIC] [TIFF OMITTED] T0064C.361
    
    [GRAPHIC] [TIFF OMITTED] T0064C.362
    
    [GRAPHIC] [TIFF OMITTED] T0064C.363
    
    [GRAPHIC] [TIFF OMITTED] T0064C.364
    
    [GRAPHIC] [TIFF OMITTED] T0064C.365
    
    [GRAPHIC] [TIFF OMITTED] T0064C.366
    
    [GRAPHIC] [TIFF OMITTED] T0064C.367
    
    [GRAPHIC] [TIFF OMITTED] T0064C.368
    
    [GRAPHIC] [TIFF OMITTED] T0064C.369
    
    [GRAPHIC] [TIFF OMITTED] T0064C.370
    
    [GRAPHIC] [TIFF OMITTED] T0064C.371
    
    [GRAPHIC] [TIFF OMITTED] T0064C.372
    
    [GRAPHIC] [TIFF OMITTED] T0064C.373
    
    [GRAPHIC] [TIFF OMITTED] T0064C.374
    
    [GRAPHIC] [TIFF OMITTED] T0064C.375
    
    [GRAPHIC] [TIFF OMITTED] T0064C.376
    
    [GRAPHIC] [TIFF OMITTED] T0064C.377
    
    [GRAPHIC] [TIFF OMITTED] T0064C.378
    
    [GRAPHIC] [TIFF OMITTED] T0064C.379
    
    [GRAPHIC] [TIFF OMITTED] T0064C.380
    
    [GRAPHIC] [TIFF OMITTED] T0064C.381
    
    [GRAPHIC] [TIFF OMITTED] T0064C.382
    
    [GRAPHIC] [TIFF OMITTED] T0064C.383
    
    [GRAPHIC] [TIFF OMITTED] T0064C.384
    
    [GRAPHIC] [TIFF OMITTED] T0064C.385
    
    [GRAPHIC] [TIFF OMITTED] T0064C.386
    
    [GRAPHIC] [TIFF OMITTED] T0064C.387
    
    [GRAPHIC] [TIFF OMITTED] T0064C.388
    
    [GRAPHIC] [TIFF OMITTED] T0064C.389
    
    [GRAPHIC] [TIFF OMITTED] T0064C.390
    
    [GRAPHIC] [TIFF OMITTED] T0064C.391
    
    [GRAPHIC] [TIFF OMITTED] T0064C.392
    
    [GRAPHIC] [TIFF OMITTED] T0064C.393
    
    [GRAPHIC] [TIFF OMITTED] T0064C.394
    
    [GRAPHIC] [TIFF OMITTED] T0064C.395
    
    [GRAPHIC] [TIFF OMITTED] T0064C.396
    
    [GRAPHIC] [TIFF OMITTED] T0064C.397
    
    [GRAPHIC] [TIFF OMITTED] T0064C.398
    
    [GRAPHIC] [TIFF OMITTED] T0064C.399
    
    [GRAPHIC] [TIFF OMITTED] T0064C.400
    
    [GRAPHIC] [TIFF OMITTED] T0064C.401
    
    [GRAPHIC] [TIFF OMITTED] T0064C.402
    
    [GRAPHIC] [TIFF OMITTED] T0064C.403
    
    [GRAPHIC] [TIFF OMITTED] T0064C.404
    
    [GRAPHIC] [TIFF OMITTED] T0064C.405
    
    [GRAPHIC] [TIFF OMITTED] T0064C.406
    
    [GRAPHIC] [TIFF OMITTED] T0064C.407
    
    [GRAPHIC] [TIFF OMITTED] T0064C.408
    
    [GRAPHIC] [TIFF OMITTED] T0064C.409
    
    [GRAPHIC] [TIFF OMITTED] T0064C.410
    
    [GRAPHIC] [TIFF OMITTED] T0064C.411
    
    [GRAPHIC] [TIFF OMITTED] T0064C.412
    
    [GRAPHIC] [TIFF OMITTED] T0064C.413
    
    [GRAPHIC] [TIFF OMITTED] T0064C.414
    
    [GRAPHIC] [TIFF OMITTED] T0064C.415
    
    [GRAPHIC] [TIFF OMITTED] T0064C.416
    
    [GRAPHIC] [TIFF OMITTED] T0064C.417
    
    [GRAPHIC] [TIFF OMITTED] T0064C.418
    
    [GRAPHIC] [TIFF OMITTED] T0064C.419
    
    [GRAPHIC] [TIFF OMITTED] T0064C.420
    
    [GRAPHIC] [TIFF OMITTED] T0064C.421
    
    [GRAPHIC] [TIFF OMITTED] T0064C.422
    
    [GRAPHIC] [TIFF OMITTED] T0064C.423
    
    [GRAPHIC] [TIFF OMITTED] T0064C.424
    
    [GRAPHIC] [TIFF OMITTED] T0064C.425
    
    [GRAPHIC] [TIFF OMITTED] T0064C.426
    
    [GRAPHIC] [TIFF OMITTED] T0064C.427
    
    [GRAPHIC] [TIFF OMITTED] T0064C.428
    
    [GRAPHIC] [TIFF OMITTED] T0064C.429
    
    [GRAPHIC] [TIFF OMITTED] T0064C.430
    
    [GRAPHIC] [TIFF OMITTED] T0064C.431
    
    [GRAPHIC] [TIFF OMITTED] T0064C.432
    
    [GRAPHIC] [TIFF OMITTED] T0064C.433
    
    [GRAPHIC] [TIFF OMITTED] T0064C.434
    
    [GRAPHIC] [TIFF OMITTED] T0064C.435
    
    [GRAPHIC] [TIFF OMITTED] T0064C.436
    
    [GRAPHIC] [TIFF OMITTED] T0064C.437
    
    [GRAPHIC] [TIFF OMITTED] T0064C.438
    
    [GRAPHIC] [TIFF OMITTED] T0064C.439
    
    [GRAPHIC] [TIFF OMITTED] T0064C.440
    
    [GRAPHIC] [TIFF OMITTED] T0064C.441
    
    [GRAPHIC] [TIFF OMITTED] T0064C.442
    
    [GRAPHIC] [TIFF OMITTED] T0064C.443
    
    [GRAPHIC] [TIFF OMITTED] T0064C.444
    
    [GRAPHIC] [TIFF OMITTED] T0064C.445
    
    [GRAPHIC] [TIFF OMITTED] T0064C.446
    
    [GRAPHIC] [TIFF OMITTED] T0064C.447
    
    [GRAPHIC] [TIFF OMITTED] T0064C.448
    
    [GRAPHIC] [TIFF OMITTED] T0064C.449
    
    [GRAPHIC] [TIFF OMITTED] T0064C.450
    
    [GRAPHIC] [TIFF OMITTED] T0064C.451
    
    [GRAPHIC] [TIFF OMITTED] T0064C.452
    
    [GRAPHIC] [TIFF OMITTED] T0064C.453
    
    [GRAPHIC] [TIFF OMITTED] T0064C.454
    
    [GRAPHIC] [TIFF OMITTED] T0064C.455
    
    [GRAPHIC] [TIFF OMITTED] T0064C.456
    
    [GRAPHIC] [TIFF OMITTED] T0064C.457
    
    [GRAPHIC] [TIFF OMITTED] T0064C.458
    
    [GRAPHIC] [TIFF OMITTED] T0064C.459
    
    [GRAPHIC] [TIFF OMITTED] T0064C.460
    
    [GRAPHIC] [TIFF OMITTED] T0064C.461
    
    [GRAPHIC] [TIFF OMITTED] T0064C.462
    
    [GRAPHIC] [TIFF OMITTED] T0064C.463
    
    [GRAPHIC] [TIFF OMITTED] T0064C.464
    
    [GRAPHIC] [TIFF OMITTED] T0064C.465
    
    [GRAPHIC] [TIFF OMITTED] T0064C.466
    
    [GRAPHIC] [TIFF OMITTED] T0064C.467
    
    [GRAPHIC] [TIFF OMITTED] T0064C.468
    
    [GRAPHIC] [TIFF OMITTED] T0064C.469
    
    [GRAPHIC] [TIFF OMITTED] T0064C.470
    
    [GRAPHIC] [TIFF OMITTED] T0064C.471
    
    [GRAPHIC] [TIFF OMITTED] T0064C.472
    
    [GRAPHIC] [TIFF OMITTED] T0064C.473
    
    [GRAPHIC] [TIFF OMITTED] T0064C.474
    
    [GRAPHIC] [TIFF OMITTED] T0064C.475
    
    [GRAPHIC] [TIFF OMITTED] T0064C.476
    
    [GRAPHIC] [TIFF OMITTED] T0064C.477
    
    [GRAPHIC] [TIFF OMITTED] T0064C.478
    
    [GRAPHIC] [TIFF OMITTED] T0064C.479
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Adams, Jodie.....................................................   899
Ading, Jack......................................................   794
Adler, P. S......................................................   703
Alexander, Jay...................................................   990
Anderson, Michael..............................................472, 876
Arnold, Susan....................................................   725
Asetoyer, Charon.................................................   106
Barnett, J. A....................................................   755
Bartel, Dan......................................................   857
Baskin, Laurie...................................................   966
Beamer, Kelly....................................................   824
Bean, David......................................................   182
Bear, Robert.....................................................     2
Becker, S. W.....................................................   665
Beetham, M. B....................................................   777
Bell, F. W.......................................................   682
Benavides, Robert................................................   362
Bendick, R. L....................................................   804
Beskid, C. S.....................................................   872
Bies, L. M.......................................................   962
Bitsuie, Roman...................................................   379
Black Eagle, Cedric..............................................   123
Blueeyes, Faye...................................................   175
Blythe, Larry....................................................   137
Bradley, Lynne...................................................   703
Brigham, N. K....................................................   130
Brings Plenty, J. J., Sr.........................................   749
Brown, Molly.....................................................   654
Brown-Schwalenberg, Patty........................................   311
Byers, M. S......................................................   907
Byington, Pat....................................................   786
Caan, G. M.......................................................   764
Cagey, Henry.....................................................    16
Callahan, Kateri.................................................   410
Calvelli, J. F...................................................   996
Carlson, Ervin...................................................   845
Carr, J. P.......................................................   699
Cassidy, T. J., Jr...............................................   522
Chandler, Bill...................................................   552
Clark, Les.......................................................   857
Clendenning, Bruce...............................................   911
Colegrove, N. C., Sr.............................................   140
Coochise, Elbridge...............................................   272
Cooeyate, N. J...................................................   161
Cook, R. B.......................................................    94
Comely, John.....................................................   974
Corwin, Jeff.....................................................   429
Crouch, J. A.....................................................    37
Culbreath, Joy...................................................    50
D'Antonio, J. R., Jr.............................................   740
Daley, Jad.......................................................   820
Dangermond, Jack.................................................   796
Davies, R. K.....................................................   804
Davis, T. S......................................................   752
DeBerry, Drue....................................................   804
Diver, K. R......................................................   800
Doney, Julie.....................................................    30
Douce, Dr. G. K..................................................   804
Duncan, C. D.....................................................   870
Durkin, W. G.....................................................   488
Dustybull, Harold................................................   253
Edwards, Carl....................................................   168
Edwards, Conrad..................................................   117
Eisenberg, Jeff..................................................   929
Farrell, Jay.....................................................   804
Finkelman, L. G..................................................   899
Finley, John.....................................................   202
Focht, Associate Professor Will..................................   892
Forquera, Ralph..................................................   258
Frank, Billy, Jr.................................................   228
Franklin, R. K...................................................   189
Frey, Wilma......................................................   907
Front, Alan......................................................   457
Fuller, Gary.....................................................   940
Garcia, Martha...................................................    58
Gaudette, Gary...................................................   804
Gibson, Sandra...................................................   733
Gipp, D. M.......................................................   297
Girard, M. A.....................................................   804
Gishey, Ronald...................................................   831
Glasener, Karl...................................................   717
Goad, Claire.....................................................   829
Gough, George....................................................   857
Greene, T. J.....................................................   291
Grego, Dr. John..................................................   817
Gropp, Robert..................................................699, 981
Hain, Fred.......................................................   804
Hartman, Dan.....................................................   804
Hindsley, Hazel..................................................   947
Hirsche, Evan....................................................   958
His Horse Is Thunder, Ron........................................   950
Howard, Barbara..................................................   827
Hugelmeyer, Frank................................................   588
Hunter, Jon......................................................   790
Huta, Leda.......................................................   790
Imbergamo, Bill..................................................   422
James, Ted.......................................................   857
Jim, R. L........................................................   903
Johnson, M. P....................................................   940
Johnson, Marc....................................................   543
Joseph, Andy.....................................................    84
Jourdain, Floyd, Jr..............................................   936
Judd, Ashley.....................................................   436
Kelly, Meghan....................................................   336
Kennedy, C. A....................................................   150
Kessler, Joe.....................................................   985
Kiernan, T. C....................................................   501
Klenzendorf, Sybille.............................................   633
Koenings, Jeff...................................................    44
Kovarovics, Scott................................................   849
Lea, George....................................................610, 932
Leonard, George..................................................   479
Leutze, J. E.....................................................   618
Lewis, Dr. Nathan................................................   674
Lighthizer, Jim..................................................   465
Liss, Cathy......................................................   647
Lopeman, Dave....................................................   943
Lord, Chad.......................................................   835
Macswords, Leah..................................................   529
Maddy, Jim.......................................................   736
Mandoka, Homer...................................................   357
Marks, Patty.....................................................   240
Martin, Tom......................................................   495
McCarthy, J. J...................................................   804
Meyer, Shannon...................................................   781
Miller, G. A.....................................................   691
Miller, Gregory..................................................   579
Moore, Brian.....................................................   882
Murphy, C. B., Jr................................................   804
Myers, M. J......................................................   676
Nash, D. R.......................................................    99
Noble, Suzanne...................................................   857
Nolan, S. J......................................................   398
Norris, Ned, Jr..................................................   266
O'Connor, Martin.................................................   811
O'Neill, Gloria..................................................   343
Ozonoff, Martha..................................................   743
Payta, J. J......................................................    77
Pearson, Myra....................................................   195
Pearson, Myra....................................................   300
Penney, S. N.....................................................    22
Persad, A. B.....................................................   804
Phillips-Doyle, Richard..........................................   923
Pierpont, Ruth...................................................   886
Pigsley, Debris..................................................   350
Pope, Maddy......................................................   861
Raabe, Peter.....................................................   709
Regan, T. J......................................................   416
Reger, L. L......................................................   695
Riley, Steve.....................................................   890
Rodger, Donald...................................................   368
Roe, C. G........................................................   804
Roessel, Monty...................................................   318
Rom, W. N........................................................   404
Roman Nose, Quinton..............................................   304
Romanelli, Larry.................................................   329
Rosen, Jesse.....................................................   866
Roth, Geoffrey...................................................    70
Rowan, Linda.....................................................   687
Sakura, Dan......................................................   954
Salmon, Dutch....................................................   783
Schellenberg, Lyle...............................................   601
Schiffries, C. M.................................................   450
Schiffries, Craig................................................   981
Schroeder, Darin.................................................   559
Schuchat, Sam....................................................   745
Schurz, Myron....................................................   279
Schweitzer, Laura................................................   639
Scora, Marc......................................................   773
Sewak, Kristin...................................................   804
Seymour, Virgil..................................................   286
Sharp, Fawn......................................................     9
Shirley, Joe, Jr.................................................   208
Sivyer, D. B.....................................................   804
Skeeter, C. W....................................................   234
Skye, C. W.......................................................   978
Smith, Chad......................................................   215
Snyder, Andrea.................................................769, 925
Somers, J. M.....................................................   907
Sorenson-Groves, Desiree.........................................   514
Sparks, Lillian..................................................    91
Springer, Marie................................................595, 993
Stafne, A.T......................................................   807
Startzell, D. N..................................................   729
Stein, Bruce.....................................................   571
Stieglitz, W. O..................................................   988
Stone, John......................................................   222
Suppah, Ron......................................................   144
Sykes, Kristen...................................................   838
Szekely, Daniel..................................................   246
Taft, J. D.......................................................   390
Tinker, S. W.....................................................   684
Trandahl, Jeff...................................................   508
Trovato, E. R....................................................   442
Two Bulls, Theresa...............................................   243
Verdon, John.....................................................   658
Viramontes, Pablo................................................   155
Vradenburg, L. A.................................................   814
Walker, A. E...................................................678, 804
Watkins, Richard.................................................   817
Wentworth, E. P..................................................   695
Werner, Gary.....................................................   626
Whittington-Evans, Nicole........................................   565
Windle, P. N.....................................................   804
Winkler, Anita...................................................   915
Yamagata, Ben....................................................   759
Yaninek, Steve...................................................   804
Yanity, S. E.....................................................   324
Yu, Pauline......................................................   536
Yucupicio, Peter.................................................   919
Zorn, Jim........................................................    64

                                  <all>
</pre></body></html>
